APPENDIX

i

APPENDIX TABLE OF CONTENTS

Order Entered in Conjunction with the
Judgment Sought to be Reviewed
Appendix A:
Order of the United States Court of
Appeals for the Federal Circuit, Hyundai

Heavy Industries Co., Ltd. v. United
States, ABB Inc., 819 Fed. Appx. 937 (Sept.

8, 2020)................................................................. 1a

Relevant Opinions and Orders of the Court of
International Trade
Appendix B:
Opinion and Order of the United States
Court of International Trade, Hyundai

Heavy Industries Co., Ltd. v. United
States, ABB Inc., 399 F. Supp. 3d 1305

(Aug. 2, 2019) ....................................................... 3a
Opinion and Order of the United States
Court of Appeals for the Federal Circuit,

Hyundai Heavy Industries Co., Ltd. v.
United States, ABB Inc., 332 F. Supp. 3d

1331 (Aug. 14, 2018) .......................................... 23a

ii

Relevant Findings and Conclusions of the
Department of Commerce
Appendix C:

Large Power Transformers from the
Republic of Korea: Final Results of
Antidumping
Duty
Administrative
Review; 2014-2015, 82 Fed. Reg. 13432

(Mar. 13, 2017) .................................................. 64a

Issues and Decision Memorandum for the
Final Results of the Administrative Review
of the Antidumping Duty Order on Large
Power Transformers from the Republic of
Korea; 2014-2015 (Mar. 6, 2017) (relevant

excerpt) .............................................................. 76a

Large Power Transformers from the
Republic of Korea: Preliminary Results of
Antidumping
Duty
Administrative
Review; 2014-2015, 81 Fed. Reg. 60672

(Sept. 2, 2016) .................................................. 100a

Large Power Transformers from the
Republic of Korea: Final Results of
Antidumping
Duty
Administrative
Review; 2013-2014, 81 Fed. Reg. 14087

(Mar. 16, 2016) ................................................ 111a

iii

Issues and Decision Memorandum for the
Final Results of the Administrative Review
of the Antidumping Duty Order on Large
Power Transformers from the Republic of
Korea; 2013-2014 (Mar. 8, 2016) (relevant

excerpt) ............................................................ 124a

Large Power Transformers from the
Republic of Korea: Preliminary Results of
Antidumping
Duty
Administrative
Review; 2013-2014, 80 Fed. Reg. 53496

(Sept. 4, 2015) .................................................. 130a

Large Power Transformers from the
Republic of Korea: Final Results of
Antidumping
Duty
Administrative
Review; 2012-2013, 80 Fed. Reg. 17034

(Mar. 31, 2015) ................................................ 140a

Large Power Transformers From the
Republic of Korea: Final Determination of
Sales at Less Than Fair Value, 77 Fed.

Reg. 40857 (July 11, 2012) .............................. 153a

Issues and Decision Memorandum for the
Final Determination of the Antidumping
Duty Investigation of Large Power
Transformers from the Republic of Korea

(July 2, 2012) (relevant excerpt) ..................... 164a

Statutes and Regulations Involved in the Case
Appendix D
19 U.S.C. § 1516a.............................................. 173a

iv

19 U.S.C. § 1673................................................ 203a
19 U.S.C. § 1673a.............................................. 204a
19 U.S.C. § 1673b.............................................. 213a
19 U.S.C. § 1673c .............................................. 224a
19 U.S.C. § 1673d.............................................. 239a
19 U.S.C. § 1675................................................ 249a
19 U.S.C. § 1677................................................ 270a
19 U.S.C. § 1677a.............................................. 323a
19 U.S.C. § 1677b.............................................. 329a
19 U.S.C. § 1677e .............................................. 350a
19 U.S.C. § 1677f-1 ........................................... 355a
19 U.S.C. § 1677m ............................................ 361a
28 U.S.C. § 1254................................................ 368a
28 U.S.C. § 1295................................................ 369a
28 U.S.C. § 1581................................................ 373a
19 C.F.R. § 351.221 ........................................... 377a
19 C.F.R. § 351.301 ........................................... 383a

v

Other Materials
Appendix E: Relevant Administrative Record
Materials

Response of Hyundai Heavy Industries,
Co., Ltd. to Questions 13 and 17 of the
Third Supplemental Sections A, B, C, and
D Questionnaire (Nov. 10, 2016) (relevant

excerpt) ............................................................ 393a

Supplemental Questionnaire for Hyundai
Heavy Industries Co., Ltd., and Hyundai
Corporation
USA’s
Questionnaire
Responses (Oct. 7, 2016) (“PostPreliminary Questionnaire”) (relevant

excerpt) ............................................................ 415a

Large Power Transformers from South
Korea:
Response
to
the
Second
Supplemental Sections A, B, C and D
Questionnaire (Aug. 10, 2016) (relevant

excerpt) ............................................................ 416a

Supplemental Questionnaire for Hyundai
Heavy Industries Co., Ltd., and Hyundai
Corporation
USA’s
Questionnaire
Responses (July 27, 2016) (“Supplemental
Questionnaire”) (relevant excerpt) ................. 420a

vi

Third Administrative Review of Large
Power Transformers from Korea –
Deficiency Comments on Hyundai’s
Section B and C Questionnaire Response

(Feb. 10, 2016) (relevant excerpt) ................... 421a

Large Power Transformers from South
Korea: Response to Sections B and C
Questionnaires (Jan. 27, 2016) (relevant

excerpt) ............................................................ 428a

Request for Information – Antidumping
Duty Administrative Review – Hyundai
Heavy Industries Co., Ltd. (“HHI”); Korea
– Large Power Transformers (Dec. 3, 2015)
(“Initial Questionnaire”) (relevant excerpt)

.......................................................................... 432a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

Hyundai Heavy Industries Co., Ltd.

Plaintiff-Appellant,
v.
United States, ABB, Inc.,

Defendants-Appellees

2020-1005

Appeal from the United States Court of
International Trade in No. 1:17-cv-00054-MAB,
Judge Mark A. Barnett.

JUDGMENT

DAVID EDWARD BOND, White & Case LLP,
Washington, DC, argued for plaintiff-appellant.
Also represented by RON KENDLER.

2a
JOHN JACOB TODOR, Commercial Litigation
Branch, Civil Division, United States Department
of Justice, Washington, DC, argued for defendantappellee United States.
Also represented by
ETHAN P. DAVIS, JEANNE DAVIDSON, FRANKLIN E.
WHITE, JR.
ROBERT ALAN LUBERDA, Kelley Drye &
Warren, LLP, Washington, DC, argued for
defendant-appellee ABB, Inc. Also represented by
MELISSA M. BREWER, DAVID C. SMITH, JR.

THIS CAUSE having been heard and considered, it
is
ORDERED AND ADJUDGED:
PER CURIAM (REYNA, CLEVENGER, and
CHEN, Circuit Judges).
AFFIRMED. See Fed. Cir. R. 36
ENTERED BY ORDER OF THE COURT
September 8, 2020

Peter R. Marksteiner
Clerk of Court

3a
APPENDIX B
HYUNDAI HEAVY INDUSTRIES, CO. LTD.,
Plaintiff,
v.
UNITED STATES, Defendant,
and
ABB Inc., Defendant-Intervenor.
Slip Op. 19-104
Court No. 17-00054
Before: Mark A. Barnett, Judge
United States Court of International Trade.
Dated: August 2, 2019
_________
Ron Kendler, White & Case LLP, of
Washington, DC, argued for Plaintiff. With him
on the brief were David E. Bond and William J.
Moran.
John J. Todor, Senior Trial Counsel,
Commercial Litigation Branch, Civil Division,
U.S. Department of Justice, of Washington, DC,
argued for Defendant. With him on the brief were
Joseph H. Hunt, Acting Assistant Attorney
General, Jeanne E. Davidson, Director, and
Franklin E. White, Jr., Assistant Director. Of
counsel on the brief was David W. Richardson,
Senior Counsel, Office of the Chief Counsel for
Trade Enforcement and Compliance, U.S.
Department of Commerce, of Washington, DC.

4a
Melissa M. Brewer, Kelley Drye & Warren
LLP, of Washington, DC, argued for Defendant
Intervenor. With her on the brief were David C.
Smith and R. Alan Luberda.
OPINION
Barnett, Judge:
[Sustaining
the
U.S.
Department
of
Commerce’s redetermination upon remand in the
third administrative review of the antidumping
duty order on large power transformers from the
Republic of Korea.]
This matter comes before the court following
the U.S. Department of Commerce’s (“Commerce”
or “the agency”) redetermination upon remand in
this case. See Confidential Final Results of
Redetermination Pursuant to Court Remand
(“Remand Results”), ECF No. 65-1.1 Plaintiff,
The administrative record for this case is divided into a
Public Administrative Record (“PR”), ECF No. 17-4, a Public
Remand Record (“PRR”), ECF No. 68-1, a Confidential
Administrative Record (“CR”), ECF No. 17-5, and a
Confidential Remand Record (“CRR”), ECF No. 68-2. Parties
submitted joint appendices containing record documents
cited in their Rule 56.2 briefs. See Public J.A., ECF No. 44
(Vols. I-III); Confidential J.A. (“CJA”), ECF Nos. 40-1 (Vol.
I), 41-1 (Vol. II), 42-1 (Vol. III), 43-1 (Vol. IV), 45-1 (Vol. V),
46-1 (Vol. VI), 46-2 (Vol. VII). Parties also filed joint
appendices containing record documents cited in their
remand briefs. See Confidential Remand (“CRJA”), ECF
No. 84-1; Public Remand J.A., ECF No. 85-1; see also Public
Resp. to Court’s May 24, 2019 Order (May 28, 2019), ECF
No. 89; Confidential Resp. to Court’s May 24, 2019 Order
(May 28, 2019), ECF No. 88. References are to the
confidential versions of the relevant record documents,
1

5a
Hyundai Heavy Industries, Co., Ltd. (“HHI”)2
initiated this action contesting certain aspects of
Commerce’s
final
results
in
the
third
administrative review of the antidumping duty
order on large power transformers (“LPT”) from
the Republic of Korea for the period of review
August 1, 2014, through July 31, 2015. See
Compl., ECF No. 5; Large Power Transformers
From the Republic of Korea, 82 Fed. Reg. 13,432
(Mar. 13, 2017) (final results of antidumping duty
administrative review; 2014-2015), ECF No. 17-2,
and accompanying Issues and Decision Mem., A580-867 (Mar. 6, 2017) (“I&D Mem.”), ECF No. 173.
Specifically, HHI challenged Commerce’s
decision to assign HHI a final weighted-average
dumping margin of 60.81 percent based on the use
of total facts available with an adverse inference
(referred to as total “adverse facts available” or
total “AFA”). See generally Confidential Rule 56.2
Mot. for J. Upon the Agency R. on Behalf of Pl.
Hyundai Heavy Industries Co. Ltd. and Mem. of
P. & A. in Supp., ECF No. 26; I&D Mem. at 4-6.
Commerce based that decision on the following
findings: (1) HHI failed to report service- related
revenues separately from the gross unit price
despite repeated requests from Commerce; (2)
HHI failed to include the price of a subject “part”

unless stated otherwise.
Hyundai Electric & Energy Systems Co., Ltd. is the
successor-in-interest to HHI. Letter from David E. Bond,
Attorney, White & Case LLP, to the Court (Sept. 12, 2018),
ECF No. 59.

2

6a
in the price for certain home market sales despite
repeated opportunities to do so; (3) HHI failed to
report separately the prices and costs for LPT
accessories; and (4) HHI was systematically
selective in providing documents to Commerce
and reported data that contained discrepancies.
I&D Mem. at 17-28.
The court remanded this matter to the agency
for Commerce to reconsider or further explain its
decision to use total AFA because substantial
evidence did not support all of the bases
underlying that decision. Hyundai Heavy Indus.,
Co. v. United States (“HHI I”), 42 CIT ,
, 332
3
F. Supp. 3d 1331, 1350 (2018). In particular,
substantial evidence did not support Commerce’s
finding that HHI withheld requested information
with respect to accessories. Id. at 1346-48.
Moreover, Commerce failed to explain the basis
for its finding that HHI provided selective
documentation
and
data
that
contained
discrepancies; accordingly, this finding lacked
substantial evidence.4 Id. at 1348-49.
On remand, Commerce reconsidered its
finding that HHI misreported costs and prices for
accessories, its finding that HHI selectively
3 HHI I contains additional background in this case,
familiarity with which is presumed.

Substantial evidence supported Commerce’s findings that
HHI failed to report separately service-related revenues,
failed to report properly its home market sales inclusive of
the price of a particular within-scope part, and failed to act
to the best of its ability in providing this information. HHI
I, 332 F. Supp. 3d at 1340-43, 1345.
4

7a
reported information, and the legal and factual
basis for the use of total AFA. Remand Results at
1-2. Commerce determined that HHI had properly
reported accessories, consistent with the scope of
the antidumping duty order. Id. at 11, 19.
Commerce “clarif[ied]” that accessories are
“components attached to the active part of the
LPT
and
included
within
the
subject
merchandise.” Id. at 19. As such, the use of AFA
for HHI’s reporting of accessories was
unwarranted. Id. at 11. However, Commerce
continued to find that HHI selectively reported
certain sales information and provided unreliable
data. Id. at 12. Based on this finding and those
sustained by the court in HHI I, 332 F. Supp. 3d
at 1340-42, 1345, Commerce again determined
that total AFA was appropriate. See id. at 16, 25.
HHI supports Commerce’s redetermination
with respect to accessories but opposes the
Remand Results in all other respects. See Pl.’s
Comments in Supp. of the Final Results of
Redetermination Pursuant to Court Remand
(“HHI’s Supp. Cmts”), ECF No. 79; Confidential
Pl.’s Comments in Opp’n to the Final Results of
Redetermination Pursuant to Court Remand
(“HHI’s Opp’n Cmts”), ECF No. 72. Defendant,
United
States
(“the
Government”),
and
Defendant-Intervenor, ABB Inc. (“ABB”) support
the Remand Results in their entirety.5
See
While ABB does not challenge Commerce’s findings on
accessories, it avers that this issue is moot since it had no
bearing on the agency’s use of total AFA. Confidential Def.Int.’s Comments in Supp. of the Final Results of

5

8a
Confidential Def.’s Resp. to Comments on the
Dep’t of Commerce’s Remand Results (“Gov.’s
Supp. Cmts”), ECF No. 76; ABB’s Supp. Cmts.
The court heard oral argument on June 11, 2019.
Docket Entry, ECF No. 91. For the reasons that
follow, the court sustains the Remand Results.
JURISDICTION AND STANDARD OF REVIEW
The court has jurisdiction pursuant to §
516A(a)(2)(B)(iii) of the Tariff Act of 1930, as
amended, 19 U.S.C. § 1516a(a)(2)(B)(iii) (20126),
and 28 U.S.C. § 1581(c). The court will uphold an
agency determination that is supported by
substantial evidence and otherwise in accordance
with law. 19 U.S.C. § 1516a(b)(1)(B)(i). “The
results of a redetermination pursuant to court
remand are also reviewed for compliance with the
court’s remand order.” SolarWorld Ams., Inc. v.
United States, 41 CIT __, __, 273 F. Supp. 3d
1314, 1317 (2017) (citation and internal quotation
marks omitted).
DISCUSSION
I. Selective Reporting and Total AFA
a. Commerce’s Redetermination
On remand, Commerce continued to find that
HHI was selective in its reporting and provided
Redetermination Pursuant to Court Remand (“ABB’s Supp.
Cmts”) at 14-15, ECF No. 78. Accordingly, ABB contends,
the court need not rule on this issue. Id. at 15.
Citations to the Tariff Act of 1930, as amended, are to Title
19 of the U.S. Code, and references to the United States
Code are to the 2012 edition.

6

9a
data with various discrepancies. Remand Results
at 12-13. Commerce identified the following
documentation that HHI failed to provide: “(1)
accounting entries to record [HHI’s] U.S. sales
and payments; (2) U.S. commission documents for
certain U.S. sales; (3) test reports for all [U.S.
sales transactions (referred to as SEQUs)]; (4)
Korean trucking expense invoices for several U.S.
sales; and (5) [certain] . . . requests for quote[s] (or
“RFQs”), bids, and packing lists.” Id. at 13
(footnotes omitted). Additionally, Commerce
identified
inconsistencies
with
reported
transportation and brokerage expenses for certain
U.S. sales. Id.; see also id. at 21.
Commerce found that HHI “failed to cooperate
to the best of its ability in complying with
requests for information” because, “despite a
specific and comprehensive request for sales and
expense
documentation,
[HHI]
selectively
reported what it considered ‘necessary’ and
‘sufficient.’” Id. at 17. Commerce recognized that
respondents sometimes make mistakes in their
submissions, id. at 25, but attributed HHI’s
reporting
discrepancies
and
omission
of
documents to carelessness and inferred that HHI
either “was unduly delaying the [administrative
review] to its benefit by not submitting the
requested documentation or [] failed to put forth
the maximum effort to obtain these records,” id. at
21. Commerce further found that HHI’s failure to
report service-related revenues, failure to report
properly the price of a subject part, and selective
and unreliable reporting “render[ed] [HHI’s]
reporting as a whole [] unreliable”; accordingly,

10a
Commerce determined that the use of total AFA
was warranted. Id. at 16.
b. Parties’ Arguments
HHI argues that “substantial evidence
confirms the accuracy of HHI’s gross unit prices”
because
HHI
submitted
documents
that
“overwhelmingly supported its data.” HHI’s Opp’n
Cmts. at 3 (internal quotation marks and
capitalization omitted). HHI further argues that
Commerce treated HHI inconsistently with
Hyosung, the other mandatory respondent in this
review, because it requested more extensive
information from HHI.
See id. at 11-13.
Additionally, HHI challenges Commerce’s decision
to use an adverse inference with respect to the
missing documents, arguing that Commerce failed
to comply with 19 U.S.C. § 1677m(d) and
Commerce’s finding that HHI failed to cooperate
to the best of its ability is unsupported by
substantial evidence. Id. at 10, 15. HHI argues
that the three issues Commerce identified,
whether individually or in combination, do not
support the use of total AFA. Id. at 16.
The Government argues that Commerce
reasonably concluded that HHI failed to provide
complete sales documentation and had other
reporting discrepancies. Gov.’s Supp. Cmts at 512. The Government contends that the combined
effect of HHI’s reporting failures supports
Commerce’s use of total AFA. Id. at 15-18. ABB
agrees that substantial evidence supports
Commerce’s factual findings. See ABB’s Supp.
Cmts at 4-9. According to ABB, Commerce was

11a
justified in using total AFA based solely on the
two issues that the court upheld in HHI I and
HHI’s failure to provide the requested information
adds support for using total AFA. Id. at 3.
c. Analysis

i.

Missing documents; Commerce’s
section 1677m(d) obligation

Substantial evidence supports Commerce’s
finding that HHI failed to provide certain
requested documents.7 See Remand Results at
13, 21. Commerce asked HHI to supply, for all
U.S. sales, “clear documentation demonstrating
that payment was received . . . (including each
recording in [HHI’s] accounting system regarding
the sale and payment of the subject merchandise
for both HHI and Hyundai [Corporation] USA. .
.).“8 Suppl. Questionnaire (Oct. 7, 2016) (“Oct. 7,
2016 Suppl. Questionnaire”) at 5- 6, CR 346, PR
213, CRJA 3. Commerce found, and HHI does not
dispute, that HHI did not provide any internal
accounting screen prints to document any sales.
Remand Results at 13, 22; HHI’s Opp’n Cmts at 5,
14.

7 HHI admits that it failed to provide test reports,
accounting screen prints, and payment and commission
documentation for one sale. See HHI’s Opp’n Cmts at 5, 6,
14. As discussed herein, however, its reporting omissions
were not limited to this one sale.

Hyundai Corporation USA is HHI’s U.S. sales affiliate. See
Resp. of Hyundai Heavy Indus. Co., Ltd. to Section C of the
Questionnaire (Jan. 27, 2016) at C-1, CR 152-156, PR 91-94,
CJA Vol. I, Tab 9.
8

12a
With respect to commission documents,
Commerce requested “complete . . . expenses
documentation,” including “documents relating to
any commissions or other fees that may be paid”
for “all U.S. [sales].”
Oct. 7, 2016 Suppl.
Questionnaire at 5-6. Commerce determined that
HHI failed to provide documents supporting its
commission expenses for fourteen sales. See
Remand Results at 13 & n.61 (citations omitted).
While HHI admits that it did not provide
commission documents for one sale—claiming
that the omission was inadvertent—it argues that
it provided commission agreements for all other
U.S. sales for which it paid a commission. HHI’s
Opp’n Cmts at 6. HHI states that, on remand, it
provided to Commerce a “detailed chart tracking
the commission expenses reported . . . to the
documentation submitted in response to the
[October 7, 2016 supplemental questionnaire].” Id.
(citing Comments on the Draft Results of
Redetermination Pursuant to Court Remand
(Nov. 26, 2018) (“HHI’s Draft Cmts”), Ex. 1, CRR
3, PRR 7, CRJA 7). HHI’s chart demonstrates,
however, that, for seven of the sales, HHI
provided the commission agreement but omitted
any supporting documentation. See HHI’s Draft
Cmts, Ex. 1 (SEQUs 11, 15-18, 23-24); see also
Remand Results at 13 n.61 (citations omitted).
With respect to trucking invoices, HHI admits
that it did not provide the invoices in question but
avers that Commerce’s statement is misleading.
See HHI Supp. Cmts at 7. HHI explains that “it
did not receive trucking invoices showing
shipment-specific expenses for all” U.S. sales. Id.

13a
For sales for which it did receive an invoice, HHI
provided it. Id. For sales for which HHI did not
receive an invoice, it provided screen prints of its
internal accounting system.
Id. at 7-8. HHI
did not, however, provide any source documents
supporting the allocation of trucking expenses
shown in the screen prints. Commerce explained
that “[w]ithout complete documentation,” it
cannot “confirm the accuracy of [HHI’s] reported
data.” Remand Results at 13.
Commerce identified inconsistencies in HHI’s
reporting of transportation and brokerage
expenses as providing additional support for its
finding. Specifically, Commerce identified nine
sales—SEQUs 3, 5, 12-16, 21, and 22—as
containing such inconsistencies and referenced
ABB’s administrative case brief identifying the
inconsistencies. Remand Results at 13 & n.65
(citing, inter alia, Pet’r’s Case Br. Regarding
Hyundai Issues (Jan. 5, 2017) (“Pet’r’s Case Br.”),
Attach. 4, CR 463-65, PR 280-81, CRJA 6). HHI
does not identify contrary record evidence to call
into question Commerce’s acceptance of these
claims9 but argues that ABB’s statements were
wrong. See HHI’s Opp’n. Br. at 10-11.
9 HHI disputes ABB’s claims with respect to four of the nine
sales, contending that ABB’s statements were wrong and
HHI’s reporting was accurate. See HHI’s Opp’n Cmts at 1011. HHI’s arguments fail. For example, HHI “reported
wharfage and the untranslated item expenses inconsistently
in that [it] sometimes reported wharfage and untranslated
expenses listed on the invoices in ‘other U.S. transportation
expense’ and sometimes [it] did not.” Gov.’s Supp. Cmts. at
11 & n.2 (comparing SEQUs 14 and 22 with SEQUs 23 and

14a
HHI argues that the agency failed to give HHI
an opportunity to cure the deficiencies in its
submissions as required by 19 U.S.C. § 1677m(d).
HHI’s Opp’n Cmts at 15. However, Commerce’s
“request for all of the U.S. sales documentation
was a direct result of the deficiencies in Hyundai’s
original questionnaire responses.” Gov.’s Supp.
Cmts at 14-15; see also HHI I, 332 F. Supp. 3d at
1336-38, 1343-44 (noting that the Oct. 7, 2016
Suppl. Questionnaire was Commerce’s second
supplemental questionnaire aimed at addressing
Commerce’s concerns that HHI was misreporting
its gross unit prices for the U.S. and home
markets). In HHI I, the court considered whether
Commerce met its obligations pursuant to 19
U.S.C. § 1677m(d) to notify HHI of deficiencies in
its questionnaire responses and found that it did.
See HHI I, 332 F. Supp. 3d at 1341-42. Section
1677m(d) does not entitle HHI to endless
opportunities to cure deficiencies in its reporting.

24) (citing Resp. to Questions 13 and 17 of the Third Suppl.
Sections A, B, C and D Questionnaire (Nov. 10, 2016) (“Nov.
10, 2016 Suppl. Resp.”), Attach. 3S-35 at JA101303-04,
JA103113-19, JA103131-33, JA103145-4, CR 440-449, PR
241-250, CJA Vols. II-IV, CRJA 5). HHI also avers that
ABB’s administrative case brief “is not substantial evidence
upon which [Commerce] should have relied.” HHI’s Opp’n
Cmts at 10. While true, what Commerce did was accept
ABB’s arguments about the record evidence, and
identification of inconsistencies therein, including the record
citations in support of those arguments. See Pet’r’s Case
Br., Attach. 4.

15a

ii.

Commerce’s differential treatment
of HHI and Hyosung

HHI argues that Commerce treated HHI and
Hyosung inconsistently because it requested the
same information from both respondents but
penalized only HHI when both companies
provided incomplete responses. HHI’s Opp’n Cmts
at 11-13. The Government and ABB argue that
Commerce requested more information from HHI
because it considered HHI’s worksheets to be
unverifiable and unreliable. Gov.’s Supp. Cmts at
12; ABB’s Cmts at 9-10.
To the extent that Commerce treated HHI and
Hyosung differently, it was justified in so doing.
In response to this argument in the remand
proceeding, Commerce explained:
The
[c]ourt
has
already
affirmed
Commerce’s decision to not rely on [HHI’s]
worksheet information because it was
unreliable and unverifiable at a late stage
in the review. Because [HHI’s] worksheet
information was problematic, we asked for
additional sales documentation to aid us in
our analysis[.] We did not request
additional documentation from Hyosung
because we found its worksheets sufficient.
Remand Results at 21.10 As the court discussed in
HHI I, Commerce requested documentation to
10 The court discerns that the “worksheets” to which
Commerce was referring were those that HHI submitted
along with all the other documents in its November 10, 2016
response to the October 7, 2016 supplemental questionnaire.

16a
determine whether HHI was overstating U.S.
gross unit prices by misreporting service-related
revenues and understating home market prices by
misreporting home market sales of an LPT part.
332 F. Supp. 3d at 1338, 1342.
Commerce’s concerns were legitimate because
HHI failed to report separately service-related
revenues even though it had such revenues to
report and failed to report properly its home
market sales of the LPT part. Id. at 1340-42,
1345. It is sufficiently clear to the court that HHI
was differently situated than Hyosung, justifying
Commerce’s different supplemental information
requests.

iii.

Adverse inference and Total AFA

HHI argues that Commerce was not justified
in using an adverse inference and, even if it was,
that it was not justified in using total AFA. See
HHI’s Opp’n Cmts at 13-17. With respect to the
adverse inference, HHI argues that it provided
3,300 pages of documents, reflecting that HHI
“met or exceeded the level of participation that
could be expected from a ‘reasonable and
responsible’ respondent” under the circumstances.
Id. at 13-14. According to HHI, Commerce failed
to account for the difficult circumstances
Commerce
created
when
it
requested
documentation for all U.S. sales at a late stage in
the review (i.e., after the preliminary results). Id.
at 14-15. Moreover, HHI argues, there is no

See HHI I, 332 F. Supp. 3d at 1338.

17a
evidence that HHI was selective in its reporting.
Id. at 13-14. The court finds that the record
adequately supports Commerce’s decision to make
an adverse inference.
The mere production of a substantial volume of
documents does not, ipso facto, demonstrate that
a respondent acted to the best of its ability. The
inquiry is “whether a respondent has put forth its
maximum effort to provide Commerce with full
and complete answers to all inquiries in an
investigation.” Nippon Steel Corp. v. United
States, 337 F.3d 1373, 1382 (Fed. Cir. 2003). The
court has previously determined that HHI failed
to satisfy this standard when it reported servicerelated revenues and home market sales of an
LPT part. HHI I, 332 F. Supp. 3d at 1343, 1345.
The court now concludes that Commerce
reasonably determined that “despite a specific and
comprehensive request for sales and expense
documentation, [HHI] selectively reported what it
considered ‘necessary’ and ‘sufficient.’” Remand
Results at 17.
At a minimum, HHI’s failure to document its
accounting entries provides substantial evidence
for Commerce’s finding. There was no ambiguity
in Commerce’s request for “recording[s] in your
accounting system regarding the sale[s] and
payment[s] of the subject merchandise for both
HHI and Hyundai USA (for U.S. sales)).” Oct. 7,
2016 Suppl. Questionnaire at 6. Nevertheless,
HHI failed to provide those documents and failed
to explain why it was not providing the
documents. HHI now argues that the documents
it did provide were sufficient to substantiate the

18a
gross unit prices it reported, HHI’s Opp’n Cmts.
at 3,11 suggesting that HHI reported only
information that it deemed necessary and
sufficient. Moreover, HHI’s ability to provide
supporting documentation for some commission
expenses indicates that additional documents
existed but HHI failed to provide them. Under
these circumstances,12 “it is reasonable to
conclude that” HHI demonstrated “less than full
cooperation.” Nippon Steel Corp., 337 F.3d at
1382.

11 HHI avers that the “‘critical question . . . is whether’ a
respondent, through the submission of requested
documents, has ‘adequately substantiated the data’ that it
reports.” HHI’s Opp’n Cmts at 3 (quoting ABB Inc. v.
United States, 40 CIT__,__, 190 F. Supp. 3d 1159, 1168-69
(2016)). The quoted language from ABB Inc. related to
whether substantial evidence supported Commerce’s
conclusion that actual cost data, submitted during an
administrative review, was reliable when it differed from
estimated costs submitted during the investigation phase.
See 190 F. Supp. 3d at 1168-69. ABB Inc. does not stand for
the proposition that a respondent may selectively report the
information that it deems sufficient to substantiate its
reported data. It is Commerce, not the respondents, that
decides what information must be provided. See, e.g.,
POSCO v. United States, 42 CIT__, __, 296 F. Supp. 3d
1320, 1341 n.31 (2018).

With respect to the timing of Commerce’s request,
Commerce requested the documents when it did because of
deficiencies in HHI’s initial and supplemental questionnaire
responses. HHI did not request additional time to respond
to the supplemental questionnaire nor does HHI claim that
it could not comply with the request in a timely manner.
12

19a
Turning to HHI’s argument that Commerce
was not justified in using total AFA, HHI
contends that its failure to report properly
service-related revenues does not support the use
of total AFA because, in the preceding review,
Commerce determined that such a reporting
failure only justified the use of partial AFA.
HHI’s Opp’n Cmts at 16 (citing ABB Inc. v.
United States, 42 CIT__, __, 355 F. Supp. 3d 1206,
1215-16 (2018)). With respect to the reporting of
home market sales of an LPT part, HHI argues
that the reporting error “affects a single part for
four sales observations,” and is not enough to
render the entirety of the home market prices
unreliable.13
Id.
Regarding
the
missing
documents, HHI argues that the omissions were
“minor,” and “not pervasive.” Id. at 17 (internal
quotation marks omitted). The court concludes
that Commerce’s decision to use total AFA based
on its collective findings is supported by
substantial evidence and in accordance with law.
“In general, use of partial facts available is not
appropriate when the missing information is core
to the antidumping analysis and leaves little room
for the substitution of partial facts without undue
difficulty.” Mukand, Ltd. v. United States, 767
F.3d 1300 , 1308 (Fed. Cir. 2014). Commerce uses
“total AFA” when it concludes “that all of a party’s
reported information is unreliable or unusable
HHI claimed that this reporting issue concerned less than
five percent of sales, and its effect on gross unit price for
those sales was 0.89 to 2.69 percent. Oral Arg. 26:52- 27:17,
27:46-28:02 (reflecting time stamp from the recording).
13

20a
and that as a result of a party’s failure to
cooperate to the best of its ability, it must use an
adverse inference in selecting among the facts
otherwise available.” Deacero S.A.P.I. de C.V. v.
United States, 42 CIT , , 353 F. Supp. 3d 1303,
1305 n.2 (2018). The U.S. and home market
prices are central to the dumping calculation.
Commerce explained that the consequence of a
failure to report properly service-related revenues
and the price of a subject LPT part14 caused the
reported U.S. prices to be overstated and home
market prices to be understated. Remand Results
at 16. Commerce also explained that HHI’s
selective provision of sales documentation
undermined the reliability of its reporting of
Regarding the LPT part, HHI avers that the agency may
not “extrapolate from a single error, which may well have
been an isolated oversight, a conclusion that the entirety of
the respondent’s submissions concerning other classes of
subject merchandise are unreliable.” HHI’s Opp’n Cmts at
16 (quoting Fujian Mach. & Equip. Imp. & Exp. Corp. v.
United States, 27 CIT 1059, 1061, 276 F. Supp. 2d 1371,
1374 (2003)) (emphasis added). “On the other hand,”
however, “numerous ‘oversights’ would likely suggest a
‘pattern of unresponsiveness’ justifying not only the
application of facts available [], but of AFA.” Fujian, 276 F.
Supp. 2d at 1374 n.2 (citation omitted). Despite HHI’s effort
to disaggregate its reporting omissions and errors,
Commerce identified several such “oversights,” Remand
Results at 16, detracting from HHI’s argument.
Additionally, regarding the home market sales of the LPT
part, Commerce explained that its discovery of this
misreporting in sales for which it had requested full
documentation gave it reason to question the reliability of
the other home market sales for which Commerce did not
request full documentation. I&D Mem. at 25.
14

21a
expenses associated with U.S. sales.15 Id. at 16.
Commerce reasonably found that the reporting
failures “cut across and affect all of [HHI’s]
reported data” and, thus, prevented the agency
from relying on HHI’s reporting “because the
basic elements of a dumping calculation (i.e. the
reported gross prices of the [U.S.] and home
market) are deficient.” Id. at 26. The deficiencies
in HHI’s questionnaire responses were not limited
to discrete categories of information but included
service-related revenues, the LPT part, and sales
related documentation. These gaps were
sufficiently prevalent that Commerce reasonably
determined that the use of partial AFA was not
practicable.
II.

Accessories

HHI requests that the court affirm the
agency’s determination concerning accessories.
HHI’s Supp. Cmts at 1. ABB argues that the court
need not rule on this issue because Commerce’s
discussion of accessories is moot since it had no
bearing on the agency’s use of total AFA. ABB’s
Supp. Cmts at 15. The Government does not

HHI contends that it is unclear how its failure to provide
commission expense or transportation documents support
the use of total AFA because those expenses were reported
in fields separate from the gross unit prices. HHI’s Opp’n
Cmts at 7, 8. Commerce explained, however, that the
missing information was “important . . . to have [an]
accurate starting point from which to calculate [constructed
export price] and normal value, or, at a minimum, calculate
adjustments to those starting prices.” Remand Results at 22
(internal quotation marks omitted).
15

22a
express a view, simply requesting that the court
sustain the Remand Results.16 See Gov.’s Supp.
Cmts at 18. No party challenged the Remand
Results with respect to accessories by the deadline
for submission of comments in opposition to the
Remand Results, therefore, any such arguments
are waived. Upon review of the Remand Results,
Commerce properly reevaluated its treatment of
accessories; therefore, the Remand Results are
sustained with respect to the treatment of
accessories.
CONCLUSION
For the foregoing reasons, the court finds that
the Remand Results comply with the court’s
remand order, are supported by substantial
evidence and otherwise in accordance with law.
Judgment will enter accordingly.

In the underlying proceeding, Commerce responded to
ABB’s argument as follows:

16

Considering the [c]ourt’s finding that there is a need
for guidance on the term “accessories,” we further
examined the record. After analyzing the factual
information regarding “accessories” and assessing
[HHI’s] business practices regarding the term, we
find it necessary to clarify our treatment of
“accessories” in this case. For this reason, we
disagree with ABB that we should not include our
discussion of “accessories” and have included our
discussion.

Id. at 19.

23a
HYUNDAI HEAVY INDUSTRIES, CO. LTD.,
Plaintiff,
v.
UNITED STATES, Defendant,
and
ABB Inc., Defendant-Intervenor.
Slip Op. 18-101
Court No. 17-00054
Before: Mark A. Barnett, Judge
United States Court of International Trade.
Dated: August 14, 2018
_________
David E. Bond, White and Case LLP, of
Washington, DC, argued for Plaintiff. With him
on the brief were William J. Moran and Ron
Kendler.
John J. Todor, Senior Trial Counsel,
Commercial Litigation Branch, Civil Division,
U.S. Department of Justice, of Washington, DC,
argued for Defendant. With him on the brief were
Chad A. Readler, Acting Assistant Attorney
General, Jeanne E. Davidson, Director, and
Franklin E. White, Jr., Assistant Director. Of
counsel on the brief was Christopher Hyner,
Attorney, Office of the Chief Counsel for Trade
Enforcement and Compliance, U.S. Department of
Commerce.
of

R. Alan Luberda, Kelley Drye & Warren LLP,
Washington, DC, argued for Defendant-

24a
Intervenor. With him on the brief were David C.
Smith and Melissa M. Brewer.
OPINION
Barnett, Judge:
[Remanding
the
U.S.
Department
of
Commerce’s decision to use total facts available
with an adverse inference.]
Plaintiff, Hyundai Heavy Industries, Co., Ltd.
(“Plaintiff” or “HHI”) contests the final results of
the U.S. Department of Commerce (“Commerce”
or the “agency”) in the third administrative
review (“AR 3”) of the antidumping duty order
covering large power transformers (“LPTs”) from
the Republic of Korea for the period of review
August 1, 2014, through July 31, 2015. Large
Power Transformers from the Republic of Korea,
82 Fed. Reg. 13,432 (Mar. 13, 2017) (final results
of antidumping duty administrative review; 20142015) (“Final Results”), ECF No. 17-2, and
accompanying Issues and Decision Mem., A-580867 (Mar. 6, 2017) (“I&D Mem.”), ECF No. 17-3.1

The administrative record for this case is divided into a
Public Administrative Record (“PR”), ECF No. 17-4, and a
Confidential Administrative Record (“CR”), ECF No. 17-5.
Parties submitted joint appendices containing record
documents cited in their briefs. See Public J.A. (“PJA”),
ECF No. 44 (Vols. I-III); Confidential J.A. (“CJA”), ECF Nos.
40- 1 (Vol. I), 41-1 (Vol. II), 42-1 (Vol. III), 43-1 (Vol. IV), 451 (Vol. V), 46-1 (Vol. VI), 46-2 (Vol. VII). References are to
the confidential versions of the relevant record documents,
unless stated otherwise.
1

25a
BACKGROUND
Commerce initiated AR 3 on October 6, 2015.

Initiation of Antidumping and Countervailing
Duty Admin. Reviews, 80 Fed. Reg. 60,356, 60,358

(Dep’t Commerce Oct. 6, 2015), CJA Vol. I Tab 5,
PJA Vol. I Tab 5, PR 10, ECF No. 40-1. Commerce
selected HHI and Hyosung Corporation as
mandatory respondents. I&D Mem. at 3.
Commerce issued its initial questionnaire to HHI
on December 3, 2015. See Req. for Information –
Antidumping Admin. Review (Dec. 3, 2015)
(“Initial Questionnaire”), CJA Vol. I Tab 6, PJA
Vol. I Tab 6, PR 21, ECF No. 40-1.2 Commerce
published its preliminary results of review on
September 2, 2016. Large Power Transformers
from the Republic of Korea, 81 Fed. Reg. 60,672
(Dep’t Commerce Sept. 2, 2016) (prelim. results of
antidumping duty administrative review; 20142015)
(“Preliminary
Results”).
For
the
Preliminary Results, Commerce relied on HHI’s
submitted data and calculated a weighted-average
dumping margin of 3.09 percent for HHI. Id., 81
Fed. Reg. at 60,673.
Commerce published the Final Results on
March 13, 2017. Final Results, 82 Fed. Reg.
13,432. For the Final Results, Commerce assigned
to HHI a final weighted- average dumping margin

Commerce issued supplemental questionnaires to HHI
both before and after it published the preliminary results.
Further discussion of the supplemental questionnaires and
HHI’s responses to them is contained in the relevant section
of the analysis, infra.

2

26a
of 60.81 percent based on total facts available
with an adverse inference (referred to as total
adverse facts available). Id., 82 Fed. Reg. at
13,432. Commerce’s decision to rely on total
adverse facts available was based on four
findings: (1) HHI failed to report service-related
revenues separately from the gross unit price
despite repeated requests from Commerce, I&D
Mem. at 21-22; (2) HHI failed to include the price
of a subject “part” in the price for certain homemarket sales despite repeated opportunities to do
so, id. at 23-26; (3) HHI failed to report separately
the prices and costs for accessories, id. at 26-27;
and, (4) HHI was systematically selective in
providing various documents to Commerce and
Commerce determined there were discrepancies
in HHI’s reported data, id. at 27-28.
HHI now challenges Commerce’s decision to
rely on total adverse facts available and each of
the four rationales that the agency cited as
supporting that decision. The court must
determine
whether
Commerce’s
individual
findings are supported by substantial evidence
and whether the agency’s resort to total adverse
facts available is otherwise in accordance with
law.
JURISDICTION AND STANDARD OF REVIEW
The court has jurisdiction over this action
pursuant to 28 U.S.C. § 1581(c) and 19 §
1516a(a)(2)(A)(i)(I) and (a)(2)(B)(iii).3 The court
Citations to the Tariff Act of 1930, as amended, are to Title
19 of the U.S. Code, and references to the United States

3

27a
will uphold an agency determination that is
supported by substantial evidence and otherwise
in accordance with law.
19 U.S.C. §
1516a(b)(1)(B)(i).
LEGAL FRAMEWORK FOR ADVERSE FACTS
AVAILABLE
When “necessary information is not available
on the record,” or an interested party “withholds
information” requested by Commerce,” “fails to
provide” requested information by the submission
deadlines, “significantly impedes a proceeding,” or
provides information that cannot be verified
pursuant to 19 U.S.C. § 1677m(i), Commerce
“shall . . . use the facts otherwise available.” 19
U.S.C. § 1677e(a). Commerce’s authority to use
the facts otherwise available is subject to 19
U.S.C. § 1677m(d). Id. Pursuant to § 1677m(d), if
Commerce determines that a respondent has not
complied with a request for information, it must
promptly inform that respondent of the nature of
the deficiency and, to the extent practicable in
light of statutory deadlines, provide that

Code are to the 2012 edition. Citations to 19 U.S.C. § 1677e,
however, are to the United States Code 2016 edition, which
reflects amendments to § 1677e pursuant to the Trade
Preferences Extension Act (“TPEA”), Pub. L. No. 114–27, §
502, 129 Stat. 362, 383–84 (2015). The TPEA amendments
affect all antidumping determinations made on or after
August 6, 2015, and, therefore, apply to the instant
proceeding. See Dates of Application of Amendments to the
Antidumping and Countervailing Duty Laws Made by the
Trade Preferences Extension Act of 2015, 80 Fed. Reg.
46,793 (Dep't Commerce Aug. 6, 2015).

28a
respondent “an opportunity to remedy or explain
the deficiency.” Id. § 1677m(d).
Commerce may not disregard information that
is “necessary to the determination but does not
meet all the applicable requirements,” when:
(1) the information is submitted by the
deadline established for its submission,
(2) the information can be verified,
(3) the information is not so incomplete that it
cannot serve as a reliable basis for
reaching the applicable determination,
(4) the interested party has demonstrated
that it acted to the best of its ability in
providing the information . . ., and
(5) the information can be used without
undue difficulties.

Id. § 1677m(e).
If, however, Commerce determines that the
party “has failed to cooperate by not acting to the
best of its ability to comply with a request for
information,” it “may use an inference that is
adverse to the interests of that party in selecting
from among the facts otherwise available.” Id. §
1677e(b). “Compliance with the ‘best of its ability’
standard is determined by assessing whether a
respondent has put forth its maximum effort to
provide Commerce with full and complete answers
to all inquiries in an investigation.” Nippon Steel

29a

Corp. v. United States, 337 F.3d 1373, 1382 (Fed.
Cir. 2003).4

Commerce uses total adverse facts available
when “none of the reported data is reliable or
usable,” such as when all of the “submitted data
exhibit[s] pervasive and persistent deficiencies
that cut across all aspects of the data.” Zhejiang
DunAn Hetian Metal Co. v. United States, 652
F.3d 1333, 1348 (Fed. Cir. 2011) (citing Steel
Authority of India, Ltd. v. United States, 25 CIT
482, 487, 149 F. Supp. 2d 921, 928-29 (2001)).
DISCUSSION
I. Service-related revenue
a. Relevant Facts
In Sections B and C of the initial
questionnaire, Commerce instructed HHI to
“report revenue in separate fields (e.g., ocean
freight revenue, inland freight revenue, oil
revenue, installation, etc.) and identify the related
expense(s)
for
each
revenue.”
Initial
Questionnaire at JA100059. In response, HHI
stated:
[HHI] has reported, since the first
administrative review, separate revenue
and expenses whe[n] the customer issues a
separate purchase order for services that
Nippon Steel predates the amendments made to 19 U.S.C.
§ 1677e by the TPEA; however, the relevant statutory
language discussed in that case remains unchanged.
Compare 19 U.S.C. § 1677e(b)(2012), with 19 U.S.C. §
1677e(b)(1)(2016).
4

30a
are not part of the original term of sale . . .
[HHI] has reported the sales amount from
additional
purchase
orders
in
the
ADDPOPRU field and the associated
additional expenses under the separate
purchase order in the ADDPOEXPU field.
[HHI] did not receive additional purchase
orders for home-market sales during the
POR . . . .”
Resp. of Hyundai Heavy Industries Co., Ltd. to
Section B of the Questionnaire (Jan. 27, 2016)
(“HHI’s Sec. B Resp.”) at B-4, CJA Vol. I Tab 8,
CR 152-156, PJA Vol. I Tab 8, PR 91-94, ECF No.
40-1; see also Resp. of Hyundai Heavy Industries
Co., Ltd. to Section C of the Questionnaire (Jan.
27, 2016) (“HHI’s Sec. C Resp.”) at C-3, CJA Vol. I
Tab 9, CR 152-156, PJA Vol. I Tab 9, PR 91-94,
ECF No. 40-1 (cross-referencing its response to
Section B of the questionnaire). HHI explained
that its reporting methodology was based on
Commerce’s
“conclusion”
in
the
original
investigation:
[Commerce] found that [HHI] correctly had
reported its gross unit price and properly
did not separate, for example, freight
where
there
were
no
‘separate
arrangements on behalf of the customer’
and where [HHI] had not ‘sought
reimbursement for that cost.’ . . .
[Commerce] recognized that its practice is
to separate revenue and expenses ‘that are
not included in the term of sale.’

31a
HHI’s Sec. B Resp. at B-3 (citing Issues and
Decision Mem., A-580-867 (Jul. 11, 2012) (“Initial
Investigation I&D Mem.”) at Comment 4,
accompanying Large Power Transformers from
the Republic of Korea, 77 Fed. Reg. 40,857 (Dep’t
Commerce July 11, 2012) (final determination of
sales at less than fair value). HHI reasoned that
the prices of its services are not separable from
the price of the subject merchandise. See id. at B4 (“[W]he[n] it is required, installation and
supervision are not separable from the LPT
itself.”). HHI’s response asserted that Commerce
has distinguished “separately provided and
charged services from those within the terms of
sale” in prior proceedings. Id. at B-3 (citing Issues
and Decision Mem., A-100-001 (Aug. 31, 2009) at
Comment 12, accompanying Ball Bearings and

Parts Thereof From France, Germany, Italy,
Japan, and the United Kingdom, 74 Fed. Reg.
44,819 (Dep’t Commerce Aug. 31, 2009) (final
results of antidumping duty admin. reviews and
revocation of an order in part).

Following this initial response, Commerce
asked HHI to “clarify whether HHI or Hyundai
USA received revenue related to international
freight, inland freight, oil, installation, or any
other expenses on U.S. sales. If so, please report
this revenue in a field separate from the related
expense.” Suppl. Questionnaire for Hyundai
Heavy Industries Co., Ltd., and Hyundai Corp.
USA’s Questionnaire Resps. (July 27, 2016) (“July
27, 2016 Suppl. Questionnaire”) at 7, CJA Vol. I
Tab 13, CR 266, PJA Vol. I Tab 13, PR 169, ECF
No. 40-1. HHI responded in two parts. In the first

32a
part, HHI stated: “In accordance with
[Commerce’s] review and treatment of [HHI’s]
sales documentation in prior segments of this
proceeding, [HHI] did not receive separate
revenue related to international freight, inland
freight, oil, installation, or any other expenses on
home-market sales or U.S. sales.” See Resp. to the
Second Suppl. Sections A, B, C and D
Questionnaire (Aug. 10, 2016) (“HHI’s Aug. 10,
2016 Suppl. Resp.”), at 11, CJA Vol. I Tab 14, CR
299-313, PJA Vol. I Tab 14, PR 179-179, ECF No.
40-1. HHI further indicated that it reported its
service revenues in accordance with Commerce’s
conclusions in prior reviews. See id. at 11-12 (“In
those instances whe[n HHI] received a purchase
order for a separate service, [HHI] reported the
sales revenue and corresponding expenses
separately in accordance with [Commerce’s]
requirements[.]”).
In the second part of its response, HHI
included Attachment 2S-17, which Commerce
found to be relevant to HHI’s revenue reporting.
See Resp. to Questions 8, 16, 25, 26 and 28 of the
Second Suppl. Sections A, B, C and D
Questionnaire (Aug. 18, 2016) (“HHI’s Aug. 18,
2016 Suppl. Resp.”), Attach 2S-17, CJA Vol. I Tab
15, CR 300-313, PJA Vol. I Tab 15, PR 189-190,
ECF No. 40-1. Attachment 2S-17 included sales
documentation that contained separate service
line-items with a corresponding price, and those
price amounts were higher than the expenses that
HHI reported in its sales database. See I&D Mem.
at 20 & nn.105-106 (citing HHI’s Aug. 18, 2016
Suppl. Resp., Attach 2S-17; HHI’s Aug. 18, 2016

33a
Suppl. Resp., Attach 2S-26, CJA Vol. VI Tab 4, CR
299-315, PJA Vol. II Tab 4, PR 189-190, ECF No.
46-1).
Commerce
questionnaire

sent a second supplemental
to HHI after it issued the
Preliminary Results. See Suppl. Questionnaire for
Hyundai Heavy Industries Co., Ltd., and Hyundai
Corp. USA’s Questionnaire Resps. (Oct. 7, 2016)
(“Oct. 7, 2016 Suppl. Questionnaire”), CJA Vol. I
Tab 16, CR 346, PJA Vol. I Tab 16, PR 213, ECF
No. 40-1. Therein, Commerce cited ABB Inc.’s
(“ABB”) argument that HHI had received servicerelated revenue, and instructed HHI to report
such expenses and revenues:
“In its September 13, 2016 comments,
Petitioner asserts [that] HHI incurred
expenses and obtained revenues for
separately-negotiated services and nonsubject merchandise for [certain]5 sales. . . .
Please revise your U.S. sales database to
report all such expenses and revenues for
these sales in separate fields.”

Id. at 6. Commerce also stated: “If, in your

opinion, there were no additional expenses or
The sales were identified as U.S. sequence numbers
(“SEQUs”) 11 and 16. Oct. 7, 2016 Suppl. Questionnaire at
6. SEQU 11 concerned the issue of separately negotiated
services, whereas SEQU 16 concerned the issue of nonsubject merchandise. See Resp. to Questions 13 and 17 of
the Third Suppl. Sections A, B, C, and D Questionnaire
(Nov. 10, 2016) (“HHI’s Nov. 10, 2016 Suppl. Resp.”) at 7-8,
CJA Vol. II Tab 17, CR 440-449, PJA Vol. I Tab 17, PR 241250, ECF No. 41-1.

5

34a
revenues related to a sale, please comment on
each of the items cited by the Petitioner . . . .” Id.
at 6.
In its response, HHI addressed the particular
sales rather than revising the sales database. See
HHI’s Nov. 10, 2016 Suppl. Resp. at 7-8, 11-16.
Relevant to the service-related revenue issue,
HHI explained that although there were separate
line item values for certain services, those values
were “not severable from the lump-sum price.” Id.
at 7-8.6 HHI went on to state that,
notwithstanding its “demonstration [] that HHI
did not have any ‘separate’ revenues for separate
services or non-subject merchandise,” HHI was
providing “a worksheet listing on a category basis
the values listed anywhere in the sales
documentation for the breakdowns of the price of
the LPTs and the corresponding expenses.” Id. at
23; see also id., Attach. 3S-46 (the worksheet),
CJA Vol. IV Tab 17, PJA Vol. I Tab 17, ECF No.
43-1.
In its Final Results, Commerce determined
that HHI refused to provide information
requested in the initial and supplemental
questionnaires, and therefore, “impeded [the]
review by failing to act to the best of its ability by
failing to provide [Commerce] with the requested
information in a timely manner.” I&D Mem. at 22.
Commerce’s review of HHI’s sales documents
identified separate service line items with
corresponding prices, which were higher than
6

Transportation, offloading, and supervision. Id. at 7-8.

35a
HHI’s
corresponding
reported
expenses,
supporting Commerce’s concern that HHI could be
overstating gross unit prices. Id. at 20, 21.
Commerce concluded that, “HHI and its
customers separately assigned prices for the
related services and identified these amounts as
separate line items on invoices, separate from the
price of the subject merchandise.” Id. at 21.
Moreover, Commerce stated:
Although these services are required under
the terms of sale and are invoiced on a
lump-sum basis, as [HHI] argued, we find
that
[HHI’s]
sales
documentation
specifically indicates that these salesrelated services could be negotiable, apart
from subject merchandise, since each
service
is
shown/listed
with
the
corresponding amount in purchase orders
and/or invoices. In other words, if
customers do not like [HHI]’s price for a
certain service, they can procure/arrange
such service on their own without using
[HHI]’s service.

Id. at 21. Commerce questioned the reliability of

the worksheet provided by HHI, finding it
incomplete because it appeared to be missing
certain data fields for multiple U.S. sales, such as
the related expenses for its claimed revenues. Id.
According to Commerce, if HHI had “followed
[Commerce’s] request to report separately servicerelated revenues and the related expenses early
on . . . [the agency] would have had the time to
request additional necessary information (i.e., the
missing data) and verify other issues.” Id. at 22.

36a
Commerce also explained that it had “specifically
requested that [HHI] provide this information in
the instant review, because [HHI’s] sales
documentation identifies separate line items for
sales-related services.” Id. Those separate line
items demonstrated to the agency that the salesrelated services could be negotiable, thereby
distinguishing this review from prior segments of
this proceeding. See id.
b.

Parties’ Contentions

Plaintiff asserts that Commerce departed from
the practice it relied upon in previous segments of
the proceeding for determining whether separate
service-related revenue existed or should have
been reported. See Confidential Rule 56.2 Mot. for
J. Upon the Agency R. on Behalf of Pl. Hyundai
Heavy Industries Co. Ltd. and Mem. of P. & A. in
Supp. (“Pl.’s Br.”) at 24-26, ECF No. 26 (referring
to Commerce’s application of a “new test”).
Plaintiff contends that in so doing, Commerce
failed to provide Plaintiff sufficient notice of its
change in practice. See id. at 24, 29-31. Plaintiff
further contends that Commerce did not indicate
in the supplemental questionnaires that the
agency was changing its approach to servicerelated revenue or identify a deficiency in HHI’s
data. Confidential Am. Reply in Supp. of Pl.’s
Rule 56.2 Mot. for J. Upon the Agency R. (“Pl.’s
Reply”) at 6-7, ECF No. 38. HHI also argues that
the worksheet submitted with its third response
provided the information necessary to calculate a
dumping margin. See Pl.’s Br. at 31-33.

37a
United
States
(“Defendant”
or
the
“Government”)
defends
Commerce’s
determination on the grounds that “each
administrative review is a separate segment of
[the] proceeding[] with its own unique facts.”
Confidential Def.’s Resp. to Pl.’s Rule 56.2 Mot.
for J. Upon the Agency R. (“Def.’s Resp.”) at 16,
ECF No. 31 (quoting Shandong Huarong Mach.
Co. v. United States, 29 CIT 484, 491 (2005)).
According to the Government, Commerce based
its revenue-capping decision in each segment on
the record evidence presented in that individual
segment. See id. at 17. Thus, notwithstanding the
agency’s conclusions in prior administrative
segments, Commerce reasonably concluded, based
on evidence presented in AR 3, that HHI
separately negotiated the price for service-related
expenses. See id. at 18.
ABB argues that Commerce modified its
standard antidumping duty questionnaire at the
beginning of the review, instructing HHI to
separately report its service-related revenue.
Confidential Def.-Int.’s Resp. in Opp’n to Pl.’s
Mot. for J. on the Agency R. (“ABB’s Resp.”) at 67, ECF No. 29. ABB contends that Commerce’s
instruction in the supplemental questionnaire
“did not limit reporting of revenues in this review
regardless of what it may have done in the prior
segments.” Id. at 8. ABB characterizes Plaintiff’s
arguments concerning Commerce’s alleged use of
a new service-related revenue methodology as a
challenge to Commerce’s fact-finding authority.
See id. at 22 (“Contrary to HHI’s claim,
Commerce’s right to seek factual information

38a
during a proceeding does not constitute a ‘test’
from which the agency must justify a departure.”).
c.

Analysis

Antidumping analysis requires Commerce to
compare the export price or constructed export
price of the subject merchandise with the normal
value of the foreign like product. See 19 U.S.C. §
1677b(a); see also 19 C.F.R. § 351.401(a). Section
1677a(c)
provides
three
instances
when
Commerce shall increase the export price or
constructed export price, and § 1677b(a)(6)
provides six instances when Commerce shall
increase the normal value. See 19 U.S.C §§
1677a(c), 1677b(a)(6). There is no statutory basis
for increasing the export price, constructed export
price, or normal value when a service is
separately provided and the respondent earns a
profit on the provision of that service. See
Sucocitrico Cutrale Ltda. v. United States, Slip
Op. 12-71, 2012 WL 2317764, at 4 (CIT June 1,
2012) (“Commerce properly determined that it
was inappropriate to treat the [service charges] as
adjustments to the U.S. price under section
1677a(c)” when those charges were not
attributable to the subject merchandise.)
Likewise, there is no statutory language requiring
export price, constructed export price, or normal
value to be adjusted downward for any profit
made on the provision of a service when the
provision of that service is part of the transaction
for the sale of the subject merchandise. See 19
U.S.C §§ 1677a(c)-(d), 1677b(1)(6)-(7). Thus, the
issue, as framed by Commerce, is whether the
gross unit price, as reported by HHI, properly

39a
includes the provision of the services in question
or, as determined by Commerce, those services
were separately negotiable, regardless of whether
they were ultimately provided and charged in a
single, lump-sum invoice. See I&D Mem. at 21
(“[HHI’s]
sales
documentation
specifically
indicate[d] that these sales-related services could
be negotiable, apart from subject merchandise
since each service is shown/listed with the
corresponding amount in purchase orders and/or
invoices.”).
When Commerce finds that a service is
separately negotiable, its practice has been to cap
the service-related revenue by the associated
expenses when determining the U.S. price. Id. at
18 & n.88 (citations omitted). This court recently
acknowledged that Commerce’s revenue-capping
practice was previously examined by the court
and found to be reasonable. See ABB, Inc. v.
United States, 41 CIT
,
, 273 F. Supp. 3d
1200, 1208-09 (2017) (citing Dongguan Sunrise
Furniture Co., Ltd. v. United States, 36 CIT ,
, 865 F.Supp.2d 1216, 1248 (2012)).
Plaintiff does not challenge Commerce’s
capping practice, instead focusing its arguments
on the agency’s factual findings. See Pl.’s Br. at
25-31; Pl.’s Reply at 2-6.
Substantial evidence supports Commerce’s
finding that HHI had separate service-related
revenue to report, but failed to do so. See I&D
Mem. at 21. Although HHI did not issue separate
invoices for these services, the record shows that
“HHI and its customers separately assigned prices
for these services and identified these amounts as

40a
separate line items on invoices, separate from the
price of the [LPTs].” I&D Mem. at 21 & n.112
(citing HHI’s Nov. 10, 2016 Suppl. Resp., Attach.
3S-35);7 see also id. at 20 & n.105 (citing HHI’s
Aug. 18, 2016 Suppl. Resp., Attach. 2S-17); Pl.’s
Br. at 10 (asserting that “its sale documents
sometimes showed separate prices for services”)
(citations omitted).
Moreover, Commerce’s determination that
HHI withheld information requested by the
agency and significantly impeded the proceeding
is supported by substantial evidence. See I&D
Mem. at 4-5, 21-22.
Commerce’s initial
questionnaire instructed HHI to report servicerelated revenue in separate fields and to identify
the related expense for each type of revenue.
Initial Questionnaire at JA100059. HHI did not
report all separately identifiable revenues as
requested, instead reporting separate revenue
and expenses only for services when the customer
issued a separate purchase order because they
were not encompassed in the original terms of
sale. See HHI’s Sec. B Resp. at B-3; HHI’s Sec. C
Resp. at C-3. When Commerce requested Plaintiff
to clarify whether HHI or its U.S. affiliate
received revenue related to freight, oil,
installation, or other related expenses on U.S.
sales, and, if so, to report this revenue in a
separate field along with the related expense,
HHI again responded by providing its
Attachment 3S-35 spans CJA Vol. II Tab 17 at JA 100538,
ECF No. 41-1, to CJA Vol. IV Tab 17 at JA 103841, ECF No.
43-1.

7

41a
understanding of the terms “separate revenue.”
See July 27, 2016 Suppl. Questionnaire at 7;
HHI’s Aug. 10, 2016 Suppl. Resp. at 11-12. When
Commerce asked Plaintiff in the subsequent
supplemental questionnaire to revise its U.S.
sales database to report expenses and revenues in
separate fields, addressing ABB’s assertions of
separately-negotiated services, Plaintiff did not
revise its database but rather provided a
worksheet purporting to list a breakdown of “the
values
listed
anywhere
in
the
sales
documentation” and the corresponding expenses.
See Oct. 7, 2016 Suppl. Questionnaire at 6; HHI’s
Nov. 10, 2016 Suppl. Resp. at 23.
Thus, Commerce asked HHI on three separate
occasions to separately report service-related
revenue. Twice, HHI did not; and the third time,
HHI provided a worksheet which was not
responsive in the form or manner requested by
Commerce. “The focus of [19 U.S.C. 1677e](a) is
respondent’s failure to provide information. . . .
The mere failure of a respondent to furnish
requested information—for any reason— requires
Commerce to resort to other sources of
information to complete the factual record on
which it makes its determination.” Nippon Steel,
337 F.3d at 1381 (emphasis omitted).
The court must next consider whether
Commerce met its obligations, pursuant to 19
U.S.C. § 1677m(d), to notify HHI of deficiencies in
its questionnaire responses.
Plaintiff’s arguments that Commerce did not
provide HHI with sufficiently detailed notice of

42a
deficiencies in its reporting are not persuasive.
See Pl.’s Br. at 22-23, 32-33. HHI was informed
that its reporting of service-related revenue was
deficient because Commerce made multiple
requests for such information, including an
explicit request that HHI revise its sales database
to report “all expenses and revenues” in separate
fields.8 Intentional obtuseness on the part of
respondent does not obviate Commerce’s multiple
requests to HHI for the relevant information.
[6]
Substantial
evidence
also
supports
Commerce’s decision to apply an adverse
inference, which was otherwise in accordance
with law. Commerce “may use an inference that is
adverse to the interests of [a respondent] in
selecting from among the facts otherwise
available” when the respondent “fail[s] to
cooperate by not acting to the best of its ability to
comply with a request for information.” 19 U.S.C.
§ 1677e(b)(1)(A). A respondent fails to cooperate
by acting to the best of its ability to comply with a
request for information when it has not “put forth
While Commerce’s instruction included an alternative by
which HHI might explain why it chose not revise its
database, this alternative did not excuse HHI from the
reporting burden if Commerce did not accept the
explanation and the alternative did not exclude the risk
that Commerce would rely on facts available in the absence
of time to make another request for the information.
Plaintiff was required to prepare an “accurate and complete
record in response to questions plainly asked by Commerce.”
Tung Mung Dev. Co., Ltd. v. United States, 25 CIT 752,
788–89 (2001) (citing Olympic Adhesives, Inc. v. United
States, 899 F.2d 1565, 1571–72 (Fed. Cir. 1990)).
8

43a
its maximum effort to provide Commerce with full
and complete answers to all inquiries in an
investigation.” Nippon Steel, 337 F.3d at 1382.
As noted, Commerce made multiple requests
for HHI’s service-related revenue, and each time
HHI explained that its reporting relied on prior
segments of the proceeding rather than providing
the information specific to the current review
period as requested by Commerce. The fact that
the records of prior segments did not support a
conclusion that certain service-related revenues
were separately reportable does not excuse HHI
from the burden of again establishing, on the
record of this review, that such revenues were not
separately reportable. As evidenced by the
worksheet that HHI ultimately provided, HHI
had the ability to provide substantially more
information than it initially did, but withheld that
information until very late in the review.
HHI argues that its failure to comply with the
supplemental questionnaires was informed by,
and should be excused by, Commerce’s treatment
of its service-related revenues in the original
investigation and prior reviews of LPTs. See Pl.’s
Br. at 25-26 (citing Initial Investigation I&D
Mem. at 29; Issues and Decision Mem., A-580-867
(Mar. 8, 2016) (“AR 2 I&D Mem.”) at 39-40,
accompanying Large Power Transformers from
the Republic of Korea, 81 Fed. Reg. 14,087 (Dep’t
Commerce Mar. 16, 2016) (final results of
antidumping duty admin. review; 2013-2014).
HHI may not, however, rely on Commerce’s
factual conclusions from prior reviews in the
instant review because each review is separate

44a
and based on the record developed before the
agency in the review. See, e.g., Jiaxing Bro.
Fastener Co., Ltd. v. United States, 822 F.3d
1289, 1299 (Fed. Cir. 2014); Shandong Huarong
Mach. Co. v. United States, 29 CIT 484, 491,
(2005) (“[A]s Commerce points out, ‘each
administrative review is a separate segment of
[the] proceeding[] with its own unique facts.
Indeed, if the facts remained the same from
period to period, there would be no need for
administrative reviews.’”) (citation omitted).
In prior segments of the LPTs from Korea
proceeding, Commerce made clear that its
conclusions were based on the record of each
segment. See HHI’s Aug. 10, 2016 Suppl. Resp. at
11-13 (citing Initial Investigation I&D Mem.; AR
2 I&D Mem.). Tellingly, on three occasions, HHI
quoted language from the prior review and the
original investigation, indicating that Commerce’s
results were “[b]ased on the record of the current
review,” “based upon its review of record
evidence,” or based on what “the record . . .
suggest[ed].” Id. at 11-13. The burden to build the
record in each segment lies with the respondent.

See Ta Chen Stainless Steel Pipe, Inc. v. United
States, 298 F.3d 1330, 1336 (Fed. Cir. 2002) (“The
burden of production [belongs] to the party in
possession of the necessary information.”)
(quoting Zenith Elecs. Corp. v. United States, 988
F.2d 1573, 1583 (Fed. Cir. 1993) (alteration in
original).
Substantial evidence further supports a
finding that HHI’s worksheet failed to satisfy the
elements of 19 U.S.C. § 1677m(e). As already

45a
noted, HHI did not provide the worksheet
allegedly containing the service-related revenue
until after the Preliminary Results were issued.
See HHI’s Nov. 10, 2016 Suppl. Resp. at 23; see
also id., Attach. 3S-46 (the worksheet). At that
point, Commerce determined that it could not
verify the worksheet’s information and address
various other issues concerning the worksheet at
such a late stage of the review. See I&D Mem. at
22 & n.15 (citing Petitioner’s Case Br. (Jan. 5,
2017) at 20-22, CJA Vol. VI Tab 9, CR 463-65, PR
280- 281, ECF No. 46-1). Further, Commerce also
noted that the worksheet was “incomplete” in that
it was “missing information for multiple U.S.
sales,” casting “serious doubt on the reliability of
such information.” Id. at 21. These findings are
confirmed by the worksheet itself. See HHI’s Nov.
10, 2016 Suppl. Resp., Attach. 3S-46. Thus,
substantial evidence supports Commerce’s finding
that HHI failed to satisfy the elements of 19
U.S.C. § 1677m(e).
For the foregoing reasons, Commerce’s
findings that HHI had service-related revenues,
and that HHI failed to report service-related
revenues separately from the gross unit price
despite repeated requests from Commerce, are
supported by substantial evidence.
II. HHI’s Treatment of a Certain LPT “Part”
a.

Relevant Facts

The scope of the antidumping duty order
covers both complete and incomplete LPTs. In its
initial questionnaire, Commerce repeated the text
of the scope, including the definition of incomplete

46a
LPTs as “subassemblies consisting of the active
part and any other parts attached to, imported
with or invoiced with the active parts of LPTs.”
Initial Questionnaire at JA100062. Commerce
instructed Plaintiff to “report the price and cost
for ‘spare parts’ and ‘accessories’ to ensure that
product matches are based on accurate physical
characteristics of the LPTs.” See Resp. of HHI to
Section D of the Questionnaire (Feb. 5, 2016)
(“HHI’s Sec. D Resp.”) at D-2, CJA Vol. V Tab 22,
CR 163-69, PJA Vol. I Tab 22, PR 97, ECF No. 451. Commerce found that despite the agency’s
clear instructions, HHI failed to report correctly
its home-market price because it excluded a
certain part from the home-market gross unit
price, thereby understating normal value. See
I&D Mem. at 23-25.
In a supplemental questionnaire, Commerce
instructed HHI to provide complete sales
documentation
and
all
sales
related
documentation for two home-market sales.9 July
27, 2016 Suppl. Questionnaire at 5. The
documentation that Plaintiff submitted in
response indicated that HHI “incorrectly
identified a certain part required to assemble a
complete LPT as non-foreign like product.” I&D
Mem. at 24 & n.123 (citing HHI’s Aug. 18, 2016
Suppl. Resp. at 1-3 & Attach. 2S-17).10

Home market sequence numbers 84 and 91. July 27, 2016
Suppl. Questionnaire at 5.

9

10 HHI reported the local control panels for main
transformers (MT), stand-by auxiliary transformers (SAT),

47a
Commerce issued a second supplemental
questionnaire, requesting documents supporting
HHI’s sales negotiation process and all expenses
concerning these same home-market sales. Oct. 7,
2016 Suppl. Questionnaire at 5. Hyundai again
reported the same part as non-subject
merchandise. See Resp. to the Third Suppl.
Sections A, B, C, and D Questionnaire (Oct. 27,
2016), Attach. 3S-7 at JA 300104-JA 300106, CJA
Vol. VI Tab 7, CR 347-71, PJA Vol. II Tab 7, PR
225-27, ECF No. 46-1.
In December 2016, ABB raised the issue of
HHI’s failure to include the part in the homemarket gross unit price in comments to the
agency. See ABB’s Dec. 2, 2016 Cmts at 10-13. In
its response to these comments, HHI failed to
address this issue; instead, it waited to raise the
issue in its case brief. See Def.’s Resp. at 22; Pl.’s
Br. At 13. In its case brief, HHI then argued:
At this stage of this review, [HHI] is not
permitted to submit rebuttal information to
respond to ABB’s argument and is limited
to documents on record. With this
limitation, the record is ambiguous and
does not allow a definitive conclusion
regarding whether the items in question
are properly included in the gross unit
price.

and unit auxiliary transformers (UAT) as non-subject
merchandise. See HHI’s Aug. 18, 2016 Suppl. Resp., Attach.
2S-17 at JA100160, JA100165- JA100167 (referring to this
part as “NSM”).

48a
Pl.’s Br. at 13 (quoting HHI Admin. Case Br. (Jan.
5, 2017) at 21, CJA Vol. V Tab 19, CR 462, PJA
Vol I Tab 19, PR 279, ECF. No. 45-1). Hyundai
proffered a “revised price calculation worksheet”
that allegedly included the excluded part with
increased gross unit prices for the sales in
question. Pl.’s Br. at 13; HHI Admin. Case Br. at
21 & Ex. 2.
Commerce concluded that the excluded part
was “required to assemble a complete LPT,” and
that Hyundai had incorrectly labeled the part as
non-subject merchandise in its first and second
supplemental questionnaire responses.
I&D
Mem. at 25. The agency noted while HHI
excluded the part from the gross unit prices for
the home market sales, it included the same part
in the gross unit prices for the U.S. sales,
rendering the two prices incomparable. Id.
Because this issue impacted the vast majority of
home market sales for which the agency had
examined full documentation, Commerce found
that the improper reporting called into question
all of the home market sales reporting and, thus,
found all of HHI’s home market prices unreliable.
Id. at 26.
b.

Parties’ Contentions

At the outset, Plaintiff does not specifically
challenge Commerce’s factual finding that that
the excluded part was subject merchandise and
Plaintiff failed to correctly report it as such. See
Pl.’s Br. at 34-35. Instead, Plaintiff argues that
the sales documentation and revised calculation it
provided to the agency as part of its

49a
administrative case brief contained all the
information necessary to calculate home market
prices for the LPTs, inclusive of the part. See Pl.’s
Br. at 34.11 Plaintiff avers that “[Commerce] had
no grounds to use [facts available]” under these
circumstances. Pl.’s Br. at 34.
Defendant argues that HHI’s failure to include
the particular part in its home- market gross unit
price “undermined Commerce’s ability to analyze
[HHI]’s information” and “Commerce reasonably
determined that Hyundai failed to act to the best
of its ability to provide necessary requested
information.” Def.’s Resp. at 19-20. ABB argues
that HHI is attempting to shift the recordbuilding burden to Commerce by “claiming that
this issue did not arise until late in the proceeding
such that HHI was deprived of the chance to
remedy its misreporting,” when the burden to
build the record is on the respondent. ABB’s
Resp. at 36-37.
c.

Analysis

Commerce’s finding that HHI’s failure to
report properly its home market sales, inclusive of
the price of within-scope parts, warrants the use
of adverse facts available is supported by
substantial evidence.

11 The sales documentation included product price and
detail for the part in question.

See HHI’s Aug. 18, 2016 Suppl. Resp., Attach 2S-17 at
JA100164-JA100168.

50a
First, as noted, Plaintiff does not directly
challenge Commerce’s factual finding that
Plaintiff withheld information, such as the proper
reporting of the part in question. Second,
Commerce identified the problem with HHI’s
reporting while in the process of reviewing
Plaintiff’s response to the second supplemental
questionnaire, I&D Mem. at 24, and HHI
acknowledged that this issue was identified at “a
very late stage of the review process,” id. Plaintiff
does not argue that Commerce should have
provided it an opportunity to remedy its defect,
but argues that Commence should have utilized
the revised calculation worksheet that HHI
submitted in its administrative case brief. See
Pl.’s Br. at 34. Alternatively, Plaintiff argues that
Commerce had the necessary documentation to
calculate the prices inclusive of the part. Id. This
argument requires the court to assess whether
substantial evidence supports a finding that HHI
failed to satisfy the elements of 19 U.S.C. §
1677m(e) regarding the use of certain
information.
Commerce declined to rely on the revised
calculated worksheet because it “did not have
time to confirm or verify the validity of these
revisions.” I&D Mem. at 25 (discussing in detail
the agency’s concerns with HHI’s reporting and
providing specific examples of why it questioned
the reliability of HHI’s reported home market
prices). As discussed above, § 1677m(e) precludes
Commerce from disregarding information that is
“necessary to the determination” when five
criteria are satisfied. 19 U.S.C. § 1677m(e).

51a
Having articulated its reasons for why it could not
verify the accuracy of this data, 19 U.S.C. §
1677m(e) did not preclude Commerce from
disregarding this data.
Finally, the court must assess whether
Commerce’s analysis of HHI’s misreporting of this
part supports its determination to draw an
adverse inference pursuant to 19 U.S.C. §
1677e(b). ” ‘Compliance with the ‘best of its
ability standard . . . requires that importers . . .
have familiarity with all of the records . . . [in
their] possession, custody, or control,” and that
they “conduct prompt, careful, and comprehensive
investigations of all relevant records that refer or
relate to the imports in question to the full extent
of the importers’ ability to do so.” Nippon Steel
Corp., 337 F.3d at 1382. Here, the court cannot
find fault with the agency’s conclusion that this
issue supports the use of an adverse inference.
Record
evidence
indicates
that
Plaintiff
understood it was required to report the gross
unit price to reflect any parts necessary to
assemble an incomplete LPT. As Commerce noted,
the same part that Plaintiff reported as nonsubject merchandise in its home-market sales
database was also sold in the United States and
properly reported as subject merchandise in the
U.S. sales database. See I&D Mem. at 25 & n.134
(citing HHI’s Nov. 10, 2016 Suppl. Resp., Attach.
3S-35). At no point in its briefing to the court,
including in its reply brief after Defendant and
Defendant-Intervenor raised this issue, did
Plaintiff
acknowledge
or
address
this
contradictory treatment of the part in question.

52a

See Def.’s Resp. at 24; ABB’s Resp. at 36. On this

record, it is clear that HHI failed to act to the best
of its ability in properly reporting sales of this
part.
III. Accessories
a.

Relevant Facts

As previously noted, Commerce instructed
HHI to “separately report the price and cost for
‘spare parts’ and ‘accessories’ to ensure that
product matches are based on accurate physical
characteristics of the LPTs.” HHI’s Sec. D Resp.
at D-2. Commerce, however, did not define what
it meant by “accessories.” See id. In its response,
HHI reported the price and cost for “spare parts,”
that is, “parts that are not needed to assemble an
incomplete [LPT,] and noted that “there is no
definition of what constitutes ‘accessories.’” Id.
HHI further stated that components attached to
the active part of the LPT are defined as included
within the subject merchandise; therefore, it
reported the price and cost of those components
inclusive with the LPT. Id. at D-2—D- 3.
Commerce sent a supplemental questionnaire
requesting HHI to “confirm that [its] productspecific costs do not include the costs for spare
parts
and
accessories
(i.e.,
non-subject
merchandise).” See Resp. to the Third Suppl.
Sections A, B, C, and D Questionnaire (Oct. 27,
2016) (“HHI’s Oct. 27, 2016 Suppl. Resp.”) at 22,
CJA Vol. V Tab 24, CR 349-67, PR 225-27, ECF
No. 45-1. In its response, HHI “confirm[ed] that
the product-specific costs reported in the cost
database do not include costs for non- subject

53a
merchandise.” Id. In the Final Results, Commerce
concluded that “[HHI] withheld necessary
information that was specifically requested” with
respect to “accessories.” I&D Mem. at 27. It
reasoned that if HHI “had questions related to the
definition of ‘accessories,’ it could have contacted
the [agency] to request clarification.” Id.
Moreover, it found that record evidence, to wit,
sales documentation, contradicted HHI’s assertion
that it was unaware of the definition of
accessories
“because
sales
documentation
provided by [HHI] indicates that the industry
uses such term and that term is referred to in
certain documents provided by [HHI].” Id. at 27 &
n.139 (citing HHI’s Nov. 10, 2016 Resp., Attach.
3S-35).
b.

Parties’ Contentions

Plaintiff
argues
that
Commerce
was
responsible for defining “accessories,” Pl.’s Br. at
38, and states that the documents referenced by
the agency did not consistently treat particular
products as “accessories,” which “demonstrates
[HHI’s] quandary and why [Commerce] needed to
define ‘accessories,’” Pl.’s Reply at 17. Plaintiff
also argues that the agency failed to comply with
19 U.S.C. § 1677m(d); that is, to notify HHI of the
deficiency and provide it an opportunity to cure
the deficiency. See Pl.’s Reply at 15-16. Defendant
and ABB argue that Commerce did not have the
burden to define “accessories” because the burden
to build the record is on the respondent; HHI did
not request clarification regarding the definition
of “accessories”; and HHI knew the definition of
“accessories” because its sales documentation uses

54a
the term. See Def.’s Resp. at 27; ABB’s Resp. at
40.
c.

Analysis

Commerce’s conclusion that “[HHI] withheld
necessary information that was specifically
requested” with respect to “accessories[,]” I&D
Mem. at 27, is unsupported by substantial
evidence. Commerce asserted that it instructed
HHI to separately report accessories, and HHI
failed to do so. See I&D Mem. at 26-27; see also
Def.’s Resp. at 26-27. However, Commerce did not
find that any of HHI’s components should have
been reported as accessories. See I&D Mem. at 2627. Plaintiff asserted that “all of its ‘accessories’
are in the scope by definition, and, thus properly
included in subject merchandise[.]” Id. at 26.
Commerce made no finding that Plaintiff’s
assertion was incorrect. Id. at 26-27. Rather, it
appears that the agency faulted HHI simply for
asserting that it was unaware of how Commerce
defined accessories (because Commerce never
provided guidance on this definition), rather than
for failure to correctly report accessories.
Specifically, Commerce stated:
[R]ecord evidence contradicts [HHI’s]
assertion that [HHI] has been unaware of
the definition of accessories. Specifically, at
minimum, [HHI] is aware of what
constitutes an accessory, because sales
documentation provided by [HHI] indicates
that the industry uses such term and that
term is referred to in certain documents
provided by [HHI].

55a

Id. at 27 & n.139 (citing HHI’s Nov. 10, 2016

Suppl. Resp., Attach. 3S-35). Commerce never
made a factual finding that any “accessories”
referenced in such sales documentation were nonsubject merchandise that should have been
separately reported as accessories. Id. at 26-27.
HHI addressed its concerns regarding a lack of
definition for accessories in written submissions
before and after Commerce issued the
questionnaires requesting this data. See Resp. to
Petitioner’s
Comments
on
Antidumping
Questionnaires (Nov. 20, 2015) at 3-4, CJA Vol. V,
Tab 21, PJA Vol. V Tab 21, PR 19, ECF No. 45-1;
Rebuttal Br. of Hyundai Heavy Industries Co.,
Ltd. (Jan. 11, 2017) at 66, CJA Vol. V, Tab 25, CR
469, PJA Vol. I Tab 25, PR 288, ECF No. 45-1
(arguing that “[b]y definition, [accessories] are
subject merchandise and properly included in the
transformer”
and
that
“ABB
has
not
demonstrated that any of the “accessories” of
which it complains is not attached to, has a
function in, or is integral to the transformer”).
Additionally, documentation on record shows that
there has not been consistent identification of
“accessories,” which supports the need for
guidance on the term’s meaning. See Pl.’s Reply
at 17.12 Without guidance from Commerce
12 Compare HHI’s Nov. 10, 2016 Suppl. Resp., Attach. 3S-35
at JA100587-92, CJA Vol. II Tab 17, ECF No. 41-1 (listing
“Transformer Monitoring,” “On-line Dissolved Gas &
Moisture Monitor,” “Magnetic Liquid-Level Indicators,”
“Pressure-Relief Devices,” “Rate- of-Rise Fault Pressure
Relay,” “Bladder Integrity Relay,” “Dial-Type Top-Oil
Thermometer,” “Dial-Type Winding Thermometer,” and

56a
regarding the definition of “accessories,” HHI’s
interpretation of the term as excluding
transformer parts that physically attach to an
LPT was reasonable and otherwise appears to
comport with the scope of the order and with
Commerce’s
instructions.
See
Initial
Questionnaire at JA100062 (defining the scope of
subject merchandise as “consisting of the active
part and any other parts attached to, imported
with or invoiced with the active parts of LPTs”);
HHI’s Oct. 27, 2016 Suppl. Resp. at 22 (“[C]onfirm
that your product-specific costs do not include the
costs for spare parts and accessories (i.e., nonsubject merchandise).”).
ABB argues that “Commerce was not in a
position to define accessories as the term applies
to HHI's sales without HHI providing information
on how that term was used [with its customers]”
and that “it was incumbent on HHI in the first
instance to notify Commerce of its commercial
practice regarding the treatment of accessories.”
ABB’s Resp. at 40 (first alteration in original).
However, Commerce did not communicate to HHI
that its commercial literature should be the basis
“Transformer Nameplate” as “accessories”), with id. at JA
101002-09 (listing “Fault Gas Analyzer,” “LAN Ethernet
Switch,” “Fiber Optic Temperature Monitoring/Control &
Sensors,” “Top Oil/Winding Temperature Instrument,”
“Thermometers,” “Fan And Oil Pump Motors,” “Oil Level
Sight Glass,” “Buchholz Relay,” “Fault Pressure Relay,”
“Seal-In Relay,” “Rupture Disk Assembly Failure Relay,”
“Auxiliary Relays,” “Alarm Contacts,” “Tap-Changer
Operator,” “Identification Plates,” and “Valves” as
“accessories”).

57a
of the “accessories” definition. The only guidance
Commerce provided to HHI regarding the
definition was in the scope of the order and when
Commerce compared “accessories” to non-subject
merchandise in the second supplemental
questionnaire. “If Commerce is to take an action
adverse to a party for an alleged failure to comply
with an information request, it must fulfill its own
responsibility to communicate its intent in that
request.” Prosperity Tieh Enter. Co. v. United
States, 42 CIT
, 284 F. Supp. 3d 1364, 1381
(2018).
For the foregoing reasons, Commerce’s
conclusion that “[HHI] withheld necessary
information that was specifically requested” with
respect to “accessories” is unsupported by
substantial evidence.
IV. Selective Reporting and Other Discrepancies
a.

Relevant Facts

In October 2016, Commerce instructed
Hyundai to “provide complete sales and expenses
documentation (including all sales and expenses
related documentation generated in the sales
process) for all U.S. [sales].” Oct. 7, 2016 Suppl.
Questionnaire at 5 (emphasis omitted). Hyundai
responded by providing, inter alia, an attachment
comprised of over 3,300 pages of sales
information. See HHI’s Nov. 10, 2016 Suppl.
Resp., Attach. 3S-35; supra note 7
In the Final Results, Commerce determined
that HHI selectively reported information in
response to Commerce’s October 2016 request,

58a
and that there were other discrepancies with this
submission that further supported use of adverse
facts available. See I&D Mem. at 27-28.
Commerce found that HHI impeded the review
and frustrated the agency’s ability to “satisfy
[itself] that the data provided are accurate and
reliable.” I&D Mem. at 27. As an example of
HHI’s selective reporting, Commerce stated it was
missing invoices for certain expenses despite its
instruction to HHI “to submit all related
documents.” I&D Mem. at 28. Commerce also
identified discrepancies in freight and marine
insurance values reported to U.S. Customs and
Border Protection and to Commerce, brokerage
expense issues, and an incorrect allocation of
installation costs. See I&D Mem. at 28.
b.

Parties’ Contentions

Plaintiff
argues
that
Commerce’s
determination lacks specific explanation to
support its findings that HHI selectively reported
information and that there were discrepancies in
the information that HHI provided. See Pl.’s Br.
at 39-40. Plaintiff also asserts that Commerce’s
“request for all U.S. sales and expense documents
late in the case was procedurally unfair” because
it “denied [HHI] an opportunity to clarify data by
prohibiting the submission of new facts.” Id. at 4041. Defendant contends that HHI failed to
cooperate to the best of its ability because it did
not comply with Commerce’s request for complete
sales and expense documentation, namely, by
failing to provide invoices. See Def.’s Resp. at 3031. Defendant further contends that HHI could
not rely on Commerce’s acceptance of information

59a
in the Preliminary Results when Commerce
requested additional supporting information after
the Preliminary Results. Id. at 31. ABB avers
that Commerce did identify specific deficiencies in
the Final Results, and Commerce’s findings are
supported by substantial evidence. See ABB’s
Resp. at 42-43 (citing I&D Mem. at 27-28).
According to ABB, HHI’s selective reporting and
discrepancies in its data amounts to “willful
behavior that does not meet the ‘maximum effort’
standard set in Nippon Steel.” Id. at 43 (citing
Nippon Steel, 337 F.3d at 1382).
c.

Analysis

Commerce’s determination that Hyundai
impeded the review by selectively reporting
incomplete and unreliable documentation to
Commerce is unsupported by substantial
evidence. “Substantial evidence is ‘such relevant
evidence as a reasonable mind might accept as
Huaiyin
adequate to support a conclusion.’”
Foreign Trade Corp. v. United States, 322 F.3d
1369, 1374 (Fed. Cir. 2003) (quoting Consol.
Edison Co. v. NLRB, 305 U.S. 197, 229, 59 S.Ct.
206, 83 L.Ed. 126 (1938)). To be supported by
substantial evidence, Commerce must explain the
basis for its decisions sufficiently to make its
decisions reasonably discernable to a reviewing
court. NMB Singapore Ltd. v. United States, 557
F3d. 1316, 1319 (Fed. Cir. 2009) (citing NSK Ltd.
v. United States, 481 F.3d 1355, 1359 (Fed. Cir.
2007)).
Commerce’s discussion of HHI’s selective
reporting and data discrepancies lacks record

60a
citations supporting the agency’s findings. See
I&D Mem. at 27-28 & nn.140-41 (citing only the
Oct. 7, 2016 Suppl. Questionnaire at 5-6).
Commerce’s discussion consists of conclusory
statements regarding HHI’s 3,300 pages of sales
documentation, without any examples or citations
to support those statements. See id. at 27-28. As a
result, the court cannot reasonably discern how
HHI impeded the review because the court cannot
determine which transactions were missing
supporting documentation, and which particular
information Commerce determined was missing
when it concluded that HHI’s submission was
deficient.
For example, Commerce found that Hyundai
“did not provide invoices for many expenses.” Id.
at 28. The only record evidence that the agency
cited as support is Commerce’s supplemental
questionnaire dated October 7, 2016. See id. at 2728 nn.140-41 (citing Oct. 7, 2016 Suppl.
Questionnaire at 5-6). The questionnaire does not
indicate that HHI failed to provide any invoices
because it does not include HHI’s responses or
identify particular transactions that were not
supported by invoices. Commerce also found
“other discrepancies on the record” for which it
provided no citations to the record or detailed
discussion. See id. at 28. The Government cites
generally to the extensive attachment and does
not explain how the agency determined that the
attachment indicates which invoices were missing
or otherwise demonstrates discrepancies in HHI’s
data. See Def.’s Resp. at 30 (citing HHI’s Nov. 10,
2016 Suppl. Resp., Attach. 3S-35).

61a
ABB cites its own administrative case brief as
record evidence supporting the agency’s findings.
ABB’s Resp. at 42 & nn. 11-12 (citations omitted).
However, the Issues and Decision Memorandum
does not indicate that Commerce relied on ABB’s
administrative case brief to determine that there
was missing documentation or that Commerce
agreed with the discrepancies alleged therein. See
I&D Mem. at 27-28 & nn.140-41. The court may
not conclude that Commerce based its findings on
ABB’s administrative case brief when Commerce
made no indication of such in the Issues and
Decisions Memorandum. “Commerce must explain
the basis for its decisions; while its explanations
do not have to be perfect, the path of Commerce's
decision must be reasonably discernable to a
reviewing court.” NMB Singapore Ltd., 557 F.3d
at 1319.
Commerce’s
Issues
and
Decision
Memorandum, by itself, does not constitute
substantial evidence. In the absence of
substantial evidence, this conclusion must be
remanded. See Bowman Transp., Inc. v. Ark.–
Best Freight System, Inc., 419 U.S. 281, 285-86
(1974) (“The agency must articulate a rational
connection between the facts found and the choice
made.”) (internal quotation marks and citation
omitted).
CONCLUSION
As previously noted, Commerce based its
decision to use total facts available with an
adverse inference on four findings: (1) HHI failed
to report separately service- related revenues

62a
despite repeated requests from Commerce; (2)
HHI failed to include the price of a subject part in
the gross unit price of certain home-market sales;
(3) HHI failed to report separately the price and
costs of accessories; and (4) HHI selectively
provided (and withheld) sales documents, and
there were discrepancies in the reporting. The
court has found that two of the four bases for
resorting to total adverse facts available were
unsupported by substantial evidence; therefore,
the court will remand this matter to the agency so
that Commerce may reconsider or further explain
its decision to use total facts available with an
adverse inference.13
In accordance with the foregoing, it is hereby
ORDERED that Commerce’s Final Results are
remanded to Commerce so that it may reconsider
or further explain its use of total facts available
with an adverse inference consistent with this
Opinion;
ORDERED that Commerce shall file its
remand results on or before November 13, 2018;
and it is further
At Oral Argument, Defendant and Defendant-Intervenor
both suggested that any one or two of the bases cited by
Commerce was sufficient to support the agency’s decision to
rely on total adverse facts available in the Final Results.
See Oral Arg. Tr. at 15-20, ECF No. 51. While the court
finds that two of the four bases are supported by substantial
evidence, the court is unable to affirm the agency’s resort to
total adverse facts available because the agency made clear
that its determination was based on its view of the record
“taken as [a] whole.” I&D Memo. at 17.
13

63a
ORDERED that subsequent proceedings shall
be governed by USCIT Rule 56.2(h); and it is
further
ORDERED that any comments or responsive
comments must not exceed 5,000 words.

64a
APPENDIX C

Large Power Transformers from the Republic of
Korea: Final Results of Antidumping Duty
Administrative Review; 2014-2015, 82 Fed. Reg.
13432 (Mar. 13, 2017)

DEPARTMENT OF COMMERCE
International Trade Administration
[A-580-867]
Large Power Transformers From the Republic of
Korea: Final
Results of Antidumping Duty
Administrative Review; 2014-2015
AGENCY:
Enforcement
and
Compliance,
International Trade Administration, Department
of Commerce.
SUMMARY: On September 2, 2016, the
Department of Commerce (the
Department)
published in the Federal Register the preliminary
results of the third administrative review of the
antidumping duty order on large power
transformers from the Republic of Korea. The
review covers five producers/exporters of the
subject merchandise, Hyosung Corporation
(Hyosung), Hyundai Heavy Industries Co., Ltd.
(Hyundai), Iljin, Iljin Electric Co., Ltd. (Iljin
Electric), and LSIS Co., Ltd. (LSIS). Iljin, Iljin
Electric and LSIS, were not selected for
individual examination. The period of review is
August 1, 2014, through July 31, 2015. As a
result of our analysis of the comments and
information received, these final results differ
from the preliminary results of review. For the

65a
final weighted-average dumping margins, see the
“Final Results of Review” section below.
DATES: Effective Date: March 13, 2017.
FOR FURTHER INFORMATION CONTACT:
John Drury (Hyosung) or Moses Song (Hyundai),
AD/CVD Operations, Office VI, Enforcement and
Compliance, International Trade Administration,
U.S. Department of Commerce, 1401 Constitution
Avenue NW., Washington, DC 20230; telephone:
(202) 482-0195 or (202) 482-5041, respectively.
SUPPLEMENTARY INFORMATION:
Background
On September 2, 2016, the Department
published the Preliminary Results. 1 A summary
of the events that occurred since the Department
published these results, as well as a full
discussion of the issues raised by parties for this
final determination, may be found in the Issues
and Decision Memorandum, which is hereby
adopted by this notice. 2
See Large Power Transformers from the Republic of
Korea: Preliminary Results of Antidumping Duty
Administrative Review; 2014-2015, 81 FR 60672
1

(September 2, 2016) (Preliminary Results).

2 See Memorandum to Ronald K. Lorentzen, Acting
Assistant Secretary for Enforcement and Compliance, from
Gary Taverman, Associate Deputy Assistant Secretary for
Antidumping and Countervailing Duty Operations, entitled
“Issues and Decision Memorandum for the Final Results of
the Administrative Review of the Antidumping Duty Order
on Large Power Transformers from the Republic of Korea;
2014-2015”, dated concurrently with this notice (Issues and

66a
Scope of the Order
The scope of this order covers large liquid
dielectric power transformers (LPTs) having a top
power handling capacity greater than or equal to
60,000 kilovolt amperes (60 megavolt amperes),
whether assembled or unassembled, complete or
incomplete. The merchandise subject to the order
is currently classified in the Harmonized Tariff
Schedule of the United States at subheadings
8504.23.0040, 8504.23.0080, and 8504.90.9540.
For a complete description of the scope of the
order, see Appendix I.
Analysis of Comments Received
All issues raised in the case and rebuttal briefs
by parties to this administrative review are
addressed
in
the
Issues
and
Decision
Memorandum. A list of the issues raised by
parties is attached to this notice as Appendix II.
The Issues and Decision Memorandum is a public
document and is on file electronically via
Enforcement and Compliance's Antidumping and
Countervailing Duty Centralized Electronic
Service System (ACCESS). ACCESS is available
to registered users at https://access.trade.gov and
it is available to all parties in the Central Records
Unit, Room B8024 of the main Department of
Commerce building. In addition, a complete
version of the Issues and Decision Memorandum
can
be
accessed
directly
at
http://enforcement.trade.gov/frn/index.html. The

Decision Memorandum).

67a
signed and electronic versions of the Issues and
Decision Memorandum are identical in content.
Changes Since the Preliminary Results
Based on our review of the record and
comments received from interested parties, we
made certain changes to the margin calculations
for Hyosung and Hyundai. For Hyosung, the
Department has relied on partial facts available
under section 776(a)(1) of the Act with respect to
adjustments to the cost of manufacturing and
U.S. gross unit price for certain sales. In addition,
the Department has relied on partial adverse
facts available under sections 776(a) and (b) of the
Act with respect to ocean freight expenses for
certain sales made by Hyosung. Furthermore,
pursuant to section 776(a) and (b) of the Act, the
Department has relied upon total facts otherwise
available, with adverse inferences, for Hyundai's
dumping margin. For a discussion of these
changes, see the “Margin Calculations” section of
the Issues and Decision Memorandum. As a result
of these changes, the weighted-average dumping
margin also changes for the three companies not
selected for individual examination.
Final Results of the Review
The final weighted-average dumping margins
are as follows:

68a

Manufacturer/exporter

Hyosung Corporation………….

Weightedaverage
dumping
margin
(percent)
2.99

Hyundai Heavy Industries Co.,
Ltd………………………………..

60.81

Iljin Electric Co., Ltd……………

2.99

Iljin………………………………..

2.99

LSIS Co., Ltd…………………….

2.99

Disclosure
We will disclose the calculations performed to
parties in this proceeding within five days of the
date of publication of this notice, in accordance
with 19 CFR 351.224(b).
Duty Assessment
The Department shall determine and U.S.
Customs and Border Protection (CBP) shall assess
antidumping duties on all appropriate entries. 3
For any individually examined respondents whose
weighted-average dumping margin is above de
minimis, we calculated importer-specific ad
In these final results, the Department applied the
assessment
rate
calculation
method
adopted
in
3

Antidumping Proceedings: Calculation of the WeightedAverage Dumping Margin and Assessment Rate in Certain
Antidumping Proceedings: Final Modification, 77 FR 8101
(February 14, 2012).

69a

valorem duty assessment rates based on the ratio

of the total amount of dumping calculated for the
importer's examined sales to the total entered
value of those same sales in accordance with 19
CFR 351.212(b)(1). Upon issuance of the final
results of this administrative review, if any
importer-specific assessment rates calculated in
the final results are above de minimis (i.e., at or
above 0.5 percent), the Department will issue
instructions directly to CBP to
assess
antidumping duties on appropriate entries.
To determine whether the duty assessment
rates covering the period were de minimis, in
accordance with the requirement set forth in 19
CFR 351.106(c)(2), for each respondent we
calculated importer (or customer)-specific ad
valorem rates by aggregating the amount of
dumping calculated for all U.S. sales to that
importer or customer and dividing this amount by
the total entered value of the sales to that
importer (or customer). Where an importer (or
customer)-specific ad valorem rate is greater than
de minimis, and the respondent has reported
reliable entered values, we will apply the
assessment rate to the entered value of the
importer's/customer's entries during the review
period.
We intend to issue assessment instructions
directly to CBP 15 days after publication of the
final results of this review.
Cash Deposit Requirements
The following cash deposit requirements will
be effective upon publication of this notice for all

70a
shipments of subject merchandise entered, or
withdrawn from warehouse, for consumption on
or after the publication of these final results, as
provided by section 751(a)(2) of the Act: (1) The
cash deposit rate for respondents noted above will
be the rate established in the final results of this
administrative review; (2) for merchandise
exported by manufacturers or exporters not
covered in this administrative review but covered
in a prior segment of the proceeding, the cash
deposit rate will continue to be the company
specific rate published for the most recently
completed segment of this proceeding; (3) if the
exporter is not a firm covered in this review, a
prior review, or the original investigation, but the
manufacturer is, the cash deposit rate will be the
rate established for the most recently completed
segment of this proceeding for the manufacturer
of the subject merchandise; and (4) the cash
deposit rate for all other manufacturers or
exporters will continue to be 22.00 percent, the
all-others rate established in the antidumping
investigation. 4 These cash deposit requirements,
when imposed, shall remain in effect until further
notice.
Notification
to
Importers
Reimbursement of Duties

Regarding

the

This notice also serves as a final reminder to
importers of their responsibility under 19 CFR
See Large Power Transformers from the Republic of
Korea: Antidumping Duty Order, 77 FR 53177 (August 31,

4

2012).

71a
351.402(f) to file a certificate regarding the
reimbursement
of
antidumping
and/or
countervailing duties prior to liquidation of the
relevant entries during the period of review.
Failure to comply with this requirement could
result in the Department's presumption that
reimbursement
of
antidumping
and/or
countervailing duties did occur and the
subsequent assessment of doubled antidumping
duties.
Administrative Protective Order
This notice also serves as a reminder to parties
subject to administrative protective orders (APO)
of their responsibility concerning the return or
destruction of proprietary information disclosed
under APO in accordance with 19 CFR
351.305(a)(3), which continues to govern business
proprietary information in this segment of the
proceeding. Timely written notification of the
return/destruction
of
APO
materials,
or
conversion to judicial protective order, is hereby
requested. Failure to comply with the regulations
and the terms of an APO is a sanctionable
violation.
We are issuing and publishing this notice in
accordance with sections 751(a)(1) and 777(i)(1) of
the Act and 19 CFR 351.213(h).
Dated: March 6, 2017.
Ronald K. Lorentzen,

Acting Assistant Secretary for Enforcement and
Compliance.

72a
Appendix I--Scope of the Order
The scope of this order covers LPTs having a
top power handling capacity greater than or equal
to 60,000 kilovolt amperes (60 megavolt amperes),
whether assembled or unassembled, complete or
incomplete.
Incomplete LPTs are subassemblies consisting
of the active part and any other parts attached to,
imported with or invoiced with the active parts of
LPTs. The “active part” of the transformer
consists of one or more of the following when
attached to or otherwise assembled with one
another: The steel core or shell, the windings,
electrical insulation between the windings, the
mechanical frame for an LPT.
The product definition encompasses all such
LPTs regardless of name designation, including
but not limited to step-up transformers, stepdown
transformers,
autotransformers,
interconnection transformers, voltage regulator
transformers, rectifier transformers, and power
rectifier transformers.
The LPTs subject to this order are currently
classifiable under subheadings 8504.23.0040,
8504.23.0080
and
8504.90.9540
of
the
Harmonized Tariff Schedule of the United States
(HTSUS). Although the HTSUS subheadings are
provided for convenience and customs purposes,
the written description of the scope of this order is
dispositive.

73a
Appendix II--List of Topics Discussed in the Final
Issues and Decision Memorandum
I. Summary
II. List of Issues
III. Background
IV. Scope of the Order
V. Margin Calculation
VI. Application of Total Facts Available with
Regard to Hyundai
VII. Selection of Adverse Facts Available (AFA)
Rate
VIII. Rate for Unexamined Respondents
IX. Discussion of the Issues
A. Hyundai-Specific Issues
Comment 1: Application of Total Adverse Facts
Available
Comment 2: Corrections
Liquidation Instructions

to

the

Draft

Comment 3: Moot Arguments
B. Hyosung-Specific Issues
Comment 4: The Department's Application of
Expense Revenue Caps
Comment 5: Should the Department Continue
to Apply Expense Revenue Caps, It Should
Correct Hyosung's U.S. Inland Freight Cap
Comment 6: The Department Should Grant
Hyosung a Commission Offset

74a
Comment 7: The Department Should Correct
Certain Clerical Errors in its Preliminary Results
Comment 8: The Department Should Not
Conduct a Differential Pricing Analysis in the
Final Results
Comment 9: Hyosung's Allocations for Costs
and Prices of Spare Parts and Accessories Are Not
Reasonable and Should Be Rejected
Comment 10: Hyosung Misreported
Physical Characteristics for Certain Sales

the

Comment 11: Hyosung Failed to Reconcile Its
Reported U.S. Sales Data to Its Normal Books
and Records
Comment 12: Hyosung's Reported Increases to
U.S. Prices Are Not Supported by Sales
Documentation Generated in Its Normal Course
of Business
1. Freight and Sales Revenues Not Supported
by the Record
2. Hyosung's Commercial Invoices Are Not
Reliable
3. Hyosung's Invoices Show Incorrect Amounts
4. Hyosung's Reported Warehouse Expenses
and Storage Revenues Are Not Correct
5. Hyosung's Reconciled U.S. Sales Database
Is Reliable
Comment 13: The Department Should Not
Accept Hyosung's Understated Ocean Freight
Expenses for U.S. Sales

75a
Comment 14: The Department Must Not
Accept Hyosung's Reported Cost of Manufacture
Data
Comment 15: Application of Total Adverse
Facts Available Is Not Warranted for The Final
Results
Comment 16: If The Department Relies On
Any Portion of Hyosung's Data Then Additional
Corrections Should Be Made in the Final Results
Comment 17: Date of Sale
X. Recommendation

76a

Issues and Decision Memorandum for the Final
Results of the Administrative Review of the
Antidumping Duty Order on Large Power
Transformers from the Republic of Korea; 20142015 (Mar. 6, 2017) (relevant excerpt)
Comment 1: Application of Total Adverse Facts
Available

Revenue Reporting Petitioner’s Comments:

A.
•

Hyundai failed on three occasions to
report separately negotiated revenues
regarding ocean freight, inland freight, oil,
etc. 25

•

Hyundai’s failure to report the above
revenues renders its U.S. sales database
unusable, as reported. 26

•

The Department specifically employed its
revenue
reporting
and
capping
methodology on Hyosung’s sales in the
last review, as well as in the Preliminary
Results of this review. 27

•

Failure to apply the same methodology to
Hyundai in the Preliminary Results of
this review based on similar facts is

See Letter from Petitioner to the Department, regarding
“Petitioner’s Case Brief Regarding Hyundai Issues,” dated
January 5, 2017 (Petitioner’s Case Brief) at 9 (citing 19 CFR
351.102(b)(38)).
25

26

Id.

27

Id., at 11.

77a
contrary to law and not supported by
record facts. 28
•

Hyundai makes a variety of arguments,
e.g., separately negotiated revenues are
invoiced in a lump sum and are not
severable from the lump-sum price, for
why it should not be required to report
separately negotiated revenues. 29
Regardless of those arguments, at no
point in this proceeding did the
Department excuse Hyundai from the
requirement
to
report
revenues
30
separately.

•

The Department is required to cap
revenues for non-subject merchandise, or
services included in gross unit price by the
associated expense, pursuant to its
established practice and the facts of this
case. 31

•

Hyundai is required to report additional
revenues separately, but failed to do so.
The Department, therefore, is unable to
apply properly its revenue capping policy
to Hyundai's reported U.S. sales. 32

28

Id.

29

Id., at 11-18.

30

Id., at 12.

31

Id., at 19.

32

Id.

78a
•

The Department should reject Hyundai’s
unsolicited, untimely filed, and incomplete
worksheet regarding certain revenues it
failed to report previously. 33

•

Hyundai’s reporting failure overstated the
U.S. gross unit price, understated
associated expenses, and prohibited the
Department from implementing its
capping
policy.
Consequently,
the
antidumping margin is decreased and the
Department
cannot
use
Hyundai’s
reported U.S. sales as the basis of a
margin calculation. 34

Hyundai’s Comments:
•

Petitioner’s argument that Hyundai failed
to report certain data to the Department
appears to be based on a misreading of the
scope of the antidumping duty order on
LPTs, the material terms of sale, the
Department’s prior clarifications, and
Petitioner’s own position on installation in
the original investigation. 35

33

Id., at 19-22 (citing 19 CFR 351.301(c)(1).

34

Id., at 22-23.

See Letter from Hyundai to the Department, regarding
“Large Power Transformers from South Korea: Case Brief,”
dated January 5, 2017 (Hyundai’s Case Brief) at 21-24.
35

79a

Petitioner’s Rebuttal Comments:
•

Hyundai’s excuses for failing to follow the
Department’s requests to report certain
revenues separately should be rejected. 36

•

First, at no point in this review did the
Department excuse Hyundai from the
requirement to report certain revenues
separately. Second, Hyundai’s noncompliance prevented the Department
from applying its capping policy in the
same manner for both respondents. 37

•

Hyundai had the choice to report certain
revenues separately, in addition to
making its legal arguments, but it chose
not to do so. It has, therefore, not
cooperated to the best of its ability with
the Department’s requests for information
in this review. 38

•

Hyundai’s argument that Petitioner
misread the scope of the antidumping
duty is incorrect. The scope does not

See Letter from Petitioner to the Department, regarding
“Petitioner’s Rebuttal Brief to Hyundai’s Case Brief,” dated
January 11, 2017 (Petitioner’s Rebuttal Brief) at 15-17.
36

37 Id. When making such adjustments to U.S. price, the
Department caps revenues from sales-related services at
the level of corresponding expenses in order to prevent
overstating U.S. price.
38

Id., at 19.

80a
determine what expenses and revenues
are to be reported or in what manner. 39
•

The Department, therefore, is unable to
apply its revenue capping policy to
Hyundai’s reported home market sales
properly and should find that Hyundai
has deliberately withheld data requested
by the agency that results in an inability
to calculate normal value accurately. 40

Hyundai’s Rebuttal Comments:
•

Petitioner bases its claims that the
Department is unable to calculate an
accurate dumping margin for Hyundai on
the false premise that Hyundai failed to
provide the requested breakout of
revenues
and
expenses.
However,
Hyundai, in fact, did provide the
breakdown of revenues and expenses. 41

39

Id., at 20.

40

Id.

See Letter from Hyundai to the Department, regarding
“Large Power Transformers from South Korea: Rebuttal
Brief,” dated January 11, 2017 (Hyundai’s Rebuttal Brief)
at 1 (citing Letter from Hyundai to the Department,
regarding “Large Power Transformers from South Korea:
Response to Questions 13 and 17 of the Third Supplemental
Sections A, B, C and D Questionnaire,” dated November 10,
2016 (Hyundai’s November 10, 2016, Supplemental
Questionnaire Response) at 23).
41

81a
•

Petitioner’s complaint that Hyundai failed
to provide the requested breakdown of
revenues is contrary to the record. 42

•

The Department should continue to find
that what Petitioner claims to be
“separate revenues” are, in fact, correctly
included in the gross unit price, in
accordance with the terms of sale or are
transformer components that are part of
the subject transformer, in accordance
with the scope of the antidumping duty
order. 43

•

In all prior segments of this proceeding,
including two sales verifications, the
Department found that Hyundai correctly
reported gross unit prices based on the
terms of sale. 44

•

The Department also confirmed that “no
such capping was indicated as Hyundai
did
not
report
revenues
from
reimbursement expenses and the record
did not suggest it should have done so.“ 45

42

Id., at 5.

43

Id., at 2-5.

44

Id., at 5-6.

Id. at 6 (citing Memorandum to Christian Marsh, Deputy
Assistant Secretary for Antidumping and Countervailing
Duty Operations, from Scot Fullerton, Director, Office VI,
regarding “Ministerial Error Memorandum for the
Amended Final Results of the 2013/2014 Administrative
Review of the Antidumping Duty Order on Large Power
Transformers from Republic of Korea,” dated April 29, 2016

45

82a
•

The Department’s conclusions regarding
Hyundai were consistent with other
precedent that considered the terms of
sale. 46

•

Petitioner’s
claim
that
Hyundai
improperly
included
transformer
components in the gross unit price is
inconsistent with the scope of the
antidumping duty order. As demonstrated
previously, the components of which
Petitioner complains are attached to,
imported with, and invoiced with the
active parts of LPTs. Thus, Hyundai
correctly included such components in the
gross unit price. 47

•

Petitioner’s assertion that Hyundai has
refused to provide separate revenue data
ignores the detailed price breakdowns
Hyundai provided. The Department
should continue to reflect in the gross unit
price those services that are required
under the terms of sale. 48

•

Petitioner’s characterization of Hyundai’s
sales is not supported by the record.
Hyundai was not permitted to sell the
service to the customer separately and
customers required the service as part of

(2013-2014 Ministerial Error Memorandum) at 7).
46

Id.

Id., at 8.

47
48

Id., at 8.

83a
the purchase of the transformer.
Informational breakdowns of the services
do not remove them from being required
under the terms of sale. 49

49

•

Petitioner does not acknowledge that
Hyundai
submitted
its
worksheet
providing the breakdown of revenues and
expenses pursuant to a question from the
Department. 50

•

Further, Petitioner’s complaints regarding
the substance of the worksheet are
erroneous. 51

•

Petitioner wrongly argues that Hyundai’s
reported home market gross unit prices
cannot be tied to the documents submitted
by
Hyundai.
Petitioner’s
argument
appears to be based on a misreading of the
scope of the antidumping duty order on
transformers. 52

•

Hyundai agrees that if the customer
separately sought installation in a

Id., at 10.

Id., at 15 (citing Letter from the Department to Hyundai,
regarding “Supplemental Questionnaire for Hyundai Heavy
Industries Co., Ltd., and Hyundai Corporation USA’s
Questionnaire Responses,” dated October 7, 2016 (October
7, 2016, Supplemental Questionnaire) at Question 17;
Hyundai’s November 10, 2016, Supplemental Questionnaire
Response at 23 and Attachment 3S-46).

50

51

Id., at 16.

52

Id., at 53 (citing Exhibit 1 of Hyundai’s Case Brief).

84a
transaction outside of the sale of the
transformer (e.g., if the installation was
not included in the sales contract but was
later separately procured), installation in
that case would not be within the terms of
sale and not included in the contract and
should be reported separately. 53
•

Accordingly,
where
the
customer
separately procured a service outside of
the contract for the transformer, Hyundai
has reported such revenues and associated
expenses separately. 54

•

No party has sought to change the scope of
the antidumping duty order to exclude
assembled transformers, nor has any
party demonstrated that installation is no
longer a material term of sale. 55

•

Therefore, Petitioner’s argument that
Hyundai failed to report certain revenue
is without merit and inconsistent with the
scope of the antidumping duty order, the
material terms of sale, the Department’s
prior clarifications, and Petitioner’s own
position
on
installation
in
the
56
investigation.

[. . .]
53

Id., at 55.

54

Id.

55

Id.

56

Id.

85a

Department’s Position:
The Department finds that Hyundai has
impeded this administrative review by failing to
act to the best of its ability in providing the
Department with necessary information in a
timely manner, as requested by the Department.
Specifically, Hyundai has significantly impeded
this review by failing to provide complete and
accurate information, which raises serious
concerns regarding whether Hyundai: (1)
systematically overstated U.S. prices; and (2)
systematically understated home market prices.
Further, Hyundai failed to provide the
Department with cost information, which
prevented the Department from determining
whether costs could be distorted by incomplete
reporting. In addition to the “selective reporting”
issues identified below, these three issues
demonstrate that Hyundai has engaged in a
pattern of behavior that leaves the Department
with a response that, taken as whole, is
unreliable. In applying facts available, we find an
adverse inference is warranted, as the company
significantly impeded the review and failed to
cooperate to the best of its ability for the reasons
identified below.

A. Revenue Reporting
To prevent U.S. price from being overstated,
the statute and the regulations require revenues
for services provided with the sale in excess of the
related expense to be removed from Hyundai’s
reported U.S. price. Section 772(c)(1) of the Act
provides that the Department shall increase the

86a
price used to establish export price and CEP (i.e.,
U.S. price) in only the following three instances:
(1) when not included in such price, the cost of all
containers and coverings and all other costs,
charges, and expenses incident to placing the
subject merchandise in a condition packed ready
for shipment to the United States; (2) the amount
of any import duties imposed by the country of
exportation which have been rebated, or which
have not been collected, by reason of the
exportation of the subject merchandise to the
United States; and (3) the amount of any
countervailing duty imposed on the subject
merchandise under Subtitle A to offset an export
subsidy. Revenues received by a respondent on
sales-related services are not included as an
upward adjustment to U.S. price.
Further, section 773(a)(6) of the Act provides
that the Department shall increase the price used
to establish normal value by the cost of all
containers and coverings and all other costs,
charges, and expenses incident to placing the
subject merchandise in condition packed ready for
shipment to the United States. Again, revenues
received by a respondent on sales-related services
are not included as an upward adjustment to
normal value.
In addition, 19 CFR 351.401(c) directs the
Department to use a price that is net of any price
adjustment, as defined in 19 CFR 351.102(b), that
is reasonably attributable to the subject
merchandise or the foreign like product
(whichever is applicable).
The term “price
adjustment” is defined under 19 CFR

87a
351.102(b)(38) as “any change in the price
charged for subject merchandise or the foreign
like product, such as discounts, rebates and postsale price adjustments, that are reflected in the
purchaser’s net outlay.” The definition specifies
that the adjustment applies to changes in the
price charged for the subject merchandise or the
foreign like product.
Pursuant to the relevant statute and
regulations which prevent U.S. price from being
overstated by any upward adjustments other than
the three instances above, the Department’s
practice is to cap service-related revenue by the
corresponding expense when making adjustments
to U.S. price. 88
88 See Circular Welded Carbon Steel Pipes and Tubes from
Thailand:
Final
Results
of
Antidumping
Duty
Administrative Review, 77 FR 61738 (October 11, 2012) and

accompanying Memorandum, entitled “Antidumping Duty
Administrative Review of Circular Welded Carbon Steel
Pipes and Tubes from Thailand: Issues and Decision
Memorandum,” at 7 (where we stated that “{b}ased on the
plain language of the law and the Department’s regulations,
it has been the Department’s stated practice to decline to
treat freight-related revenue as an addition to U.S. price
under section 772(c)(1) of the Act or as a price adjustment
under 19 CFR 351.102(b)(38). We further stated that “…
although we will offset freight expenses with freight
revenue, where freight revenue earned by a respondent
exceeds the freight charge incurred for the same type of
activity, the Department will cap freight revenue at the
corresponding amount of freight charges incurred because it
is inappropriate to increase gross unit selling price for
subject merchandise as a result of profit earned on the sale
of services ….”); see also Certain Orange Juice from Brazil:

Final Results of Antidumping Duty Administrative Review

88a
Although we requested that Hyundai report
separately service-related revenues (e.g., freight,
installation, and supervision) from the associated
expenses in prior segments of this proceeding, we
did not require Hyundai to do so in the previous
segments because Hyundai stated that such
services were required under the terms of sale
and that these revenues were not separately
invoiced to the customers.
However, record
evidence in the prior review shows that Hyundai’s
U.S. price could be inflated by the inclusion of
service-related revenues, thereby affecting the

and Final No Shipment Determination, 77 FR 63291

(October 16, 2012) and accompanying Memorandum,
entitled “Issues and Decision Memorandum for the
Antidumping Duty Administrative Review on Certain
Orange Juice from Brazil – March 1, 2010, through
February 28, 2011,” at 34 (where we stated that “we find
that it would be inappropriate to increase the gross unit
price for subject merchandise as a result of profits earned
on the provision or sale of services…such profits should be
attributable to the sale of the service, not to the subject
merchandise.” We further stated that “the Department has
consistently applied the same capping methodology to both
U.S. and home market revenues, regardless of whether it
limits the increase to U.S. price or NV {normal value}.”); see

also e.g., Purified Carboxymethylcellulose from the
Netherlands: Preliminary Results of Antidumping Duty
Administrative Review, 75 FR 48310, 48314 (August 10,

2010) (where we stated that “{i}n accordance with our
practice, we capped the amount of freight revenue
permitted to offset gross unit price at no greater than the
amount of corresponding inland freight expenses incurred
by…”), unchanged in Purified Carboxymethylcellulose from

the Netherlands: Final Results of Antidumping Duty
Administrative Review, 75 FR 77829 (December 14, 2010).

89a
Department’s ability to calculate an accurate
antidumping margin. Given these concerns, at the
onset of this instant review, we requested that
Hyundai separately report such revenues and
related expenses so that, per our practice, we
could cap such revenues by the related expenses.
On December 3, 2015, we issued the initial AD
Questionnaire to Hyundai. 89
In our
questionnaire, we instructed Hyundai to report
separately service-related revenues and the
related expenses for each revenue. Specifically,
the Department instructed Hyundai in relevant
part:

Please report revenue in separate fields
(e.g., ocean freight revenue, inland freight
revenue, oil revenue, installation, etc.) and
identify the related expense(s) for each
revenue. 90
On January 27, 2016, Hyundai filed its initial
questionnaire response to sections B and C of the
Department’s AD Questionnaire. 91
In its
response, Hyundai refused to provide the
requested information. Instead, citing the Final
See Letter from the Department to Hyundai, regarding
“Request for Information Antidumping Duty Administrative
Review,” dated December 3, 2015 (AD Questionnaire).
89

90

Id., at B-1 and C-1.

See Letter from Hyundai to the Department, regarding
“Large Power Transformers from South Korea: Response to
Sections B and C Questionnaire,” dated January 27, 2016
(Hyundai’s January 27, 2016, Sections B and C
Questionnaire Response).
91

90a

Determination,

Hyundai stated that the
Department found that Hyundai correctly
reported its gross unit price and properly did not
separate revenues, because such revenues are
included in the terms of sale. 93 Hyundai further
stated that it is required to provide such services
(e.g., delivery, supervision, and installation) by
the terms of sale and such services are not
separable from subject merchandise. 94
In
95
addition, citing Ball Bearings, Hyundai sought
92

See Large Power Transformers from the Republic of
Korea: Final Determination of Sales at Less Than Fair
Value, 77 FR 40857 (July 11, 2012) (Final Determination)
92

and accompanying Memorandum, entitled “Issues and
Decision Memorandum for the Final Determination of the
Antidumping Duty Investigation of Large Power
Transformers from the Republic of Korea” (Investigation
Issues and Decision Memorandum) at 29-30.

See Hyundai’s January 27, 2016, Sections B and C
Questionnaire Response at B-3.

93

94

Id., B-3 and B-4.

See Ball Bearings and Parts Thereof from France,
Germany, Italy, Japan, and the United Kingdom: Final
Results of Antidumping Duty Administrative Reviews and
Revocation of an Order in Part, 74 FR 44819 (August 31,
95

2009) and accompanying Memorandum, entitled “Issues
and Decision Memorandum for the Antidumping Duty
Administrative Reviews of Ball Bearings and Parts Thereof
from France, Germany, Italy, Japan, and the United
Kingdom for the Period of Review May 1, 2007, through
April 30, 2008,” at 31 (where we stated that respondents’
“freight and insurance revenues are revenues received from
customers for invoice items covering transportation and
insurance expenses and arise when freight and insurance
are not included in the selling price under the applicable
terms of delivery but when the respondent arranges and

91a
to distinguish separately provided and charged
services from those within the terms of sale,
arguing its services are within the applicable
terms of sale and not separately arranged on
behalf of the customer. 96
On July 27, 2016, we issued a supplemental
questionnaire to Hyundai. 97 In our questionnaire,
we again requested, for a second time, that
Hyundai report service-related revenues and the
corresponding expenses, separately. Specifically,
the Department instructed Hyundai in relevant
part:

Please clarify whether HHI or Hyundai
USA
received
revenue
related
to
international freight, inland freight, oil,
installation, or any other expenses on U.S.
sales. If so, please report this revenue in a
field separate from the related expense. 98

prepays freight and insurance for the customer.” We further
stated that “{a}ccordingly, the respondents incurred
expenses and realized revenue for these activities,” which
we capped such revenue at the level of the corresponding
expense.).

See Hyundai’s January 27, 2016, Sections B and C
Questionnaire Response at B-3 and B-4.
96

97
See Letter from the Department, regarding
“Supplemental Questionnaire for Hyundai Heavy Industries
Co., Ltd., and Hyundai Corporation USA’s Questionnaire
Responses,” dated July 27, 2016 (July 27, 2016,
Supplemental Questionnaire).
98

Id., at 7.

92a
On August 10, 2016, Hyundai filed the first
part of its supplemental questionnaire response. 99
Again, Hyundai refused to provide such
information, stating that “{i}n accordance with
the Department’s review and treatment of
Hyundai’s sales documentation in prior segments
of this proceeding, Hyundai did not receive
separate revenue related to international freight,
inland freight, oil, installation, or any other
expenses on home-market sales or U.S. sales.“ 100
Citing to the Department’s position in the prior
review, 101 Hyundai stated that its reporting of
home market and U.S. gross unit prices is
appropriate and in accordance with the
See Letter from Hyundai to the Department, regarding
“Large Power Transformers from South Korea: Response to
the Second Supplemental Sections A, B, C and D
Questionnaire,” dated August 10, 2016 (Hyundai’s August
10, 2016, Supplemental Questionnaire Response).
99

100

Id., at 11.

See Large Power Transformers from the Republic of
Korea: Final Results of Antidumping Duty Administrative
Review; 2013-2014, 81 FR 14087 (March 16, 2016) and
101

accompanying Memorandum, entitled “Issues and Decision
Memorandum for the Final Results of the Administrative
Review of the Antidumping Duty Order on Large Power
Transformers from the Republic of Korea; 2013-2014”
(2013-2014 Administrative Review Issues and Decision
Memorandum) at 39-40; see also 2013-2014 Ministerial
Error Memorandum at 7 (where the Department’s position
in the prior review stated that Hyundai was not obligated to
report separate expenses and revenues for reimbursed
services related to its U.S. sales and that its reported gross
unit price for each sale is the appropriate basis for the
calculation of CEP for its final dumping margin.).

93a
Department’s prior consideration of Hyundai’s
sales. 102 Hyundai added that it reported the sales
revenues and corresponding expenses separately
when it received a purchase order for a separate
service,
pursuant
to
the
Department’s
requirements. 103
On August 18, 2016, Hyundai filed the second
part of its supplemental questionnaire. 104 In
reviewing this response, we found that certain
documents identified separate service line items
with a corresponding price/revenue listed. 105 We
also noted that the prices/revenues for these
services were higher than the expenses reported
by Hyundai in its sales database for this sale,
which indicated that Hyundai was improperly
overstating gross unit price. 106 This finding
affirmed our concerns regarding the methodology
Hyundai used to report gross unit price.
In light of the finding identified above, in a
supplemental questionnaire issued after the
Preliminary Results, we again requested, for a
See Hyundai’s August
Questionnaire Response at 12.

102

103

10,

2016,

Supplemental

Id

See Letter from Hyundai to the Department, regarding
“Large Power Transformers from South Korea: Response to
Questions 8, 16, 25, 26 and 28 of the Second Supplemental
Sections A, B, C and D Questionnaire,” dated August 18,
2018 (Hyundai’s August 18, 2016, Supplemental
Questionnaire Response).

104

105

Id., at Attachment 2S-17.

106

Id., at Attachment 2S-26.

94a
third time, that Hyundai report service-related
revenues and the related expenses separately.
Specifically, the Department instructed Hyundai
in relevant part:

Please revise your U.S. sales database to
report all such expenses and revenues for
these sales in separate fields… 107
Hyundai submitted its response to our post-

Preliminary Results supplemental questionnaire

on October 27, 2016, 108 November 3, 2016, 109and
November 10, 2016. 110 In Hyundai’s November
10, 2016, Supplemental Questionnaire Response,
Hyundai provided the Department with a
worksheet in which it claimed that service-related
revenues and the corresponding expenses for U.S.
sales were reported separately. 111
While reviewing Hyundai’s November 10,
2016, Supplemental Questionnaire Response, we
107

Id., at 6.

See Letter from Hyundai to the Department, regarding
“Large Power Transformers from South Korea: Response to
the Third Supplemental Sections A, B, C and D
Questionnaire,” dated October 27, 2016 (Hyundai’s October
27, 2016, Supplemental Questionnaire Response).

108

See Letter from Hyundai to the Department, regarding
“Large Power Transformers from South Korea: Response to
the Third Supplemental Sections A, B, C and D
Questionnaire,” dated November 3, 2016 (Hyundai’s
November 3, 2016, Supplemental Questionnaire Response).

109

See Hyundai’s November 10, 2016, Supplemental
Questionnaire Response.

110

111

Id., at Attachment 3S-46.

95a
found that purchase orders and/or invoices for
many of Hyundai’s U.S. sales contained separate
line items for services. 112 This finding confirmed
that, while revenues from such services may not
have been separately invoiced to the customers,
Hyundai and its customers separately assigned
prices for the related services and identified these
amounts as separate line items on invoices,
separate from the price of the subject
merchandise.
Although these services are
required under the terms of sale and are invoiced
on a lump-sum basis, as Hyundai argued, we find
that Hyundai’s sales documentation specifically
indicates that these sales-related services could
be negotiable, apart from subject merchandise,
since each service is shown/listed with the
corresponding amount in purchase orders and/or
invoices. In other words, if customers do not like
Hyundai’s price for a certain service, they can
procure/arrange such service on their own
without using Hyundai’s service. That is, we
cannot conclude that such service is nonnegotiable and that customers cannot opt out of
the service prior to accepting the offer just
because a specific service is included in the selling
price under the terms of sale. Similarly, we
cannot conclude, as Hyundai suggests, that such
service-related revenue should always be part of
the gross unit price just because a service is not
arranged separately. Therefore, given the record
evidence, we find that service-related revenues for

112

Id., at Attachment 3S-35.

96a
the sale of subject merchandise should not be
considered as a component of the gross unit price.
Above, we have established that our concern
related to Hyundai’s reporting of U.S. gross unit
prices was confirmed by record evidence and,
therefore, that Hyundai should have reported
service-related revenues separately from the
related expenses. As noted above, in Hyundai’s
November 10, 2016, Supplemental Questionnaire
Response, upon a third request, Hyundai
provided the Department with a worksheet which
shows the breakdown of service-related revenues
and the corresponding expenses for its U.S. sales.
While Hyundai claimed to have provided the
information the Department requested, the
worksheet provided is incomplete and casts
serious doubt on the reliability of such
information. For example, as Petitioner noted, the
worksheet appears to be missing information for
multiple U.S. sales (i.e., it is missing the related
expenses for its claimed revenues). 113 In its
rebuttal brief, Hyundai attempted to explain the
reason for the missing information by claiming
that: (1) such items relate to the manufacture of
the transformer and the costs are, therefore,
included in the reported cost of production; and
(2) there are no separate sales expenses for these
production costs. 114 However, we cannot examine
the validity of Hyundai’s reporting at this late
stage of the review. What key information
113

See Petitioner’s Case Brief at 21-22.

114

See Hyundai’s Rebuttal Brief at 17.

97a
Hyundai finally provided came in very late in the
process, thereby negating our ability to satisfy
ourselves that the data provided are accurate and
reliable, and to develop deficiency questionnaires,
as needed. Had Hyundai followed the
Department’s request to report separately
service-related revenues and the related expenses
early on (i.e., in Hyundai’s January 27, 2016,
Sections B and C Questionnaire Response or even
in Hyundai’s August 10, 2016, Supplemental
Questionnaire Response), we would have had the
time to request additional necessary information
(i.e., the missing data) and verify other issues
that Petitioner raised in its case brief. 115 In sum,
the worksheet Hyundai eventually provided, and
which contained missing data, is not reliable for
calculating an accurate margin.
The statue and regulations, as stated above,
only permit adjustments to U.S. price in certain
limited instances. An upward adjustment to U.S.
price due to the inclusion of revenues received by
a respondent on sales-related services is not
included. Furthermore, the Department caps
revenues from such services at the level of
corresponding expenses, in order to prevent
overstating U.S. price. As described above,
although we permitted Hyundai to include
service- related revenues in the gross unit price
on the basis of Hyundai’s claim in prior segments,
the record evidence in this review indicates that
there are separate line items for revenues from
115

See Petitioner’s Case Brief at 20-22.

98a
service-related revenues, as shown in purchase
orders
and/or
invoices.
Hyundai
has
demonstrated to the Department its ability to
report service-related revenues separately. As a
result, we find that Hyundai’s arguments
regarding the Department’s practice of having
respondents separately report service-related
revenues from the associated expenses for
purposes of “capping” do not excuse Hyundai from
complying with the Department’s request for such
reporting. In addition, contrary to Hyundai’s
assertions, it cannot simply rely on its reporting
from prior segments; the Department specifically
requested that Hyundai provide this information
in the instant review, because Hyundai’s sales
documentation identifies separate line items for
sales-related services, demonstrating that these
sales-related services could be negotiable.
For the reasons herein, we determine that
Hyundai impeded this review by failing to act the
best of its ability by failing to provide the
Department with the requested information in a
timely manner. In addition to Hyundai being
aware of the Department’s practice, the
Department
provided
Hyundai
three
opportunities to report this information in the
instant review separately. Nonetheless, Hyundai
refused to provide such information until the very
late in this review process. The data Hyundai
eventually provided were missing information; we
cannot verify the validity of Hyundai’s reporting
at this late stage of the review. Hyundai’s delay in
providing the requested information further
negated our ability to satisfy ourselves that the

99a
data provided are accurate and reliable, or to
develop deficiency questionnaires, as needed.

100a

Large Power Transformers from the Republic of
Korea: Preliminary Results of Antidumping Duty
Administrative Review; 2014-2015, 81 Fed. Reg.
60672 (Sept. 2, 2016)

DEPARTMENT OF COMMERCE
International Trade Administration
[A-580-867]
Large Power Transformers From the Republic of
Korea: Preliminary Results of Antidumping Duty
Administrative Review; 2014-2015
AGENCY:
Enforcement
and
Compliance,
International Trade Administration, Department
of Commerce.
SUMMARY: The Department of Commerce (the
Department) is conducting an administrative
review of the antidumping duty order on large
power transformers (LPTs) from the Republic of
Korea (Korea). The period of review is August 1,
2014, through July 31, 2015. The review covers
five
producers/exporters
of
the
subject
merchandise. We preliminarily determine that
sales of subject merchandise by Hyosung
Corporation (Hyosung) and Hyundai Heavy
Industries Co., Ltd. (Hyundai), the two companies
selected for individual examination, were made at
less than normal value during the period of
review. Interested parties are invited to comment
on these preliminary results.
DATES: Effective September 2, 2016.
FOR FURTHER INFORMATION CONTACT:
John Drury or Edythe Artman, AD/CVD

101a
Operations,
Office
VI,
Enforcement
and
Compliance, International Trade Administration,
U.S. Department of Commerce, 14th Street and
Constitution Avenue NW., Washington, DC
20230; telephone: (202) 482-0195 or (202) 4823931, respectively.
SUPPLEMENTARY INFORMATION:
Scope of the Order
The scope of this order covers large liquid
dielectric power transformers having a top power
handling capacity greater than or equal to 60,000
kilovolt amperes (60 megavolt amperes), whether
assembled
or
unassembled,
complete
or
incomplete. The merchandise subject to the order
is currently classified in the Harmonized Tariff
Schedule of the United States at subheadings
8504.23.0040, 8504.23.0080 and 8504.90.9540.
This tariff classification is provided for
convenience and Customs purposes; however, the
written description of the scope of the order is
dispositive. 1
The Preliminary Decision Memorandum is a
public document and is on file electronically via
The full text of the scope of the order is contained in the
memorandum to Paul Piquado, Assistant Secretary for
Enforcement and
Compliance, from Gary Taverman,
Associate Deputy Assistant Secretary for Antidumping and
Countervailing Duty Operations, entitled
“Decision
Memorandum for Preliminary Results of Antidumping Duty
Administrative Review: Large Power Transformers from the
Republic of
Korea; 2014-2015” (Preliminary Decision
Memorandum), which is issued concurrent with and hereby
adopted by this notice.
1

102a
Enforcement and Compliance's Antidumping and
Countervailing Duty Centralized Electronic
Service System (ACCESS). Access to ACCESS is
available
to
registered
users
at
http://access.trade.gov and is available to all
parties in the Central Records Unit, Room B8024
of the main Department of Commerce building. In
addition, a complete version of the Preliminary
Decision Memorandum can be accessed directly
on
the
Internet
at
http://enforcement.trade.gov/frn/index.html. A list
of topics discussed in the Preliminary Decision
Memorandum is attached as an Appendix to this
notice.
The
signed
Preliminary
Decision
Memorandum and the electronic versions of the
Preliminary Decision Memorandum are identical
in content.
Tolling of Deadline
As explained in the memorandum from the
Acting Assistant Secretary for Enforcement and
Compliance, the Department exercised its
discretion to toll all administrative deadlines due
to a closure of the Federal Government. All
deadlines in this segment of the proceeding have
been extended by four business days. The revised
deadline for the preliminary results of this review
is now August 26, 2016. 2

See Memorandum to the File from Ron Lorentzen, Acting
Assistant Secretary for Enforcement and Compliance,
regarding “Tolling of Administrative Deadlines As a Result
of the Government Closure During Snowstorm Jonas,”
dated January 27, 2016.
2

103a
Methodology
The Department is conducting this review in
accordance with section 751(a)(2) of the Tariff Act
of 1930, as amended (the Act). Constructed export
price is calculated in accordance with section 772
of the Act. Normal value is calculated in
accordance with section 773 of the Act. For a full
description of the methodology underlying our
conclusions, see the Preliminary Decision
Memorandum.
Preliminary Results of Review
We preliminarily determine that, for the
period August 1, 2014, through July 31, 2015, the
following weighted-average dumping margins
exist: 3

Manufacturer/exporter

Weightedaverage
dumping
margin
(percent)

Hyosung Corporation…………….

1.76

Hyundai Heavy Industries Co.,

3.09

3 As we did not have a publicly-ranged total U.S. sales value
for Hyosung for the period August 1, 2014, through July 31,
2015, to calculate a weighted-average dumping margin for
the non-examined companies (i.e., Iljin, Iljin Electric Co.,
Ltd, and LSIS Co., Ltd.), the rate applied to these
companies is a simple average of the weighted-average
dumping margins calculated for Hyosung and Hyundai.

104a
Ltd…………………………………..
Iljin Electric Co., Ltd…………….

2.43

Iljin………………………………….

2.43

LSIS Co., Ltd………………………

2.43

Disclosure and Public Comment
The Department will disclose to parties to the
proceeding any calculations performed in
connection with these preliminary results of
review within five days after the date of
publication of this notice. 4 The Department will
announce the briefing schedule to interested
parties at a later date. Interested parties may
submit case briefs on the deadline that the
Department will announce. 5 Rebuttal briefs, the
content of which is limited to the issues raised in
the case briefs, must be filed within five days from
the deadline date for the submission of case
briefs. 6
Parties who submit case or rebuttal briefs in
this proceeding are requested to submit with each
argument: (1) A statement of the issue; (2) a brief
summary of the argument; and (3) a table of
authorities. 7 Case and rebuttal briefs should be
filed using ACCESS. 8 Case and rebuttal briefs
4

See 19 CFR 351.224(b)

5

See 19 CFR 351.309(c)(1)(ii) and (d)(1).

6

See 19 CFR 351.309(d)(1) and (2).

7

See 19 CFR 351.309(c)(2).

8

See generally 19 CFR 351.303.

105a
must be served on interested parties. 9 Executive
summaries should be limited to five pages total,
including footnotes.
Pursuant to 19 CFR 351.310(c), interested
parties who wish to request a hearing must
submit a written request to the Assistant
Secretary for Enforcement and Compliance within
30 days of the date of publication of this notice.
Requests should contain: (1) The party's name,
address and telephone number; (2) the number of
participants; and (3) a list of issues parties intend
to discuss. Issues raised in the hearing will be
limited to those raised in the respective case and
rebuttal briefs. If a request for a hearing is made,
the Department intends to hold the hearing at the
U.S. Department of Commerce, 14th Street and
Constitution Avenue NW., Washington, DC
20230, at a date and time to be determined. 10
Parties should confirm the date, time, and
location of the hearing two days before the
scheduled date.
The Department intends to publish the final
results of this administrative review, including
the results of its analysis of issues raised in any
case or rebuttal brief, no later than 120 days after
publication of these preliminary results, unless
extended. 11

9

See 19 CFR 351.303(f).

10

See 19 CFR 351.310(d).

11

See section 751(a)(3)(A) of the Act; 19 CFR 351.213(h).

106a
Assessment Rates
Upon completion of this administrative review,
the Department shall determine, and Customs
and Border Protection (CBP) shall assess,
antidumping duties on all appropriate entries. If a
respondent's weighted-average dumping margin
is not zero or de minimis in the final results of
this review and the respondent reported reliable
entered values, we will calculate importer-specific
ad valorem assessment rates for the merchandise
based on the ratio of the total amount of dumping
calculated for the examined sales made during the
period of review to each importer to the total
entered value of those same sales in accordance
with 19 CFR 351.212(b)(1). If the respondent has
not reported reliable entered values, we will
calculate a per-unit assessment rate for each
importer by dividing the total amount of dumping
for the examined sales made during the period of
review to that importer by the total sales quantity
associated with those transactions. Where an
importer-specific ad valorem assessment rate is
zero or de minimis, we will instruct CBP to
liquidate the appropriate entries without regard
to antidumping duties in accordance with 19 CFR
351.106(c)(2). If the respondent's weightedaverage dumping margin is zero or de minimis in
the final results of review, we will instruct CBP
not to assess duties on any of its entries in
accordance with the Final Modification for
Reviews, i.e., “{w}here the weighted-average
margin of dumping for the exporter is determined

107a
to be zero or de minimis, no antidumping duties
will be assessed.'' 12
Regarding entries of subject merchandise
during the period of review that were produced by
Hyosung and Hyundai and for which they did not
know that the merchandise was destined for the
United States, we will instruct CBP to liquidate
un-reviewed entries at the all-others rate of 22.00
percent, as established in the less-than-fair-value
investigation of the order, if there is no rate for
the intermediate company(ies) involved in the
transaction. 13 For a full discussion of this matter,
see Assessment Policy Notice. 14
We intend to issue liquidation instructions to
CBP 15 days after publication of the final results
of this review.
Cash Deposit Requirements
The following cash deposit requirements will
be effective upon publication of the final results of
this administrative review for all shipments of the
See Antidumping Proceedings: Calculation of the
Weighted- Average Dumping Margin and Assessment Rate
in Certain Antidumping Proceedings: Final Modification,
77 FR 8101, 8102 (February 14, 2012) (Final Modification
for Reviews).
12

See Large Power Transformers From the Republic of
Korea: Antidumping Duty Order, 77 FR 53177 (August 31,
13

2012).

14 See Antidumping and Countervailing Duty Proceedings:
Assessment of Antidumping Duties, 68 FR 23954 (May 6,

2003) (Assessment Policy Notice).

108a
subject merchandise entered, or withdrawn from
warehouse, for consumption on or after the
publication date of the final results of this
administrative review, as provided by section
751(a)(2)(C) of the Act: (1) The cash deposit rate
for Hyosung and Hyundai and other companies
listed above will be equal to the weighted-average
dumping margin established in the final results of
this administrative review; (2) for previously
reviewed or investigated companies not listed
above, the cash deposit rate will continue to be
the company-specific rate published for the most
recently completed segment of this proceeding in
which they were reviewed; (3) if the exporter is
not a firm covered in this review, a prior review,
or in the investigation but the producer is, the
cash deposit rate will be the rate established for
the most recently completed segment of this
proceeding for the producer of the merchandise;
and (4) the cash deposit rate for all other
producers or exporters will continue to be the allothers rate of 22.00 percent, the rate established
in the investigation of this proceeding. 15 These
cash deposit requirements, when imposed, shall
remain in effect until further notice.
Notification to Importers
This notice also serves as a reminder to
importers of their responsibility under 19 CFR
15 See Large Power Transformers From the Republic of
Korea: Antidumping Duty Order, 77 FR 53177 (August 31,

2012).

109a
351.402(f)(2) to file a certificate regarding the
reimbursement of antidumping duties prior to
liquidation of the relevant entries during this
review period. Failure to comply with this
requirement could result in the Department's
presumption that reimbursement of antidumping
duties occurred and the subsequent assessment of
double antidumping duties.
Notification to Interested Parties
We are issuing and publishing this notice in
accordance with sections 751(a)(1) and 777(i)(1) of
the Act.
Dated: August 26, 2016.
Paul Piquado,

Assistant Secretary
Compliance.

for

Enforcement

Appendix--List of Topics Discussed
Preliminary Decision Memorandum

in

and
the

1. Background
2. Companies
Examination

Not

Selected

for

Individual

3. Deadline for Submission of Updated Sales and
Cost Information
4. Scope of the Order
5. Comparisons to Normal Value
A. Determination of Comparison Method
B. Results of the Differential Pricing Analysis
6. Product Comparisons

110a
7. Date of Sale
8. Constructed Export Price
9. Normal Value
A. Home Market Viability as Comparison
Market
B. Level of Trade
C. Sales to Affiliates
D. Cost of Production
1. Calculation of Cost of Production
2. Test of Comparison Market Sales Prices
3. Results of the Cost of Production Test
E. Calculation of Normal Value Based on
Comparison Market Prices
F. Price-to-Constructed Value Comparison
10. Currency Conversion
11. Recommendation

111a

Large Power Transformers from the Republic of
Korea: Final Results of Antidumping Duty
Administrative Review; 2013-2014, 81 Fed. Reg.
14087 (Mar. 16, 2016)

DEPARTMENT OF COMMERCE
International Trade Administration
[A-580-867]
Large Power Transformers From the Republic of
Korea: Final Results of Antidumping Duty
Administrative Review; 2013-2014
AGENCY:
Enforcement
and
Compliance,
International Trade Administration, Department
of Commerce.
SUMMARY: On September 4, 2015, the
Department of Commerce (the
Department)
published the preliminary results of the
administrative review of the antidumping duty
order on large power transformers from the
Republic of Korea. 1 The review covers five
producers/exporters of the subject merchandise,
Hyosung Corporation (Hyosung), Hyundai Heavy
Industries Co., Ltd. (Hyundai), ILJIN, ILJIN
Electric Co., Ltd. (ILJIN Electric), and LSIS Co.,
Ltd. (LSIS). ILJIN, ILJIN Electric, and LSIS,
were not selected for individual examination. The
period of review (POR) is August 1, 2013, through
July 31, 2014. As a result of our analysis of the
See Large Power Transformers From the Republic of
Korea:
Preliminary Results of Antidumping Duty
Administrative Review; 2013- 2014, 80 FR 53496
(September 4, 2015) (Preliminary Results).
1

112a
comments and information received, these final
results differ from the Preliminary Results. For
the final weighted-average dumping margins, see
the “Final Results of Review'' section below.
DATES: Effective Date: March 16, 2016.
FOR FURTHER INFORMATION CONTACT:
Brian Davis (Hyosung) or Edythe Artman
(Hyundai), AD/CVD Operations, Office VI,
Enforcement and Compliance,
International
Trade Administration, U.S. Department of
Commerce, 14th Street and Constitution Avenue
NW., Washington, DC 20230; telephone: (202)
482-7924 or (202) 482-3931, respectively.
SUPPLEMENTARY INFORMATION:
Background
On September 4, 2015, the Department
published the Preliminary Results. In accordance
with 19 CFR 351.309(c)(1)(ii), we invited parties
to comment on our Preliminary Results. 2 On
October 16, 2015, Hyundai timely submitted a
case brief and on October 19, 2015, Hyosung and
ABB Inc. (Petitioner) timely submitted case
briefs. 3 Rebuttal briefs were also timely filed by
The Department issued the briefing schedule in a
Memorandum to the File, dated September 9, 2015. This
briefing schedule was later extended at the request of
interested parties to October 16, 2015 for briefs and
October 26, 2015 for rebuttal briefs.
2

3 See Case Brief from Petitioner regarding Hyundai,
(Petitioner Brief Hyundai), Brief from Petitioner regarding
Hyosung (Petitioner Brief Hyosung), and Hyosung Brief,
all dated October 19, 2015, and Hyundai Brief, dated

113a
Hyosung, Hyundai, and Petitioner, on October 27,
2015. 4 On December 22, 2015, the Department
issued a memorandum extending the time period
for issuing the final results of this administrative
review from January 4, 2016 to February 24,
2016. 5 On February 29, 2016, the Department
further extended the final results to March 8,
2015. 6
October 16, 2015.
4 See Hyosung Rebuttal Brief, Hyundai Rebuttal Brief and
Petitioner Rebuttal Brief: All dated October 26, 2015.
Petitioner requested an extension for the briefing schedule
to 30 days after Hyundai's submission of a post-verification
supplemental questionnaire and an extension for filing
rebuttal briefs, which the Department partially granted for
all parties in a letter dated September 29, 2015 and
extended in a letter dated October 13, 2015. See Letter to
Petitioner dated September 29, 2015 and Letter to
Petitioner dated October 13, 2015.

See Memorandum to Christian Marsh, Deputy Assistant
Secretary for AD/CVD Operations, “Large Power
Transformers from the Republic of Korea: Extension of
Deadline for Final Results of
Antidumping Duty
Administrative Review; 2013-2014” (December 22, 2015).
5

6 See Memorandum to Christian Marsh, Deputy Assistant
Secretary for AD/CVD Operations, “Large Power
Transformers from the Republic of Korea: Extension of
Deadline for Final Results of
Antidumping Duty
Administrative Review; 2013-2014” (February 29, 2016);
See also Memorandum to the Record from Ron Lorentzen,
Acting Assistant Secretary for Enforcement & Compliance,
regarding “Tolling of Administrative Deadlines As a Result
of the Government Closure During Snowstorm Jonas,”
dated January 27, 2016. As
explained in this
memorandum, the Department has exercised its discretion
to toll all administrative deadlines due to the recent closure

114a
Scope of the Order
The scope of this order covers large liquid
dielectric power transformers (LPTs) having a top
power handling capacity greater than or equal to
60,000 kilovolt amperes (60 megavolt amperes),
whether assembled or unassembled, complete or
incomplete. The merchandise subject to the order
is currently classified in the Harmonized Tariff
Schedule of the United States at subheadings
8504.23.0040, 8504.23.0080 and 8504.90.9540. 7
Analysis of Comments Received
All issues raised in the case and rebuttal briefs
by parties to this administrative review are
addressed
in
the
Issues
and
Decision
Memorandum. 8 A list of the issues that parties
raised and to which we responded is attached to
this notice as an Appendix. The Issues and
Decision Memorandum is a public document and
of the Federal Government. All deadlines in this segment of
the proceeding have been extended by four business days.
The revised deadline for the final determination is now
March 8, 2016.
7 For a full description of the scope of the order, see the
Memorandum from Christian Marsh, Deputy Assistant
Secretary for
Antidumping and Countervailing Duty
Operations, to Paul Piquado,
Assistant Secretary for
Enforcement and Compliance, titled “Issues and Decision
Memorandum for the Final Results of the Administrative
Review of the Antidumping Duty Order on Large Power
Transformers from the Republic of Korea; 2013-2014”
(Issues and Decision
Memorandum), which is issued
concurrently with, and hereby adopted by, this notice.
8

Id.

115a
is on-file electronically via ACCESS. ACCESS is
available
to
registered
users
at
http://access.trade.gov and in the Central Records
Unit, Room B8024 of the main Department of
Commerce building. In addition, a complete
version of the Issues and Decision Memorandum
can be accessed directly on the Internet at
http://enforcement.ita.goc.gov/frn/index.html. The
signed Issues and Decision Memorandum and the
electronic version of the Issues and Decision
Memorandum are identical in content.
Changes Since the Preliminary Results
Based on a review of the record and comments
received from interested parties regarding our
Preliminary Results, we recalculated Hyosung's
and
Hyundai's
weighted-average
dumping
margins for these final results.
For Hyosung, we revised our margin program
by adjusting our
treatment of Hyosung's
installation revenue, indirect selling expense
ratio, U.S. commission expenses, and U.S.
warranty expenses. 9 For Hyundai, we revised the
margin program with respect to our treatment of
bank charges and packing expenses incurred in
the home market, installation and supervision
See Memorandum from Brian Davis to the File, regarding
“Analysis of Data Submitted by Hyosung Corporation in the
Final
Results of the Administrative Review of the
Antidumping Duty Order on Large Power Transformers
from the Republic of Korea; 2013-2014” (Hyosung Final
Analysis Memorandum), dated March 23, 2014, at section
“Changes from the Preliminary Results,” for further
information.
9

116a
expenses incurred in both markets, domestic
inventory carrying costs and U.S. credit expenses,
and U.S. commission expenses. 10
As
a
result
of
the
aforementioned
recalculations of Hyosung's and
Hyundai's
weighted-average
dumping
margins,
the
weighted-average dumping margin for the three
non-selected companies also changed.
Final Results of the Review
As a result of this review, the Department
determines the following
weighted-average
dumping margins 11 for the period August 1, 2013,
through July 31, 2014, are as follows:

See Memorandum from Edythe Artman to the File,
regarding “Analysis of Data Submitted by Hyundai Heavy
Industries Co., Ltd.
in the Final Results of the
Administrative Review of the Antidumping Duty Order on
Large Power Transformers from the Republic of Korea;
2013-2014” (Hyundai Final Analysis Memorandum), dated
March 23, 2014, at section “Changes from the Preliminary
Results,” for further information.

10

As we did not have publicly-ranged U.S. sales volumes for
Hyosung for the period August 1, 2013, through July 31,
2014, to calculate a weighted-average percentage margin
for the non-selected companies (i.e., ILJIN, ILJIN Electric,
and LSIS) in this review, the rate applied to the nonselected companies is a simple-average percentage margin
calculated based on the margins calculated for Hyosung
and Hyundai.
11

117a

Manufacturer/exporter

Weightedaverage
dumping
margin
(percent)

Hyosung Corporation……………….

9.40

Hyundai Heavy Industries Co.,
Ltd……………………………………..

4.07

Iljin Electric Co., Ltd……………….

6.74

Iljin…………………………………….

6.74

LSIS Co., Ltd…………………………

6.74

Duty Assessment
The Department shall determine and U.S.
Customs and Border
Protection (CBP) shall
assess antidumping duties on all appropriate
entries. 12
For any individually examined
respondents whose weighted- average dumping
margin is above de minimis, we calculated
importer- specific ad valorem duty assessment
rates based on the ratio of the total amount of
dumping calculated for the importer's examined
sales to the total entered value of those same
sales in accordance with 19 CFR 351.212(b)(1).
12 In these final results, the Department applied the
assessment
rate
calculation
method
adopted
in

Antidumping Proceedings: Calculation of the WeightedAverage Dumping Margin and Assessment Rate in Certain
Antidumping Proceedings: Final Modification, 77 FR 8101
(February 14, 2012).

118a
Upon issuance of the final results of this
administrative review, if any importer-specific
assessment rates calculated in the final results
are above de minimis (i.e., at or above 0.5
percent), the Department will issue instructions
directly to CBP to assess antidumping duties on
appropriate entries.
To determine whether the duty assessment
rates covering the period were de minimis, in
accordance with the requirement set forth in 19
CFR
351.106(c)(2), for each respondent we
calculated importer (or
customer)-specific ad
valorem rates by aggregating the amount of
dumping calculated for all U.S. sales to that
importer or customer and dividing this amount
by the total entered value of the sales to that
importer (or customer). Where an importer (or
customer)-specific ad valorem rate is greater than
de minimis, and the respondent has reported
reliable entered values, we apply the assessment
rate
to
the
entered
value
of
the
importer's/customer's entries during the review
period.
We intend to issue assessment instructions
directly to CBP 15 days after publication of the
final results of this review.
Cash Deposit Requirements
The following cash deposit requirements will
be effective upon publication of this notice for all
shipments of subject merchandise entered, or
withdrawn from warehouse, for consumption on
or after the publication of these final results, as
provided by section 751(a)(2) of the Act: (1) The

119a
cash deposit rate for respondents noted above will
be the rate established in the final results of this
administrative
review; (2) for merchandise
exported by manufacturers or exporters not
covered in this administrative review but covered
in a prior segment of the proceeding, the cash
deposit rate will continue to be the company
specific rate published for the most recently
completed segment of this proceeding; (3) if the
exporter is not a firm covered in this review, a
prior review, or the original investigation, but the
manufacturer is, the cash deposit rate will be the
rate established for the most recently completed
segment of this proceeding for the manufacturer
of the subject merchandise; and (4) the cash
deposit rate for all other
manufacturers or
exporters will continue to be 22.00 percent, the
all- others rate established in the antidumping
investigation. 13 These cash deposit requirements,
when imposed, shall remain in effect until
further notice.
Notification
to
Importers
Reimbursement of Duties

Regarding

the

This notice also serves as a final reminder to
importers of their responsibility under 19 CFR
351.402(f) to file a certificate regarding the
reimbursement
of
antidumping
and/or
countervailing duties prior to liquidation of the
13 See Large Power Transformers From the Republic of
Korea: Antidumping Duty Order, 77 FR 53177 (August 31,

2012).

120a
relevant entries during the POR. Failure to
comply with this requirement could result in the
Department's presumption that reimbursement
of antidumping and/or countervailing duties
occurred and
the subsequent assessment of
doubled antidumping duties.
Administrative Protective Order
This notice also serves as a reminder to parties
subject to administrative protective orders (APO)
of their responsibility concerning the return or
destruction of proprietary information disclosed
under APO in accordance with 19 CFR
351.305(a)(3), which continues to govern business
proprietary information in this segment of the
proceeding. Timely written notification of the
return/destruction
of APO materials, or
conversion to judicial protective order, is hereby
requested. Failure to comply with the regulations
and the terms of an APO is a sanctionable
violation.
We are issuing and publishing this notice in
accordance with sections 751(a)(1) and 777(i)(1) of
the Act and 19 CFR 351.213(h).
Dated: March 8, 2016.
Paul Piquado,

Assistant Secretary
Compliance.

for

Enforcement

and

Appendix
List of Topics Discussed in the Final Issues and
Decision Memorandum
I. Summary

121a
II. List of Issues
III. Background
IV. Scope of the Order
V. Discussion of Interested Party Comments
A. General Issues
Comment 1: The Use of Constructed Value to
Calculate Normal Value
Comment 2: Whether the Department Should
Apply the Transaction-toTransaction
Method,
and
Department Should Alter Its
Application of Differential
Administrative Review

Whether
Pricing

in

the
this

B. Hyosung--Specific Issues
Comment 3: The Department's Capping of Certain
Expense Revenues
Comment 4: The Department's Adjustment to
Home Market Warranty
Expenses and Indirect Selling Expenses
Comment 5: The Department's Treatment of
Ocean Freight Revenue
Comment 6: The Department's Treatment of U.S.
Commission Expenses
Comment 7: Clerical Error Related to U.S. Direct
Selling Expenses
C. Hyundai Heavy Industries Co., Ltd.--Specific
Issues

122a
Comment 8: Hyundai's Reporting of Constructed
Value
Comment 9: The Department's Treatment of U.S.
Commission Offset
Comment 10: Hyundai's
Reimbursed Expenses

Failure

to

Report

Comment 11: Hyundai Reporting of U.S. and
Home Market Dates of Sale
Comment 12: Hyundai's Reported Installation
and Supervision Expenses
Comment 13: Hyundai's Calculations of Indirect
Selling Expenses for the Home and U.S.
Markets
Comment 14: Hyundai's Failure to Provide
Audited 2013 Financial Statements for
Hyundai Corporation (Korea)
Comment 15: Application
Available to Hyundai

of

Adverse

Facts

Comment 16: Hyundai's Reporting of U.S. Credit
Expenses
Comment 17: Hyundai's Reporting of Bank
Charges Incurred on its U.S. Sales
Comment 18: Hyundai's
Brokerage Expenses

Reporting

of

U.S.

Comment 19: Hyundai's Reporting of U.S. Inland
Freight Expenses for U.S. Sales that Included
Spare Parts
Comment 20: Hyundai's Reporting of its U.S.
Supervision Costs

123a
Comment 21: Verification of Amounts Reported by
Hyundai for Warranty
Expenses and Domestic Indirect Selling Expenses
Incurred in the United States
Comment 22: Hyundai's Failure to Report
Inventory Carrying Costs Incurred in the
United States
Comment 23: Issues with Specific U.S. Sales
Comment 24: Hyundai's Reporting of Insurance
and Packing Expenses for Home-Market Sales
Comment 25: Hyundai's Reporting of HomeMarket Inland Trucking Expenses
Comment 26: Hyundai's Reporting Home Market
Insurance Expenses
Comment 27: Hyundai's Reporting of Other Direct
Selling Expenses
Comment 28: Hyundai's Reporting of Actual
Packing Expenses
Comment 29: Hyundai's Reporting of Warranty
Guarantee Expenses
Comment 30: Correction to Hyundai's Liquidation
Instructions
VI. Recommendation

124a

Issues and Decision Memorandum for the Final
Results of the Administrative Review of the
Antidumping Duty Order on Large Power
Transformers from the Republic of Korea; 20132014 (Mar. 8, 2016) (relevant excerpt)
Comment 10:
Hyundai’s Failure to Report
Reimbursed Expenses

Petitioner’s Comments
•

Documents obtained at verification
demonstrate that Hyundai improperly
reported its gross unit prices for U.S. sales
by including revenues in the prices for
services in excess of the expenses incurred
on the services. The Department should
cap such revenues by the amount of
directly-associated expenses, in keeping
with its long-established practice of
capping these revenues. By including the
excess revenues in its reported gross unit
prices, Hyundai artificially increased the
prices of the U.S. sales.

•

Because Hyundai did not provide an
individual reporting of revenue items for
its U.S. sales – items that could then be
capped by associated expenses – the
Department has no means to calculate an
accurate U.S. net price or dumping
margin on any U.S. sale and must thus
base the final results for Hyundai on some
form of facts available. Given Hyundai’s
purposeful misstatement of gross unit
price and its other failures to cooperate
with the Department’s requests for

125a
information, as set forth in Petitioner’s
brief, the Department should apply total
facts available to Hyundai.
•

If the Department does not apply total
facts available, it should at least apply
partial facts available to Hyundai’s final
margin by reducing the company’s
reported U.S. gross unit prices by the
amount of highest calculated profit on
sales expenses, as indicated by sales- trace
information on the record.

Hyundai’s Comments
•

Petitioner’s argument and manipulated
presentation of the record is similar to
that presented to and rejected by the
Department with respect to Hyundai’s
reported prices in the investigation of the
proceeding. In the investigation, the
Department recognized that services
included within the terms of certain sales
were not separately-arranged services
made on behalf of the customer and for
which reimbursement was sought from
the customer. This distinction is clearly
set forth in Ball Bearings and Parts

Thereof From France, Germany, Italy,
Japan, and the United Kingdom: Final
Results
of
Antidumping
Duty
Administrative Reviews and Revocation of
an Order in Part, 74 FR 44819 (August 31,

2009) and accompanying Issues and
Decision Memorandum at Comment 12,
where the Department found that two

126a
respondents had arranged and prepaid
freight and insurance at the request of a
customer.
•

Precedent cited by Petitioner does not
apply to Hyundai because, in a review of
the order on light-walled rectangular pipe
and tube from Mexico, the Department
found the respondent allowed customers
to purchase insurance separately from
subject merchandise and, in reviews of the
order on certain orange juice from Brazil,
the
Department
also
distinguished
services included within the terms of sale
from those the respondent arranged for
the customer.

•

The examples from Hyundai’s sales data
cited by Petitioner demonstrate that
Hyundai did correctly report its U.S. gross
unit prices. With respect to the first
example, it concerns the value of a
component incorporated into the LPT and
not a separate service.
The second
example is a sale where the contract was
made on a lump-sum basis and items cited
by Petitioner as additional services were
included in the terms of sale. The third
example also concerns a sale where the
cited services were included in the terms
of sale, as was the case for the fourth
example, which was made to the same
customer with the same terms of sale.
Finally, the fifth example reflects a
misrepresentation of the purchase order

127a
by Petitioner, as the “line items” cited by
Petitioner do not actually appear on the
order but as “line item descriptions” on
the contract agreement between HHI and
HDCP USA.

Department’s Position
In general, reimbursed expenses only arise
when the expenses are listed as separate line
items on a sales invoice and there is a clear
distinction between the line-item price of a
product and its invoice price (i.e., including the
price of the product and additional expenses).
Further, it is incumbent upon a respondent
company to report such expenses and
corresponding revenues in separate data fields
from the field for gross unit price in its sales
listing, as instructed in our antidumping duty
questionnaire. In the current review, Hyundai did
not report any of these expenses or revenues and
based its reported gross unit price for U.S. sales
on the invoice price, less any expenses for “spare
parts.“ 178

In the current review, as in previous segments of the
proceeding, the Department instructed respondents to
report gross unit price to only reflect the price of the LPT
and not any spare parts, unless such parts were needed to
assemble an incomplete LPT. See “Memorandum to the
File, Antidumping Duty Investigation of Large Power
Transformers from the Republic of Korea: Phone
Conversation with Frank Morgan, counsel to Hyundai
Heavy Industries Co., Ltd. (Hyundai)” dated January 11,
2012, and Hyundai’s Supplemental Questionnaire
Response, dated January 23, 2012 at 43 to 44.
178

128a
A review of sales documentation on the record,
including the sales traces reviewed at verification,
show no indication that Hyundai improperly
reported its sales data. Although some expense
amounts (and spare part amounts) may have been
broken out in the purchase orders, the totals on
the purchase orders are lump-sum amounts and
these amounts all tie to the invoice totals. Based
on our review of the sales traces, we find that the
expenses with which Petitioner takes issue
represent a main component of a LPT, freight
expenses, and other costs related to shipment or
production of the LPTs. None of these expenses
are inconsistent with the reported terms of sale
(i.e., the freight expenses are consistent with the
terms of delivery) and, as they were not listed as
a separate line item on the sales invoices or
separately invoiced to the customers, we find no
basis to indicate Hyundai sought or obtained reimbursements for the expenses from the
customers. Petitioner has noted that some of the
expense amounts exceed those actually incurred
by Hyundai for the services, resulting in a profit
for Hyundai. This finding, however, is immaterial
to the question of whether Hyundai obtained
reimbursement from its customers. Petitioner
also cited Department determinations supporting
our practice of capping revenues by the amount of
directly-associated expenses. This practice is not
relevant to the discussion, however, because
Hyundai has not reported revenues from
reimbursements and the record does not suggest
it should have done so.

129a
As observed by Hyundai, Petitioner raised a
similar argument in the investigation of this
proceeding. At that time, we concluded that the
company “invoices on a lump-sum, project basis
and that it does not separately invoice customers
for services”. 179 Based on the record of the current
review, we again reach this conclusion. Thus, we
find that Hyundai was not obligated to report
separate expenses and revenues for reimbursed
services related to its U.S. sales and that its
reported gross unit price for each sale is the
appropriate basis for the calculation of CEP for its
final dumping margin.

See Large Power Transformers From the Republic of
Korea: Final Determination of Sales at Less Than Fair
Value, 77 FR 40857 (July 11, 2012) (LPTs Final
Determination), and accompanying Issues and Decision
179

Memorandum at Comment 4, 29.

130a

Large Power Transformers from the Republic of
Korea: Preliminary Results of Antidumping Duty
Administrative Review; 2013-2014, 80 Fed. Reg.
53496 (Sept. 4, 2015)

DEPARTMENT OF COMMERCE
International Trade Administration
[A-580-867]
Large Power Transformers From the Republic of
Korea: Preliminary Results of Antidumping Duty
Administrative Review; 2013-2014
AGENCY:
Enforcement
and
Compliance,
International Trade Administration, Department
of Commerce.
SUMMARY: The Department of Commerce (the
Department) is conducting an administrative
review of the antidumping duty order on large
power transformers (LPTs) from the Republic of
Korea (Korea). 1 The period of review (POR) is
August 1, 2013, through July 31, 2014. The
review covers five producers/exporters of the
subject merchandise, Hyosung
Corporation
(Hyosung), Hyundai Heavy Industries Co., Ltd.
(Hyundai),
ILJIN, ILJIN Electric Co., Ltd.
(ILJIN Electric), and LSIS Co., Ltd. (LSIS). We
preliminarily determine that sales of subject
merchandise by Hyosung and Hyundai, the two
companies selected for individual examination,
1 See Initiation of Antidumping and Countervailing Duty
Administrative Reviews, 79 FR 58729 (September 30, 2014).

131a
were made at less than normal value during the
POR. Interested parties are invited to comment
on these preliminary results.
DATES: Effective Date: September 4, 2015.
FOR FURTHER INFORMATION CONTACT:
Brian Davis or Edythe Artman, AD/CVD
Operations,
Office
VI,
Enforcement
and
Compliance, International Trade Administration,
U.S. Department of Commerce, 14th Street and
Constitution Avenue NW., Washington, DC
20230; telephone: (202) 482- 7924 or (202) 4823931, respectively.
SUPPLEMENTARY INFORMATION:
Scope of the Order
The scope of this order covers large liquid
dielectric power transformers (LPTs) having a top
power handling capacity greater than or equal to
60,000 kilovolt amperes (60 megavolt amperes),
whether assembled or unassembled, complete or
incomplete. The merchandise subject to the order
is currently classified in the Harmonized Tariff
Schedule of the United States at subheadings
8504.23.0040, 8504.23.0080 and 8504.90.9540.
This tariff classification is provided for
convenience and Customs purposes; however, the
written description of the scope of the order is
dispositive. A full description of the scope of the
order is contained in the memorandum from Gary
Taverman, Associate Deputy Assistant Secretary
for AD/CVD Operations, to Paul
Piquado,
Assistant Secretary for Enforcement and
Compliance, titled “Decision Memorandum for

132a
Preliminary Results of Antidumping Duty
Administrative
Review:
Large
Power
Transformers from the Republic of Korea; 20132014” (Preliminary Decision Memorandum),
which is issued concurrent with and hereby
adopted by this notice.
The Preliminary Decision Memorandum is a
public document and is on file electronically via
Enforcement and Compliance's Antidumping and
Countervailing Duty Centralized Electronic
Service System (ACCESS). Access to ACCESS is
available
to
registered
users
at
http://access.trade.gov and is available to all
parties in the Central Records Unit, Room B8024
of the main Department of Commerce building. In
addition, a complete version of the Preliminary
Decision Memorandum can be accessed directly
on
the
Internet
at
http://enforcement.trade.gov/frn/index.html. A list
of topics discussed in the Preliminary Decision
Memorandum is attached as an Appendix to this
notice. The signed
Preliminary Decision
Memorandum and the electronic versions of the
Preliminary Decision Memorandum are identical
in content.
Methodology
The Department has conducted this review in
accordance with section 751(a)(2) of the Tariff Act
of 1930, as amended (the Act). Constructed export
price (CEP) is calculated in accordance with
section 772 of the Act. Normal value is calculated
in accordance with section 773 of the Act. For a
full description of the methodology underlying our

133a
conclusions, see
Memorandum.

the

Preliminary

Decision

Preliminary Results of Review
We preliminarily determine that, for the
period August 1, 2013, through July 31, 2014, the
following dumping margins exist: 2

Manufacturer/exporter

Weightedaverage
dumping
margin
(percent)

Hyosung Corporation……………

11.01

Hyundai Heavy Industries Co.,
Ltd…………………………………

3.96

Iljin Electric Co., Ltd……………

7.49

Iljin………………………………..

7.49

LSIS Co., Ltd……………………..

7.49

Disclosure and Public Comment
The Department will disclose to parties to the
proceeding any
calculations performed in
connection with these preliminary results of
As we did not have publicly-ranged U.S. sales volumes for
Hyosung for the period August 1, 2013, through July 31,
2014, to calculate a weighted-average percentage margin
for the non-selected companies (i.e., ILJIN, ILJIN Electric,
and LSIS) in this review, the rate applied to the nonselected companies is a simple average percentage margin
calculated based on the margins calculated for Hyosung
and Hyundai.
2

134a
review within five days after the date of
publication of this notice. 3 The Department will
announce the briefing schedule to interested
parties at a later date. Interested parties may
submit case briefs on the deadline that the
Department will announce and rebuttal briefs
within five days after the time limit for filing case
briefs. 4 Rebuttal briefs, the content of which is
limited to the issues raised in the case briefs,
must be filed within five days from the deadline
date for the submission of case briefs. 5
Parties who submit arguments in this
proceeding are requested to submit with each
argument: (1) A statement of the issue; (2) a brief
summary of the argument; and (3) a table of
authorities. 6 Case and rebuttal briefs should be
filed using ACCESS. 7 Case and rebuttal briefs
must be served on interested parties. 8 Executive
summaries should be limited to five pages total,
including footnotes.
Pursuant to 19 CFR 351.310(c), interested
parties who wish to request a hearing must
submit a written request to the Assistant
Secretary for Enforcement and Compliance within
30 days of the date of publication of this notice.
3

See 19 CFR 351.224.(b).

4

See 19 CFR 351.309(c)(1)(ii) and (d)(1).

5

See 19 CFR 351.309(d)(1) and (2).

6

See 19 CFR 351.309(c)(2).

7

See generally 19 CFR 351.303.

8

See 19 CFR 351.303(f).

135a
Requests should contain: (1) The party's name,
address and telephone number; (2) The number of
participants; and (3) A list of issues parties
intend to discuss. Issues raised in the hearing
will be limited to those raised in the respective
case and rebuttal briefs. If a request for a hearing
is made, the Department intends to hold the
hearing at the U.S. Department of Commerce,
14th
Street and Constitution Avenue NW.,
Washington, DC 20230, at a date and time to be
determined. 9 Parties should confirm by telephone
the date, time, and location of the hearing two
days before the scheduled date.
The Department intends to publish the final
results of this administrative review, including
the results of its analysis of issues addressed in
any case or rebuttal brief, no later than 120 days
after publication of these preliminary results,
unless extended. 10
Assessment Rates
Upon completion of this administrative review,
the Department shall determine, and Customs
and Border Protection (CBP) shall assess,
antidumping duties on all appropriate entries. 11 If
respondents' weighted-average dumping margin
is not zero or de minimis in the final results of
this review, we will calculate importer-specific
assessment rates on the basis of the ratio of the
9

See 19 CFR 351.310(d).

10

See section 751(a)(3)(A) of the Act; 19 CFR 351.213(h).

11

See 19 CFR 351.212(b)(1).

136a
total amount of antidumping duties calculated for
an importer's examined sales and the total
entered value of such sales in accordance with 19
CFR 351.212(b)(1). If
respondents' weightedaverage dumping margin is zero or de minimis in
the final results of review, we will instruct CBP
not to assess duties on any of its entries in
accordance with the Final Modification for
Reviews, i.e., “{w}here the weighted-average
margin of dumping for the exporter is determined
to be zero or de minimis, no antidumping duties
will be assessed.” 12
We intend to issue liquidation instructions to
CBP 15 days after publication of the final results
of this review.
Cash Deposit Requirements
The following cash deposit requirements will
be effective upon publication of the final results
of this administrative review for all shipments of
the subject merchandise entered, or withdrawn
from warehouse, for consumption on or after the
publication date of the final results of this
administrative review, as provided by section
751(a)(2)(C) of the Act: (1) The cash deposit rate
for Hyosung and Hyundai will be that established
in the final results of this administrative review;
(2) for previously reviewed or investigated
See Antidumping Proceedings: Calculation of the
Weighted-Average Dumping Margin and Assessment Rate
in Certain Antidumping Proceedings: Final Modification, 77
FR 8101, 8102 (February 14, 2012) (Final Modification for
Reviews).
12

137a
companies not listed above, the cash deposit rate
will continue to be the company-specific rate
published for the most recent period; (3) if the
exporter is not a firm covered in this review, a
prior review, or in the investigation but the
manufacturer is, the cash deposit rate will be the
rate established for the most recent period for the
manufacturer of the merchandise; and (4) the
cash deposit rate for all other manufacturers or
exporters will continue to be the all-others rate of
22.00 percent, which is the all-others rate
established in the investigation. 13 These cash
deposit requirements, when imposed, shall
remain in effect until further notice.
Notification to Importers
This notice also serves as a reminder to
importers of their responsibility under 19 CFR
351.402(f)(2) to file a certificate regarding the
reimbursement of antidumping duties prior to
liquidation of the relevant entries during this
review period. Failure to comply
with this
requirement could result in the Department's
presumption that reimbursement of antidumping
duties occurred and the subsequent assessment
of double antidumping duties.
We are issuing and publishing this notice in
accordance with sections 751(a)(1) and 777(i)(1) of
the Act.

See Large Power Transformers From the Republic of
Korea: Antidumping Duty Order, 77 FR 53177 (August 31,
2012).
13

138a
Dated: August 31, 2015.
Paul Piquado,

Assistant Secretary
Compliance.

for

Enforcement

and

Appendix I--List of Topics Discussed in the
Preliminary Decision Memorandum
1. Background
2. Companies
Examination

Not

Selected

for

Individual

3. Deadline for Submission of Updated Sales and
Cost Information
4. Verification
5. Scope of the Order
6. Comparisons to Normal Value
A. Determination of Comparison Method
B. Results of the Differential Pricing Analysis
7. Product Comparisons
8. Date of Sale
9. Constructed Export Price
10. Normal Value
A. Home Market Viability as Comparison
Market
B. Level of Trade
C. Cost of Production
1. Calculation of Cost of Production
2. Test of Comparison Market Sales Prices

139a
3. Results of the Cost of Production Test
D. Calculation of Normal Value Based on
Comparison Market Prices
E. Price-to-Constructed Value Comparison
F. Constructed Value
11. Currency Conversion
12. Recommendation

140a

Large Power Transformers from the Republic of
Korea: Final Results of Antidumping Duty
Administrative Review; 2012-2013, 80 Fed. Reg.
17034 (Mar. 31, 2015)

DEPARTMENT OF COMMERCE
International Trade Administration
[A-580-867]
Large Power Transformers From the Republic of
Korea: Final Results of Antidumping Duty
Administrative Review; 2012-2013
AGENCY:
Enforcement
and
Compliance,
International Trade Administration, Department
of Commerce.
SUMMARY: On September 24, 2014, the
Department of Commerce (the
Department)
published the preliminary results of the
administrative review of the antidumping duty
order on large power transformers from the
Republic of Korea. 1 The review covers five
producers/exporters of the subject merchandise,
Hyosung Corporation (Hyosung), Hyundai Heavy
Industries Co., Ltd. (Hyundai), ILJIN, ILJIN
Electric Co., Ltd. (ILJIN Electric), and LSIS Co.,
Ltd. (LSIS). ILJIN, ILJIN Electric, and LSIS,
were not selected for individual examination. The
period of review (POR) is February 16, 2012,
through July 31, 2013. As a result of our analysis
See Large Power Transformers From the Republic of
Korea:
Preliminary Results of Antidumping Duty
Administrative Review; 2012- 2013, 79 FR 57046

1

(September 24, 2014) (Preliminary Results).

141a
of the comments and information received, these
final results differ from the Preliminary Results.
For the final weighted-average dumping margins,
see the “Final Results of Review'' section below.
DATES: Effective March 31, 2015.
FOR FURTHER INFORMATION CONTACT:
Brian Davis (Hyosung) or David Cordell
(Hyundai), AD/CVD Operations, Office VI,
Enforcement and Compliance,
International
Trade Administration, U.S. Department of
Commerce, 14th Street and Constitution Avenue
NW., Washington, DC 20230; telephone: (202)
482-7924 or (202) 482-0408, respectively.
SUPPLEMENTARY INFORMATION:
Background
On September 24, 2014, the Department
published the Preliminary Results. In accordance
with 19 CFR 351.309(c)(1)(ii), we invited parties
to comment on our Preliminary Results. 2 On
October 15, 2014, the Department issued a postpreliminary supplemental questionnaire, to
which Hyundai responded on November 3 and 12,
2014, and December 2, 2014. On December 19,
2014, Hyosung and ABB Inc. (Petitioner) timely
submitted case briefs. 3 Rebuttal briefs were also
The Department issued the briefing schedule in a
Memorandum to the File, dated November 3, 2014. This
briefing schedule was later extended at the request of
interested parties to December 19, 2014 for briefs and
January 9, 2015 for rebuttal briefs on all issues, except one.
2

3 See Brief from Petitioner regarding Hyundai, (Petitioner
Brief Hyundai), Brief from Petitioner regarding Hyosung

142a
timely filed by Hyosung, Hyundai,
and
4
Petitioner, on January 9, 2015. On January 20,
2015, the Department issued a memorandum
extending the time period for issuing the final
results of this administrative review from
January 22, 2015 to March 16, 2015. On March 6,
2015, the Department further extended the final
results to March 23, 2015. 5
Scope of the Order
The scope of this order covers large liquid
dielectric power transformers (LPTs) having a top
power handling capacity greater than or equal to
60,000 kilovolt amperes (60 megavolt amperes),
whether assembled or unassembled, complete or
incomplete. The merchandise subject to the order
is currently classified in the Harmonized Tariff
Schedule of the United States at subheadings
8504.23.0040, 8504.23.0080 and 8504.90.9540. 6
(Petitioner Brief Hyosung) and Hyosung Brief, all dated
December 19, 2014.
4 See Hyosung Rebuttal Brief, Hyundai Rebuttal Brief and
Petitioner Rebuttal Brief: All dated January 9, 2015.
Petitioner requested an extension for rebuttal briefs to
January 9, 2015 which the Department granted for all
parties on December 8, 2014. See Letter to All Interested
Parties dated December 8, 2014. Petitioner also requested
a further extension for submission of the initial briefs,
which the Department denied in its letter to all parties
dated December 17, 2014, with the exception of one issue.

See Memoranda to the file dated January 20, 2015 and
March 6, 2015.

5

6 For a full description of the scope of the order, see the
Memorandum from Gary Taverman, Associate Deputy

143a
Analysis of Comments Received
All issues raised in the case and rebuttal briefs
by parties to this administrative review are
addressed
in
the
Issues
and
Decision
Memorandum. 7 A list of the issues that parties
raised and to which we responded is attached to
this notice as an Appendix. The Issues and
Decision Memorandum is a public document and
is on-file electronically via ACCESS. ACCESS is
available
to
registered
users
at
http://access.trade.gov and in the Central Records
Unit, Room 7046 of the main Department of
Commerce building. In addition, a complete
version of the Issues and Decision Memorandum
can be accessed directly on the Internet at
http://enforcement.ita.doc.gov/frn/index.html. The
signed Issues and Decision Memorandum and the
electronic version of the Issues and Decision
Memorandum are identical in content.
Changes Since the Preliminary Results
Based on a review of the record and comments
received from interested parties regarding our
Preliminary Results, we recalculated Hyosung's
Assistant Secretary for Antidumping and Countervailing
Duty Operations, to Paul Piquado, Assistant Secretary for
Enforcement and Compliance, titled “Issues and Decision
Memorandum for the Final Results of the Administrative
Review of the Antidumping Duty Order on Large Power
Transformers from the Republic of Korea; 2012-2013''
(Issues and Decision
Memorandum), which is issued
concurrent with and hereby adopted by this notice, and
dated concurrently with this notice.
7

Id.

144a
and
Hyundai's
weighted-average
margins for these final results.

dumping

For Hyosung, we revised our margin program
by adjusting Hyosung's
reported U.S. duty
expenses for certain sales transactions. We are
also including U.S. freight expenses that were
excluded in the Preliminary
Results and
including the entered value of a unit that entered
the
United States during the POR in our
calculation of the assessment rates for entries of
LPTs during the POR. 8
We made some changes to our calculation
programs for Hyundai with respect to oil and
certain other expenses. We also used the latest
revised databases for U.S. sales and the Cost of
Production
based
on
post-preliminary
9
questionnaires and responses.

8 See Memorandum from Brian Davis to the File, regarding
“Analysis of Data Submitted by Hyosung Corporation in the
Final
Results of the Administrative Review of the
Antidumping Duty Order on Large Power Transformers
from the Republic of Korea; 2012-2013'' (Hyosung Final
Analysis Memorandum), dated March 23, 2014, at section
“Changes from the Preliminary Results,'' for further
information.

See Memorandum from David Cordell to the File,
regarding “Analysis of Data Submitted by Hyundai Heavy
Industries Co., Ltd.
in the Final Results of the
Administrative Review of the Antidumping Duty Order on
Large Power Transformers from the Republic of Korea;
2012-2013'' (Hyundai Final Analysis Memorandum), dated
March 23, 2014, at section “Changes from the Preliminary
Results,'' for further information.
9

145a
As
a
result
of
the
aforementioned
recalculations of Hyosung's and
Hyundai's
weighted-average
dumping
margins,
the
weighted-average dumping margin for the three
non-selected companies also changed.
Final Results of the Review
As a result of this review, the Department
determines the following weighted-average
dumping margins 10 for the period February 16,
2012, through July 31, 2013, are as follows:

Manufacturer/exporter

Weightedaverage
dumping
margin
(percent)

Hyosung Corporation………………

6.43

Hyundai Heavy Industries Co.,
Ltd…………………………………….

9.53

Iljin Electric Co., Ltd………………

8.16

The rate applied to the non-selected companies (i.e.,
ILJIN, ILJIN Electric, and LSIS) is a weighted-average
percentage margin calculated based on the publicly-ranged
U.S. volumes of the two reviewed companies with an
affirmative dumping margin, for the period February 16,
2012, through July 31, 2013. See Memorandum to the File
titled, “Large Power Transformers from the Republic of
Korea: Final Dumping Margin for Respondents Not
Selected for Individual Examination,'' through Angelica
Townshend, Program Manager, dated concurrently with
this notice.
10

146a
Iljin…………………………………..

8.16

LSIS Co., Ltd……………………….

8.16

Duty Assessment
The Department shall determine and U.S.
Customs and Border
Protection (CBP) shall
assess antidumping duties on all appropriate
entries. 11
For any individually examined
respondents whose weighted- average dumping
margin is above de minimis, we calculated
importer- specific ad valorem duty assessment
rates based on the ratio of the total amount of
dumping calculated for the importer's examined
sales to the total entered value of those same
sales in accordance with 19 CFR 351.212(b)(1).
Upon issuance of the final results of this
administrative review, if any importer-specific
assessment rates calculated in the final results
are above de minimis (i.e., at or above 0.5
percent), the Department will issue instructions
directly to CBP to assess antidumping duties on
appropriate entries.
To determine whether the duty assessment
rates covering the period were de minimis, in
accordance with the requirement set forth in 19
CFR
351.106(c)(2), for each respondent we
In these final results, the Department applied the
assessment
rate
calculation
method
adopted
in
Antidumping Proceedings: Calculation of the WeightedAverage Dumping Margin and Assessment Rate in Certain
Antidumping Proceedings: Final Modification, 77 FR 8101
(February 14, 2012).
11

147a
calculated importer (or
customer)-specific ad
valorem rates by aggregating the amount of
dumping calculated for all U.S. sales to that
importer or customer and dividing this amount
by the total entered value of the sales to that
importer (or customer). Where an importer (or
customer)-specific ad valorem rate is greater than
de minimis, and the respondent has reported
reliable entered values, we apply the assessment
rate
to
the
entered
value
of
the
importer's/customer's entries during the review
period.
The Department clarified its
“automatic
assessment'' regulation on May 6, 2003. 12 This
clarification will apply to entries of subject
merchandise during the POR produced by the
respondent for which it did
not know its
merchandise was destined for the United States.
In such instances, we will instruct CBP to
liquidate unreviewed entries at the all-others
rate if there is no rate for the intermediate
company(ies) involved in the transaction. For a
full discussion of this
clarification, see the

Automatic Assessment Clarification.

We intend to issue assessment instructions
directly to CBP 15 days after publication of the
final results of this review.

See Antidumping and Countervailing Duty Proceedings:
Assessment of Antidumping Duties, 68 FR 23954 (May 6,
2003) (Automatic Assessment Clarification).
12

148a
Cash Deposit Requirements
The following cash deposit requirements will
be effective upon publication of this notice for all
shipments of subject merchandise entered, or
withdrawn from warehouse, for consumption on
or after the publication of these final results, as
provided by section 751(a)(2) of the Act: (1) The
cash deposit rate for respondents noted above will
be the rate established in the final results of this
administrative
review; (2) for merchandise
exported by manufacturers or exporters not
covered in this administrative review but covered
in a prior segment of the proceeding, the cash
deposit rate will continue to be the company
specific rate published for the most recently
completed segment of this proceeding; (3) if the
exporter is not a firm covered in this review, a
prior review, or the original investigation, but the
manufacturer is, the cash deposit rate will be the
rate established for the most recently completed
segment of this proceeding for the manufacturer
of the subject merchandise; and (4) the cash
deposit rate for all other
manufacturers or
exporters will continue to be 29.93 percent, the
all- others rate established in the antidumping
investigation. 13 These cash deposit requirements,
when imposed, shall remain in effect until
further notice.

See Large Power Transformers From the Republic of
Korea: Antidumping Duty Order, 77 FR 53177 (August 31,
13

2012).

149a
Notification
to
Importers
Reimbursement of Duties

Regarding

the

This notice also serves as a final reminder to
importers of their responsibility under 19 CFR
351.402(f) to file a certificate regarding the
reimbursement
of
antidumping
and/or
countervailing duties prior to liquidation of the
relevant entries during the POR. Failure to
comply with this requirement could result in the
Department's presumption that reimbursement
of antidumping and/or countervailing duties
occurred and
the subsequent assessment of
doubled antidumping duties.
Administrative Protective Order
This notice also serves as a reminder to parties
subject to administrative protective orders (APO)
of their responsibility concerning the return or
destruction of proprietary information disclosed
under APO in accordance with 19 CFR
351.305(a)(3), which continues to govern business
proprietary information in this segment of the
proceeding. Timely written notification of the
return/destruction
of
APO
materials,
or
conversion to judicial protective order, is hereby
requested. Failure to comply with the regulations
and the terms of an APO is a sanctionable
violation.
We are issuing and publishing this notice in
accordance with sections 751(a)(1) and 777(i)(1) of
the Act and 19 CFR 351.213(h).
Dated: March 23, 2015.

150a
Paul Piquado,

Assistant Secretary
Compliance.

for

Enforcement

and

Appendix
List of Topics Discussed in the Final Issues and
Decision Memorandum
I. Summary
II. List of Issues
III. Background
IV. Discussion of Interested Party Comments
A. General Issues
Comment 1: Whether the Department Treats
Installation Expenses as Further Manufacturing
Costs
B. Hyosung-Specific Issues
Comment 2: Discrepancies Between Hyosung's
Net U.S. Price (as Calculated by the Department)
and Reported Entered Values
Comment 3: Hyosung Has Overstated Its
Reported U.S. Prices and Understated/Omitted
U.S. Expenses and Whether To Apply Adverse
Facts Available (AFA)
Comment 4: U.S. Commission Expenses
Comment 5: U.S. Ocean Freight Expenses
Comment 6: Installation Expenses
Comment 7: The Department Erred
Conducting the Differential Pricing Analysis

in

151a
Comment 8: Consideration of an Alternative
Comparison Method in an Administrative Review
Comment 9: Denial of Offsets for Non-Dumped
U.S. Sales When Using the A-To-T Comparison
Method In Administrative Reviews
Comment 10: Harbor Maintenance Fees
Comment 11: Oil Expenses
Comment 12: Exclusion of Certain U.S. Freight
Expenses for a Particular U.S. Sales Transaction
Comment 13: Calculation of Importer-Specific
Assessment Rate
Comment
14:
Incomplete
Manufacturing Cost Data

Further

C. Hyundai-Specific Issues
Comment 15: Hyundai's U.S. Sales Data are
Not Reliable or Verifiable Because of Certain
Submissions and Should Not Be Used in the Final
Results
Comment 16: AFA With Respect to Comment
15 (Above).
Comment 17: “Overlapping'' Sales Between
Investigation and This Review
Comment 18: Alleged Underreported U.S.
Movement and Selling Expenses
Comment 19: Hyundai's Reporting of Home
Market Sales
Comment 20: Indirect Selling Expenses
Comment 21: Section E Response Was Not
Complete

152a
Comment 22: Whether Total AFA is Warranted
Based On the Totality
of Hyundai's Responses
V. Recommendation

153a

Large Power Transformers From the Republic of
Korea: Final Determination of Sales at Less
Than Fair Value, 77 Fed. Reg. 40857 (July 11,
2012)

DEPARTMENT OF COMMERCE
International Trade Administration
[A-580-867]
Large Power Transformers From the Republic of
Korea: Final Determination of Sales at Less Than
Fair Value
AGENCY: Import Administration, International
Trade Administration, Department of Commerce.
SUMMARY: The Department of Commerce (the
Department) has determined that imports of
large power transformers from the Republic of
Korea (Korea) are being, or are likely to be, sold
in the United States at less than fair value
(LTFV), as provided in section 735 of the Tariff
Act of 1930, as amended (the Act). The estimated
margins of sales at LTFV are listed in the
“Continuation of Suspension of Liquidation''
section of this notice.
DATES: Effective Date: July 11, 2012.
FOR FURTHER INFORMATION CONTACT:
David Cordell and Brian Davis, AD/CVD
Operations, Office 7, Import Administration,
International Trade
Administration, U.S.
Department of Commerce, 14th Street and
Constitution Avenue NW., Washington, DC
20230; telephone: (202) 482- 0408 or (202) 4827924, respectively.

154a
SUPPLEMENTARY INFORMATION:
Background
On February 16, 2012, the Department
published in the Federal Register its preliminary
determination
in
the
antidumping
duty
investigation of large power transformers from
Korea. See Large Power Transformers From the

Republic of Korea: Preliminary Determination of
Sales at Less Than Fair Value and Postponement
of Final Determination, 77 FR 9204 (February
16, 2012) (Preliminary Determination).

As provided in section 782(i) of the Act, we
conducted sales and cost verifications of the
questionnaire responses submitted by the
mandatory
respondents,
Hyundai
Heavy
Industries Co., Ltd. (Hyundai) and Hyosung
Corporation (Hyosung). We used standard
verification procedures, including examination of
relevant accounting and production records, as
well as original source documents provided by
both companies. 1

See Memoranda to the File entitled “Home Market
Verification of the Sales Response of Hyosung Corporation
in the Antidumping Duty Investigation of Large Power
Transformers from the Republic of Korea,'' dated May 4,
2012; “Home Market Verification of the Sales Response of
Hyundai Heavy Industries Co., Ltd. ( “HHI'') and Hyundai
Corporation, U.S.A. (collectively Hyundai) in
the
Antidumping Duty Investigation of Large Power
Transformers from the Republic of Korea,'' dated May 10,
2012; “Constructed Export Price Verification of the Sales
Response of Hyosung Corporation in the Antidumping
Duty Investigation of Large Power Transformers from the

1

155a
We received case briefs from ABB Inc., Delta
Star, Inc., and
Pennsylvania Transformer
Technology
Inc.
(collectively,
Petitioners),
Hyundai, and Hyosung on May 25, 2012. These
parties submitted rebuttal comments on June 1,
2012. No hearing was requested.
On June 4, 2012 and June 6, 2012, the
Department solicited revised
sales and cost
databases
from
Hyosung
and
Hyundai,
respectively, to address minor corrections and
findings from verification. Accordingly, Hyundai
and Hyosung submitted revised sales and cost
databases on June 12, 2012. We met with counsel
for Petitioners, Hyundai, and Hyosung on June
13, June 18, and June 19, 2012, respectively. 2

Republic of Korea,'' dated May 15, 2012; “Constructed
Export Price Verification of the Sales Response of Hyundai
Heavy Industries (HHI) and Hyundai Corporation, U.S.A.
(collectively Hyundai) in the
Antidumping Duty
Investigation of Large Power Transformers from the
Republic of Korea,'' dated May 16, 2012; “Verification of the
Cost Response of Hyosung Corporation in the Antidumping
Investigation of Large Power Transformers from South
Korea,'' dated May 4, 2012; and “Verification of the Cost of
Production and Constructed Value Data Submitted by
Hyundai Heavy Industries Co., Ltd. in the Antidumping
Duty Investigation of Large Power Transformers from the
Republic of Korea,'' dated May 2, 2012.
2 See Memoranda to the File entitled, “Antidumping Duty
Investigation concerning Large Power Transformers from
the Republic
of Korea: Department Meeting with
Petitioners' Counsel,'' dated June 15, 2012, “Antidumping
Duty Investigation concerning Large Power Transformers
from the Republic of Korea: Department Meeting with
Respondent's Counsel (Hyundai),'' dated June 20, 2012, and

156a
Period of Investigation
The period of investigation is July 1, 2010,
through June 30, 2011.
Scope of Investigation
The scope of this investigation covers large
liquid dielectric
power transformers (LPTs)
having a top power handling capacity greater
than or equal to 60,000 kilovolt amperes (60
megavolt amperes), whether
assembled or
unassembled, complete or incomplete.
Incomplete LPTs are subassemblies consisting
of the active part and any other parts attached to,
imported with or invoiced with the active parts of
LPTs. The “active part'' of the transformer
consists of one or more of the following when
attached to or otherwise assembled with one
another: The steel core or shell, the windings,
electrical insulation between the windings, the
mechanical frame for an LPT.
The product definition encompasses all such
LPTs regardless of name designation, including
but not limited to step-up transformers, stepdown
transformers,
autotransformers,
interconnection transformers, voltage regulator
transformers, rectifier transformers, and power
rectifier transformers.
“Antidumping Duty Investigation concerning Large Power
Transformers from the Republic of Korea: Department
Meeting
with
Respondent's
Counsel
(Hyosung
Corporation),'' dated June 19, 2012.

157a
The LPTs subject to this investigation are
currently classifiable
under subheadings
8504.23.0040, 8504.23.0080 and 8504.90.9540 of
the Harmonized Tariff Schedule of the United
States (HTSUS). Although the
HTSUS
subheadings are provided for convenience and
customs purposes, the written description of the
scope of this investigation is dispositive.
Analysis of Comments Received
All issues raised in the case and rebuttal briefs
by parties to this antidumping investigation are
addressed
in
the
Issues
and
Decision
Memorandum from Gary Taverman, Senior
Advisor for Antidumping and Countervailing
Duty Operations, to Paul Piquado, Assistant
Secretary for Import Administration (Issues and
Decision Memorandum), which is
dated
concurrently with and hereby adopted by this
notice. A list of the issues raised is attached to
this notice as Appendix I. The Issues
and
Decision Memorandum is a public document and
is
on
file
electronically
via
Import
Administration's
Antidumping
and
Countervailing Duty Centralized Electronic
Service System (IA ACCESS). Access to IA
ACCESS is available in the Central Records Unit
(CRU), room 7046 of the main Department of
Commerce building. In addition, a
complete
version of the Issues and Decision Memorandum
can be accessed directly on the Internet at
http://www.trade.gov/ia/. The signed Issues and
Decision Memorandum and the electronic
versions of the Issues and Decision Memorandum
are identical in content.

158a
Changes Since the Preliminary Determination
Based on our analysis of the comments
received and our findings at verifications, we
have made certain changes to the margin
calculations for Hyundai and Hyosung. For a
discussion of these changes, see Memoranda to
the file, through Angelica Mendoza, Program
Manager, from David Cordell and Brian Davis,
International Trade Analysts, entitled “Analysis
of Data Submitted by Hyundai Heavy Industries
(HHI) and
Hyundai Corporation, U.S.A.
(collectively Hyundai) in the Final Determination
of the Antidumping Duty Investigation of Large
Power Transformers from the Republic of Korea''
and, “Analysis of Data Submitted by Hyosung
Corporation in the Final Determination of the
Antidumping Duty Investigation of Large Power
Transformers from the Republic of Korea,'' dated
July 2, 2012; see also Memoranda to Neal M.
Halper, Director, Office of Accounting, through
Michael P. Martin, Lead Accountant, entitled,
“Cost of Production and Constructed Value
Calculation
Adjustments
for
the
Final
Determination--Hyundai Heavy Industries Co.,
Ltd. and Hyundai Corporation, USA'' and “Cost of
Production and Constructed Value Calculation
Adjustments for the Final Determination-Hyosung Corporation,'' both dated July 2, 2012.
Continuation of Suspension of Liquidation
Pursuant to section 735(c)(1)(B) of the Act, we
will instruct U.S. Customs and Border Protection
(CBP) to continue to suspend liquidation of all
entries of large power transformers from Korea

159a
which were
entered, or withdrawn from
warehouse, for consumption on or after February
16, 2012, the date of publication of the
Preliminary Determination. We will instruct CBP
to require a cash deposit or the posting of a bond
equal to the weighted-average margins, as
indicated below, as follows: (1) The rates for
Hyundai and Hyosung will be the rates we have
determined in this final determination; (2) if the
exporter is not a firm identified in this
investigation but the producer is, the rate will be
the rate established for the producer of the
subject merchandise; (3) the rate for all other
producers or exporters will be 22.00 percent, as
discussed in the “All Others Rate'' section, below.
These suspension-of-liquidation instructions will
remain in effect until further notice.

Manufacturer/exporter

Weightedaverage
dumping
margin
(percent)

Hyundai Heavy Industries
Co., Ltd………………………….

14.95

Hyosung Corporation…………

29.04

All Others………………………

22.00

All Others Rate
Section 735(c)(5)(A) of the Act provides that
the estimated all others rate shall be an amount
equal to the weighted average of the estimated
weighted-average dumping margins established

160a
for exporters
and producers individually
investigated excluding any zero or de minimis
margins and any margins determined entirely
under section 776 of the Act. Hyundai and
Hyosung are the only respondents in this
investigation for which we calculated companyspecific rates that are not zero or de minimis or
determined entirely under section 776 of the Act.
Therefore, because there are only two relevant
weighted-average dumping margins for this final
determination and because using a weightedaverage calculation risks disclosure of business
proprietary
information of Hyundai and
Hyosung, the “all others'' rate is a simple-average
of these two values, which is 22.00 percent. See

Seamless Refined Copper Pipe and Tube From
Mexico: Final Determination of Sales at Less
Than Fair Value, 75 FR 60723, 60724 (October 1,

2010) (using a simple average to determine the
“All Others'' rate when there
are only two
relevant weighted-average dumping margins
because use of a
weighted average risks
disclosure of business proprietary information). 3

3 In the public version of its December 13, 2011,
supplemental
questionnaire responses at page SA-1,
Hyosung provided ranged quantity and value of U.S. sales
data, whereas in its January 13, 2012, supplemental
questionnaire response at page SBC1, Hyundai provided
indexed quantity and value U.S. sales data. Therefore, we
were unable to perform the analysis articulated in Ball

Bearings and Parts Thereof From France, et al.: Final
Results of Antidumping Duty Administrative Reviews,
Final Results of Changed-Circumstances Review, and
Revocation of an Order in Part, 75 FR 53661, 53662-3

161a
Disclosure
We intend to disclose to parties in this
proceeding the calculations performed within five
days of the date of publication of this notice in
accordance with 19 CFR 351.224(b).
International Trade Commission Notification
In accordance with section 735(d) of the Act,
we have notified the
International Trade
Commission (ITC) of our final determination. As
our final determination is affirmative and in
accordance with section 735(b)(2) of the Act, the
ITC will determine, within 45 days, whether the
domestic industry in the United States is
materially injured, or threatened with material
injury, by reason of imports or sales (or the
likelihood of sales) for importation of the subject
merchandise. If the ITC determines that such
injury does exist, the Department will issue an
antidumping duty order directing CBP to assess
antidumping duties on all imports of the subject
merchandise entered, or withdrawn from
warehouse, for consumption on or after the
effective date of the suspension of liquidation.
Notification Regarding Administrative Protective
Order
This notice also serves as a final reminder to
parties subject to administrative protective order
(APO) of their responsibility
concerning the
disposition of proprietary information disclosed
(September 1, 2010) in this investigation in determining the
“all others rate.''

162a
under APO in accordance with 19 CPR 351.305.
Timely notification of the destruction of APO
materials or conversion to judicial protective order
is hereby requested. Failure to comply with the
regulations and the terms of an APO is a
sanctionable violation.
This determination is issued and published
pursuant to sections 735(d) and 777(i)(l) of the
Act.
Dated: July 2, 2012.
Paul Piquado,

Assistant Secretary for Import Administration.
Appendix I
Issues and Decision Memorandum
General
Comment 1: Date of Sale
Comment 2: Facts Available
Hyundai Heavy Industries Co., Ltd.--Specific
Comments
Comment 3: Home Market Gross Unit Price
Comment 4: U.S. Gross Unit Price
Comment 5: U.S. Selling Expenses: Commissions
and U.S. Duty
Comment 6: CEP Offset
Comment 7: Inconsistent Allocation of Certain
Selling Expenses
Comment 8: General and Administrative and
Financial Expenses

163a
Comment 9: Unshipped Sales
Comment 10: Normal Value Versus Constructed
Value
Hyosung Corporation--Specific Comments
Comment 11: Selling Expense Classifications
Comment 12: Gross Unit Price
Comment 13: The Understatement of U.S. Selling
Expenses
Comment 14: The Use of Actual Data in Margin
Calculation
Comment 15: General and Administrative and
Indirect Selling Expense Ratios
Comment 16: Clerical Error

164a

Issues and Decision Memorandum for the Final
Determination of the Antidumping Duty
Investigation of Large Power Transformers from
the Republic of Korea (July 2, 2012) (relevant
excerpt)

Comment 4: U.S. Gross Unit Price
Petitioners claim that that Hyundai has
overstated the U.S. gross unit price (GRSUPRU)
of large power transformers sold in the United
States “by including the value of various revenues
that are not associated with the price of the
transformer and the installation of the
transformer (if included in the contract).” See
Petitioners’ Case Brief at 47 - 55. Much of the
detailed information related to these alleged
revenues is proprietary in nature. While calling
for a finding of total AFA, because in Petitioners’
view Hyundai has not cooperated, Petitioners also
suggest as an alternative, neutral facts available
option in which the Department would make a
downward adjustment to the U.S. gross unit price
for Hyundai’s failure to “separately report the
associated expenses for the Department to cap
these revenues to the level of the associated
expenses.” Id. at 55.
Hyundai first disputes Petitioners’ claims that
Hyundai has not cooperated, and notes that “the
very documents Petitioners allege that HHI failed
to disclose have been on record for months.” See
Hyundai’s Rebuttal Brief at 29. Hyundai claims
that it “provided copies of the relevant sales
documents, including copies of nearly every PO
for all sales to the United States” and that it

165a
provided copies of the purchase orders for all of
the U.S. sales observations cited by Petitioners in
its questionnaire responses. Id at 30.
Hyundai states it reported the gross unit price
in accordance with the instructions in the
Department’s questionnaire and notes that
because “the contract price is on a lump sum
basis, HHI invoices the customer on such basis.”
Id. at 31. Referencing the instructions for
reporting gross unit price in the Department’s
questionnaire Hyundai notes that it was told to
“{r}eport the unit price as it appears on the invoice
for sales shipped and invoiced in whole or in part.”
Thus, for example, where a large power
transformer was sold on a DDP to site basis,
Hyundai notes that is what it did. Hyundai
claims that “{b}ecause the price charged to HHI’s
customer included “the direct cost incurred to
bring the merchandise from the original place of
shipment to the customer’s place of delivery, HHI
reported the respective movement expenses in the
relevant expense fields” and “there are no
separate revenues which HHI failed to report to
the Department.” Id.
Hyundai disputes Petitioners’ claims that
because the Department instructed Hyundai to
“verify for all sales, that the gross unit price
reported only reflects the actual LPT and not any
spare parts, unless such parts are needed to
assemble an incomplete LPT,” that such
instruction also applies to freight expenses.
Hyundai claims that “{t}his instruction is limited
to spare parts” and that Section C of the

166a
Department’s questionnaire dated September 28,
2011 instructed Hyundai to report “the
information requested concerning the direct cost
incurred to bring the merchandise from the
original place of shipment to the customer’s place
of delivery if included in the price charged to its
customer.” Id. at 32. Hyundai concludes that
“Petitioners’ demand is inconsistent with the
statute, the Department’s regulations, and the
Department’s well-established practice.”

Id.
Hyundai states that “Petitioners pin their
entire argument on the U.S. gross unit price on a
fundamental misrepresentation of the record
evidence in suggesting that Hyundai does not
invoice on a lump-sum, project basis and
separately invoices customers for services.” Id. at
33. Citing to Petitioners’ reliance on certain case
precedent, Hyundai distinguishes those cases
from this case by claiming that in those cases “the
respondent made arrangements for the freight
and the payment of U.S. customs duties on behalf
of the customer and sought reimbursement for its
costs for making such arrangements,” or “when
freight and insurance are not included in the
selling price under the applicable terms of
delivery but when the respondent arranges and
prepays freight and insurance for the customer.”
Id. at 34.
Hyundai stresses that in the sales cited by
Petitioners, it “did not make arrangements for
freight, etc. on behalf of the U.S. customer,
requiring reimbursement for such costs. Rather,

167a
in accordance with the contractual term of sales
(e.g., DDP jobsite), Hyundai was required to
deliver the large power transformers to the site on
its own behalf. Thus, Hyundai did not provide any
separate service on behalf of the U.S. customer,
which could be viewed as outside the term of
sale.” Id. at 35. Hyundai claims that Petitioners
have not cited to a single instance where it
provided separate services that were not required
by the term of sale. Id.
Hyundai also points out that Petitioners’
demand that the Department apply total AFA is
based on a single page for each of their cited
transactions and that “Petitioners offer no
analysis or discussion of the entire context of the
documents they cite and seek to draw broad,
universally- applicable conclusions based on a
misunderstanding of the document.” Id. at 36.
Hyundai alleges that Petitioners’ arguments
“demonstrate a fundamental misunderstanding of
the most basic attributes of the subject
merchandise” and Hyundai argues against
determining
that
“components
that
are
incorporated into a {large power transformer}
constitute value that must be separated from the
reported gross unit price.” Id. at 37. Citing to
various items that are business proprietary in
nature, and were raised by Petitioners, Hyundai
argues that such items are integral to the large
power transformer itself, as evidenced by
Petitioners’ own submissions to the International
Trade Commission when they stated that
“{c}omponents such as bushings, cooling systems
(e.g., radiators and fans), tap changers, controls,

168a
and indicators are added.” Id. citing USITC
Publication 4256 10 at I-10. Hyundai also points
out that “HHI properly included the costs for
these items in its reported DIRMAT costs, as
verified by the Department.” Id. at 38.
With respect to warranty revenue, Hyundai
questions Petitioners’ demand for “the universal
application of AFA to HHI’s entire sales database
based on a single sale to a customer that
previously had not ordered any transformers from
HHI and through a sales process ‘not usual’ and
deviates from the normal sale pattern” as
“absurd.” Id. Hyundai also argues that it
previously demonstrated that the revenue in
question related directly to the large power
transformer itself and “as such, this amount was
properly included in the reported sales price.” Id.
at 39. Hyundai concludes that “HHI itself
provides warranties and … the price of the {large
power transformer} varies based on the
customer’s ‘warranty requirements’.” Id. at 39
and 40.
Citing to other business proprietary examples,
Hyundai again emphasizes that Hyundai
addressed the issues raised by Petitioners in its
supplemental questionnaire responses. Id. at 40.
Hyundai admits Petitioners’ identification of “one
instance that deviated from the pattern for all
other sales,” and that for this “highly-unusual,
See Large Power Transformers from Korea (Investigation
No. 731- TA-1189 (Preliminary), USITC Publication 4256,
September 2011).
10

169a
post-delivery request from the customer for
additional services, . . . it might be appropriate in
this case to adjust the selling price for this sale”
but strongly argues “there would be no basis to
impute this anomalous transaction to all of HHI
sales.” Id. at 41. Because this information is
proprietary in nature it cannot be summarized in
this public document, but Hyundai provided a
suggested correction for this one situation. Id. At
41. With respect to a second situation, Hyundai
notes that the expense incurred by Hyundai
Corporation was the same as the amount of the
additional order from the customer. Id. Hyundai
notes that Petitioners’ remaining complaint
involves a sales observation for which the
customer placed a PO on a lump-sum basis.
Hyundai notes that Petitioners “complain that the
bid submitted by HHI had an informational
breakdown of the components of the delivery
term, which required HHI to deliver the
transformer to site and offload it to the
transformer pad.” Id. at 42. Hyundai stresses
that “the customer awarded the project to HHI on
a lump sum basis and HHI invoiced the customer
on that basis. Id. Hyundai notes that “this was
not an instance where HHI procured separate
services after the fact not related to the delivery
term of the transformer.” Id. Hyundai claims
“HHI was responsible to deliver the transformer
to the site and offload it on the transformer pad”
and that as “HHI did not make arrangements on
behalf of the customer to have the transformer
delivered and then receive reimbursement; the

170a
obligation (and the risk) of delivering
transformer to the site was HHI’s.” Id.

the

Department’s Position:
Based on our review of record evidence at
verification and comments by interested parties,
we have determined to rely upon Hyundai’s
reported GRSUPRU for purposes of calculating
net U.S. price for its U.S. sales. We note Hyundai
has reported the U.S. price based on the “lumpsum” of the invoice price, or in the case of noninvoiced sales, the PO or contract price. We find
that there is no evidence, based on the invoices
and POs examined at verification, to indicate that
Hyundai has separate revenues which it has
failed to report to the Department. The
Department asked Hyundai to verify that for all
sales, the gross unit price only reflects the actual
large power transformer, and not any spare parts,
unless such parts are needed to assemble an
incomplete large power transformer. 11 Hyundai
argues the Department did not instruct Hyundai
to exclude, for example, freight expenses that are
built into the gross unit price. As highlighted by
Hyundai, we found that it invoices on a lumpsum, project basis and that it does not separately
invoice customers for services. See Hyundai’s CEP
See “Memorandum to the File, Antidumping Duty
Investigation of Large Power Transformers from the
Republic of Korea: Phone Conversation with Frank Morgan,
counsel to Hyundai Heavy Industries Co., Ltd. (Hyundai)”
dated January 11, 2012, and Hyundai’s Supplemental
Questionnaire Response, dated January 23, 2012 at 43 to
44.

11

171a
Verification Report at 32 and, e.g., Exhibit 19 at
42, 43, 47, 84, 94, etc. We agree that in certain
cases where the respondents have made separate
arrangements for freight on behalf of the
customer, and sought reimbursement for that
cost, the Department has, in these instances,
excluded separately invoiced charges that are not
included in the term of sale or in some cases
capped the revenue so that it does not exceed the
expense incurred. See, e.g., Wooden Bedroom

Furniture From the People’s Republic of China:
Final Results and Final Rescission in Part, 75 FR

50992, 50999 (August 18, 2010) in which the
Department stated that “{w}ith respect to
Fairmont’s argument that its freight revenue
should be considered as integral to the price of
subject merchandise, this argument ignores the
fact that Fairmont itself charges separately for
freight as separate line items in its invoices.”
However, in this case, when the contractual term
calls for a particular service, and when there is no
separate service provided on behalf of the
customer and no separate identification of such
service on the invoice, such “lump-sum” price is
what Hyundai correctly reported to the
Department. See Hyundai’s Rebuttal Brief at 34
and 35. As Hyundai indicated, many of the
assertions made by Petitioners are based on
internal documents such as an Order Notice, or
from a single page from a bid. However, the POs
and invoices of such documents identify that the
sales are made on a lump-sum basis and there is
no separate invoice issued for separate services

172a
that are not part of the terms of sale.
Hyundai’s Rebuttal Brief at footnote 121.

See

The Department agrees with Petitioners that
there was one instance in which there was a postdelivery request from the customer for additional
services and that Hyundai itself concedes this,
acknowledging that it might be appropriate to
adjust the selling price for this sale.
See
Hyundai’s Rebuttal Brief at 41. The Department
will therefore make the suggested change with
respect to that one instance and will note this
change in our analysis memorandum with respect
to Hyundai. See Memorandum to the File
entitled, “Analysis of Data Submitted by Hyundai
Heavy
Industries
(HHI)
and
Hyundai
Corporation, U.S.A. (collectively Hyundai) in the
Final Determination of the Antidumping Duty
Investigation of Large Power Transformers from
the Republic of Korea,” dated July 2, 2012.
Based upon its review of record evidence and
comments by interested parties, the Department
has determined that no changes are needed with
respect to Hyundai’s reporting of U.S. gross unit
prices and that other than the one instance
already identified above, there is no evidence that
Hyundai provided separate services that were
separately invoiced, which would require the
Department to rely upon a different U.S. price.

173a
APPENDIX D
19 U.S.C. § 1516a. Judicial review in
countervailing duty and antidumping duty
proceedings
(a) Review of determination
(1) Review of certain determinations
Within 30 days after the date of publication in
the Federal Register of(A) a determination by the administering
authority, under 1671a(c)1 or 1673a(c) of this
title, not to initiate an investigation,
(B) a determination by the Commission,
under section 1675(b) of this title, not to
review a determination based upon changed
circumstances,
(C) a negative determination by the
Commission, under section 1671b(a) or
1673b(a) of this title, as to whether there is
reasonable indication of material injury, threat
of material injury, or material retardation, or
(D)
a
final
determination
by
the
administering authority or the Commission
under section 1675(c)(3) of this title, an
interested party who is a party to the
proceeding in connection with which the
matter arises may commence an action in the
United States Court of International Trade by
filing concurrently a summons and complaint,

1

So in original. Probably should be preceded by "section".

174a
each with the content and in the form,
manner, and style prescribed by the rules of
that court, contesting any factual findings or
legal
conclusions
upon
which
the
determination is based.
(2) Review of determinations on record
(A) In general
Within thirty days after(i) the date of publication in the Federal
Register of(I) notice of any determination
described in clause (ii), (iii), (iv), (v), or
(viii) of subparagraph (B),
(II) an antidumping or countervailing
duty order based upon any determination
described in clause (i) of subparagraph
(B), or
(III) notice of the implementation of
any determination described in clause
(vii) of subparagraph (B), or
(ii) the date of mailing of a determination
described in clause (vi) of subparagraph
(B),
an interested party who is a party to the
proceeding in connection with which the
matter arises may commence an action in the
United States Court of International Trade by
filing a summons, and within thirty days
thereafter a complaint, each with the content
and in the form, manner, and style prescribed
by the rules of that court, contesting any

175a
factual findings or legal conclusions upon
which the determination is based.
(B) Reviewable determinations
The determinations which may be contested
under subparagraph (A) are as follows:
(i) Final affirmative determinations by
the administering authority and by the
Commission under section 1671d or 1673d
of this title, including any negative part of
such a determination (other than a part
referred to in clause (ii)).
(ii) A final negative determination by the
administering authority or the Commission
under section 1671d or 1673d of this title,
including, at the option of the appellant,
any
part
of
a
final
affirmative
determination which specifically excludes
any company or product.
(iii) A final determination, other than
determination
reviewable
under
paragraph(1),
by
the
administering
authority or the Commission under section
1675 of this title.
(iv) A determination by the administering
authority, under section 1671c or 1673c of
this title, to suspend an antidumping duty
or a countervailing duty investigation,
including any final determination resulting
from a continued investigation which
changes the size of the dumping margin or
net countervail-able subsidy calculated, or
the reasoning underlying such calculations,

176a
at the time the suspension agreement was
concluded.
(v) An injurious effect determination byte
Commission
under
section
1671c(h)
or1673c(h) of this title.
(vi) A determination by the administering
authority as to whether a particular type of
merchandise is within the class or kind of
merchandise described in an existing
finding of dumping or antidumping or
counter-vailing duty order.
(vii)
A
determination
by
the
administering authority or the Commission
under section 3538 of this title concerning a
determination under subtitle IV of this
chapter.
(viii) A determination by the Commission
under section 1675b(a)(1) of this title.
(3) Exception
Notwithstanding the limitation imposed by
para, graph (2)(A)(i)(II) of this subsection, a
final
affirmative
determination
by
the
administering authority under section 1671d or
1673d of this
title may be contested by
commencing an action, in accordance with the
provisions of paragraph (2)(A), within thirty
days after the date of publication in the Federal
Register of a final negative determination by
the Commission under section 1671d or 1673d of
this title.

177a
(4) Procedures and fees
The procedures and fees set forth in chapter
169 of title 28 apply to an action under this
section.
(5) Time limits in cases involving merchandise
from free trade area countries
Notwithstanding any other provision of this
subsection, in the case of a determination to
which the provisions of subsection (g) apply, an
action under this subsection may not be
commenced, and the time limits for commencing
an action under this subsection shall not begin
to run, until the day specified in whichever of
the following subparagraphs applies:
(A) For a determination described in
paragraph (1)(B) or clause (i), (ii) or (iii) of
paragraph (2)(B), the 31st day after the date
on which notice of the determination is
published in the Federal Register.
(B) For a determination described in clause
(vi) of paragraph (2)(B), the 31st day after the
date on which the government of the relevant
FTA country receives notice of the
determination.
(C) For a determination with respect to
which binational panel review has commenced
in accordance with subsection (g)(8), the day
after the date as of which(i) the binational panel has dismissed
binational
panel
review
of
the
determination for lack of jurisdiction, and

178a
(ii) any interested party seeking review of
the determination under paragraph (1),
(2), or (3) of this subsection has provided
timely notice under subsection (g)(3)(B).
If such an interested party files a summons
and complaint under this subsection after
dismissal by the binational panel, and if a
request for an extraordinary challenge
committee is made with respect to the decision
by the binational panel to dismiss(I) judicial review under this subsection
shall be stayed during consideration by the
committee of the request, and
(II) the United States Court of
International Trade shall dismiss the
action if the committee vacates or remands
the binational panel decision to dismiss.
(D) For a determination for which review by
the United States Court of International Trade
is provided for(i) under subsection (g)(12)(B), the day
after the date of publication in the Federal
Register of notice that article 1904 of the
NAFTA has been suspended, or
(ii) under subsection (g)(12)(D), the day
after the date that notice of settlement is
published in the Federal Register.
(E) For a determination described in clause
“(vii) of paragraph (2)(B), the 31st day after
the date on which notice of the implementation

179a
of the determination is published in the
Federal Register.
(b) Standards of review
(1) Remedy
The court shall hold unlawful any
determination, finding, or conclusion found(A) in an action brought under
subparagraph (A), (B), or (C) of subsection
(a)(1), to be arbitrary, capricious, an abuse
of discretion, or
otherwise not in
accordance with law, or
(B)(i) in an action brought under
paragraph (2) of subsection (a), to be
unsupported by substantial evidence on
the record, or otherwise not in accordance
with law, or
(ii) in an action brought under paragraph
(1)(D) of subsection (a), to be arbitrary,
capricious, an abuse of discretion, or
otherwise not in accordance with law.
(2) Record for review
(A) In general
For the purposes of this subsection, the
record, unless otherwise stipulated by the
parties, shall consist of(i) a copy of all information presented to
or obtained by the Secretary, the
administering
authority,
or
the
Commission during the course of the
administrative proceeding, including all

180a
governmental memoranda pertaining to the
case and the record of ex parte meetings
required to be kept by section 1677f(a)(3) of
this title; and
(ii) a copy of the determination, all
transcripts or records of conferences or
hearings, and all notices published in the
Federal Register.
(B) Confidential or privileged material
The confidential or privileged status
accorded to any documents, comments, or
information shall be preserved in any action
under
this section. Notwithstanding the
preceding sentence, the court may examine, in
camera,
the confidential or privileged
material, and may disclose such material
under such terms and conditions as it may
order.
(3) Effect of decisions by NAFTA or United StatesCanada binational panels
In making a decision in any action brought
under subsection (a), a court of the United
States is not bound by, but may take into
consideration, a final decision of a binational
panel or extraordinary challenge committee
convened pursuant to article 1904 of the NAFTA
or of the Agreement.

181a
(c) Liquidation of entries
(1) Liquidation
determination

in

accordance

with

Unless such liquidation is enjoined by the
court under paragraph (2) of this subsection,
entries of merchandise of the character covered
by a determination of the Secretary, the
administering authority, or the Commission
contested under subsection (a) shall be
liquidated in accordance with the determination
of the Secretary, the administering authority, or
the Commission, if they are entered, or
withdrawn from warehouse, for consumption on
or before the date of publication in the Federal
Register by the Secretary or the administering
authority of a notice of a decision of the United
States Court of International Trade, or of the
United States Court of Appeals for the Federal
Circuit,
not
in
harmony
with
that
determination. Such notice of a decision shall be
published within ten days from the date of the
issuance of the court decision.
(2) Injunctive relief
In the case of a determination described in
paragraph (2) of subsection (a) by the Secretary,
the administering authority, or the Commission,
the United States Court of International Trade
may enjoin the liquidation of some or all entries
of merchandise covered by a determination of
the Secretary, the administering authority, or
the Commission, upon a request by an
interested party for such relief and a proper

182a
showing that the requested relief should be
granted under the circumstances.
(3) Remand for final disposition
If the final disposition of an action brought
under this section is not in harmony with the
published determination of the Secretary, the
administering authority, or the Commission, the
matter shall be remanded to the Secretary, the
administering authority, or the Commission, as
appropriate, for disposition consistent with the
final disposition of the court.
(d) Standing
Any interested party who was a party to the
proceeding under section 1303 of this title or
subtitle IV of this chapter shall have the right to
appear and be heard as a party in interest before
the United States Court of International Trade.
The party filing the action shall notify all such
interested parties of the filing of an action under
this section, in the form, manner, style, and
within the time prescribed by rules of the court.
(e) Liquidation in accordance with final decision
If the cause of action is sustained in whole or
in part by a decision of the United States Court of
International Trade or of the United States Court
of Appeals for the Federal Circuit(1) entries of merchandise of the character
covered by the published determination of the
Secretary, the administering authority, or the
Commission, which is entered, or withdrawn
from warehouse, for consumption after the date

183a
of publication in the Federal Register by the
Secretary or the administering authority of a
notice of the court decision, and
(2) entries, the liquidation of which was
enjoined under subsection (c)(2),
shall be liquidated in accordance with the final
court decision in the action. Such notice of the
court decision shall be published within ten days
from the date of the issuance of the court decision.
(f) Definitions
For purposes of this section(1) Administering authority
The term “administering authority” means the
administering authority described in section
1677(1) of this title.
(2) Commission
The term “Commission” means the United
States International Trade Commission.
(3) Interested party
The term “interested party” means any person
described in section 1677(9) of this title.
(4) Secretary
The term “Secretary” means the Secretary of
the Treasury.
(5) Agreement
The term “Agreement” means the United
States-Canada Free-Trade Agreement.

184a
(6) United States Secretary
The term “United States Secretary” means(A) the secretary for the United States Section
referred to in article 1908 of the NAFTA, and
(B) the secretary of the United States Section
provided for in article 1909 of the Agreement.
(7) Relevant FTA Secretary
The term “relevant FTA Secretary” means the
Secretary(A) referred to in article 1908 of the NAFTA, or
(B) provided for in paragraph 5 of article 1909
of the Agreement, of the relevant FTA country.
(8) NAFTA
The term “NAFTA” means the North American
Free Trade Agreement.
(9) Relevant FTA country
The term “relevant FTA country” means the
free trade area country to which an antidumping
or countervailing duty proceeding pertains.
(10) Free trade area country
The term “free trade area country” means the
following:
(A) Canada for such time as the NAFTA is in
force with respect to, and the United States
applies the NAFTA to, Canada.
(B) Mexico for such time as the NAFTA is in
force with respect to, and the United States
applies the NAFTA to, Mexico.

185a
(C) Canada for such time as(i) it is not a free trade area country under
subparagraph (A); and
(ii) the Agreement is in force with respect to,
and the United States applies the Agreement
to, Canada.
(g) Review
of
countervailing
duty
and
antidumping duty determinations involving
free trade area country merchandise
(1) “Determination” defined
For purposes of this subsection, the term
“determination”
means
a
determination
described in(A) paragraph (1)(B) of subsection (a), or
(B) clause (i), (ii), (iii), (vi), or (vii) of
paragraph (2)(B) of subsection (a),
if made in connection with a proceeding
regarding a class or kind of free trade area
country merchandise, as determined by the
administering authority.
(2) Exclusive review
binational panels

of

determination

by

If binational panel review of a determination
is requested pursuant to article 1904 of the
NAFTA or of the Agreement, then, except as
provided in paragraphs (3) and (4)-(A) the determination is not reviewable
under subsection (a), and

186a
(B) no court of the United States has power
or jurisdiction to review the determination on
any question of law or fact by an action in the
nature of mandamus or otherwise.
(3) Exception to exclusive binational panel
review
(A) In general
A determination is reviewable under
subsection (a) if the determination sought to be
reviewed is
(i) a determination as to which neither
the United States nor the relevant FTA
country requested review by a binational
panel pursuant to article 1904 of the
NAFTA or of the Agreement,
(ii) a revised determination issued as a
direct
result
of
judicial
review,
commenced pursuant to subsection (a), if
neither the United
States nor the
relevant FTA country requested review
of the original determination,
(iii) a determination issued as a direct
result of judicial review that was
commenced pursuant to subsection (a)
prior to the entry into force of the
NAFTA or of the Agreement,
(iv) a determination which a binational
panel has determined is not reviewable
by the binational panel,
(v) a determination as to which
binational panel review has terminated

187a
pursuant to paragraph 12 of article 1905
of the NAFTA, or
(vi) a determination as to which
extraordinary
challenge
committee
review has terminated pursuant to
paragraph 12 of article 1905 of the
NAFTA.
(B) Special rule
A determination described in subparagraph
(A)(i) or (iv) is reviewable under subsection
(a) only if the party seeking to commence
review has provided timely notice of its
intent to commence such review to(i) the United States Secretary and the
relevant FTA Secretary;
(ii) all interested parties who were parties
to the proceeding in connection with which
the matter arises; and
(iii) the administering authority or the
Commission, as appropriate.
Such notice is timely provided if the notice is
delivered no later than the date that is 20
days
after
the
date
described
in
subparagraph (A) or (B) of subsection (a)(5)
that is applicable to such determination,
except that, if the time for requesting
binational panel review is suspended under
paragraph (8)(A)(ii) of this subsection, any
unexpired time for providing notice of intent
to commence judicial review shall, during the
pendency of any such suspension, also be

188a
suspended. Such notice shall contain such
information, and be in such form, manner,
and style, as the administering authority, in
consultation with the Commission, shall
prescribe by regulations.
(4) Exception to exclusive binational panel
review for constitutional issues
(A) Constitutionality of binational panel
review system
An action for declaratory judgment or
injunctive relief, or both, regarding a
determination on the grounds that any
provision of, or amendment made by, the
North American Free Trade Agreement
Implementation
Act
implementing
the
binational dispute settlement system under
chapter 19 of the NAFTA, or the United
States-Canada
Free-Trade
Agreement
Implementation Act of 1988 implementing the
binational panel dispute settlement system
under chapter 19 of the Agreement, violates
the Constitution may be brought only in the
United States Court of Appeals for the District
of Columbia Circuit, which shall have
jurisdiction of such action.
(B) Other constitutional review
Review is available under subsection (a) with
respect to a determination solely concerning a
constitutional issue (other than an issue to
which subparagraph (A) applies) arising under
any law of the United States as enacted or
applied. An action for review under this

189a
subparagraph shall be assigned to a 3-judge
panel of the United States Court of
International Trade.
(C) Commencement of review
Notwithstanding
the
time
limits
in
subsection (a), within 30 days after the date of
publication in the Federal Register of notice
that binational panel review has been
completed, an interested party who is a party
to the proceeding in connection with which the
matter arises may commence an action under
subparagraph (A) or (B) by filing an action in
accordance with the rules of the court.
(D) Transfer of actions to appropriate court
Whenever an action is filed in a court under
subparagraph (A) or (B) and that court finds
that the action should have been filed in the
other court, the court in which the action was
filed shall transfer the action to the other court
and the action shall proceed as if it had been
filed in the court to which it is transferred on
the date upon which it was actually filed in the
court from which it is transferred.
(E) Frivolous claims
Frivolous
claims
brought
under
subparagraph (A) or (B) are subject to
dismissal and sanctions as provided under
section 1927 of title 28 and the Federal Rules
of Civil Procedure.

190a
(F) Security
(i) Subparagraph (A) actions
The security requirements of rule 65(c) of
the Federal Rules of Civil Procedure apply
with respect to actions commenced under
subparagraph (A).
(ii) Subparagraph (B) actions
No claim shall be heard, and no
temporary restraining order or temporary
or permanent injunction shall be issued,
under an action
commenced under
subparagraph (B), unless the party seeking
review first files an undertaking with
adequate security in an amount to be fixed
by the court sufficient to recompense
parties affected for any loss, expense, or
damage caused by the improvident or
erroneous issuance of such order or
injunction.
If a court upholds the
constitutionality of the determination in
question in such action, the court shall
award to a prevailing party fees and
expenses, in addition to any costs incurred
by that party, unless the court finds that
the position of the other party was
substantially justified or that special
circumstances make an award unjust.
(G) Panel record
The record of proceedings before the
binational panel shall not be considered part of
the
record
for
review
pursuant
to
subparagraph (A) or (B).

191a
(H) Appeal to Supreme Court of court orders
issued in subparagraph (A) actions
Notwithstanding any other provision of law,
any final judgment of the United States Court
of Appeals for the District of Columbia Circuit
which is issued pursuant to an action brought
under subparagraph (A) shall be reviewable by
appeal directly to the Supreme Court of the
United States. Any such appeal shall be taken
by a notice of appeal filed within 10 days after
such order is entered; and the jurisdictional
statement shall be filed within 30 days after
such order is entered. No stay of an order
issued pursuant to an action brought under
subparagraph (A) may be issued by a single
Justice of the Supreme Court.
(5) Liquidation of entries
(A) Application
In the case of a determination for which
binational panel review is requested pursuant
to article 1904 of the NAFTA or of the
Agreement, the rules provided in this
paragraph shall apply, notwithstanding the
provisions of subsection (c).
(B) General rule
In the case of a determination for which
binational panel review is requested pursuant
to article 1904 of the NAFTA or of the
Agreement, entries of merchandise covered
by such determination shall be liquidated in
accordance with the determination of the
administering authority or the Commission, if

192a
they are entered, or withdrawn from ware
house, for consumption on or before the date
of publication in the Federal Register by the
administering authority of notice of a final
decision of a binational panel, or of an
extraordinary challenge committee, not in
harmony with that determination. Such notice
of a decision shall be published within 10 days
of the date of the issuance of the panel or
committee decision.
(C) Suspension of liquidation
(i) In general
Notwithstanding
the
provisions
of
subparagraph (B), in the case of a
determination described in clause (iii) or
(vi) of subsection (a)(2)(B) for which
binational panel review is requested
pursuant to article 1904 of the NAFTA or of
the
Agreement,
the
administering
authority, upon request of an interested
party who was a party to the proceeding in
connection with which the matter arises
and who is a participant in the binational
panel review, shall order the continued
suspension of liquidation of those entries of
merchandise covered by the determination
that are involved in the review pending the
final disposition of the review.
(ii) Notice
At the same time as the interested party
makes its request to the administering
authority under clause (i), that party shall

193a
serve a copy of its request on the United
States Secretary, the relevant FTA
Secretary, and all interested parties who
were parties to the proceeding in
connection with which the matter arises.
(iii) Application of suspension
If the interested party requesting
continued suspension of liquidation under
clause (i) is a foreign manufacturer,
producer, or exporter, or a United States
importer, the continued suspension of
liquidation shall apply only to entries of
merchandise
manufactured,
produced,
exported, or imported by that particular
manufacturer, producer, exporter, or
importer. If the interested party requesting
the continued suspension of liquidation
under clause (i) is an interested party
described in subparagraph (C), (D), (E), or
(F) of section 1677(9) of this title, the
continued suspension of liquidation shall
apply only to entries which could be
affected by a decision of the binational
panel convened under chapter 19 of the
NAFTA or of the Agreement.
(iv) Judicial review
Any action taken by the administering
authority or the United States Customs
Service under this subparagraph shall not
be subject to judicial review, and no court of
the United States shall have power or
jurisdiction to review such action on any

194a
question of law or fact by an action in the
nature of mandamus or otherwise.
(6) Injunctive relief
Except for cases under paragraph (4)(B), in
the case of a determination for which binational
panel review is requested pursuant to article
1904 of the NAFTA or of the Agreement, the
provisions of subsection (c)(2) shall not apply.
(7) Implementation of international obligations
under article 1904 of the NAFTA or the
Agreement
(A) Action upon remand
If a determination is referred to a binational
panel or extraordinary challenge committee
under the NAFTA or the Agreement and the
panel or committee makes a decision
remanding
the
determination
to
the
administering authority or the Commission,
the
administering
authority
or
the
Commission shall, within the period specified
by the panel or committee, take action not
inconsistent with the decision of the panel or
committee. Any action taken by the
administering authority or the Commission
under this paragraph shall not be subject to
judicial review, and no court of the United
States shall have power or jurisdiction to
review such action on any question of law or
fact by an action in the nature of mandamus or
otherwise.

195a
(B) Application if subparagraph (A) held
unconstitutional
In the event that the provisions of
subparagraph (A) are held unconstitutional
under the provisions of subparagraphs (A) and
(H) of paragraph (4), the provisions of this
subparagraph shall take effect. In such event,
the President is authorized on behalf of the
United States to accept, as a whole, the
decision of a binational panel or extraordinary
challenge
committee
remanding
the
determination to the administering authority
or the Commission within the period specified
by the panel or committee. Upon acceptance by
the President of such a decision, the
administering authority or the Commission
shall, within the period specified by the panel
or committee, take action not inconsistent with
such decision. Any action taken by the
President, the administering authority, or the
Commission under this subparagraph shall not
be subject to judicial review, and no court of
the United States shall have power or
jurisdiction to review such action on any
question of law or fact by an action in the
nature of mandamus or otherwise.
(8) Requests for binational panel review
(A) Interested party requests for binational
panel review
(i) General rule
An interested party who was a party to
the proceeding in which a determination is

196a
made may request binational panel review
of such determination by filing a request
with the United States Secretary by no
later than the date that is 30 days after the
date described in subparagraph (A), (B), or
(E) of subsection (a)(5) that is applicable to
such determination. Receipt of such request
by the United States Secretary shall be
deemed to be a request for binational panel
review within the meaning of article
1904(4) of the NAFTA or of the Agreement.
Such
request
shall
contain
such
information and be in such form, manner,
and style as the administering authority, in
consultation with the Commission, shall
prescribe by regulations.
(ii) Suspension of time to request
binational panel review under the
NAFTA
Notwithstanding clause (i), the time for
requesting binational panel review shall be
suspended during the pendency of any stay
of binational panel review that is issued
pursuant to paragraph 11(a) of article 1905
of the NAFTA.
(B) Service of request for binational panel
review
(i) Service by interested party
If a request for binational panel review of
a
determination
is
filed
under
subparagraph (A), the party making the
request shall serve a copy, by mail or

197a
personal service, on any other interested
party who was a party to the proceeding in
connection with which the matter arises,
and on the administering authority or the
Commission, as appropriate.
(ii) Service by United States Secretary
If an interested party to the proceeding
requests binational panel review of a
determination by filing a request with the
relevant FTA Secretary, the United States
Secretary shall serve a copy of the request
by mail on any other interested party who
was a party to the proceeding in connection
with which the matter arises, and on the
administering
authority
or
the
Commission, as appropriate.
(C) Limitation on request for binational
panel review
Absent a request by an interested party
under subparagraph (A), the United States
may not request binational panel review of a
determination under article 1904 of the
NAFTA or the Agreement.
(9) Representation in panel proceedings
In the case of binational panel proceedings
convened under chapter 19 of the NAFTA or of
the Agreement, the administering authority and
the Commission shall be represented by
attorneys
who
are
employees
of
the
administering authority or the Commission,
respectively. Interested parties who were parties
to the proceeding in connection with which the

198a
matter arises shall have the right to appear and
be represented by counsel before the binational
panel.
(10) Notification of class or kind rulings
In the case of a determination which is
described in paragraph (2)(B)(vi) of subsection
(a) and which is subject to the provisions of
paragraph (2), the administering authority,
upon request, shall inform any interested person
of the date on which the Government of the
relevant FTA country received notice of the
determination under paragraph 4 of article 1904
of the NAFTA or the Agreement.
(11) Suspension and termination of suspension of
article 1904 of the NAFTA
(A) Suspension of article 1904
If a special committee established under
article 1905 of the NAFTA issues an affirmative
finding, the Trade Representative may, in
accordance with paragraph 8(a) or 9, as
appropriate, of article 1905 of the NAFTA,
suspend the operation of article 1904 of the
NAFTA.
(B) Termination of suspension of article 1904
If a special committee is reconvened and
makes an affirmative determination described
in paragraph 10(b) of article 1905 of the NAFTA,
any suspension of the operation of article 1904
of the NAFTA shall terminate.

199a
(12) Judicial review upon termination of
binational panel or committee review under
the NAFTA
(A) Notice of suspension or termination of
suspension of article 1904
(i) Upon notification by the Trade
Representative or the Government of a country
described in subsection (f)(10)(A) or (B) that
the operation of article 1904 of the NAFTA has
been suspended in accordance with paragraph
8(a) or 9 of article 1905 of the NAFTA, the
United States Secretary shall publish in the
Federal Register a notice of suspension of
article 1904 of the NAFTA.
(ii) Upon notification by the Trade
Representative or the Government of a country
described in subsection (f)(10)(A) or (B) that
the suspension of the operation of article 1904
of the NAFTA is terminated in accordance
with paragraph 10 of article 1905 of the
NAFTA, the United States Secretary shall
publish in the Federal Register a notice of
termination of suspension of article 1904 of the
NAFTA.
(B) Transfer of final determinations for judicial
review upon suspension of article 1904
If the operation of article 1904 of the NAFTA
is suspended in accordance with paragraph
8(a) or 9 of article 1905 of the NAFTA(i) upon the request of an authorized
person described in subparagraph (C), any
final de termination that is the subject of a

200a
binational panel review or an extraordinary
challenge
committee review shall be
transferred to the United States Court of
International Trade (in accordance with
rules issued by the Court) for review under
subsection (a); or
(ii) in a case in which(I) a binational panel review was
completed fewer than 30 days before the
suspension, and
(II) extraordinary challenge committee
review has not been requested,
upon the request of an authorized person
described in subparagraph (C) which is
made within 60 days after the completion
of the binational panel review, the final
determination that was the subject of the
binational
panel review shall be
transferred to the United States Court of
International Trade (in accordance with
rules issued by the Court) for review under
subsection (a).
(C) Persons authorized to request transfer of
final determinations for judicial review
A request that a final determination be
transferred to the Court of International Trade
under subparagraph (B) may be made by(i) if the United States made an allegation
under paragraph 1 of article 1905 of the
NAFTA and the operation of article 1904 of
the NAFTA was suspended pursuant to

201a
paragraph 8(a) of article 1905 of the
NAFTA(I) the government of the relevant
county described in subsection (f)(10)(A)
or (B),
(II) an interested party that was a
party to the panel or committee review,
or
(III) an interested party that was a
party to the proceeding in connection
with which panel review was requested,
but only if the time period for filing
notices of appearance in the panel review
has not expired, or
(ii) if a country described in subsection
(f)(10)(A) or (B) made an allegation under
paragraph 1 of article 1905 of the NAFTA
and the operation of article 1904 of the
NAFTA was suspended pursuant to
paragraph 9 of article 1905 of the NAFTA(I) the government of that country,
(II) an interested party that is a person
of that country and that was a party to
the panel or committee review, or
(III) an interested party that is a
person of that country and that was a
party to the proceeding in connection
with which panel review was requested,
but only if the time period for filing
notices of appearance in the panel review
has not expired.

202a
(D) Transfer for
settlement

judicial

review

upon

(i) If the Trade Representative achieves a
settlement with the government of a country
described in subsection (f)(10)(A) or (B)
pursuant to paragraph 7 of article 1905 of the
NAFTA, and referral for judicial review is
among the terms of such settlement, any final
determination that is the subject of a
binational panel review or an extraordinary
challenge committee review shall, upon a
request described in clause (ii), be transferred
to the United States Court of International
Trade (in accordance with rules issued by the
Court) for review under subsection (a).
(ii) A request referred to in clause (i) is a
request made by(I) the country referred to in clause (i),
(II) an interested party that was a party
to the panel or committee review, or
(III) an interested party that was a party
to the proceeding in connection with which
panel review was requested, but only if the
time for filing notices of appearance in the
panel review has not expired.

203a
19 U.S.C. § 1673. Imposition of antidumping
duties
If(1) the administering authority determines
that a class or kind of foreign merchandise is
being, or is likely to be, sold in the United States
at less than its fair value, and
(2) the Commission determines that(A) an industry in the United States(i) is materially injured, or
(ii) is threatened with material injury, or
(B) the establishment of an industry in the
United States is materially retarded,
by reason of imports of that merchandise or by
reason of sales (or the likelihood of sales) of that
merchandise for importation,
then there shall be imposed upon such
merchandise an antidumping duty, in addition to
any other duty imposed, in an amount equal to
the amount by which the normal value exceeds
the export price (or the constructed export price)
for the merchandise. For purposes of this section
and section 1673d(b)(1) of this title, a reference to
the sale of foreign merchandise includes the
entering into of any leasing arrangement
regarding the merchandise that is equivalent to
the sale of the merchandise.

204a
19 U.S.C. § 1673a. Procedures for initiating an
antidumping duty investigation
(a) Initiation by administering authority
(1) In general
An antidumping duty investigation shall be
initiated
whenever
the
administering
authority determines, from information
available to it, that a formal investigation is
warranted into the question of whether the
elements necessary for the imposition of a duty
under section 1673 of this title exist.
(2) Cases involving persistent dumping
(A) Monitoring
The administering authority may establish
a monitoring program with respect to
imports of a class or kind of merchandise
from any additional supplier country for a
period not to exceed one year if(i) more than one antidumping order is in
effect with respect to that class or kind of
merchandise;
(ii) in the judgment of the administering
authority there is reason to believe or
suspect an extraordinary pattern of
persistent injurious dumping from one or
more additional supplier countries; and (iii)
in the judgment of the administering
authority this extraordinary pattern is
causing a serious commercial problem for
the domestic industry.

205a
(B) Initiation of investigation
If during the period of monitoring referred to
in subparagraph (A), the administering
authority determines that there is sufficient
information to initiate a formal investigation
under this subsection regarding an additional
supplier country, the administering authority
shall
immediately
initiate
such
an
investigation.
(C) Definition
For purposes of this paragraph, the term
“additional supplier country” means a country
regarding which no antidumping investigation
is currently pending, and no antidumping duty
order is currently in effect, with respect to
imports of the class or kind of merchandise
covered by subparagraph (A).
(D) Expeditious action
The administering authority and the
Commission, to the extent practicable, shall
expedite
proceedings
under
this
part
undertaken as a result of a formal
investigation initiated under subparagraph
(B).
(b) Initiation by petition
(1) Petition requirements
An antidumping proceeding shall be initiated
whenever an interested party described in
subparagraph (C), (D), (E), (F), or (G) of section
1677(9) of this title files a petition with the
administering authority, on behalf of an

206a
industry, which alleges the elements necessary
for the imposition of the duty imposed by
section 1673 of this title, and which is
accompanied by information reasonably
available to the petitioner supporting those
allegations. The petition may be amended at
such time, and upon such conditions, as the
administering authority and the Commission
may permit.
(2) Simultaneous filing with Commission
The petitioner shall file a copy of the petition
with the Commission on the same day as it is
filed with the administering authority.
(3) Action with respect to petitions
(A) Notification of governments
Upon receipt of a petition filed under
paragraph (1), the administering authority
shall notify the government of any exporting
country named in the petition by delivering a
public version of the petition to an
appropriate representative of such country.
(B) Acceptance of communications
The administering authority shall not
accept any unsolicited oral or written
communication from any person other than
an interested party described in section
1677(9)(C), (D), (E), (F), or (G) of this title
before the administering authority makes its
decision whether to initiate an investigation,
except as provided in subsection (c)(4)(D),
and except for inquiries regarding the status

207a
of
the
administering
consideration of the petition.

authority's

(C) Nondisclosure of certain information
The administering authority and the
Commission shall not disclose information
with regard to any draft petition submitted
for review and comment before it is filed
under paragraph (1).
(c) Petition determination
(1) In general
(A) Time for initial determination
Except as provided in subparagraph (B),
within 20 days after the date on which a
petition is filed under subsection (b), the
administering authority shall(i) after examining, on the basis of sources
readily available to the administering
authority, the accuracy and adequacy of the
evidence
provided
in
the
petition,
determine whether the petition alleges the
elements necessary for the imposition of a
duty under section 1673 of this title and
contains information reasonably available
to the petitioner supporting the allegations,
and
(ii) determine if the petition has been filed
by or on behalf of the industry.
(B) Extension of time
In any case in which the administering
authority is required to poll or otherwise

208a
determine support for the petition by the
industry under paragraph (4)(D), the
administering authority may, in exceptional
circumstances, apply subparagraph (A) by
substituting “a maximum of 40 days” for “20
days”.
(C) Time limits where petition involves same
merchandise as an order that has been
revoked
If a petition is filed under this section with
respect to merchandise that was the subject
merchandise of(i) an antidumping duty order or finding
that was revoked under section 1675(d) of
this title in the 24 months preceding the
date the petition is filed, or
(ii) a suspended investigation that was
terminated under section 1675(d) of this
title in the 24 months preceding the date
the petition is filed,
the
administering
authority
and
the
Commission shall, to the maximum extent
practicable,
expedite
any
investigation
initiated under this section with respect to the
petition.
(2) Affirmative determinations
If the determinations under clauses (i) and
(ii) of paragraph (1)(A) are affirmative, the
administering authority shall initiate an
investigation to determine whether the subject

209a
merchandise is being, or is likely to be, sold in
the United States at less than its fair value.
(3) Negative determinations
If the determination under clause (i) or (ii) of
paragraph
(1)(A)
is
negative,
the
administering authority shall dismiss the
petition, terminate the proceeding, and notify
the petitioner in writing of the reasons for the
determination.
(4) Determination of industry support
(A) General rule
For purposes of this subsection, the
administering authority shall determine that
the petition has been filed by or on behalf of
the industry, if(i) the domestic producers or workers who
support the petition account for at least 25
percent of the total production of the
domestic like product, and
(ii) the domestic producers or workers
who support the petition account for more
than 50 percent of the production of the
domestic like product produced by that
portion of the industry expressing support
for or opposition to the petition.
(B) Certain positions disregarded
(i) Producers related to foreign producers
In determining industry support under
subparagraph (A), the administering
authority shall disregard the position of

210a
domestic producers who oppose the
petition, if such producers are related to
foreign producers, as defined in section
1677(4)(B)(ii) of this title, unless such
domestic producers demonstrate that
their interests as domestic producers
would be adversely affected by the
imposition of an antidumping duty order.
(ii) Producers who are importers The
administering authority may disregard
the position of domestic producers of a
domestic like product who are importers
of the subject merchandise.
(C) Special rule for regional industries
If the petition alleges the industry is a
regional
industry,
the
administering
authority shall determine whether the
petition has been filed by or on behalf of the
industry by applying subparagraph (A) on
the basis of production in the region.
(D) Polling the industry
If the petition does not establish support of
domestic producers or workers accounting for
more than 50 percent of the total production
of
the
domestic
like
product,
the
administering authority shall(i) poll the industry or rely on other
information in order to determine if there is
support for the petition as required by
subparagraph (A), or
(ii) if there is a large number of producers
in the industry, the administering

211a
authority may determine industry support
for the petition by using any statistically
valid sampling method to poll the industry.
(E) Comments by interested parties
Before the administering authority makes a
determination with respect to initiating an
investigation, any person who would qualify
as an interested party under section 1677(9)
of this title if an investigation were initiated,
may submit comments or information on the
issue of industry support. After the
administering
authority
makes
a
determination with respect to initiating an
investigation, the determination regarding
industry support shall not be reconsidered.
(5) “Domestic producers or workers” defined
For purposes of this subsection, the term
“domestic producers or workers” means those
interested parties who are eligible to file a
petition under subsection (b)(1).
(d) Notification to Commission of determination
The administering authority shall(1) notify the Commission immediately of any
determination it makes under subsection (a) or
(c), and
(2) if the determination is affirmative, make
available to the Commission such information as
it may have relating to the matter under
investigation, under such procedures as the
administering authority and the Commission
may establish to prevent disclosure, other than

212a
with the consent of the party providing it or
under protective order, of any information to
which confidential treatment has been given by
the administering authority.
(e) Information regarding critical circumstances
If, at any time after the initiation of an
investigation under this part, the administering
authority finds a reasonable basis to suspect that(1) there is a history of dumping in the United
States or elsewhere of the subject merchandise,
or
(2) the person by whom, or for whose account,
the merchandise was imported knew, or should
have known, that the exporter was selling the
subject merchandise at less than its fair value,
the administering authority may request the
Commissioner of U.S. Customs and Border
Protection to compile information on an expedited
basis
regarding
entries
of
the
subject
merchandise. Upon receiving such request, the
Commissioner of U.S. Customs and Border
Protection shall collect information regarding the
volume and value of entries of the subject
merchandise and shall transmit such information
to the administering authority at such times as
the administering authority shall direct (at least
once every 30 days), until a final determination is
made under section 1673d(a) of this title, the
investigation is terminated, or the administering
authority withdraws the request.

213a
19 U.S.C. § 1673b. Preliminary determinations
(a) Determination by Commission of reasonable
indication of injury
(1) General rule
Except in the case of a petition dismissed by
the administering authority under section
1673a(c)(3) of this title, the Commission,
within the time specified in paragraph (2),
shall determine, based on the information
available to it at the time of the determination,
whether there is a reasonable indication that(A) an industry in the United States(i) is materially injured, or
(ii) is threatened with material injury,
or
(B) the establishment of an industry in
the United States is materially retarded,
by reason of imports of the subject
merchandise and that imports of the subject
merchandise are not negligible. If the
Commission finds that imports of the subject
merchandise are negligible or otherwise makes
a
negative
determination
under
this
paragraph, the investigation shall be
terminated.
(2) Time for Commission determination
The
Commission
shall
make
the
determination described in paragraph (1)-(A) in the case of a petition filed under
section 1673a(b) of this title-

214a
(i) within 45 days after the date on
which the petition is filed, or
(ii) if the time has been extended
pursuant to section 1673a(c)(1)(B) of this
title, within 25 days after the date on
which the Commission receives notice
from the administering authority of
initiation of the investigation, and
(B) in the case of an investigation
initiated under section 1673a(a) of this
title, within 45 days after the date on which
the Commission receives notice from the
administering
authority
that
an
investigation has been initiated under such
section.
(b) Preliminary determination by administering
authority
(1) Period of antidumping duty investigation
(A) In general
Except as provided in subparagraph (B),
within 140 days after the date on which the
administering
authority
initiates
an
investigation under section 1673a(c) of this
title, or an investigation is initiated under
section 1673a(a) of this title, but not before
an affirmative de-termination by the
Commission under subsection (a) of this
section, the administering authority shall
make a determination, based upon the
information available to it at the time of the
determination, of whether there is a
reasonable basis to believe or suspect that

215a
the merchandise is being sold, or is likely to
be sold, at less than fair value.
(B) If certain short life cycle merchandise
involved
If a petition filed under section 1673a(b) of
this title, or an investigation initiated under
section 1673a(a) of this title, concerns short
life cycle merchandise that is included in a
product category established under section
1673h(a) of this title, subparagraph (A) shall
be applied(i) by substituting “100 days” for “140
days” if manufacturers that are second
offenders account for a significant
proportion of the merchandise under
investigation, and
(ii) by substituting “80 days” for “140
days” if manufacturers that are multiple
offenders account for a significant
proportion of the merchandise under
investigation.
(C) Definitions of offenders
For purposes of subparagraph (B)
(i) The term “second offender” means a
manufacturer that is specified in 2
affirmative
dumping
determinations
(within the meaning of section 1673h of this
title) as the manufacturer of short life cycle
merchandise that is(I)
specified
in
determinations, and

both

such

216a
(II) within the scope of the product
category referred to in subparagraph (B).
(ii) The term “multiple offender” means a
manufacturer that is specified in 3 or more
affirmative
dumping
determinations
(within the meaning of section 1673h of this
title) as the manufacturer of short life cycle
merchandise that is(I) specified in
determinations, and

each

of

such

(II) within the scope of the product
category referred to in subparagraph (B).
(2) Preliminary determination under waiver of
verification
Within 75 days after the initiation of an
investigation, the administering authority
shall cause an official designated for such
purpose to review the information concerning
the case received during the first 60 days of
the investigation, and, if there appears to be
sufficient information available upon which
the preliminary determination can reasonably
be based, to disclose to the petitioner and any
interested party, then a party to the
proceedings that requests such disclosure, all
available nonconfidential information and all
other information which is disclosed pursuant
to section 1677f of this title. Within 3 days (not
counting Saturdays, Sundays, or legal public
holidays) after such disclosure, the petitioner
and each party which. is an interested party
described in subparagraph (C), (D), (E), (F), or

217a
(G) of section 1677(9) of this title to whom such
disclosure was made may furnish to the
administering authority an irrevocable written
waiver of verification of the information
received by the authority, and an agreement
that it is willing to have a preliminary
determination made on the basis of the record
then available to the authority. If a timely
waiver and agreement have been received from
the petitioner and each party which is an
interested party described in subparagraph
(C), (D), (E), (F), or (G) of section 1677(9) of
this title to whom the disclosure was made,
and the authority finds that sufficient
information is then available upon which the
preliminary determination can reasonably be
based, a preliminary determination shall be
made within 90 days after the initiation of the
investigation on the basis of the record
established during the first 60 days after the
investigation was initiated.
(3) De minimis dumping margin
In making a determination under this
subsection, the administering authority shall
disregard any weighted average dumping
margin that is de minimis. For purposes of the
preceding sentence, a weighted average
dumping margin is de minimis if the
administering authority determines that it is
less than 2 percent ad valorem or the
equivalent specific rate for the subject
merchandise.

218a
(c) Extension of period
complicated cases

in

extraordinarily

(1) In general
If(A) the petitioner makes a timely request for
an extension of the period within which the
determination must be made under subsection
(b)(1), or
(B) the administering authority concludes that
the parties concerned are cooperating and
determines that(i) the case is extraordinarily complicated by
reason of(I) the number and complexity of the
transactions
to
be
investigated
or
adjustments to be considered,
(II) the novelty of the issues presented, or
(III) the number of firms whose activities
must be investigated, and
(ii) additional time is necessary to make the
preliminary
determination,
then
the
administering authority may postpone making
the
preliminary
determination
under
subsection (b)(1) until not later than the 190th
day after the date on which the administering
authority initiates an investigation under
section 1673a(c) of this title, or an
investigation is initiated under section
1673a(a) of this title. No extension of a
determination date may be made under this
paragraph for any investigation in which a

219a
determination date provided for in subsection
(b)(1)(B) applies unless the petitioner submits
written notice to the administering authority
of its consent to the extension.
(2) Notice of postponement
The administering authority shall notify the
parties to the investigation, not later than 20
days before the date on which the preliminary
determination would otherwise be required
under subsection (b)(1), if it intends to
postpone
making
the
preliminary
determination under paragraph (1). The
notification shall include an explanation of the
reasons for the postponement, and notice of
the postponement shall be published in the
Federal Register.
(d) Effect of determination by the administering
authority
If the preliminary determination of the
administering authority under subsection (b) of
this section is affirmative, the administering
authority
(1)(A) shall(i) determine an estimated weighted average
dumping margin for each exporter and
producer individually investigated, and
(ii) determine, in accordance with section
1673d(c)(5) of this title, an estimated all-others
rate for all exporters and producers not
individually investigated, and

220a
(B) shall order the posting of a cash deposit,
bond, or other security, as the administering
authority deems appropriate, for each entry of
the subject merchandise in an amount based on
the estimated weighted average dumping
margin or the estimated all-others rate,
whichever is applicable,
(2) shall order the suspension of liquidation of
all entries of merchandise subject to the
determination which are entered, or withdrawn
from warehouse, for consumption on or after the
later of(A) the date on which notice of the
determination is published in the Federal
Register, or
(B) the date that is 60 days after the date on
which notice of the determination to initiate
the investigation is published in the Federal
Register, and
(3) shall make available to the Commission all
information upon which such determination was
based and which the Commission considers
relevant to its injury determination, under such
procedures as the administering authority and
the Commission may establish to prevent
disclosure, other than with the consent of the
party providing it or under protective order, of
any information to which confidential treatment
has been given by the administering authority.
The instructions of the administering authority
under paragraphs (1) and (2) may not remain in
effect for more than 4 months, except that the

221a
administering authority may, at the request of
exporters representing a significant proportion of
exports of the subject merchandise, extend that 4month period to not more than 6 months.
(e) Critical circumstances determinations
(1) In general
If a petitioner alleges critical circumstances
in its original petition, or by amendment at
any time more than 20 days before the date of
a final determination by the administering
authority, then the administering authority
shall promptly (at any time after the initiation
of the investigation under this part)
determine, on the basis of the information
available to it at that time, whether there is a
reasonable basis to believe or suspect that(A)(i) there is a history of dumping and
material injury by reason of dumped
imports in the United States or elsewhere
of the subject merchandise, or
(ii) the person by whom, or for whose
account, the merchandise was imported
knew or should have known that the
exporter
was
selling
the
subject
merchandise at less than its fair value and
that there was likely to be material injury
by reason of such sales, and
(B) there have been massive imports of
the subject merchandise over a relatively
short period.

222a
The administering authority shall be treated
as having made an affirmative determination
under subparagraph (A) in any investigation to
which subsection (b)(1)(B) is applied.
(2) Suspension of liquidation
If the determination of the administering
authority under paragraph (1) is affirmative,
then any suspension of liquidation ordered
under subsection (d)(2) shall apply, or, if notice
of such suspension of liquidation is already
published, be amended to apply, to
unliquidated entries of merchandise entered,
or
withdrawn
from
warehouse,
for
consumption on or after the later of
(A) the date, which is 90 days before the
date on which the suspension of liquidation
was first ordered, or
(B) the date on which notice of the
determination to initiate the investigation
is published in the Federal Register.
(f) Notice of determination
Whenever
the
Commission
or
the
administering authority makes a determination
under this section, the Commission or the
administering authority, as the case may be, shall
notify the petitioner, and other parties to the
investigation, and the Commission or the
administering
authority
(whichever
is
appropriate)
of
its
determination.
The
administering authority shall include with such
notification the facts and conclusions on which its
determination is based. Not later than 5 days

223a
after the date on which the determination is
required to be made under subsection (a)(2), the
Commission shall transmit to the administering
authority the facts and conclusions on which its
determination is based.

224a
19 U.S.C. § 1673c. Termination or suspension of
investigation
(a) Termination of investigation upon withdrawal
of petition
(1) In general
(A) Withdrawal of petition
Except as provided in paragraphs (2) and
(3), an investigation under this part may be
terminated by either the administering
authority or the Commission, after notice to
all parties to the investigation, upon
withdrawal of the petition by the petitioner
or by the administering authority if the
investigation was initiated under section
1673a(a) of this title.
(B) Refiling of petition
If, within 3 months after the withdrawal of
a petition under subparagraph (A), a new
petition is filed seeking the imposition of
duties on both the subject merchandise of the
withdrawn petition and the subject
merchandise from another country, the
administering authority and the Commission
may use in the investigation initiated
pursuant to the new petition any records
compiled in an investigation conducted
pursuant to the withdrawn petition. This
subparagraph applies only with respect to
the first withdrawal of a petition.

225a
(2) Special rules for quantitative restriction
agreements
(A) In general
Subject to subparagraphs (B) and (C), the
administering authority may not terminate
an investigation under paragraph (1) by
accepting an understanding or other kind of
agreement to limit the volume of imports into
the United States of the subject merchandise
unless the administering authority is
satisfied that termination on the basis of that
agreement is in the public interest.
(B) Public interest factors
In making a decision under subparagraph
(A) regarding the public interest the
administering authority shall take into
account
(i) whether, based upon the relative
impact on consumer prices and the
availability of supplies of the merchandise,
the agreement would have a greater
adverse impact on United States consumers
than the imposition of antidumping duties;
(ii) the relative impact on the
international economic interests of the
United States; and
(iii) the relative impact on the
competitiveness of the domestic industry
producing the like merchandise, including
any such impact on employment and
investment in that industry.

226a
(C) Prior consultations
Before
making
a
decision
under
subparagraph (A) regarding the public
interest, the administering authority shall, to
the extent practicable, consult with
(i)
potentially
industries; and

affected

consuming

(ii) potentially affected producers and
workers in the domestic industry producing
the like merchandise, including producers
and workers not party to the investigation.
(3) Limitation on termination by Commission
The Commission may not terminate an
investigation under paragraph (1) before a
preliminary determination is made by the
administering
authority
under
section
1673b(b) of this title.
(b) Agreements to eliminate completely sales at
less than fair value or to cease exports of
merchandise
The administering authority may suspend an
investigation if the exporters of the subject
merchandise who account for substantially all of
the imports of that merchandise agree
(1) to cease exports of the merchandise to the
United States ,within 6 months after the date on
which the investigation is suspended, or
(2) to revise their prices to eliminate
completely any amount by which the normal
value of the merchandise which is the subject of

227a
the agreement exceeds the export price (or the
constructed export price) of that merchandise.
(c) Agreements eliminating injurious effect
(1) General rule
If the administering authority determines
that extraordinary circumstances are present in
a case, it may suspend an investigation upon the
acceptance of an agreement to revise prices from
exporters of the subject merchandise who
account for substantially all of the imports of
that merchandise into the United States, if the
agreement will eliminate completely the
injurious effect of exports to the United States of
that merchandise and if
(A) the suppression or undercutting of price
levels of domestic products by imports of that
merchandise will be prevented, and
(B) for each entry of each exporter the
amount by which the estimated normal value
exceeds the export price (or the constructed
export price) will not exceed 15 percent of the
weighted average amount by which the
estimated normal value exceeded the export
price (or the constructed export price) for all
less-than-fair-value entries of the exporter
examined during the course of the
investigation.

228a
(2) “Extraordinary circumstances” defined
(A) Extraordinary circumstances
For purposes of this subsection, the term
“extraordinary
circumstances”
means
circumstances in which
(i) suspension of an investigation will be
more beneficial to the domestic industry
than continuation of the investigation, and
(ii) the investigation is complex.
(B) “Complex” defined
For purposes of this paragraph, the term
“complex” means
(i) there are a large number
transactions
to
be
investigated
adjustments to be considered,

of
or

(ii) the issues raised are novel, or
(iii) the number of firms involved is large.
(d) Additional rules and conditions
The administering authority may not accept
an agreement under subsection (b) or (c) unless
(1) it is satisfied that suspension of the
investigation is in the public interest, and
(2) effective monitoring of the agreement by
the United States is practicable.
Where practicable, the administering authority
shall provide to the exporters who would have
been subject to the agreement the reasons for not
accepting the agreement and, to the extent

229a
possible, an opportunity to submit comments
thereon.
(e) Suspension of investigation procedure
Before an investigation may be suspended
under subsection (b) or (c) the administering
authority shall(1) notify the petitioner of, and consult with
the petitioner concerning, its intention to
suspend the investigation, and notify other
parties to the investigation and the Commission
not less than 30 days before the date on which it
suspends the investigation,
(2) provide a copy of the proposed agreement to
the petitioner at the time of the notification,
together with an explanation of how the
agreement will be carried out and enforced, and
of how the agreement will meet the
requirements of subsections (b) and (d) or (c)
and (d), and
(3) permit all interested parties described in
section 1677(9) of this title to submit comments
and information for the record before the date on
which notice of suspension of the investigation is
published under subsection (f)(1)(A).
(f) Effects of suspension of investigation
(1) In general
If the administering authority determines to
suspend an investigation upon acceptance of
an agreement described in subsection (b) or (c),
then

230a
(A) it shall suspend the investigation,
publish notice of suspension of the
investigation, and issue an affirmative
preliminary determination under section
1673b(b) of this title with respect to the
subject merchandise, unless it has previously
issued such a determination in the same
investigation,
(B) the Commission shall suspend any
investigation it is conducting with respect to
that merchandise, and
(C) the suspension of investigation shall
take effect on the day on which such notice is
published.
(2) Liquidation of entries
(A) Cessation
of
exports;
complete
elimination of dumping margin
If the agreement accepted by the administering
authority is an agreement described in subsection
(b), then
(i)
notwithstanding
the
affirmative
preliminary determination required under
paragraph (1)(A), the liquidation of entries of
subject merchandise shall not be suspended
under section 1673b(d)(2) of this title,
(ii) if the liquidation of entries of such
merchandise was suspended pursuant to a
previous
affirmative
preliminary
determination in the same case with respect to
such merchandise, that suspension of
liquidation shall terminate, and

231a
(iii) the administering authority shall refund
any cash deposit and release any bond or other
security deposited under section 1673b(d)(1)(B)
of this title.
(B) Other agreements
If
the
agreement
accepted
by
the
administering authority is an agreement
described in subsection (c), the liquidation of
entries of the subject merchandise shall be
suspended under section 1673b(d)(2) of this title,
or, if the liquidation of entries of such
merchandise was suspended pursuant to a
previous affirmative preliminary determination
in the same case, that suspension of liquidation
shall continue in effect, subject to subsection
(h)(3), but the security required under section
1673b(d)(1)(B) of this title may be adjusted to
reflect the effect of the agreement.
(3) Where investigation is continued
If, pursuant to subsection (g), the
administering authority and the Commission
continue an investigation in which an
agreement has been accepted under subsection
(b) or (c), then
(A) if the final determination by the
administering authority or the Commission
under section 1673d of this title is negative,
the agreement shall have no force or effect
and the investigation shall be terminated,
or
(B) if the final determinations by the
administering
authority
and
the

232a
Commission under such section are
affirmative, the agreement shall remain in
force, but the administering authority shall
not issue an antidumping duty order in the
case so long as
(i) the agreement remains in force,
(ii) the agreement continues to meet
the requirements of subsections (b) and
(d), or (c) and (d), and
(iii) the parties to the agreement carry
out
their
obligations
under
the
agreement in accordance with its terms.
(g) Investigation to be continued upon request
If the administering authority, within 20 days
after the date of publication of the notice of
suspension of an investigation, receives a request
for the continuation of the investigation from
(1) an exporter or exporters accounting for a
significant proportion of exports to the United
States of the subject merchandise, or
(2) an interested party described in
subparagraph (C), (D), (E), (F), or (G) of section
1677(9) of this title which is a party to the
investigation,
then the administering authority and
Commission shall continue the investigation.

the

(h) Review of suspension
(1) In general
Within 20 days after the suspension of an
investigation under subsection (c), an

233a
interested party which is a party to the
investigation and which is described in
subparagraph (C), (D), (E), (F), or (G) of section
1677(9) of this title may, by petition filed with
the Commission and with notice to the
administering authority, ask for a review of
the suspension.
(2) Commission investigation
Upon receipt of a review petition under
paragraph (1), the Commission shall, within
75 days after the date on which the petition is
filed with it, determine whether the injurious
effect of imports of the subject merchandise is
eliminated completely by the agreement. If the
Commission's determination under this
subsection is negative, the investigation shall
be resumed on the date of publication of notice
of such determination as if the affirmative
preliminary determination under section
1673b(b) of this title had been made on that
date.
(3) Suspension of liquidation to continue
during review period
The suspension of liquidation of entries of
the subject merchandise shall terminate at the
close of the 20-day period beginning on the day
after the date on which notice of suspension of
the investigation is published in the Federal
Register, or, if a review petition is filed under
paragraph (1) with respect to the suspension of
䩃 䩏investigation, in the case of an affirmative
determination by the Commission under
paragraph (2), the date on which notice of an

234a
affirmative determination by the Commission
is published. If the determination of the
Commission
under
paragraph
(2)
is
affirmative, then the administering authority
shall(A) terminate the suspension of liquidation
under section 1673b(d)(2) of this title, and
(B) release any bond or other security, and
refund any cash deposit, required under
section 1673b(d)(1)(B) of this title.
(i) Violation of agreement
(1) In general
If the administering authority determines
that an agreement accepted under subsection
(b) or (c) is being, or has been, violated, or no
longer meets the requirements of such
subsection (other than the requirement, under
subsection (c)(1), of elimination of injury) and
subsection (d), then, on the date of publication
of its determination, it shall(A) suspend liquidation under section
1673b(d)(2) of this title of unliquidated
entries of the merchandise made on the later
of
(i) the date which is 90 days before the
date of publication of the notice of
suspension of liquidation, or
(ii) the date on which the merchandise,
the sale or export to the United States of
which was in violation of the agreement, or
under an agreement which no longer meets

235a
the requirements of subsections (b) and (d),
or (c) and (d), was first entered, or
withdrawn
from
warehouse,
for
consumption,
(B) if the investigation was not completed,
resume the investigation as if its affirmative
preliminary determination were made on the
date of its determination under this
paragraph,
(C) if the investigation was completed
under subsection (g), issue an antidumping
duty order under section 1673e(a) of this title
effective with respect to entries of
merchandise liquidation of which was
suspended,
(D) if it considers the violation to be
intentional, notify the Commissioner of U.S.
Customs and Border Protection who shall
take appropriate action under paragraph (2),
and
(E) notify the petitioner, interested parties
who are or were parties to the investigation,
and the Commission of its action under this
paragraph.
(2) Intentional violation to be punished by civil
penalty
Any person who intentionally violates an
agreement accepted by the administering
authority under subsection (b) or (c) shall be
subject to a civil penalty assessed in the same
amount, in the same manner, and under the
same procedures, as the penalty imposed for a

236a
fraudulent violation of section 1592(a) of this
title.
(j) Determination not to take agreement into
account
In making a final determination under section
1673d of this title, or in conducting a review
under
section 1675 of this title, in a case in
which the administering authority has terminated
a suspension of investigation under subsection
(i)(1), or continued an investigation under
subsection (g), the Commission and the
administering authority shall consider all of the
subject merchandise without regard to the effect
of any agreement under subsection (b) or (c).
(k) Termination of investigation
administering authority

initiated

by

The administering authority may terminate any
investigation initiated by the administering
authority under section 1673a(a) of this title after
providing notice of such termination to all parties
to the investigation.
(l) Special rule for nonmarket economy countries
(1) In general
The administering authority may suspend an
investigation under this part upon acceptance
of an agreement with a nonmarket economy
country to restrict the volume of imports into
the United States of the merchandise under
investigation only if the administering
authority determines that

237a
(A)
such
agreement
satisfies
requirements of subsection (d), and

the

(B) will prevent the suppression or
undercutting of price levels of domestic
products by imports of the merchandise
under investigation.
(2) Failure of agreements
If the administering authority determines
that an agreement accepted under this
subsection no longer prevents the suppression
or undercutting of domestic prices of
merchandise manufactured in the United
States, the provisions of subsection (i) shall
apply.
(m) Special
rule
investigations

for

regional

industry

(1) Suspension agreements
If the Commission makes a regional industry
determination under section 1677(4)(C) of this
title, the administering authority shall offer
exporters of the subject merchandise who
account for substantially all exports of that
merchandise for sale in the region concerned
the opportunity to enter into an agreement
described in subsection (b), (c), or (1).
(2) Requirements for suspension agreements
Any agreement described in paragraph (1)
shall be subject to all the requirements
imposed under this section for other
agreements under subsection (b), (c), or (1),
except that if the Commission makes a

238a
regional industry determination described in
paragraph (1) in the final affirmative
determination under section 1673d(b) of this
title but not in the preliminary affirmative
determination under section 1673b(a) of this
title, any agreement described in paragraph
(1) may be accepted within 60 days after the
antidumping order is published under section
1673e of this title.
(3) Effect of suspension
antidumping duty order

agreement

on

If an agreement described in paragraph (1) is
accepted after the antidumping duty order is
published, the administering authority shall
re-cind the order, refund any cash deposit and
release any bond or other security deposited
under section 1673b(d)(1)(B) of this title, and
instruct the Customs Service that entries of
the subject merchandise that were made
during the period that the order was in effect
shall be liquidated without regard to
antidumping duties.

239a
19 U.S.C. § 1673d. Final determinations
(a) Final
determination
authority

by

administering

(1) General rule
Within 75 days after the date of its
preliminary determination under section
1673b(b) of this title, the administering
authority shall make a final determination of
whether the subject merchandise is being, or is
likely to be, sold in the United States at less
than its fair value.
(2) Extension of period for determination
The administering authority may postpone
making the final determination under
paragraph (1) until not later than the 135th
day after the date on which it published notice
of its preliminary determination under section
1673b(b) of this title if a request in writing for
such a postponement is made by
(A) exporters who account for a significant
proportion of exports of the merchandise
which is the subject of the investigation, in a
proceeding in which the preliminary
determination
by
the
administering
authority under section 1673b(b) of this title
was affirmative, or
(B) the petitioner, in a proceeding in which
the preliminary determination by the
administering authority under section
1673b(b) of this title was negative.

240a
(3) Critical circumstances determinations
If
the
final
determination
of
the
administering authority is affirmative, then
that determination, in any investigation in
which the presence of critical circumstances
has been alleged under section 1673b(e) of this
title, shall also contain a finding of whether
(A)(i) there is a history of dumping and
material injury by reason of dumped imports
in the United States or elsewhere of the
subject merchandise, or
(ii) the person by whom, or for whose
account, the merchandise was imported knew
or should have known that the exporter was
selling the subject merchandise at less than its
fair value and that there would be material
injury by reason of such sales, and
(B) there have been massive imports of the
subject merchandise over a relatively short
period.
Such findings may be affirmative even though
the preliminary determination under section
1673b(e)(1) of this title was negative.
(4) De minimis dumping margin
In making a determination under this
subsection, the administering authority shall
disregard any weighted average dumping
margin that is de minimis as defined in section
1673b(b)(3) of this title.

241a
(b) Final determination by Commission
(1) In general
The Commission shall
determination of whether

make

a

final

(A) an industry in the United States
(i) is materially injured, or
(ii) is threatened with material injury, or
(B) the establishment of an industry in the
United States is materially retarded,
by reason of imports, or sales (or the likelihood
of sales) for importation, of the merchandise
with respect to which the administering
authority
has
made
an
affirmative
determination under subsection (a)(1). If the
Commission determines that imports of the
subject merchandise are negligible, the
investigation shall be terminated.
(2) Period for injury determination following
affirmative preliminary determination by
administering authority
If the preliminary determination by the
administering
authority
under
section
1673b(b) of this title is affirmative, then the
Commission shall make the determination
required by paragraph (1) before the later of
(A) the 120th day after the day on which the
administering authority makes its affirmative
preliminary determination under section
1673b(b) of this title, or

242a
(B) the 45th day after the day on which the
administering authority makes its affirmative
final determination under subsection (a).
(3) Period for injury determination following
negative preliminary determination by
administering authority
If the preliminary determination by the
administering
authority
under
section
1673b(b) of this title is negative, and its final
determination under subsection (a) is
affirmative, then the final determination by
the Commission under this subsection shall be
made within 75 days after the date of that
affirmative final determination.
(4) Certain additional findings
(A) COMMISSION STANDARD FOR RETROACTIVE
APPLICATION.—
(i) IN GENERAL.—If the finding of the
administering authority under subsection
(a)(3) is affirmative, then the final
determination of the Commission shall include
a finding as to whether the imports subject to
the
affirmative
determination
under
subsection (a)(3) are likely to undermine
seriously the remedial effect of the
antidumping duty order to be issued under
section 1673e of this title.
(ii) FACTORS TO CONSIDER.-In making the
evaluation under clause (i), the Commission
shall consider, among other factors it considers
relevant—

243a
(I) the timing and the volume of the
imports,
(II) a rapid increase in inventories of the
imports, and
(III) any other circumstances indicating
that the remedial effect of the antidumping
order will be seriously undermined.
(B) If the final determination of the
Commission is that there is no material injury
but that there is threat of material injury, then
its determination shall also include a finding
as to whether material injury by reason of the
imports of the merchandise with respect to
which the administering authority has made
an affirmative determination under subsection
(a) would have been found but for any
suspension of liquidation of entries of the
merchandise.
(c) Effect of final determinations
(1) Effect of affirmative determination by the
administering authority
If the determination of the administering
authority under subsection (a) is affirmative,
then(A) the administering authority shall make
available to the Commission all information
upon which such determination was based and
which the Commission considers relevant to its
determination, under such procedures as the
administering authority and the Commission
may establish to prevent disclosure, other than

244a
with the consent of the party providing it or
under protective order, of any information as
to which confidential treatment has been given
by the administering authority,
(B)(i) the administering authority shall
(I) determine the estimated weighted
average dumping margin for each exporter
and producer individually investigated, and
(II) determine, in accordance with
paragraph (5), the estimated all-others rate
for all exporters and producers not
individually investigated, and
(ii) the administering authority shall order
the posting of a cash deposit, bond, or other
security, as the administering authority deems
appropriate, for each entry of the subject
merchandise in an amount based on the
estimated weighted average dumping margin
or the estimated all-others rate, whichever is
applicable, and
(C) in cases where the preliminary
determination by the administering authority
under section 1673b(b) of this title was
negative, the administering authority shall
order the suspension of liquidation under
section 1673b(d)(2) of this title.
(2)

Issuance of order;
determination

effect

of

negative

If the determinations of the administering
authority and the Commission under
subsections (a)(1) and (b)(1) are affirmative,

245a
then the administering authority shall issue
an antidumping duty order under section
1673e(a) of this title. If either of such
determinations is negative, the investigation
shall be terminated upon the publication of
notice of that negative determination and the
administering authority shall
(A) terminate the suspension of liquidation
under section 1673b(d)(2) of this title, and
(B) release any bond or other security, and
refund any cash deposit, required under
section 1673b(d)(1)(B) of this title.
(3) Effect of negative determinations under
subsections (a)(3) and (b)(4)(A)
If the determination of the administering
authority or the Commission under subsection
(a)(3) or (b)(4)(A), respectively, is negative,
then the administering authority shall
(A) terminate any retroactive suspension of
liquidation required under paragraph (4) or
section 1673b(e)(2) of this title, and
(B) release any bond or other security, and
refund any cash deposit required, under
section 1673b(d)(1)(B) of this title with
respect to entries of the merchandise the
liquidation of which was suspended
retroactively under section 1673b(e)(2) of this
title.

246a
(4) Effect of affirmative determination under
subsection (a)(3)
If the determination of the administering
authority
under
subsection
(a)(3)
is
affirmative, then the administering authority
shall
(A) in cases where the preliminary
determinations
by
the
administering
authority under sections 1673b(b) and
1673b(e)(1) of this
title were both
affirmative,
continue
the
retroactive
suspension of liquidation and the posting of a
cash deposit, bond, or other security
previously ordered under section 1673b(e)(2)
of this title;
(B) in cases where the preliminary
determination
by
the
administering
authority under section 1673b(b) of this title
was affirmative, but the preliminary
determination under section 1673b(e)(1) of
this title was negative, shall modify any
suspension of liquidation and security
requirement previously ordered under
section 1673b(d) of this title to apply to
unliquidated entries of merchandise entered,
or
withdrawn
from
warehouse,
for
consumption on or after the date which is 90
days before the date on which suspension of
liquidation was first ordered; or
(C) in cases where the preliminary
determination
by
the
administering
authority under section 1673b(b) of this title
was negative, shall apply any suspension of

247a
liquidation and security requirement ordered
under subsection (c)(1)(B) to unliquidated
entries
of
merchandise
entered,
or
withdrawn from warehouse, for consumption
on or after the date which is 90 days before
the date on which suspension of liquidation
is first ordered.
(5) Method for determining estimated allothers rate
(A) General rule
For purposes of this subsection and
section1673b(d) of this title, the estimated
all-others rate shall be an amount equal to
the weighted average of the estimated
weighted
average
dumping
margins
established for exporters and producers
individually investigated, excluding any zero
and de minimis margins, and any margins
determined entirely under section 1677e of
this title.
(B) Exception
If the estimated weighted average dumping
margins established for all exporters and
producers individually investigated are zero
or de minimis margins, or are determined
entirely under section 1677e of this title, the
administering authority may use any
reasonable method to establish the estimated
all-others rate for exporters and producers
not individually investigated, including
averaging the estimated weighted average
dumping margins determined for the

248a
exporters
and
investigated.

producers

individually

(d) Publication of notice of determinations
Whenever the administering authority or the
Commission makes a determination under this
section, it shall notify the petitioner, other parties
to the investigation, and the other agency of its
determination and of the facts and conclusions of
law upon which the determination is based, and it
shall publish notice of its determination in the
Federal Register.
(e) Correction of ministerial errors
The administering authority shall establish
procedures for the correction of ministerial errors
in final determinations within a reasonable time
after the determinations are issued under this
section. Such procedures shall ensure opportunity
or interested parties to present their views
regarding any such errors. As used in this
subsection, the term “ministerial error” includes
errors in addition, subtraction, or other arithmetic
function, clerical errors resulting from inaccurate
copying, duplication, or the like, and any other
type
of
unintentional
error
which
the
administering authority considers ministerial.

249a
19 U.S.C. § 1675. Administrative review of
determinations
(a) Periodic review of amount of duty
(1) In general
At least once during each 12-month period
beginning on the anniversary of the date of
publication of a countervailing duty order
under this subtitle or under section 1303 of
this title, an antidumping duty order under
this subtitle or a finding under the
Antidumping Act, 1921, or a notice of the
suspension
of
an
investigation,
the
administering authority, if a request for such a
review has been received and after publication
of notice of such review in the Federal
Register, shall
(A) review and determine the amount of
any net countervailable subsidy,
(B) review, and determine (in accordance
with paragraph (2)), the amount of any
antidumping duty, and
(C) review the current status of, and
compliance with, any agreement by reason of
which an investigation was suspended, and
review the amount of any net countervailable
subsidy or dumping margin involved in the
agreement,
and shall publish in the Federal Register the
results of such review, together with notice of
any duty to be assessed, estimated duty to be
deposited, or investigation to be resumed.

250a
(2) Determination of antidumping duties
(A) In general
For the purpose of paragraph (1)(B), the
administering authority shall determine
(i) the normal value and export price (or
constructed export price) of each entry of
the subject merchandise, and
(ii) the dumping margin for each such
entry.
(B) Determination of antidumping or
countervailing duties for new exporters and
producers
(i) In general
If the administering authority receives a
request from an exporter or producer of the
subject merchandise establishing that
(I) such exporter or producer did not
export the merchandise that was the
subject of an antidumping duty or
countervailing duty order to the United
States (or, in the case of a regional
industry, did not export the subject
merchandise for sale in the region
concerned) during the period of
investigation, and
(II) such exporter or producer is not
affiliated (within the meaning of section
1677(33) of this title) with any exporter
or producer who exported the subject
merchandise to the United States (or in
the case of a regional industry, who

251a
exported the subject merchandise for sale
in the region concerned) during that
period,
the administering authority shall conduct a
review under this subsection to establish an
individual weighted average dumping
margin or an individual countervailing
duty rate (as the case may be) for such
exporter or producer.
(ii) Time for review under clause (i)
The
administering
authority
shall
commence a review under clause (i) in the
calendar month beginning after-(I) the end
of the 6-month period beginning on the date
of the countervailing duty or antidumping
duty order under review, or (II) the end of
any 6-month period occurring thereafter, if
the request for the review is made during
that 6-month period.
(iii) Time limits
The administering authority shall make a
preliminary determination in a review
conducted under this subparagraph within
180 days after the date on which the review
is initiated, and a final determination
within 90 days after the date the
preliminary determination is issued, except
that if the administering authority
concludes that the case is extraordinarily
complicated, it may extend the 180-day
period to 300 days and may extend the 90day period to 150 days.

252a
(iv) Determinations based on bona fide
sales
Any weighted average dumping margin or
individual
countervailing
duty
rate
determined for an exporter or producer in a
review conducted under clause (i) shall be
based solely on the bona fide United States
sales of an exporter or producer, as the case
may be, made during the period covered by
the review. In determining whether the
United States sales of an exporter or
producer made during the period covered
by the review were bona fide, the
administering authority shall consider,
depending
on
the
circumstances
surrounding such sales
(I) the prices of such sales;
(II) whether such sales were made in
commercial quantities;
(III) the timing of such sales;
(IV) the expenses arising from such
sales;
(V) whether the subject merchandise
involved in such sales was resold in the
United States at a profit;
(VI) whether such sales were made on
an arms-length basis; and
(VII) any other factor the administering
authority determines to be relevant as to
whether such sales are, or are not, likely
to be typical of those the exporter or

253a
producer will make after completion of
the review.
(C) Results of determinations
The determination under this paragraph
shall be the basis for the assessment of
countervailing or antidumping duties on
entries of merchandise covered by the
determination and for deposits of estimated
duties.
(3) Time limits
(A) Preliminary and final determinations
The administering authority shall make a
preliminary
determination
under
subparagraph (A), (B), or (C) of paragraph (1)
within 245 days after the last day of the
month in which occurs the anniversary of the
date of publication of the order, finding, or
suspension agreement for which the review
under paragraph (1) is requested, and a final
determination under paragraph (1) within
120 days after the date on which the
preliminary determination is published. If it
is not practicable to complete the review
within the foregoing time, the administering
authority may extend that 245-day period to
365 days and may extend that 120-day
period to 180 days. The administering
authority may extend the time for making a
final determination without extending the
time
for
making
a
preliminary
determination, if such final determination is
made not later than 300 days after the date

254a
on which the preliminary determination is
published.
(B) Liquidation of entries
If the administering authority orders any
liquidation of entries pursuant to a review
under paragraph (1), such liquidation shall
be made promptly and, to the greatest extent
practicable, within 90 days after the
instructions to Customs are issued. In any
case in which liquidation has not occurred
within that 90-day period, the Secretary of
the Treasury shall, upon the request of the
affected party, provide an explanation
thereof.
(C) Effect of pending review under section
1516a
In a case in which a final determination
under paragraph (1) is under review under
section 1516a of this title and a liquidation of
entries covered by the determination is
enjoined under section 1516a(c)(2) of this
title
or
suspended
under
section
1516a(g)(5)(C) of this title, the administering
authority shall, within 10 days after the final
disposition of the review under section 1516a
of this title, transmit to the Federal Register
for publication the final disposition and issue
instructions to the Customs Service with
respect to the liquidation of entries pursuant
to the review. In such a case, the 90-day
period referred to in subparagraph (B) shall
begin on the day on which the administering
authority issues such instructions.

255a
(4) Absorption of antidumping duties
During any review under this subsection
initiated 2 years or 4 years after the
publication of an antidumping duty order
under section 1673e(a) of this title, the
administering authority, if requested, shall
determine whether antidumping duties have
been absorbed by a foreign producer or
exporter subject to the order if the subject
merchandise is sold in the United States
through an importer who is affiliated with
such foreign producer or exporter. The
administering authority shall notify the
Commission of its findings regarding such
duty absorption for the Commission to
consider in conducting a review under
subsection (c).
(b) Reviews based on changed circumstances
(1) In general
Whenever the administering authority or the
Commission receives information concerning,
or a request from an interested party for a
review of
(A) a final affirmative determination that
resulted in an antidumping duty order under
this subtitle or a finding under the
Antidumping
Act,
1921,
or
in
a
countervailing duty or-der under this subtitle
or section 1303 of this title,
(B) a suspension agreement accepted under
section 1671c or 1673c of this title, or

256a
(C) a final affirmative determination
resulting from an investigation continued
pursuant to section 1671c(g) or 1673c(g) of
this title,
which shows changed circumstances sufficient to
warrant a review of such determination or
agreement, the administering authority or the
Commission (as the case may be) shall conduct a
review of the determination or agreement after
publishing notice of the review in the Federal
Register.
(2) Commission review
In conducting a review under this subsection,
the Commission shall
(A) in the case of a countervailing duty
order or antidumping duty order or finding,
determine whether revocation of the order or
finding is likely to lead to continuation or
recurrence of material injury,
(B) in the case of a determination made
pursuant to section 1671c(h)(2) or 1673c(h)(2)
of this title, determine whether the
suspension agreement continues to eliminate
completely the injurious effects of imports of
the subject merchandise, and
(C) in the case of an affirmative
determination
resulting
from
an
investigation
continued
under
section
1671c(g) or 1673c(g) of this title, determine
whether termination of the suspended
investigation is likely to lead to continuation
or recurrence of material injury.

257a
(3) Burden of persuasion
During a review conducted
Commission under this subsection

by

the

(A) the party seeking revocation of an order
or finding described in paragraph (1)(A) shall
have the burden of persuasion with respect to
whether there are changed circumstances
sufficient to warrant such revocation, and
(B) the party seeking termination of a
suspended investigation or a suspension
agreement shall have the burden of persuasion
with respect to whether there are changed
circumstances sufficient to warrant such
termination.
(4) Limitation on period for review
In the absence of good cause shown
(A) the Commission may not review a
determination made under section 1671d(b)
or 1673d(b) of this title, or an investigation
suspended under section 1671c or 1673c of
this title, and
(B) the administering authority may not
review a determination made under section
1671d(a) or 1673d(a) of this title, or an
investigation suspended under section 1671c
or 1673c of this title,
less than 24 months after the date of
publication of notice of that determination or
suspension.

258a
(c) Five-year review
(1) In general
Notwithstanding subsection (b) and except in
the case of a transition order defined in
paragraph (6), 5 years after the date of
publication of(A) a countervailing duty order (other than
a countervailing duty order to which
subparagraph (B) applies or which was
issued without an affirmative determination
of injury by the Commission under section
1303 2 of this title), an antidumping duty
order, or a notice of suspension of an
investigation, described in subsection (a)(1),
(B) a notice of injury determination under
section 1675b of this title with respect to a
countervailing duty order, or
(C) a determination under this section to
continue an order or suspension agreement,
the
administering
authority
and
the
Commission shall conduct a review to
determine, in accordance with section 1675a of
this
title,
whether
revocation
of
the
countervailing or antidumping duty order or
termination of the investigation suspended
under section 1671c or 1673c of this title would
be likely to lead to continuation or recurrence of
dumping or a countervailable subsidy (as the
case may be) and of material injury.

259a
(2) Notice of initiation of review
Not later than 30 days before the fifth
anniversary of the date described in paragraph
(1), the administering authority shall publish
in the Federal Register a notice of initiation of
a review under this subsection and request
that interested parties submit(A) a statement expressing their willingness
to participate in the review by providing
information requested by the administering
authority and the Commission,
(B) a statement regarding the likely effects of
revocation of the order or termination of the
suspended investigation, and
(C) such other information or industry data
as the administering authority or the
Commission may specify.
(3) Responses to notice of initiation
(A) No response
If no interested party responds to the notice
of initiation under this subsection, the
administering authority shall issue a final
determination, within 90 days after the
initiation of a review, revoking the order or
terminating the suspended investigation to
which such notice relates. For purposes of
this paragraph, an interested party means a
party described in section 1677(9)(C), (D),
(E), (F), or (G) of this title.

260a
(B) Inadequate response
If interested parties provide inadequate
responses to a notice of initiation, the
administering authority, within 120 days
after the initiation of the review, or the
Commission, within 150 days after such
initiation, may issue, without further
investigation, a final determination based on
the facts available, in accordance with
section 1677e of this title.
(4) Waiver of
interested parties

participation

by

certain

(A) In general
An interested party described in section
1677(9)(A) or (B) of this title may elect not to
participate in a review conducted by the administering authority under this subsection
and to participate only in the review
conducted by the Commission under this
subsection.
(B) Effect of waiver
In a review in which an interested party
waives its participation pursuant to this
paragraph, the administering authority shall
conclude that revocation of the order or
termination of the investigation would be
likely to lead to continuation or recurrence of
dumping or a countervailable subsidy (as the
case may be) with respect to that interested
party.

261a
(5) Conduct of review
(A) Time limits for completion of review
Unless the review has been completed
pursuant to paragraph (3) or paragraph (4)
applies, the administering authority shall
make its final determination pursuant to
section 1675a(b) or (c) of this title within 240
days after the date on which a review is
initiated under this subsection. If the
administering authority makes a final
affirmative determination, the Commission
shall make its final determination pursuant
to section 1675a(a) of this title within 360
days after the date on which a review is
initiated under this subsection.
(B) Extension of time limit
The administering authority or the
Commission (as the case may be) may extend
the period of time for making their respective
determinations under this subsection by not
more than 90 days, if the administering
authority or the Commission (as the case
may be) determines that the review is
extraordinarily complicated. In a review in
which the administering authority extends
the time for making a final determination,
but the Commission does not extend the time
for
making
a
determination,
the
Commission's determination shall be made
not later than 120 days after the date on
which the final determination of the
administering authority is published.

262a
(C) Extraordinarily complicated
For purposes of this subsection, the
administering authority or the Commission
(as the case may be) may treat a review as
extraordinarily complicated if
(i) there is a large number of issues,
(ii) the issues to be considered are
complex,
(iii) there is a large number of firms
involved,
(iv)
the
orders
or
suspended
investigations have been grouped as
described in subparagraph (D), or
(v) it is a review of a transition order.
(D) Grouped reviews
The Commission, in consultation with the
administering authority, may group orders or
suspended investigations for review if it
considers that such grouping is appropriate
and will promote administrative efficiency.
Where orders or suspended investigations
have been grouped, the Commission shall,
subject to subparagraph (B), make its final
determination under this subsection not later
than 120 days after the date that the
administering authority publishes notice of
its final determination with respect to the
last order or agreement in the group.

263a
(6) Special transition rules
(A) Schedule for reviews of transition orders
(i) Initiation
The administering authority shall begin its
review of transition orders in the 42d
calendar month after the date such orders
are issued. A review of all transition orders
shall be initiated not later than the 5th
anniversary after the date such orders are
issued.
(ii) Completion
A review of a transition order shall be
completed not later than 18 months after the
date such review is initiated. Reviews of all
transition orders shall be completed not later
than 18 months after the 5th anniversary of
the date such orders are issued.
(iii) Subsequent reviews
The time limits set forth in clauses (i) and
(ii) shall be applied to all subsequent 5-year
reviews of transition orders by substituting
“date of the determination to continue such
orders” for “date such orders are issued”.
(iv) Revocation and termination
No transition order may be revoked under
this subsection before the date that is 5 years
after the date the WTO Agreement enters
into force with respect to the United States.

264a
(B) Sequence of transition reviews
The administering authority, in consultation
with the Commission, shall determine such
sequence of review of transition orders as it
deems appropriate to promote administrative
efficiency. To the extent practicable, older
orders shall be reviewed first.
(C) “Transition order” defined
For purposes of this section, the term
“transition order” means
(i) a countervailing duty order under this
subtitle or under section 1303 of this title,
(ii) an antidumping duty order under this
subtitle
or
a
finding
under
the
Antidumping Act, 1921, or
(iii) a suspension of an investigation
under section 1671c or 1673c of this title,
which is in effect on the date the WTO
Agreement enters into force with respect to the
United States.
(D) Issue date for transition orders
For purposes of this subsection, a transition
order shall be treated as issued on the date the
WTO Agreement enters into force with respect
to the United States, if such order is based on
an investigation conducted by both the
administering authority and the Commission.

265a
(7) Exclusions from computations
(A) In general
Subject to subparagraph (B), there shall be
excluded from the computation of the 5-year
period described in paragraph (1) and the
periods described in paragraph (6) any period
during which the importation of the subject
merchandise is prohibited on account of the
imposition,
under
the
International
Emergency Economic Powers Act [50 U.S.C.
1701 et seq.] or other provision of law, of
sanctions by the United States against the
country in which the subject merchandise
originates.
(B) Application of exclusion
Subparagraph (A) shall apply only with
respect to subject merchandise which
originates in a country that is not a WTO
member.
(d) Revocation of order or finding, termination of
suspended investigation
(1) In general
The administering authority may revoke, in
whole or in part, a countervailing duty order or
an antidumping duty order or finding, or
terminate a suspended investigation, after
review under subsection (a) or (b). The
administering authority shall not revoke, in
whole or in part, a countervailing duty order or
terminate a suspended investigation on the
basis of any export taxes, duties, or other

266a
charges levied on the export of the subject
merchandise to the United States which are
specifically
intended
to
offset
the
countervailable subsidy received.
(2) Five-year reviews
In the case of a review conducted under
subsection (c), the administering authority
shall revoke a countervailing duty order or an
antidumping duty order or finding, or
terminate a suspended investigation, unless
(A) the administering authority makes a
determination
that
dumping
or
a
countervailable subsidy, as the case may be,
would be likely to continue or recur, and
(B) the Commission makes a determination
that material injury would be likely to
continue or recur as described in section
1675a(a) of this title.
(3) Application of revocation or termination
A determination under this section to revoke
an order or finding or terminate a suspended
investigation shall apply with respect to
unliquidated
entries
of
the
subject
merchandise which are entered, or withdrawn
from warehouse, for consumption on or after
the date determined by the administering
authority.
(e) Hearings
Whenever the administering authority or the
Commission conducts a review under this section,
it shall, upon the request of an interested party,

267a
hold a hearing in accordance with section 1677c(b)
of this title in connection with that review.
(f) Determination that basis for suspension no
longer exists
If the determination of the Commission under
subsection (b)(2)(B) is negative, the suspension
agreement shall be treated as not accepted,
beginning on the date of publication of the
Commission's
determination,
and
the
administering authority and the Commission
shall proceed, under section 1671c(i) or 1673c(i) of
this title, as if the suspension agreement had been
violated on that date, except that no duty under
any order subsequently issued shall be assessed
on merchandise entered, or withdrawn from
warehouse, for consumption before that date.
(g) Reviews to implement results of subsidies
enforcement proceeding
(1) Violations of article 8 of the subsidies
agreement
If—
(A) the administering authority receives
notice from the Trade Representative of a
violation of Article 8 of the Subsidies
Agreement,
(B) the administering authority has reason
to believe that merchandise subject to an
existing countervailing duty order or
suspended investigation is benefiting from
the subsidy or subsidy program found to

268a
have been in violation of Article 8 of the
Subsidies Agreement, and
(C) no review pursuant to subsection (a)(1)
is in progress,
the administering authority shall conduct a
review of the order or suspended investigation to
determine whether the subject merchandise
benefits from the subsidy or subsidy program
found to have been in violation of Article 8 of the
Subsidies Agreement. If the administering
authority
determines
that
the
subject
merchandise is benefiting from the subsidy or
subsidy program, it shall make appropriate
adjustments in the estimated duty to be
deposited or appropriate revisions to the terms
of the suspension agreement.
(2) Withdrawal of subsidy or imposition of
countermeasures
If the Trade Representative notifies the
administering authority that, pursuant to
Article 4 or Article 7 of the Subsidies
Agreement(A)(i) the United States has imposed
countermeasures, and
(ii) such countermeasures are based on the
effects in the United States of imports of
merchandise that is the subject of a
countervailing duty order, or
(B) a WTO member country has withdrawn
a countervailable subsidy provided with

269a
respect to merchandise
countervailing duty order,

subject

to

a

the administering authority shall conduct a
review to determine if the amount of the
estimated duty to be deposited should be
adjusted or the order should be revoked.
(3) Expedited review
The administering authority shall conduct
reviews under this subsection on an expedited
basis, and shall publish the results of such
reviews in the Federal Register.
(h) Correction of ministerial errors
The administering authority shall establish
procedures for the correction of ministerial errors
in final determinations within a reasonable time
after the determinations are issued under this
section. Such procedures shall ensure opportunity
for interested parties to present their views
regarding any such errors. As used in this
subsection, the term “ministerial error” includes
errors in addition, subtraction, or other arithmetic
function, clerical errors resulting from inaccurate
copying, duplication, or the like, and any other
type
of
unintentional
error
which
the
administering authority considers ministerial.

270a
19 U.S.C. § 1677. Definitions; special rules
For purposes of this subtitle
(1) Administering authority
The term “administering authority” means
the Secretary of Commerce, or any other
officer of the United States to whom the
responsibility for carrying out the duties of the
administering authority under this subtitle are
transferred by law.
(2) Commission
The term “Commission” means the United
States International Trade Commission.
(3) Country
The term “country” means a foreign country,
a political subdivision, dependent territory, or
possession of a foreign country, and, except for
the purpose of antidumping proceedings, may
include an association of 2 or more foreign
countries, political subdivisions, dependent
territories, or possessions of countries into a
customs union outside the United States.
(4) Industry
(A) In general
The term “industry” means the producers
as a whole of a domestic like product, or
those producers whose collective output of a
domestic like product constitutes a major
proportion of the total domestic production of
the product.

271a
(B) Related parties
(i) If a producer of a domestic like product
and an exporter or importer of the subject
merchandise are related parties, or if a
producer of the domestic like product is also
an importer of the subject merchandise, the
producer may, in appropriate circumstances,
be excluded from the industry.
(ii) For purposes of clause (i), a producer
and an exporter or importer shall be
considered to be related parties, if
(I) the producer directly or indirectly
controls the exporter or importer,
(II) the exporter or importer directly or
indirectly controls the producer,
(III) a third party directly or indirectly
controls the producer and the exporter or
importer, or
(IV) the producer and the exporter or
importer directly or indirectly control a
third party and there is reason to believe
that the relationship causes the producer to
act differently than a nonrelated producer.
For purposes of this subparagraph, a party
shall be considered to directly or indirectly
control another party if the party is legally or
operationally in a position to exercise
restraint or direction over the other party.
(C) Regional industries
In appropriate circumstances, the United
States, for a particular product market, may

272a
be divided into 2 or more markets and the
producers within each market may be
treated as if they were a separate industry if
(i) the producers within such market sell
all or almost all of their production of the
domestic like product in question in that
market, and
(ii) the demand in that market is not
supplied, to any substantial degree, by
producers of the product in question located
elsewhere in the United States.
In such appropriate circumstances, material
injury, the threat of material injury, or
material retardation of the establishment of
an industry may be found to exist with
respect to an industry even if the domestic
industry as a whole, or those producers
whose collective output of a domestic like
product constitutes a major proportion of the
total domestic production of that product, is
not injured, if there is a concentration of
dumped imports or imports of merchandise
benefiting from a countervailable subsidy
into such an isolated market and if the
producers of all, or almost all, of the
production within that market are being
materially injured or threatened by material
injury, or if the establishment of an industry
is being materially retarded, by reason of the
dumped imports or imports of merchandise
benefiting from a countervailable subsidy.
The term “regional industry” means the
domestic producers within a region who are

273a
treated as a separate industry under this
subparagraph.
(D) Product lines
The effect of dumped imports or imports of
merchandise
benefiting
from
a
countervailable subsidy shall be assessed in
relation to the United States production of a
domestic like product if available data permit
the separate identification of production in
terms of such criteria as the production
process or the producer's profits. If the
domestic production of the domestic like
product has no separate identity in terms of
such criteria, then the effect of the dumped
imports or imports of merchandise benefiting
from a countervailable subsidy shall be
assessed by the examination of the
production of the narrowest group or range of
products, which includes a domestic like
product, for which the necessary information
can be provided.
(E) Industry
producing
agricultural products

processed

(i) In general
Subject to clause (v), in an investigation
involving a processed agricultural product
produced from any raw agricultural
product, the producers or growers of the
raw agricultural product may be
considered part of the industry producing
the processed product if

274a
(I) the processed agricultural product is
produced from the raw agricultural
product through a single continuous line
of production; and
(II) there is a substantial coincidence of
economic interest between the producers
or growers of the raw agricultural
product and the processors of the
processed agricultural product based
upon relevant economic factors, which
may, in the discretion of the Commission,
include price, added market value, or
other
economic
interrelationships
(regardless of whether such coincidence
of economic interest is based upon any
legal relationship).
(ii) Processing
For purposes of this subparagraph, the
processed agricultural product shall be
considered to be processed from a raw
agricultural product through a single
continuous line of production if
(I) the raw agricultural product is
substantially or completely devoted to
the production of the processed
agricultural product; and
(II) the processed agricultural product
is produced substantially or completely
from the raw product.

275a
(iii) Relevant economic factors
For purposes of clause (i)(II), in addition
to such other factors it considers relevant
to the question of coincidence of economic
interest, the Commission shall(I) if price is taken into account,
consider the degree of correlation
between the price of the raw agricultural
product and the price of the processed
agricultural product; and
(II) if added market value is taken into
account, consider whether the value of
the raw agricultural product constitutes
a significant percentage of the value of
the processed agricultural product.
(iv) Raw agricultural product
For purposes of this subparagraph, the
term “raw agricultural product” means
any farm or fishery product.
(v) Termination of this subparagraph
This subparagraph shall cease to have
effect if the United States Trade
Representative notifies the administering
authority and the Commission that the
application of this subparagraph is
inconsistent with the international
obligations of the United States.

276a
(5) Countervailable subsidy
(A) In general
Except as provided in paragraph (5B), a
countervailable subsidy is a subsidy
described in this paragraph which is specific
as described in paragraph (5A).
(B) Subsidy described
A subsidy is described in this paragraph in
the case in which an authority
(i) provides a financial contribution,
(ii) provides any form of income or price
support within the meaning of Article XVI
of the GATT 1994, or
(iii) makes a payment to a funding
mechanism
to
provide
a
financial
contribution, or entrusts or directs a
private entity to make a financial
contribution, if providing the contribution
would normally be vested in the
government and the practice does not differ
in substance from practices normally
followed by governments,
to a person and a benefit is thereby
conferred. For purposes of this paragraph
and paragraphs (5A) and (5B), the term
“authority” means a government of a country
or any public entity within the territory of
the country.

277a
(C) Other factors
The determination of whether a subsidy
exists shall be made without regard to
whether the recipient of the subsidy is
publicly or privately owned and without
regard to whether the subsidy is provided
directly or indirectly on the manufacture,
production, or export of merchandise. The
administering authority is not required to
consider the effect of the subsidy in
determining whether a subsidy exists under
this paragraph.
(D) Financial contribution
The term “financial contribution” means
(i) the direct transfer of funds, such as
grants, loans, and equity infusions, or the
potential direct transfer of funds or
liabilities, such as loan guarantees,
(ii) foregoing or not collecting revenue
that is otherwise due, such as granting tax
credits or deductions from taxable income,
(iii) providing goods or services, other
than general infrastructure, or
(iv) purchasing goods.
(E) Benefit conferred
A benefit shall normally be treated as
conferred where there is a benefit to the
recipient, including
(i) in the case of an equity infusion, if the
investment decision is inconsistent with the

278a
usual investment practice of private
investors, including the practice regarding
the provision of risk capital, in the country
in which the equity infusion is made,
(ii) in the case of a loan, if there is a
difference between the amount the
recipient of the loan pays on the loan and
the amount the recipient would pay on a
comparable commercial loan that the
recipient could actually obtain on the
market,
(iii) in the case of a loan guarantee, if
there is a difference, after adjusting for any
difference in guarantee fees, between the
amount the recipient of the guarantee pays
on the guaranteed loan and the amount the
recipient would pay for a comparable
commercial loan if there were no guarantee
by the authority, and
(iv) in the case where goods or services
are provided, if such goods or services are
provided
for
less
than
adequate
remuneration, and in the case where goods
are purchased, if such goods are purchased
for more than adequate remuneration.
For purposes of clause (iv), the adequacy of
remuneration shall be determined in relation
to prevailing market conditions for the good
or service being provided or the goods being
purchased in the country which is subject to
the investigation or review. Prevailing
market conditions include price, quality,

279a
availability, marketability, transportation,
and other conditions of purchase or sale.
(F) Change in ownership
A change in ownership of all or part of a
foreign enterprise or the productive assets of
a foreign enterprise does not by itself require
a determination by the administering
authority that a past countervailable subsidy
received by the enterprise no longer
continues to be countervailable, even if the
change in ownership is accomplished through
an arm's length transaction.
(5A) Specificity
(A) In general
A subsidy is specific if it is an export
subsidy described in subparagraph (B) or an
import substitution subsidy described in
subparagraph (C), or if it is determined to be
specific pursuant to subparagraph (D).
(B) Export subsidy
An export subsidy is a subsidy that is, in
law or in fact, contingent upon export
performance, alone or as 1 of 2 or more
conditions.
(C) Import substitution subsidy
An import substitution subsidy is a subsidy
that is contingent upon the use of domestic
goods over imported goods, alone or as 1 of 2
or more conditions.

280a
(D) Domestic subsidy
In determining whether a subsidy (other
than a subsidy described in subparagraph (B)
or (C)) is a specific subsidy, in law or in fact,
to an enterprise or industry within the
jurisdiction of the authority providing the
subsidy, the following guidelines shall apply:
(i) Where the authority providing the
subsidy, or the legislation pursuant to
which the authority operates, expressly
limits access to the subsidy to an enterprise
or industry, the subsidy is specific as a
matter of law.
(ii) Where the authority providing the
subsidy, or the legislation pursuant to
which the authority operates, establishes
objective criteria or conditions governing
the eligibility for, and the amount of, a
subsidy, the subsidy is not specific as a
matter of law, if
(I) eligibility is automatic,
(II) the criteria or conditions
eligibility are strictly followed, and

for

(III) the criteria or conditions are
clearly set forth in the relevant statute,
regulation, or other official document so
as to be capable of verification.
For purposes of this clause, the term
“objective criteria or conditions” means
criteria or conditions that are neutral and

281a
that do not favor one enterprise or industry
over another.
(iii) Where there are reasons to believe
that a subsidy may be specific as a matter
of fact, the subsidy is specific if one or more
of the following factors exist:
(I) The actual recipients of the subsidy,
whether considered on an enterprise or
industry basis, are limited in number.
(II) An enterprise or industry is a
predominant user of the subsidy.
(III) An enterprise or industry receives
a disproportionately large amount of the
subsidy.
(IV) The manner in which the authority
providing the subsidy has exercised
discretion in the decision to grant the
subsidy indicates that an enterprise or
industry is favored over others.
In evaluating the factors set forth in
subclauses (I), (II), (IIl), and (IV), the
administering authority shall take into
account the extent of diversification of
economic activities within the jurisdiction
of the authority providing the subsidy, and
the length of time during which the subsidy
program has been in operation.
(iv) Where a subsidy is limited to an
enterprise or industry located within a
designated geographical region within the

282a
jurisdiction of the authority providing the
subsidy, the subsidy is specific.
For purposes of this paragraph and paragraph
(5B), any reference to an enterprise or industry
is a reference to a foreign enterprise or foreign
industry and includes a group of such
enterprises or industries.
(5B) Categories
subsidies

of

noncountervailable

(A) In general
Notwithstanding
the
provisions
of
paragraphs (5) and (5A), in the case of
merchandise imported from a Subsidies
Agreement country, a subsidy shall be
treated as noncountervailable if the
administering authority determines in an
investigation under part I of this subtitle or a
review under part I of this subtitle that the
subsidy meets all of the criteria described in
subparagraph (B), (C), or (D), as the case
may be, or the provisions of subparagraph
(E)(i) apply.
(B) Research subsidy
(i) In general
Except for a subsidy provided on the
manufacture, production, or export of civil
aircraft, a subsidy for research activities
conducted by a person, or by a higher
education or research establishment on a
contract basis with a person, shall be
treated as noncountervailable, if the

283a
subsidy covers not more than 75 percent
of the costs of industrial research or not
more than 50 percent of the costs of
precompetitive development activity, and
such subsidy is limited exclusively to
(I) the costs of researchers, technicians,
and other supporting staff employed
exclusively in the research activity,
(II)
the
costs
of
instruments,
equipment, land, or buildings that are
used exclusively and permanently
(except when disposed of on a commercial
basis) for the research activity,
(III) the costs of consultancy and
equivalent services used exclusively for
the research activity, including costs for
bought-in research, technical knowledge,
and patents,
(IV) additional overhead costs incurred
directly as a result of the research
activity, and
(V) other operating costs (such as
materials and supplies) incurred directly
as a result of the research activity.
(ii) Definitions
For purposes of this subparagraph
(I) Industrial research
The term “industrial research” means
planned search or critical investigation
aimed at the discovery of new
knowledge, with the objective that such

284a
knowledge may be useful in developing
new products, processes, or services, or
in bringing about a significant
improvement to existing products,
processes, or services.
(II) Precompetitive
activity

development

The
term
“precompetitive
development activity” means the
translation of industrial research
findings into a plan, blueprint, or
design for new, modified, or improved
products,
processes,
or
services,
whether intended for sale or use,
including the creation of a first
prototype that would not be capable of
commercial use. The term also may
include the conceptual formulation and
design of products, processes, or
services
alternatives
and
initial
demonstration or pilot projects, if these
same projects cannot be converted or
used for industrial application or
commercial exploitation. The term does
not include routine or periodic
alterations
to
existing
products,
production
lines,
manufacturing
processes, services, or other ongoing
operations even if those alterations
may represent improvements.

285a
(iii) Calculation rules
(I) In general
In the case of a research activity that
spans both industrial research and
precompetitive development activity,
the
allow-able
level
of
the
noncountervailable subsidy shall not
exceed 62.5 percent of the costs set
forth in subclauses (I), (H), (III), (IV),
and (V) of clause (i).
(II) Total eligible costs
The
allowable
level
of
a
noncountervailable subsidy described
in clause (i) shall be based on the total
eligible costs incurred over the duration
of a particular project.
(C) Subsidy to disadvantaged regions
(i) In general
A subsidy provided, pursuant to a
general
framework
of
regional
development, to a person located in a
disadvantaged region within a country
shall be treated as noncountervailable, if
it is not specific (within the meaning of
paragraph (5A)) within eligible regions
and if the following conditions are met:
(I)
Each
region
identified
as
disadvantaged within the territory of a
country is a clearly designated,
contiguous geographical area with a

286a
definable economic and administrative
identity.
(II) Each region is considered a
disadvantaged region on the basis of
neutral and objective criteria indicating
that the region is disadvantaged because
of more than temporary circumstances,
and such criteria are clearly stated in the
relevant statute, regulation, or other
official document so as to be capable of
verification.
(III) The criteria described in subclause
(II) include a measurement of economic
development.
(IV) Programs provided within a
general
framework
of
regional
development include ceilings on the
amount of assistance that can be granted
to a subsidized project. Such ceilings are
differentiated according to the different
levels of development of assisted regions,
and are expressed in terms of investment
costs or costs of job creation. Within such
ceilings, the distribution of assistance is
sufficiently broad and even to avoid the
predominant use of a subsidy by, or the
provision of disproportionately large
amounts of a subsidy to, an enterprise or
industry as described in paragraph
(5A)(D).

287a
(ii)

Measurement
development

of

economic

For purposes of clause (i), the
measurement of economic development
shall be based on one or more of the
following factors:
(I) Per capita income, household per
capita income, or per capita gross
domestic product that does not exceed 85
percent of the average for the country
subject to investigation or review.
(II) An unemployment rate that is at
least 110 percent of the average
unemployment rate for the country
subject to investigation or review.
The
measurement
of
economic
development shall cover a 3-year period,
but may be a composite measurement and
may include factors other than those set
forth in this clause.
(iii) Definitions
For purposes of this subparagraph
(I)

General framework
development

of

regional

The term “general framework of
regional development” means that the
regional subsidy programs are part of
an internally consistent and generally
applicable regional development policy,
and
that
regional
development
subsidies are not granted in isolated

288a
geographical points having no, or
virtually
no,
influence
on
the
development of a region.
(II) Neutral and objective criteria
The term “neutral and objective
criteria” means criteria that do not
favor certain regions beyond what is
appropriate for the elimination or
reduction of regional disparities within
the framework of the regional
development policy.
(D)

Subsidy for adaptation of existing
facilities
to
new
environmental
requirements
(i) In general
A subsidy that is provided to promote
the adaptation of existing facilities to new
environmental requirements that are
imposed by statute or by regulation, and
that result in greater constraints and
financial burdens on the recipient of the
subsidy,
shall
be
treated
as
noncountervailable, if the subsidy
(I) is a one-time nonrecurring measure,
(II) is limited to 20 percent of the cost
of adaptation,
(III) does not cover the cost of replacing
and operating the subsidized investment,
a cost that must be fully borne by the
recipient,

289a
(IV) is directly linked and proportionate
to the recipient's planned reduction of
nuisances and pollution, and does not
cover any manufacturing cost savings
that may be achieved, and
(V) is available to all persons that can
adopt the new equipment or production
processes.
(ii) Existing facilities
For purposes of this subparagraph, the
term “existing facilities” means facilities
that have been in operation for at least 2
years before the date on which the new
environmental requirements are imposed.
(E) Notified subsidy program
(i) General rule
If a subsidy is provided pursuant to a
program that has been notified in
accordance with Article 8.3 of the
Subsidies Agreement, the subsidy shall be
treated as noncountervailable and shall
not be subject to investigation or review
under this subtitle.
(ii) Exception
Notwithstanding clause (i), a subsidy
shall be treated as countervailable if
(I) the Trade Representative notifies
the administering authority that a
determination has been made pursuant
to Article 8.4 or 8.5 of the Subsidies
Agreement that the subsidy, or the

290a
program pursuant to which the subsidy was provided, does not satisfy the
conditions and criteria of Article 8.2 of
the Subsidies Agreement; and
(II) the subsidy is specific within the
meaning of paragraph (5A).
(F) Certain
products

subsidies

on

agricultural

Domestic support measures that are
provided with respect to products listed in
Annex 1 to the Agreement on Agriculture,
and that the administering authority
determines conform fully to the provisions of
Annex 2 to that Agreement, shall be treated
as noncountervailable. Upon request by the
administering
authority,
the
Trade
Representative
shall
provide
advice
regarding the interpretation and application
of Annex 2.
(G) Provisional application
(i) Subparagraphs (B), (C), (D), and (E)
shall not apply on or after the first day of the
month that is 66 months after the WTO
Agreement enters into force, unless the
provisions of such subparagraphs are
extended pursuant to section 3572(c) of this
title.
(ii) Subparagraph (F) shall not apply to
imports from a WTO member country at the
end of the 9-year period beginning on
January 1, 1995. The Trade Representative
shall determine the precise termination date

291a
for each WTO member country in accordance
with paragraph (i) of Article 1 of the
Agreement on Agriculture and such date
shall be notified to the administering
authority.
(6) Net countervailable subsidy
For the purpose of determining the net
countervailable subsidy, the administering
authority may subtract from the gross
countervailable subsidy the amount of
(A) any application fee, deposit, or similar
payment paid in order to qualify for, or to
receive, the benefit of the countervailable
subsidy,
(B) any loss in the value of the
countervailable subsidy resulting from its
deferred receipt, if the deferral is mandated
by Government order, and
(C) export taxes, duties, or other charges
levied on the export of merchandise to the
United States specifically intended to offset
the countervailable subsidy received.
(7) Material injury
(A) In general
The term “material injury” means harm
which is not inconsequential, immaterial,
or unimportant.
(B) Volume and consequent impact

292a
In making determinations under sections
1671b(a), 1671d(b), 1673b(a), and 1673d(b)
of this title, the Commission, in each case
(i) shall consider
(I) the volume of imports of the subject
merchandise,
(II) the effect of imports of that
merchandise on prices in the United
States for domestic like products, and
(III) the impact of imports of such
merchandise on domestic producers of
domestic like products, but only in the
context of production operations within
the United States; and
(ii) may consider such other economic
factors as are relevant to the determination
regarding whether there is material injury
by reason of imports.
In the notification required under section
1671d(d) or 1673d(d) of this title, as the case
may be, the Commission shall explain its
analysis of each factor considered under
clause (i), and identify each factor considered
under clause (ii) and explain in full its
relevance to the determination.
(C) Evaluation of relevant factors
For purposes of subparagraph (B)
(i) Volume
In evaluating the volume of imports of
merchandise, the Commission shall

293a
consider whether the volume of imports of
the merchandise, or any increase in that
volume, either in absolute terms or
relative to production or consumption in
the United States, is significant.
(ii) Price
In evaluating the effect of imports of
such merchandise on prices, the
Commission shall consider whether
(I) there has been significant price
underselling
by
the
imported
merchandise as compared with the price
of domestic like products of the United
States, and
(II) the effect of imports of such
merchandise otherwise depresses prices
to a significant degree or prevents price
increases, which otherwise would have
occurred, to a significant degree.
(iii) Impact on affected domestic industry
In examining the impact required to be
considered under subparagraph (B)(i)(III),
the Commission shall evaluate all
relevant economic factors which have a
bearing on the state of the industry in the
United States, including, but not limited
to
(I) actual and potential decline in
output, sales, market share, gross
profits, operating profits, net profits,
ability to service debt, productivity,

294a
return on investments, return on assets,
and utilization of capacity,
(II) factors affecting domestic prices,
(III) actual and potential negative
effects on cash flow, inventories,
employment, wages, growth, ability to
raise capital, and investment,
(IV) actual and potential negative
effects on the existing development and
production efforts of the domestic
industry, including efforts to develop a
derivative or more advanced version of
the domestic like product, and
(V) in a proceeding under part II of this
subtitle, the magnitude of the margin of
dumping.
The Commission shall evaluate all
relevant economic factors described in
this clause within the context of the
business cycle and con-ditions of
competition that are distinctive to the
affected industry.
(iv) Captive production
If domestic producers internally transfer
significant production of the domestic like
product for the production of a
downstream article and sell significant
production of the domestic like product in
the
merchant
market,
and
the
Commission finds that

295a
(I) the domestic like product produced
that is internally transferred for
processing into that downstream article
does not enter the merchant market for
the domestic like product, and
(II) the domestic like product is the
predominant material input in the
production of that downstream article,
then the Commission, in determining
market share and the factors affecting
financial performance set forth in clause
(iii), shall focus primarily on the merchant
market for the domestic like product.
(D) Special rules for agricultural products
(i) The Commission shall not determine
that there is no material injury or threat of
material injury to United States producers
of an agricultural commodity merely
because the prevailing market price is at or
above the minimum support price.
(ii) In the case of agricultural products,
the Commission shall consider any
increased burden on government income or
price support programs.
(E) Special rules
For purposes of this paragraph
(i) Nature of countervailable subsidy
In determining whether there is a
threat of material injury, the Commission
shall consider information provided to it
by the administering authority regarding

296a
the nature of the countervailable subsidy
granted by a foreign country (particularly
whether the countervailable subsidy is a
subsidy described in Article 3 or 6.1 of the
Subsidies Agreement) and the effects
likely to be caused by the countervailable
subsidy.
(ii) Standard for determination
The presence or absence of any factor
which the Commission is required to
evaluate under subparagraph (C) or (D)
shall not necessarily give decisive
guidance
with
respect
to
the
determination by the Commission of
material injury.
(F) Threat of material injury
(i) In general
In determining whether an industry in
the United States is threatened with
material injury by reason of imports (or
sales for importation) of the subject
merchandise, the Commission shall
consider, among other relevant economic
factors
(I) if a countervailable subsidy is
involved, such information as may be
presented to it by the administering
authority as to the nature of the subsidy
(particularly
as
to
whether
the
countervailable subsidy is a subsidy
described in Article 3 or 6.1 of the
Subsidies Agreement), and whether

297a
imports of the subject merchandise are
likely to increase,
(II) any existing unused production
capacity or imminent, substantial
increase in production capacity in the
exporting
country
indicating
the
likelihood of substantially increased
imports of the subject merchandise into
the United States, taking into account
the availability of other export markets
to absorb any additional exports,
(III) a significant rate of increase of the
volume or market penetration of imports
of the subject merchandise indicating the
likelihood of substantially increased
imports,
(IV) whether imports of the subject
merchandise are entering at prices that
are likely to have a significant
depressing or suppressing effect on
domestic prices, and are likely to
increase demand for further imports,
(V)
inventories
merchandise,

of

the

subject

(VI) the potential for product-shifting if
production facilities in the foreign
country, which can be used to produce
the subject merchandise, are currently
being used to produce other products,
(VII) in any investigation under this
subtitle which involves imports of both a
raw agricultural product (within the

298a
meaning of paragraph (4)(E)(iv)) and any
product processed from such raw
agricultural product, the likelihood that
there will be increased imports, by
reason of product shifting, if there is an
affirmative
determination
by
the
Commission under section 1671d(b)(1) or
1673d(b)(1) of this title with respect to
either the raw agricultural product or
the processed agricultural product (but
not both),
(VIII) the actual and potential negative
effects on the existing development and
production efforts of the domestic
industry, including efforts to develop a
derivative or more advanced version of
the domestic like product, and
(IX) any other demonstrable adverse
trends that indicate the probability that
there is likely to be material injury by
reason of imports (or sale for
importation) of the subject merchandise
(whether or not it is actually being
imported at the time).
(ii) Basis for determination
The Commission shall consider the
factors set forth in clause (i) as a whole in
making a determination of whether
further dumped or subsidized imports are
imminent and whether material injury by
reason of imports would occur unless an
order is issued or a suspension agreement
is accepted under this subtitle. The

299a
presence or absence of any factor which
the Commission is required to consider
under clause (i) shall not necessarily give
decisive guidance with respect to the
determination. Such a determination may
not be made on the basis of mere
conjecture or supposition.
(iii) Effect of dumping in third-country
markets
(I) In general
In investigations under part II of this
subtitle, the Commission shall consider
whether dumping in the markets of
foreign countries (as evidenced by
dumping findings or antidumping
remedies in other WTO member
markets against the same class or kind
of merchandise manufactured or
exported by the same party as under
investigation) suggests a threat of
material injury to the domestic
industry. In the course of its
investigation, the Commission shall
request information from the foreign
manufacturer, exporter, or United
States importer concerning this issue.
(II) WTO member market
For purposes of this clause, the term
“WTO member market” means the
market of any country which is a WTO
member.

300a
(III) European Communities
For purposes of this clause, the
European Communities shall be
treated as a foreign country.
(G) Cumulation for determining material
injury
(i) In general
For purposes of clauses (i) and (ii) of
subparagraph (C), and subject to clause
(ii), the Commission shall cumulatively
assess the volume and effect of imports of
the subject merchandise from all
countries with respect to which
(I) petitions were filed under section
1671a(b) or 1673a(b) of this title on the
same day,
(II) investigations were initiated under
section 1671a(a) or 1673a(a) of this title
on the same day, or
(III) petitions were filed under section
1671a(b) or 1673a(b) of this title and
investigations were initiated under
section 1671a(a) or 1673a(a) of this title
on the same day,
if such imports compete with each other
and with domestic like products in the
United States market.

301a
(ii) Exceptions
The Commission shall not cumulatively
assess the volume and effect of imports
under clause (i)
(I) with respect to which the
administering authority has made a
preliminary negative determination,
unless the administering authority
subsequently made a final affirmative
determination with respect to those
imports before the Commission's final
determination is made;
(II) from any country with respect to
which the investigation has been
terminated;
(III) from any country designated as a
beneficiary country under the Caribbean
Basin Economic Recovery Act (19 U.S.C.
2701 et seq.) for purposes of making a
determination with respect to that
country, except that the volume and
effect of imports of the subject
merchandise from such country may be
cumulatively assessed with imports of
the subject merchandise from any other
country designated as such a beneficiary
country to the extent permitted by clause
(i); or
(IV) from any country that is a party to
an agreement with the United States
establishing a free trade area, which
entered into force and effect before

302a
January 1, 1987, unless the Commission
determines that a domestic industry is
materially injured or threatened with
material injury by reason of imports from
that country.
(iii) Records in final investigations
In each final determination in which it
cumulatively assesses the volume and
effect of imports under clause (i), the
Commission
shall
make
its
determinations based on the record
compiled in the first investigation in
which it makes a final determination,
except that when the administering
authority issues its final determination in
a subsequently completed investigation,
the Commission shall permit the parties
in the subsequent investigation to submit
comments concerning the significance of
the administering authority's final
determination, and shall include such
comments
and
the
administering
authority's final determination in the
record for the subsequent investigation.
(iv) Regional industry determinations
In an investigation which involves a
regional industry, and in which the
Commission decides that the volume and
effect of imports should be cumulatively
assessed under this subparagraph, such
assessment shall be based upon the
volume and effect of imports into the
region or regions determined by the

303a
Commission. The provisions of clause (iii)
shall apply to such investigations.
(H) Cumulation for determining threat of
material injury
To the extent practicable and subject to
subparagraph (G)(ii), for purposes of clause
(i)(III) and (IV) of subparagraph (F), the
Commission may cumulatively assess the
volume and price effects of imports of the
subject merchandise from all countries with
respect to which
(i) petitions were filed under section
1671a(b) or 1673a(b) of this title on the
same day,
(ii) investigations were initiated under
section 1671a(a) or 1673a(a) of this title on
the same day, or
(iii) petitions were filed under section
1671a(b) or 1673a(b) of this title and
investigations were initiated under section
1671a(a) or 1673a(a) of this title on the
same day,
if such imports compete with each other and
with domestic like products in the United
States market.
(I) Consideration of post-petition information
The Commission shall consider whether
any change in the volume, price effects, or
impact of imports of the subject merchandise
since the filing of the petition in an
investigation under part I or II of this

304a
subtitle is related to the pendency of the
investigation and, if so, the Commission may
reduce the weight accorded to the data for
the period after the filing of the petition in
making its determination of material injury,
threat of material injury, or material
retardation of the establishment of an
industry in the United States.
(J) Effect of profitability
The Commission may not determine that
there is no material injury or threat of
material injury to an industry in the United
States merely because that industry is
profitable or because the performance of that
industry has recently improved.
(8) Subsidies
Agriculture

Agreement;

Agreement

on

(A) Subsidies Agreement
The term “Subsidies Agreement” means the
Agreement on Subsidies and Countervailing
Measures referred to in section 3511(d)(12) of
this title.
(B) Agreement on Agriculture
The term “Agreement on Agriculture” means
the Agreement on Agriculture referred to in
section 3511(d)(2) of this title.
(9) Interested party
The term “interested party” means
(A) a foreign manufacturer, producer, or
exporter, or the United States importer, of

305a
subject merchandise or a trade or business
association a majority of the members of which
are producers, exporters, or importers of such
merchandise,
(B) the government of a country in which such
merchandise is produced or manufactured or
from which such merchandise is exported,
(C) a manufacturer, producer, or wholesaler in
the United States of a domestic like product,
(D) a certified union or recognized union or
group of workers which is representative of an
industry
engaged
in
the
manufacture,
production, or wholesale in the United States of
a domestic like product,
(E) a trade or business association a majority
of whose members manufacture, produce, or
wholesale a domestic like product in the United
States,
(F) an association, a majority of whose
members is composed of interested parties
described in subparagraph (C), (D), or (E) with
respect to a domestic like product, and
(G) in any investigation under this subtitle
involving an industry engaged in producing a
processed agricultural product, as defined in
paragraph (4)(E), a coalition or trade association
which is representative of either
(i) processors,
(ii) processors and producers, or
(iii) processors and growers,

306a
but this subparagraph shall cease to have effect
if the United States Trade Representative
notifies the administering authority and the
Commission that the application of this
subparagraph
is
inconsistent
with
the
international obligations of the United States.
(10) Domestic like product
The term “domestic like product” means a
product which is like, or in the absence of like,
most similar in characteristics and uses with, the
article subject to an investigation under this
subtitle.
(11) Affirmative
Commission

determinations

by

divided

If
the
Commissioners
voting
on
a
determination by the Commission, including a
determination under section 1675 of this title, are
evenly divided as to whether the determination
should
be
affirmative
or
negative,-the
Commission shall be deemed to have made an
affirmative determination. For the purpose of
applying this paragraph when the issue before the
Commission is to determine whether there is
(A) material injury to an industry in the
United States,
(B) threat of material injury to such an
industry, or
(C) material retardation of the establishment
of an industry in the United States,
by reason of imports of the merchandise, an
affirmative vote on any of the issues shall be

307a
treated as a vote that the determination should be
affirmative.
(12) Attribution of merchandise to country of
manufacture or production
For purposes of part I of this subtitle,
merchandise shall be treated as the product of the
country in which it was manufactured or
produced without regard to whether it is imported
directly from that country and without regard to7
whether it is imported in the same condition as
when exported from that country or in a changed
condition by reason of remanufacture or
otherwise.
(13) Repealed. Pub. L. 103-465, title I1, §
222(i)(2), Dec. 8, 1994, 108 Stat. 4876
(14) Sold or, in the absence of sales, offered for
sale
The term “sold or, in the absence of sales,
offered for sale” means sold or, in the absence of
sales, offered
(A) to all purchasers in commercial quantities,
or
(B) in the ordinary course of trade to one or
more selected purchasers in commercial
quantities at a price which fairly reflects the
market value of the merchandise,
without regard to restrictions as to the disposition
or use of the merchandise by the purchaser except
that, where such restrictions are found to affect
the market value of the merchandise, adjustment

308a
shall be made therefor in calculating the price at
which the merchandise is sold oroffered for sale.
(15) Ordinary course of trade
The term “ordinary course of trade” means the
conditions and practices which, for a reasonable
time prior to the exportation of the subject
merchandise, have been normal in the trade
under consideration with respect to merchandise
of the same class or kind. The administering
authority shall consider the following sales and
transactions, among others, to be outside the
ordinary course of trade:
(A)
Sales
disregarded
1677b(b)(1) of this title.

under

section

(B) Transactions disregarded under section
1677b(f)(2) of this title.
(C) Situations in which the administering
authority determines that the particular market
situation prevents a proper comparison with the
export price or constructed export price.
(16) Foreign like product
The term “foreign like product” means
merchandise in the first of the following
categories in respect of which a determination for
the purposes of part II of this subtitle can be
satisfactorily made:
(A) The subject merchandise and other
merchandise which is identical in physical
characteristics with, and was produced in the
same country by the same person as, that
merchandise.

309a
(B) Merchandise
(i) produced in the same country and by the
same person as the subject merchandise,
(ii) like that merchandise in component
material or materials and in the purposes for
which used, and
(iii) approximately equal in commercial value
to that merchandise.
(C) Merchandise
(i) produced in the same country and by the
same person and of the same general class or
kind as the subject merchandise,
(ii) like that merchandise in the purposes for
which used, and
(iii) which the administering authority
determines may reasonably be compared with
that merchandise.
(17) Usual commercial quantities
The term “usual commercial quantities”, in
any case in which the subject merchandise is sold
in the market under consideration at different
prices for different quantities, means the
quantities in which such merchandise is there
sold at the price or prices for one quantity in an
aggregate volume which is greater than the
aggregate volume sold at the price or prices for
any other quantity.

310a
(18) Nonmarket economy country
(A) In general
The term “nonmarket economy country”
means any foreign country that the
administering authority determines does not
operate on market principles of cost or pricing
structures, so that sales of merchandise in
such country do not reflect the fair value of the
merchandise.
(B) Factors to be considered
In
making
determinations
under
subparagraph (A) the administering authority
shall take into account
(i) the extent to which the currency of the
foreign country is convertible into the currency
of other countries; 1
(ii) the extent to which wage rates in the
foreign country are determined by free
bargaining between labor and management, 1
So In original. The semicolon probably should
be a comma.
(iii) the extent to which joint ventures or
other investments by firms of other foreign
countries are permitted in the foreign country,
(iv) the extent of government ownership or
control of the means of production,
(v) the extent of government control over the
allocation of resources and over the price and
output decisions of enterprises, and

311a
(vi) such other factors as the administering
authority considers appropriate.
(C) Determination in effect
(i) Any determination that a foreign country
is a nonmarket economy country shall remain
in effect until revoked by the administering
authority.
(ii) The administering authority may make a
determination under subparagraph (A) with
respect to any foreign country at any time.
(D) Determinations not in issue
Notwithstanding any other provision of law,
any determination made by the administering
authority under subparagraph (A) shall not be
subject to judicial review in any investigation
conducted under part II of this subtitle.
(E) Collection of information
Upon
request
by
the
administering
authority, the Commissioner of U.S. Customs
and Border Protection shall provide the
administering authority a copy of all public
and proprietary information submitted to, or
obtained by, the Commissioner of U.S.
Customs and Border Protection that the
administering authority considers relevant to
proceedings involving merchandise from
nonmarket
economy
countries.
The
administering
authority
shall
protect
proprietary information obtained under this
section from public disclosure in accordance
with section 1677f of this title.

312a
(19) Equivalency of leases to sales
In determining whether a lease is equivalent
to a sale for purposes of this subtitle, the
administering authority shall consider
(A) the terms of the lease,
(B) commercial practice within the industry,
(C) the circumstances of the transaction,
(D) whether the product subject to the lease is
integrated into the operations of the lessee or
importer,
(E) whether in practice there is a likelihood
that the lease will be continued or renewed for a
significant period of time, and
(F) other relevant factors, including whether
the lease transaction would permit avoidance of
antidumping or countervailing duties.
(20) Application to governmental importations
(A) In general
Except as otherwise provided by this
paragraph, merchandise imported by, or for
the use of, a department or agency of the
United
States
Government
(including
merchandise provided for under chapter 98 of
the Harmonized Tariff Schedule of the United
States) is subject to the imposition of
countervailing duties or antidumping duties
under this subtitle or section 1303 of this title.

313a
(B) Exceptions
Merchandise imported by, or for the use of,
the Department of Defense shall not be subject
to the imposition of countervailing or
antidumping duties under this subtitle if
(i) the merchandise is acquired by, or for use
of, such Department
(I) from a country with which such
Department had a Memorandum of
Understanding which was in effect on
January 1, 1988, and has continued to have
a
comparable
agreement
(including
renewals) or superceding agreements, and
(II) in accordance with terms of the
Memorandum of Understanding in effect at
the time of importation, or
(ii) the merchandise has no substantial
nonmilitary use.
(21) United States-Canada Agreement
The term “United States-Canada Agreement”
means the United States-Canada Free-Trade
Agreement.
(22) NAFTA
The term “NAFTA” means the North American
Free Trade Agreement.
(23) Entry
The term “entry” includes, in appropriate
circumstances
as
determined
by
the
administering authority, a reconciliation entry
created under a reconciliation process, defined in

314a
section 1401(s) of this title, that is initiated by an
importer. The liability of an importer under an
antidumping or countervailing duty proceeding
for entries of merchandise subject to the
proceeding will attach to the corresponding
reconciliation entry or entries. Suspension of
liquidation of the reconciliation entry or entries,
for the purpose of enforcing this subtitle, is
equivalent to the suspension of liquidation of the
corresponding individual entries; but the
suspension of liquidation of the reconciliation
entry or entries for such purpose does not
preclude liquidation for any other purpose.
(24) Negligible imports
(A) In general
(i) Less than 3 percent
Except as provided in clauses (ii) and (iv),
imports from a country of merchandise
corresponding to a domestic like product
identified by the Commission are “negligible”
if such imports account for less than 3
percent of the volume of all such
merchandise imported into the United States
in the most recent 12-month period for which
data are available that precedes
(I) the filing of the petition under section
1671a(b) or 1673a(b) of this title, or
(II) the initiation of the investigation, if
the investigation was initiated under
section 1671a(a) or 1673a(a) of this title.

315a
(ii) Exception
Imports that would otherwise be negligible
under clause (i) shall not be negligible if the
aggregate volume of imports of the
merchandise from all countries described in
clause
(i)
with
respect
to
which
investigations were initiated on the same day
exceeds 7 percent of the volume of all such
merchandise imported into the United States
during the applicable 12-month period.
(iii) Determination of aggregate volume
In determining aggregate volume under
clause (ii) or (iv), the Commission shall not
consider imports from any country specified
in paragraph (7)(G)(ii).
(iv) Negligibility in threat analysis
Notwithstanding clauses (i) and (ii), the
Commission shall not treat imports as
negligible if it determines that there is a
potential that imports from a country
described in clause (i) will imminently
account for more than 3 percent of the
volume of all such merchandise imported into
the United States, or that the aggregate
volumes of imports from all countries
described in clause (ii) will imminently
exceed 7 percent of the volume of all such
merchandise imported into the United
States. The Commission shall consider such
imports only for purposes of determining
threat of material injury.

316a
(B) Negligibility for certain countries
countervailing duty investigations

in

In the case of an investigation under section
1671 of this title, subparagraph (A) shall be
applied to imports of subject merchandise from
developing countries by substituting “4
percent” for “3 percent” in subparagraph (A)(i)
and by substituting “9 percent” for “7 percent”
in subparagraph (A)(ii).
(C) Computation of import volumes
In computing import volumes for purposes of
subparagraphs (A) and (B), the Commission
may make reasonable estimates on the basis of
available statistics.
(D) Regional industries
In an investigation in which the Commission
makes a regional industry determination
under paragraph (4)(C), the Commission's
examination under subparagraphs (A) and (B)
shall be based upon the volume of subject
merchandise exported for sale in the regional
market in lieu of the volume of all subject
merchandise imported into the United States.
(25) Subject merchandise
The term “subject merchandise” means the
class or kind of merchandise that is within the
scope of an investigation, a review, a suspension
agreement, an order under this subtitle or section
1303 of this title, or a finding under the
Antidumping Act, 1921.

317a
(26) Section 1303
The terms “section 1303” and “1303” mean
section 1303 of this title as in effect on the day
before the effective date of title II of the Uruguay
Round Agreements Act.
(27) Suspension agreement
The term “suspension agreement” means an
agreement described in section 1671c(b), 1671c(c),
1673c(b), 1673c(c), or 1673c(l) of this title.
(28) Exporter or producer
The term “exporter or producer” means the
exporter of the subject merchandise, the producer
of the subject merchandise, or both where
appropriate. For purposes of section 1677b of this
title, the term “exporter or producer” includes
both the exporter of the subject merchandise and
the producer of the same subject merchandise to
the extent necessary to accurately calculate the
total amount incurred and realized for costs,
expenses, and profits in connection with
production and sale of 'that merchandise.
(29) WTO Agreement
The term “WTO Agreement” means the
Agreement defined in section 3501(9) of this title.
(30) WTO member and WTO member country
The terms “WTO member” and “WTO member
country” mean a state, or separate customs
territory (within the meaning of Article XII of the
WTO Agreement), with respect to which the
United States applies the WTO Agreement.

318a
(31) GATT 1994
The term “GATT 1994” means the General
Agreement on Tariffs and Trade annexed to the
WTO Agreement.
(32) Trade representative
The term “Trade Representative” means the
United States Trade Representative.
(33) Affiliated persons
The following persons shall be considered to be
“affiliated” or “affiliated persons”:
(A) Members of a family, including brothers
and sisters (whether by the whole or half blood),
spouse, ancestors, and lineal descendants.
(B) Any officer or director of an organization
and such organization.
(C) Partners.
(D) Employer and employee.
(E) Any person directly or indirectly owning,
controlling, or holding with power to vote, 5
percent or more of the outstanding voting stock
or shares of any organization and such
organization.
(F) Two or more persons directly or indirectly
controlling, controlled by, or under common
control with, any person.
(G) Any person who controls any other person
and such other person.
For purposes of this paragraph, a person shall be
considered to control another person if the person

319a
is legally or operationally in a position to exercise
restraint or direction over the other person.
(34) Dumped, dumping
The terms “dumped” and “dumping” refer to the
sale or likely sale of goods at less than fair value.
(35) Dumping margin; weighted average dumping
margin
(A) Dumping margin
The term “dumping margin” means the
amount by which the normal value exceeds the
export price or constructed export price of the
subject merchandise.
(B) Weighted average dumping margin
The term “weighted average dumping
margin” is the percentage determined by
dividing the aggregate dumping margins
determined for a specific exporter or producer
by the aggregate export prices and constructed
export prices of such exporter or producer.
(C) Magnitude of the margin of dumping
The magnitude of the margin of dumping
used by the Commission shall be
(i) in making a preliminary determination
under section 1673b(a) of this title in an
investigation (including any investigation in
which the Commission cumulatively assesses
the volume and effect of imports under
paragraph (7)(G)(i)), the dumping margin or
margins published by the administering

320a
authority in its notice of initiation of the
investigation;
(ii) in making a final determination under
section 1673d(b) of this title, the dumping
margin or margins most recently published
by the administering authority prior to the
closing of the Commission's administrative
record;
(iii) in a review under section 1675(b)(2) of
this title, the most recent dumping margin or
margins determined by the administering
authority under section 1675a(c)(3) of this
title, if any, or under section 1673b(b) or
1673d(a) of this title; and
(iv) in a review under section 1675(c) of this
title, the dumping margin or margins
determined by the administering authority
under section 1675a(c)(3) of this title.
(36) Developing and least developed country
(A) Developing country
The term “developing country” means a
country designated as a developing country by
the Trade Representative.
(B) Least developed country
The term “least developed country” means a
country which the Trade Representative
determines is
(i) a country referred to as a least developed
country within the meaning of paragraph (a)
of Annex VII to the Subsidies Agreement, or

321a
(ii) any other country listed in Annex VII to
the Subsidies Agreement, but only if the
country has a per capita gross national
product of less than $1,000 per annum as
measured by the most recent data available
from the World Bank.
(C) Publication of list
The Trade Representative shall publish in
the Federal Register, and update as necessary,
a list of
(i) developing countries that have
eliminated their export subsidies on an
expedited basis within the meaning of Article
27.11 of the Subsidies Agreement, and
(ii) countries determined by the Trade
Representative to be least developed or
developing countries.
(D) Factors to consider
In determining whether a country is a
developing country under subparagraph (A),
the Trade Representative shall consider such
economic, trade, and other factors which the
Trade Representative considers appropriate,
including the level of economic development of
such country (the assessment of which shall
include a review of the country's per capita
gross national product) and the country's share
of world trade.
(E) Limitation on designation
A determination that a country is a
developing or least developed country

322a
pursuant to this paragraph shall be for
purposes of this subtitle only and shall not
affect the determination of a country's status
as a developing or least developed country
with respect to any other law.

323a
19 U.S.C. § 1677a. Export price and constructed
export price
(a) Export price
The term “export price” means the price at
which the subject merchandise is first sold (or
agreed to be sold) before the date of importation
by the producer or exporter of the subject
merchandise outside of the United States to an
unaffiliated purchaser in the United States or to
an unaffiliated purchaser for exportation to the
United States, as adjusted under subsection (c).
(b) Constructed export price
The term “constructed export price” means the
price at which the subject merchandise is first
sold (or agreed to be sold) in the United States
before or after the date of importation by or for
the account of the producer or exporter of such
merchandise or by a seller affiliated with the
producer or exporter, to a purchaser not affiliated
with the producer or exporter, as adjusted under
subsections (c) and (d).
(c) Adjustments for export price and constructed
export price
The price used to establish export price and
constructed export price shall be
(1) increased by
(A) when not included in such price, the cost
of all containers and coverings and all other
costs, charges, and expenses incident to
placing the subject merchandise in condition

324a
packed ready for shipment to the United
States,
(B) the amount of any import duties imposed
by the country of exportation which have *
been rebated, or which have not been collected,
by reason of the exportation of the subject
merchandise to the United States, and
(C) the amount of any countervailing duty
imposed on the subject merchandise under
part I of this subtitle to offset an export
subsidy, and
(2) reduced by
(A) except as provided in paragraph (1)(C),
the amount, if any, included in such price,
attributable to any additional costs, charges,
or expenses, and United States import duties,
which are incident to bringing the subject
merchandise from the original place of
shipment in the exporting country to the place
of delivery in the United States, and
(B) the amount, if included in such price, of
any export tax, duty, or other charge imposed
by the exporting country on the exportation of
the subject merchandise to the United States,
other than an export tax, duty, or other charge
described in section 1677(6)(C) of this title.
(d) Additional adjustments to constructed export
price
For purposes of this section, the price used to
establish constructed export price shall also be
reduced by

325a
(1) the amount of any of the following
expenses generally incurred by or for the
account of the producer or exporter, or the
affiliated seller in the United States, in selling
the
subject
merchandise
(or
subject
merchandise to which value has been added)
(A) commissions for selling the subject
merchandise in the United States;
(B) expenses that result from, and bear a
direct relationship to, the sale, such as
credit
expenses,
guarantees
and
warranties;
(C) any selling expenses that the seller
pays on behalf of the purchaser; and
(D) any selling expenses not deducted
under subparagraph (A), (B), or (C);
(2) the cost of any further manufacture or
assembly (including additional material and
labor), except in circumstances described in
subsection (e); and
(3) the profit allocated to the expenses
described in paragraphs (1) and (2).
(e) Special rule for merchandise with value added
after importation
Where the subject merchandise is imported by
a person affiliated with the exporter or producer,
and the value added in the United States by the
affiliated person is likely to exceed substantially
the value of the subject merchandise, the
administering authority shall determine the
constructed export price for such merchandise by

326a
using one of the following prices if there is a
sufficient quantity of sales to provide a reasonable
basis for comparison and the administering
authority determines that the use of such sales is
appropriate:
(1) The price of identical subject merchandise
sold by the exporter or producer to an
unaffiliated person.
(2) The price of other subject merchandise sold
by the exporter or producer to an unaffiliated
person.
If there is not a sufficient quantity of sales to
provide a reasonable basis for comparison under
paragraph (1) or (2), or the administering
authority determines that neither of the prices
described in such paragraphs is appropriate, then
the constructed export price may be determined
on any other reasonable basis.
(f) Special rule for determining profit
(1) In general
For purposes of subsection (d)(3), profit shall
be an amount determined by multiplying the
total actual profit by the applicable percentage.
(2) Definitions
For purposes of this subsection:
(A) Applicable percentage
The term “applicable percentage” means
the percentage determined by dividing the
total United States expenses by the total
expenses.

327a
(B) Total United States expenses
The term “total United States expenses”
means the total expenses described in
subsection (d)(1) and (2).
(C) Total expenses
The term “total expenses” means all
expenses in the first of the following
categories which applies and which are
incurred by or on behalf of the foreign
producer and foreign exporter of the subject
merchandise and by or on behalf of the
United States seller affiliated with the
producer or exporter with respect to the
production and sale of such merchandise:
(i) The expenses incurred with respect to
the subject merchandise sold in the United
States and the foreign like product sold in
the exporting country if such expenses were
requested by the administering authority
for the purpose of establishing normal
value and constructed export price.
(ii) The expenses incurred with respect to
the narrowest category of merchandise sold
in the United States and the exporting
country which includes the subject
merchandise.
(iii) The expenses incurred with respect to
the narrowest category of merchandise sold
in all countries which includes the subject
merchandise.

328a
(D) Total actual profit
The term “total actual profit” means the
total profit earned by the foreign producer,
exporter, and affiliated parties described in
subparagraph (C) with respect to the sale of
the same merchandise for which total
expenses are determined under such
subparagraph.

329a
19 U.S.C. § 1677b. Normal value
(a) Determination
In determining under this subtitle whether
subject merchandise is being, or is likely to be,
sold at less than fair value, a fair comparison
shall be made between the export price or
constructed export price and normal value. In
order to achieve a fair comparison with the export
price or constructed export price, normal value
shall be determined as follows:
(1) Determination of normal value
(A) In general
The normal value of the subject
merchandise shall be the price described in
subparagraph (B), at a time reasonably
corresponding to the time of the sale used to
determine the export price or constructed
export price under section 1677a(a) or (b) of
this title.
(B) Price
The price referred to in subparagraph (A) is
(i) the price at which the foreign like
product is first sold (or, in the absence of a
sale, offered for sale) for consumption in the
exporting country, in the usual commercial
quantities and in the ordinary course of
trade and, to the extent practicable, at the
same level of trade as the export price or
constructed export price, or
(ii) in a case to which subparagraph (C)
applies, the price at which the foreign like

330a
product is so sold (or offered for sale) for
consumption in a country other than the
exporting country or the United States, if
(I) such price is representative,
(II) the aggregate quantity (or, if
quantity is not appropriate, value) of the
foreign like product sold by the exporter
or producer in such other country is 5
percent or more of the aggregate
quantity (or value) of the subject
merchandise sold in the United States or
for export to the United States, and
(III) the administering authority does
not determine that the particular market
situation prevents a proper comparison
with the export price or constructed
export price.
(C) Third country sales
This subparagraph applies when
(i) the foreign like product is not sold (or
offered for sale) for consumption in the
exporting
country
as
described
in
subparagraph (B)(i),
(ii)
the
administering
authority
determines that the aggregate quantity (or,
if quantity is not appropriate, value) of the
foreign like product sold in the exporting
country is insufficient to permit a proper
comparison with the sales of the subject
merchandise to the United States, or

331a
(iii) the particular market situation in the
exporting country does not permit a proper
comparison with the export price or
constructed export price.
For purposes of clause (ii), the aggregate
quantity (or value) of the foreign like product
sold in the exporting country shall normally
be considered to be insufficient if such
quantity (or value) is less than 5 percent of
the aggregate quantity (or value) of sales of
the subject merchandise to the United
States.
(2) Fictitious markets
No pretended sale or offer for sale, and no
sale or offer for sale intended to establish a
fictitious market, shall be taken into account
in determining normal value. The occurrence
of different movements in the prices at which
different forms of the foreign like product are
sold (or, in the absence of sales, offered for
sale) in the exporting country after the
issuance of an antidumping duty order may be
considered by the administering authority as
evidence of the establishment of a fictitious
market for the foreign like product if the
movement in such prices appears to reduce the
amount by which the normal value exceeds the
export price (or the constructed export price) of
the subject merchandise.
(3) Exportation from an intermediate country
Where the subject merchandise is exported to
the United States from an intermediate

332a
country, normal value shall be determined in
the intermediate country, except that normal
value may be determined in the country of
origin of the subject merchandise if
(A) the producer knew at the time of the sale
that the subject merchandise was destined for
exportation;
(B) the subject merchandise is merely
transshipped
through
the
intermediate
country;
(C) sales of the foreign like product in the
intermediate country do not satisfy the
conditions of paragraph (1)(C); or
(D) the foreign like product is not produced
in the intermediate country.
(4) Use of constructed value
If the administering authority determines
that the normal value of the subject
merchandise cannot be determined under
paragraph (1)(B)(i), then, notwithstanding
paragraph (1)(B)(ii), the normal value of the
subject merchandise may be the constructed
value of that merchandise, as determined
under subsection (e).
(5) Indirect sales or offers for sale
If the foreign like product is sold or, in the
absence of sales, offered for sale through an
affiliated party, the prices at which the foreign
like product is sold (or offered for sale) by such
affiliated party may be used in determining
normal value.

333a
(6) Adjustments
The price described in paragraph (1)(B) shall
be
(A) increased by the cost of all containers and
coverings and all other costs, charges, and
expenses incident to placing the subject
merchandise in condition packed ready for
shipment to the United States;
(B) reduced by
(i) when included in the price described in
paragraph (1)(B), the cost of all containers
and coverings and all other costs, charges,
and expenses incident to placing the foreign
like product in condition packed ready for
shipment to the place of delivery to the
purchaser,
(ii) the amount, if any, included in the
price described in paragraph (1)(B),
attributable to any additional costs,
charges, and expenses incident to bringing
the foreign like product from the original
place of shipment to the place of delivery to
the purchaser, and
(iii) the amount of any taxes imposed
directly upon the foreign like product or
components thereof which have been
rebated, or which have not been collected,
on the subject merchandise, but only to the
extent that such taxes are added to or
included in the price of the foreign like
product, and

334a
(C) increased or decreased by the amount of
any difference (or lack thereof) between the
export price or constructed export price and
the price described in paragraph (1)(B) (other
than a difference for which allowance is
otherwise provided under this section) that is
established to the satisfaction of the
administering authority to be wholly or partly
due to
(i) the fact that the quantities in which
the subject merchandise is sold or agreed to
be sold to the United States are greater
than or less than the quantities in which
the foreign like product is sold, agreed to be
sold, or offered for sale,
(ii) the fact that merchandise described in
subparagraph (B) or (C) of section 1677(16)
of this title is used in determining normal
value, or
(iii) other differences in the circumstances
of sale.
(7) Additional adjustments
(A) Level of trade
The price described in paragraph (1)(B)
shall also be increased or decreased to make
due allowance for any difference (or lack
thereof) between the export price or
constructed export price and the price
described in paragraph (1)(B) (other than a
difference for which allowance is otherwise
made under this section) that is shown to be
wholly or partly due to a difference in level of

335a
trade between the export price or constructed
export price and normal value, if the
difference in level of trade
(i) involves the performance of different
selling activities; and
(ii) is demonstrated to affect price
comparability, based on a pattern of
consistent price differences between sales
at different levels of trade in the country in
which normal value is determined.
In a case described in the preceding sentence,
the amount of the adjustment shall be based
on the price differences between the two
levels of trade in the country in which
normal value is determined.
(B) Constructed export price offset
When normal value is established at a level
of trade which constitutes a more advanced
stage of distribution than the level of trade of
the constructed export price, but the data
available do not provide an appropriate basis
to determine under subparagraph (A)(ii) a
level of trade adjustment, normal value shall
be reduced by the amount of indirect selling
expenses incurred in the country in which
normal value is determined on sales of the
foreign like product but not more than the
amount of such expenses for which a
deduction
is
made
under
section
1677a(d)(1)(D) of this title.

336a
(8) Adjustments to constructed value
Constructed value as determined under
subsection (e), may be adjusted, as
appropriate, pursuant to this subsection.
(b) Sales at less than cost of production
(1) Determination; sales disregarded
Whenever the administering authority has
reasonable grounds to believe or suspect that
sales of the foreign like product under
consideration for the determination of normal
value have been made at prices which
represent less than the cost of production of
that product, the administering authority shall
determine whether, in fact, such sales were
made at less than the cost of production. If the
administering authority determines that sales
made at less than the cost of production
(A) have been made within an extended
period of time in substantial quantities, and
(B) were not at prices which permit
recovery of all costs within a reasonable
period of time,
such sales may be disregarded in the
determination of normal value. Whenever such
sales are disregarded, normal value shall be
based on the remaining sales of the foreign
like product in the ordinary course of trade. If
no sales made in the ordinary course of trade
remain, the normal value shall be based on the
constructed value of the merchandise.

337a
(2) Definitions and special rules
For purposes of this subsection(A) Reasonable grounds to believe or
suspect
(i) Review
In a review conducted under section
1675 of this title involving a specific
exporter, there are reasonable grounds to
believe or suspect that sales of the foreign
like product have been made at prices
that are less than the cost of production of
the product if the administering authority
disregarded some or all of the exporter's
sales pursuant to paragraph (1) in the
investigation or, if a review has been
completed, in the most recently completed
review.
(ii) Requests for information
In an investigation initiated under
section 1673a of this title or a review
conducted under section 1675 of this title,
the administering authority shall request
information necessary to calculate the
constructed value and cost of production
under subsections (e) and (f) to determine
whether there are reasonable grounds to
believe or suspect that sales of the foreign
like product have been made at prices
that represent less than the cost of
production of the product.

338a
(B) Extended period of time
The term “extended period of time” means a
period that is normally 1 year, but not less
than 6 months.
(C) Substantial quantities
Sales made at prices below the cost of
production have been made in substantial
quantities if
(i) the volume of such sales represents 20
percent or more of the volume of sales
under consideration for the determination
of normal value, or
(ii) the weighted average per unit price of
the sales under consideration for the
determination of normal value is less than
the weighted average per unit cost of
production for such sales.
(D) Recovery of costs
If prices which are below the per unit cost
of production at the time of sale are above
the weighted average per unit cost of
production for the period of investigation or
review, such prices shall be considered to
provide for recovery of costs within a
reasonable period of time.
(3) Calculation of cost of production
For purposes of this part, the cost of
production shall be an amount equal to the
sum of

339a
(A) the cost of materials and of fabrication
or other processing of any kind employed in
producing the foreign like product, during a
period which would ordinarily permit the
production of that foreign like product in the
ordinary course of business;
(B) an amount for selling, general, and
administrative expenses based on actual
data pertaining to production and sales of
the foreign like product by the exporter in
question; and
(C) the cost of all containers and coverings
of whatever nature, and all other expenses
incidental to placing the foreign like product
in condition packed ready for shipment. For
purposes of subparagraph (A), if the normal
value is based on the price of the foreign like
product sold for consumption in a country
other than the exporting country, the cost of
materials shall be determined without regard
to any internal tax in the exporting country
imposed on such materials or their
disposition which are remitted or refunded
upon exportation.
(c) Nonmarket economy countries
(1) In general
If
(A) the subject merchandise is exported from
a nonmarket economy country, and
(B) the administering authority finds that
available information does not permit the

340a
normal value of the subject merchandise to be
determined under subsection (a),
the administering authority shall determine the
normal value of the subject merchandise on the
basis of the value of the factors of production
utilized in producing the merchandise and to
which shall be added an amount for general
expenses and profit plus the cost of containers,
coverings, and other expenses. Except as
provided in paragraph (2), the valuation of the
factors of production shall be based on the best
available information regarding the values of
such factors in a market economy country or
countries considered to be appropriate by the
administering authority.
(2) Exception
If the administering authority finds that the
available information is inadequate for
purposes of determining the normal value of
subject merchandise under paragraph (1), the
administering authority shall determine the
normal value on the basis of the price at which
merchandise that is
(A) comparable to the subject merchandise,
and
(B) produced in one or more market economy
countries that are at a level of economic
development comparable to that of the
nonmarket economy country,
is sold in other countries, including the United
States.

341a
(3) Factors of production
For purposes of paragraph (1), the factors of
production utilized in producing merchandise
include, but are not limited to
(A) hours of labor required,
(B) quantities of raw materials employed,
(C) amounts of energy and other utilities
consumed, and
(D) representative capital cost, including
depreciation.
(4) Valuation of factors of production
The administering authority, in valuing
factors of production under paragraph (1),
shall utilize, to the extent possible, the prices
or costs of factors of production in one or
more market economy countries that are
(A) at a level of economic development
comparable to that of the nonmarket
economy country, and
(B) significant producers of comparable
merchandise.
(5) Discretion to disregard certain price or
cost values
In valuing the factors of production under
paragraph (1) for the subject merchandise,
the .administering authority may disregard
price or cost values without further
investigation if the administering authority
has determined that broadly available export
subsidies existed or particular instances of

342a
subsidization occurred with respect to those
price or cost values or if those price or cost
values were subject to an antidumping order.
(d) Special rule for certain multinational
corporations
Whenever, in the course of an investigation
under this subtitle, the administering
authority determines that
(1) subject merchandise exported to the
United States is being produced in facilities
which are owned or controlled, directly or
indirectly, by a person, firm, or corporation
which also owns or controls, directly or
indirectly, other facilities for the production
of the foreign like product which are located
in another country or countries,
(2) subsection (a)(1)(C) applies, and
(3) the normal value of the foreign like
product produced in one or more of the
facilities outside the exporting country is
higher than the normal value of the foreign
like product produced in the facilities located
in the exporting country,
it shall determine the normal value of the
subject merchandise by reference to the
normal value at which the foreign like product
is sold in substantial quantities from one or
more facilities outside the exporting country.
The administering authority, in making any
determination under this paragraph, shall
make adjustments for the difference between
the cost of production (including taxes, labor,

343a
materials, and overhead) of the foreign like
product produced, in facilities outside the
exporting country and costs of production of
the foreign like product produced in facilities
in the exporting country, if such differences
are demonstrated to its satisfaction. For
purposes of this subsection, in determining the
normal value of the foreign like product
produced in a country outside of the exporting
country, the administering authority shall
determine its price at the time of exportation
from the exporting country and shall make any
adjustments required by subsection (a) for the
cost of all containers and coverings and all
other costs, charges, and expenses incident to
placing the merchandise in condition packed
ready for shipment to the United States by
reference to such costs in the exporting
country.
(e) Constructed value
For purposes of this subtitle, the constructed
value of imported merchandise shall be an
amount equal to the sum of
(1) the cost of materials and fabrication or
other processing of any kind employed in
producing the merchandise, during a period
which
would
ordinarily
permit
the
production of the merchandise in the
ordinary course of trade;
(2)(A) the actual amounts incurred and
realized by the specific exporter or producer
being examined in the investigation or
review
for
selling,
general,
and

344a
administrative expenses, and for profits, in
connection with the production and sale of a
foreign like product, in the ordinary course of
trade, for consumption in the foreign country,
or
(B) if actual data are not available with
respect to the amounts described in
subparagraph (A), then
(i) the actual amounts incurred and
realized by the specific exporter or producer
being examined in the investigation or
review
for
selling,
general,
and
administrative expenses, and for profits, in
connection with the production and sale, for
consumption in the foreign country, of
merchandise that is in the same general
category of products as the subject
merchandise,
(ii) the weighted average of the actual
amounts incurred and realized by exporters
or producers that are subject to the
investigation or review (other than the
exporter or producer described in clause (i))
for selling, general, and administrative
expenses, and for profits, in connection
with the production and sale of a foreign
like product, in the ordinary course of
trade, for consumption in the foreign
country, or
(iii) the amounts incurred and realized for
selling,
general,
and
administrative
expenses, and for profits, based on any
other reasonable method, except that the

345a
amount allowed for profit may not exceed
the amount normally realized by exporters
or producers (other than the exporter or
producer described in clause (i)) in
connection with the sale, for consumption
in the foreign country, of merchandise that
is in the same general category of products
as the subject merchandise; and
(3) the cost of all containers and coverings of
whatever nature, and all other expenses
incidental to placing the subject merchandise
in condition packed ready for shipment to the
United States.
For purposes of paragraph (1), if a particular
market situation exists such that the cost of
materials and fabrication or other processing of
any kind does not accurately reflect the cost of
production in the ordinary course of trade, the
administering authority may use another
calculation methodology under this part or any
other calculation methodology. For purposes of
paragraph (1), the cost of materials shall be
determined without regard to any internal tax
in the exporting country imposed on such
materials or their disposition that is remitted or
refunded upon exportation of the subject
merchandise produced from such materials.

346a
(f) Special rules for calculation of cost of
production and for calculation of constructed
value
For purposes of subsections (b) and (e).2
(1) Costs
(A) In general
Costs shall normally be calculated based
on the records of the exporter or producer
of the merchandise, if such records are
kept in accordance with the generally
accepted accounting principles of the
exporting country (or the producing
country,
where
appropriate)
and
reasonably reflect the costs associated
with the production and sale of the
merchandise.
The
administering
authority shall consider all available
evidence on the proper allocation of costs,
including that which is made available by
the exporter or producer on a timely
basis, if such allocations have been
historically used by the exporter or
producer, in particular for establishing
appropriate
amortization
and
depreciation periods, and allowances for
capital
expenditures
and
other
development costs.

So in original. The period preceding the dash probably
should not appear.

2

347a
(B) Nonrecurring costs
Costs shall be adjusted appropriately for
those nonrecurring costs that benefit
current or future production, or both.
(C) Startup costs
(i) In general
Costs shall be adjusted appropriately
for circumstances in which costs
incurred during the time period covered
by the investigation or review are
affected by startup operations.
(ii) Startup operations
Adjustments shall be made
startup operations only where

for

(I) a producer is using new
production facilities or producing a
new product that requires substantial
additional investment, and
(II) production levels are limited by
technical factors associated with the
initial
phase
of
commercial
production.
For purposes of subclause (II), the
initial phase of commercial production
ends at the end of the startup period.
In determining whether commercial
production levels have been achieved,
the administering authority shall
consider factors unrelated to startup
operations that might affect the volume
of production processed, such as

348a
demand,
cycles.

seasonality,

or

business

(iii) Adjustment for startup operations
The
adjustment
for
startup
operations
shall
be
made
by
substituting the unit production costs
incurred
with
respect
to
the
merchandise at the end of the startup
period for the unit production costs
incurred during the startup period. If
the startup period extends beyond the
period of the investigation or review
under this subtitle, the administering
authority shall use the most recent cost
of production data that it reasonably
can obtain, analyze, and verify without
delaying the timely completion of the
investigation or review. For purposes of
this subparagraph, the startup period
ends at the point at which the level of
commercial
production
that
is
characteristic of the merchandise,
producer, or industry concerned is
achieved.
(2) Transactions disregarded
A transaction directly or indirectly between
affiliated persons may be disregarded if, in the
case of any element of value required to be
considered, the amount representing that
element does not fairly reflect the amount
usually reflected in sales of merchandise under
consideration
in
the
market
under
consideration. If a transaction is disregarded

349a
under the preceding sentence and no other
transactions are available for consideration,
the determination of the amount shall be
based on the information available as to what
the amount would have been if the transaction
had occurred between persons who are not
affiliated.
(3) Major input rule
If, in the case of a transaction between
affiliated persons involving the production by
one of such persons of a major input to the
merchandise, the administering authority has
reasonable grounds to believe or suspect that
an amount represented as the value of such
input is less than the cost of production of such
input, then the administering authority may
determine the value of the major input on the
basis of the information available regarding
such cost of production, if such cost is greater
than the amount that would be determined for
such input under paragraph (2).

350a
19 U.S.C. § 1677e. Determinations on basis of
facts available
(a) In general
If(1) necessary information is not available on
the record, or
(2) an interested party or any other person(A) withholds information that has been
requested by the administering authority or
the Commission under this subtitle,
(B) fails to provide such information by the
deadlines for submission of the information or
in the form and manner requested, subject to
subsections (c)(1) and (e) of section 1677m of
this title,
(C) significantly impedes a proceeding under
this subtitle, or
(D) provides such information but the
information cannot be verified as provided in
section 1677m(i) of this title,
the administering authority and the Commission
shall, subject to section 1677m(d) of this title, use
the facts otherwise available in reaching the
applicable determination under this subtitle.
(b) Adverse inferences
(1) In general
If the administering authority or the
Commission (as the case may be) finds that an
interested party has failed to cooperate by not

351a
acting to the best of its ability to comply with a
request for information from the administering
authority
or
the
Commission,
the
administering authority or the Commission (as
the case may be), in reaching the applicable
determination under this subtitle(A) may use an inference that is adverse to
the interests of that party in selecting from
among the facts otherwise available; and
(B) is not required to determine, or make
any adjustments to, a countervailable
subsidy rate or weighted average dumping
margin based on any assumptions about
information the interested party would have
provided if the interested party had complied
with the request for information.
(2) Potential sources
adverse inferences

of

information

for

An adverse inference under paragraph
(1)(A) may include reliance on information
derived from(A) the petition,
(B) a final determination
investigation under this subtitle,

in

the

(C) any previous review under section
1675 of this title or determination under
section 1675b of this title, or
(D) any other information placed on the
record.

352a
(c) Corroboration of secondary information
(1) In general
Except as provided in paragraph (2), when
the
administering
authority
or
the
Commission relies on secondary information
rather than on information obtained in the
course of an investigation or review, the
administering authority or the Commission, as
the case may be, shall, to the extent
practicable, corroborate that information from
independent sources that are reasonably at
their disposal.
(2) Exception
The administrative authority and the
Commission shall not be required to
corroborate
any
dumping
margin
or
countervailing duty applied in a separate
segment of the same proceeding.
(d) Subsidy rates and dumping margins in
adverse inference determinations
(1) In general
If the administering authority uses an
inference that is adverse to the interests of a
party under subsection (b)(1)(A) in selecting
among the facts otherwise available, the
administering authority may(A) in the case of a countervailing duty
proceeding(i) use a countervailable subsidy rate
applied for the same or similar program in

353a
a countervailing duty proceeding involving
the same country; or
(ii) if there is no same or similar program,
use a countervailable subsidy rate for a
subsidy program from a proceeding that the
administering
authority
considers
reasonable to use; and
(B) in the case of an antidumping duty
proceeding, use any dumping margin from
any segment of the proceeding under the
applicable antidumping order.
(2) Discretion to apply highest rate
In carrying out paragraph (1), the
administering authority may apply any of the
countervailable subsidy rates or dumping
margins specified under that paragraph,
including the highest such rate or margin,
based on the evaluation by the administering
authority of the situation that resulted in the
administering authority using an adverse
inference in selecting among the facts
otherwise available.
(3) No obligation to make certain estimates or
address certain claims
If the administering authority uses an
adverse inference under subsection (b)(1)(A) in
selecting among the facts otherwise available,
the administering authority is not required, for
purposes of subsection (c) or for any other
purpose-

354a
(A) to estimate what the countervailable
subsidy rate or dumping margin would have
been if the interested party found to have
failed to cooperate under subsection (b)(1)
had cooperated; or
(B) to demonstrate that the countervailable
subsidy rate or dumping margin used by the
administering authority reflects an alleged
commercial reality of the interested party.

355a
19 U.S.C. § 1677f-1. Sampling and averaging;,
determination of weighted average dumping
margin and countervailable subsidy rate
(a) In general
For purposes of determining the export price
(or constructed export price) under section 1677a
of this title or the normal value under section
1677b of this title, and in carrying out reviews
under section 1675 of this title, the administering
authority may
(1) use averaging and statistically valid
samples, if there is a significant volume of sales
of the subject merchandise or a significant
number or types of products, and
(2) decline to take into account adjustments
which are insignificant in relation to the price or
value of the merchandise.
(b) Selection of averages and samples
The authority to select averages and
statistically valid samples shall rest exclusively
with
the
administering
authority.
The
administering authority shall, to the greatest
extent possible, consult with the exporters and
producers regarding the method to be used to
select exporters, producers, or types of products
under this section.
(c) Determination of dumping margin
(1) General rule
In determining weighted average dumping
margins under section 1673b(d), 1673d(c), or
1675(a) of this title, the administering

356a
authority shall determine the individual
weighted average dumping margin for each
known exporter and producer of the subject
merchandise.
(2) Exception
If it is not practicable to make individual
weighted
average
dumping
margin
determinations under paragraph (1) because of
the large number of exporters or producers
involved in the investigation or review, the
administering authority may determine the
weighted average dumping margins for a
reasonable number of exporters or producers
by limiting its examination to
(A) a sample of exporters, producers, or
types of products that is statistically valid
based on the information available to the
administering authority at the time of
selection, or
(B) exporters and producers accounting for
the largest volume of the subject
merchandise from the exporting country that
can be reasonably examined.
(d) Determination of less than fair value
(1) Investigations
(A) In general
In an investigation under part H of this
subtitle, the administering authority shall
de-termine whether the subject merchandise
is being sold in the United States at less than
fair value(i) by comparing the weighted

357a
average of the normal values to the weighted
average of the export prices (and constructed
export prices) for comparable merchandise,
or (ii) by comparing the normal values of
individual transactions to the export prices
(or constructed export prices) of individual
transactions for comparable merchandise.
(B) Exception
The
administering
authority
may
determine whether the subject merchandise
is being sold in the United States at less than
fair value by comparing the weighted
average of the normal values to the export
prices (or constructed export prices) of
individual transactions for comparable
merchandise, if
(i) there is a pattern of export prices (or
constructed export prices) for comparable
merchandise that differ significantly among
purchasers, regions, or periods of time, and
(ii) the administering authority explains
why such differences cannot be taken into
account using a method described in
paragraph (1)(A)(i) or (ii).
(2) Reviews
In a review under section 1675 of this title,
when comparing export prices (or constructed
export prices) of individual transactions to the
weighted average price of sales of the foreign
like product, the administering authority shall
limit its averaging of prices to a period not
exceeding
the
calendar
month
that

358a
corresponds most closely to the calendar
month of the individual export sale.
(e) Determination of countervailable subsidy rate
(1) General rule
In determining countervailable subsidy rates
under section 1671b(d), 1671d(c), or 1675(a) of
this title, the administering authority shall
determine an individual countervailable
subsidy rate for each known exporter or
producer of the subject merchandise.
(2) Exception
If the administering authority determines
that it is not practicable to determine
individual countervailable subsidy rates under
paragraph (1) because of the large number of
exporters or producers involved in the
investigation or review, the administering
authority may
(A) determine individual countervailable
subsidy rates for a reasonable number of
exporters or producers by limiting its
examination to
(i) a sample of exporters or producers that
the administering authority determines is
statistically valid based on the information
available to the administering authority at
the time of selection, or
(ii) exporters and producers accounting
for the largest volume of the subject
merchandise from the exporting country

359a
that
the
administering
authority
determines can be reasonably examined; or
(B) determine a single country-wide subsidy
rate to be applied to all exporters and
producers. The individual countervailable
subsidy rates determined under subparagraph
(A) shall be used to determine the all-others
rate under section 1671d(c)(5) of this title.
(f) Adjustment of antidumping duty in certain
proceedings
relating
to
imports
from
nonmarket economy countries
(1) In general
If the administering authority determines,
with respect to a class or kind of merchandise
from a nonmarket economy country for which
an antidumping duty is determined using
normal value pursuant to section 1677b(c) of
this title, that
(A) pursuant to section 1671(a)(1) of this
title, a countervailable subsidy (other than
an export subsidy referred to in section
1677a(c)(1)(C) of this title) has been
provided with respect to the class or kind of
merchandise,
(B) such countervailable subsidy has been
demonstrated to have reduced the average
price of imports of the class or kind of
merchandise during the relevant period,
and
(C) the administering authority can
reasonably estimate the extent to which the

360a
countervailable subsidy referred to in
subparagraph (B), in combination with the
use of normal value determined pursuant
to section 1677b(c) of this title, has
increased the weighted average dumping
margin for the class or kind of
merchandise,
the administering authority shall, except as
provided in paragraph (2), reduce the
antidumping duty by the amount of the increase
in the weighted average dumping margin
estimated by the administering authority under
subparagraph (C).
(2) Maximum reduction in antidumping duty
The administering authority may not reduce
the antidumping duty applicable to a class or
kind of merchandise from a nonmarket economy
country under this subsection by more than the
portion of the countervailing duty rate
attributable to a countervailable subsidy that is
provided with respect to the class or kind of
merchandise and that meets the conditions
described in subparagraphs (A), (B), and (C) of
paragraph (1).

361a
19 U.S.C. § 1677m. Conduct of investigations and
administrative reviews
(a) Treatment
of
voluntary
responses
in
countervailing
or
antidumping
duty
investigations and reviews
(1) In general
In any investigation under part I or II of this
subtitle or a review under section 1675(a) of
this title in which the administering authority
has, under section 1677f-1(c)(2) of this title or
section 1677f-l(e)(2)(A) of this title (whichever
is applicable), limited the number of exporters
or producers examined, or determined a single
countrywide rate, the administering authority
shall establish an individual countervailable
subsidy rate or an individual weighted average
dumping margin for any exporter or producer
not
initially
selected
for
individual
examination under such sections who submits
to the administering authority the information
requested from exporters or producers selected
for examination, if(A) such information is so submitted by the
date specified(i) for exporters and producers that were
initially selected for examination, or
(ii) for the foreign government, in a
countervailing duty case where the
administering authority has determined a
single countrywide rate; and

362a
(B) the number of exporters or producers
subject to the investigation or review is not
so large that any additional individual
examination of such exporters or producers
would be unduly burdensome to the
administering authority and inhibit the
timely completion of the investigation or
review.
(2) Determination of unduly burdensome
In determining if an individual examination
under paragraph (1)(B) would be unduly
burdensome, the administering authority may
consider the following:
(A) The complexity of the issues or
information presented in the proceeding,
including questionnaires and any responses
thereto.
(B)
Any
prior
experience
of
the
administering authority in the same or
similar proceeding.
(C) The total number of investigations
under part I or II and reviews under section
1675 of this title being conducted by the
administering authority as of the date of the
determination.
(D) Such other factors relating to the timely
completion of each such investigation and
review as the administering authority
considers appropriate.

363a
(b) Certification of submissions
Any person providing factual information to
the administering authority or the Commission in
connection with a proceeding under this subtitle
on behalf of the petitioner or any other interested
party shall certify that such information is
accurate and complete to the best of that person's
knowledge.
(c) Difficulties in meeting requirements
(1) Notification by interested party
If an interested party, promptly after
receiving a request from the administering
authority or the Commission for information,
notifies the administering authority or the
Commission (as the case may be) that such
party is unable to submit the information
requested in the requested form and manner,
together with a full explanation and suggested
alternative forms in which such party is able
to submit the information, the administering
authority or the Commission (as the case may
be) shall consider the ability of the interested
party to submit the information in the
requested form and manner and may modify
such requirements to the extent necessary to
avoid imposing an unreasonable burden on
that party.
(2) Assistance to interested parties
The administering authority and the
Commission shall take into account any
difficulties experienced by interested parties,
particularly small companies, in supplying

364a
information requested by the administering
authority or the Commission in connection
with investigations and reviews under this
subtitle, and shall provide to such interested
parties any assistance that is practicable in
supplying such information.
(d) Deficient submissions
If the administering authority or the
Commission determines that a response to a
request for information under this subtitle does
not comply with the request, the administering
authority or the Commission (as the case may be)
shall promptly inform the person submitting the
response of the nature of the deficiency and shall,
to the extent practicable, provide that person with
an opportunity to remedy or explain the deficiency
in light of the time limits established for the
completion of investigations or reviews under this
subtitle. If that person submits further
information in response to such deficiency and
either
(1) the administering authority or the
Commission (as the case may be) finds that such
response is not satisfactory, or
(2) such response is not submitted within the
applicable time limits,
then the administering authority or the
Commission (as the case may be) may, subject to
subsection (e), disregard all or part of the original
and subsequent responses.

365a
(e) Use of certain information
In reaching a determination under section
1671b, 1671d, 1673b, 1673d, 1675, or 1675b of this
title the administering authority and the
Commission shall not decline to consider
information that is submitted by an interested
party and is necessary to the determination but
does not meet all the applicable requirements
established by the administering authority or the
Commission, if
(1) the information is submitted by the
deadline established for its submission,
(2) the information can be verified,
(3) the information is not so incomplete that it
cannot serve as a reliable basis for reaching the
applicable determination,
(4) the interested party has demonstrated that
it acted to the best of its ability in providing the
information and meeting the requirements
established by the administering authority or
the Commission with respect to the information,
and (5) the information can be used without
undue difficulties.
(f) Nonacceptance of submissions
If the administering authority or the
Commission declines to accept into the record any
information submitted in an investigation or
review under this subtitle, it shall, to the extent
practicable, provide to the person submitting the
information a written explanation of the reasons
for not accepting the information.

366a
(g) Public comment on information
Information that is submitted on a timely
basis to the administering authority or the
Commission during the course of a proceeding
under this subtitle shall be subject to comment by
other parties to the proceeding within such
reasonable time as the administering authority or
the Commission shall provide. The administering
authority and the Commission, before making a
final determination under section 1671d, 1673d,
1675, or 1675b of this title shall cease collecting
information and shall provide the parties with a
final opportunity to comment on the information
obtained by the administering authority or the
Commission (as the case may be) upon which the
parties have not previously had an opportunity to
comment. Comments containing new factual
information shall be disregarded.
(h) Termination of investigation or revocation of
order for lack of interest
The administering authority may
(1) terminate an investigation under part I or
II of this subtitle with respect to a domestic like
product if, prior to publication of an order under
section 1671e or 1673e of this title, the
administering
authority
determines
that
producers accounting for substantially all of the
production of that domestic like product have
expressed a lack of interest in issuance of an
order; and
(2) revoke an order issued under section 1671e
or 1673e of this title with respect to a domestic

367a
like product, or terminate an investigation
suspended under section 1671c or 1673c of this
title with respect to a domestic like product, if
the administering authority determines that
producers accounting for substantially all of the
production of that domestic like product, have
expressed a lack of interest in the order or
suspended investigation.
(i) Verification
The administering authority shall verify all
information relied upon in making
(1) a final determination in an investigation,
(2) a revocation under section 1675(d) of this
title, and
(3) a final determination in a review under
section 1675(a) of this title, if
(A) verification is timely requested by an
interested party as defined in section
1677(9)(C), (D), (E), (F), or (G) of this title, and
(B) no verification was made under this
subparagraph during the 2 immediately
preceding reviews and determinations under
section 1675(a) of this title of the same order,
finding, or notice, except that this clause shall
not apply if good cause for verification is
shown.

368a
28 U.S.C. § 1254. Courts of appeals; certiorari;
certified questions
Cases in the courts of appeals may be reviewed by
the Supreme Court by the following methods:
(1) By writ of certiorari granted upon the
petition of any party to any civil or criminal
case, before or after rendition of judgment or
decree;
(2) By certification at any time by a court of
appeals of any question of law in any civil or
criminal case as to which instructions are
desired, and upon such certification the
Supreme Court may give binding instructions or
require the entire record to be sent up for
decision of the entire matter in controversy.

369a
28 U.S.C. § 1295. Jurisdiction of the United
States Court of Appeals for the Federal Circuit
(a) The United States Court of Appeals for the
Federal Circuit shall have exclusive jurisdiction(1) of an appeal from a final decision of a
district court of the United States, the District
Court of Guam, the District Court of the Virgin
Islands, or the District Court of the Northern
Mariana Islands, in any civil action arising
under, or in any civil action in which a party has
asserted a compulsory counterclaim arising
under, any Act of Congress relating to patents or
plant variety protection;
(2) of an appeal from a final decision of a
district court of the United States, the United
States District Court for the District of the
Canal Zone, the District Court of Guam, the
District Court of the Virgin Islands, or the
District Court for the Northern Mariana
Islands, if the jurisdiction of that court was
based, in whole or in part, on section 1346 of
this title, except that jurisdiction of an appeal in
a case brought in a district court under section
1346(a)(1), 1346(b), 1346(e), or 1346(f) of this
title or under section 1346(a)(2) when the claim
is founded upon an Act of Congress or a
regulation of an executive department providing
for internal revenue shall be governed by
sections 1291, 1292, and 1294 of this title;
(3) of an appeal from a final decision of the
United States Court of Federal Claims;
(4) of an appeal from a decision of-

370a
(A) the Patent Trial and Appeal Board of the
United States Patent and Trademark Office
with respect to a patent application, derivation
proceeding, reexamination, post-grant review,
or inter partes review under title 35, at the
instance of a party who exercised that party's
right to participate in the applicable
proceeding before or appeal to the Board,
except that an applicant or a party to a
derivation proceeding may also have remedy
by civil action pursuant to section 145 or 146 of
title 35; an appeal under this subparagraph of
a decision of the Board with respect to an
application or derivation proceeding shall
waive the right of such applicant or party to
proceed under section 145 or 146 of title 35;
(B) the Under Secretary of Commerce for
Intellectual Property and Director of the
United States Patent and Trademark Office or
the Trademark Trial and Appeal Board with
respect to applications for registration of
marks and other proceedings as provided in
section 21 of the Trademark Act of 1946 (15
U.S.C. 1071); or
(C) a district court to which a case was
directed pursuant to section 145, 146, or 154(b)
of title 35;
(5) of an appeal from a final decision of the
United States Court of International Trade;
(6) to review the final determinations of the
United States International Trade Commission
relating to unfair practices in import trade,

371a
made under section 337 of the Tariff Act of 1930
(19 U.S.C. 1337);
(7) to review, by appeal on questions of law
only, findings of the Secretary of Commerce
under U.S. note 6 to subchapter X of chapter 98
of the Harmonized Tariff Schedule of the United
States (relating to importation of instruments or
apparatus);
(8) of an appeal under section 71 of the Plant
Variety Protection Act (7 U.S.C. 2461);
(9) of an appeal from a final order or final
decision of the Merit Systems Protection Board,
pursuant to sections 7703(b)(1) and 7703(d) of
title 5;
(10) of an appeal from a final decision of an
agency board of contract appeals pursuant to
section 7107(a)(1) of title 41;
(11) of an appeal under section 211 of the
Economic Stabilization Act of 1970;
(12) of an appeal under section 5 of the
Emergency Petroleum Allocation Act of 1973;
(13) of an appeal under section 506(c) of the
Natural Gas Policy Act of 1978; and
(14) of an appeal under section 523 of the
Energy Policy and Conservation Act.
(b) The head of any executive department or
agency may, with the approval of the Attorney
General, refer to the Court of Appeals for the
Federal Circuit for judicial review any final
decision rendered by a board of contract appeals
pursuant to the terms of any contract with the

372a
United States awarded by that department or
agency which the head of such department or
agency has concluded is not entitled to finality
pursuant to the review standards specified in
section 7107(b) of title 41. The head of each
executive department or agency shall make any
referral under this section within one hundred
and twenty days after the receipt of a copy of the
final appeal decision.
(c) The Court of Appeals for the Federal Circuit
shall review the matter referred in accordance
with the standards specified in section 7107(b) of
title 41. The court shall proceed with judicial
review on the administrative record made before
the board of contract appeals on matters so
referred as in other cases pending in such court,
shall determine the issue of finality of the appeal
decision, and shall, if appropriate, render
judgment thereon, or remand the matter to any
administrative or executive body or official with
such direction as it may deem proper and just.

373a
28 U.S.C. § 1581. Civil actions against the United
States and agencies and officers thereof
(a) The Court of International Trade shall have
exclusive jurisdiction of any civil action
commenced to contest the denial of a protest, in
whole or in part, under section 515 of the Tariff
Act of 1930.
(b) The Court of International Trade shall have
exclusive jurisdiction of any civil action
commenced under section 516 of the Tariff Act of
1930.
(c) The Court of International Trade shall have
exclusive jurisdiction of any civil action
commenced under section 516A or 517 of the
Tariff Act of 1930.
(d) The Court of International Trade shall have
exclusive jurisdiction of any civil action
commenced to review(1) any final determination of the Secretary of
Labor under section 223 of the Trade Act of 1974
with respect to the eligibility of workers for
adjustment assistance under such Act;
(2) any final determination of the Secretary of
Commerce under section 251 of the Trade Act of
1974 with respect to the eligibility of a firm for
adjustment assistance under such Act;
(3) any final determination of the Secretary of
Commerce under section 2731 of the Trade Act
of 1974 with respect to the eligibility of a
community for adjustment assistance under
such Act; and

374a
(4) any final determination of the Secretary of
Agriculture under section 293 or 296 of the
Trade Act of 1974 (19 U.S.C. 2401b) with respect
to the eligibility of a group of agricultural
commodity producers for adjustment assistance
under such Act.
(e) The Court of International Trade shall have
exclusive jurisdiction of any civil action
commenced to review any final determination of
the Secretary of the Treasury under section
305(b)(1) of the Trade Agreements Act of 1979.
(f) The Court of International Trade shall have
exclusive jurisdiction of any civil action involving
an application for an order directing the
administering authority or the International
Trade
Commission
to
make
confidential
information available under section 777(c)(2) of
the Tariff Act of 1930.
(g) The Court of International Trade shall have
exclusive jurisdiction of any civil action
commenced to review(1) any decision of the Secretary of the
Treasury to deny a customs broker's license
under section 641(b)(2) or (3) of the Tariff Act of
1930, or to deny a customs broker's permit
under section 641(c)(1) of such Act, or to revoke
a license or permit under section 641(b)(5) or
(c)(2) of such Act;
(2) any decision of the Secretary of the
Treasury to revoke or suspend a customs
broker's license or permit, or impose a monetary

375a
penalty in lieu thereof, under section
641(d)(2)(B) of the Tariff Act of 1930; and
(3) any decision or order of the Customs
Service to deny, suspend, or revoke accreditation
of a private laboratory under section 499(b) of
the Tariff Act of 1930.
(h) The Court of International Trade shall have
exclusive jurisdiction of any civil action
commenced to review, prior to the importation of
the goods involved, a ruling issued by the
Secretary of the Treasury, or a refusal to issue or
change such a ruling, relating to classification,
valuation, rate of duty, marking, restricted
merchandise, entry requirements, drawbacks,
vessel repairs, or similar matters, but only if the
party commencing the civil action demonstrates to
the court that he would be irreparably harmed
unless given an opportunity to obtain judicial
review prior to such importation.
(i) In addition to the jurisdiction conferred upon
the Court of International Trade by subsections
(a)-(h) of this section and subject to the exception
set forth in subsection (j) of this section, the See
References in Text note below. Court of
International Trade shall have exclusive
jurisdiction of any civil action commenced against
the United States, its agencies, or its officers, that
arises out of any law of the United States
providing for(1) revenue from imports or tonnage;

376a
(2) tariffs, duties, fees, or other taxes on. the
importation of merchandise for reasons other
than the raising of revenue;
(3)
embargoes
or
other
quantitative
restrictions on the importation of merchandise
for reasons other than the protection of the
public health or safety; or
(4) administration and enforcement with
respect to the matters referred to in paragraphs
(1)-(3) of this subsection and subsections (a)-(h)
of this section.
This subsection shall not confer jurisdiction over
an
antidumping
or
countervailing
duty
determination which is reviewable either by the
Court of International Trade under section
516A(a) of the Tariff Act of 1930 or by a binational
panel under article 1904 of the North American
Free Trade Agreement or the United StatesCanada Free-Trade Agreement and section
516A(g) of the Tariff Act of 1930.
(j) The Court of International Trade shall not
have jurisdiction of any civil action arising under
section 305 of the Tariff Act of 1930.

377a
19 C.F.R. § 351.221 Review procedures.
(a) Introduction. The procedures for reviews
are similar to those followed in investigations.
This section details the procedures applicable to
reviews in general, as well as procedures that are
unique to certain types of reviews.
(b) In general. After receipt of a timely
request for a review, or on the Secretary's own
initiative when appropriate, the Secretary will:
(1) Promptly publish in the FEDERAL
REGISTER notice of initiation of the review;
(2) Before or after publication of notice of
initiation of the review, send to appropriate
interested parties or other persons (or, if
appropriate, a sample of interested parties or
other persons) questionnaires requesting factual
information for the review;
(3) Conduct, if appropriate, a verification
under §351.307;
(4) Issue preliminary results of review, based
on the available information, and publish in the
FEDERAL REGISTER notice of the preliminary
results of review that include:
(i) The rates determined, if the review
involved the determination of rates; and
(ii) An invitation for argument consistent with
§351.309;
(5) Issue final results of review and publish in
the FEDERAL REGISTER notice of the final
results of review that include the rates

378a
determined, if the
determination of rates;

review

involved

the

(6) If the type of review in question involves a
determination as to the amount of duties to be
assessed, promptly after publication of the notice
of final results instruct the Customs Service to
assess antidumping duties or countervailing
duties (whichever is applicable) on the subject
merchandise covered by the review, except as
otherwise provided in §351.106(c) with respect to
de minimis duties; and
(7) If the review involves a revision to the
cash deposit rates for estimated antidumping
duties or countervailing duties, instruct the
Customs Service to collect cash deposits at the
revised rates on future entries.
(c) Special rules (1) Administrative reviews
and new shipper reviews. In an administrative
review under section 751(a)(1) of the Act and
§351.213 and a new shipper review under section
751(a)(2)(B) of the Act and §351.214 the
Secretary:
(i) Will publish the notice of initiation of the
review no later than the last day of the month
following the anniversary month or the
semiannual anniversary month (as the case may
be); and
(ii) Normally will send questionnaires no later
than 30 days after the date of publication of the
notice of initiation.

379a
(2) Expedited antidumping review. In an
expedited antidumping review under section
736(c) of the Act and §351.215, the Secretary:
(i) Will include in the notice of initiation of the
review an invitation for argument consistent with
§351.309, and a statement that the Secretary is
permitting the posting of a bond or other security
instead of a cash deposit of estimated
antidumping duties;
(ii) Will instruct the Customs Service to
accept, instead of the cash deposit of estimated
antidumping duties under section 736(a)(3) of the
Act, a bond for each entry of the subject
merchandise entered, or withdrawn from
warehouse, for consumption on or after the date of
publication of the notice of initiation of the
investigation and through the date not later than
90 days after the date of publication of the order;
and
(iii) Will not issue preliminary results of
review.
(3) Changed circumstances review. In a
changed circumstances review under section
751(b) of the Act and §351.216, the Secretary:
(i) Will include in the preliminary results of
review and the final results of review a
description of any action the Secretary proposed
based on the preliminary or final results;
(ii) May combine the notice of initiation of the
review and the preliminary results of review in a
single notice if the Secretary concludes that
expedited action is warranted; and

380a
(iii) May refrain from issuing questionnaires
under paragraph (b)(2) of this section.
(4) Article 8 Violation review and Article
4/Article 7 review. In an Article 8 Violation review
or an Article 4/Article 7 review under section
751(g) of the Act and §351.217, the Secretary:
(i) Will include in the notice of initiation of the
review an invitation for argument consistent with
§351.309 and will notify all parties to the
proceeding at the time the Secretary initiates the
review;
(ii) Will not issue preliminary results of
review; and
(iii) In the final results of review will indicate
the amount, if any, by which the estimated duty
to be deposited should be adjusted, and, in an
Article 4/ Article 7 review, any action, including
revocation, that the Secretary will take based on
the final results. 19 CFR Ch. III (4-1-20 Edition)
(5) Sunset review. In a sunset review under
section 751(c) of the Act and § 351.218:
(i) The notice of initiation of a sunset review
will contain a request for the information
described in §351.218(d); and
(ii)
The
Secretary,
without
issuing
preliminary results of review, may issue final
results of review under paragraphs (3) or (4) of
subsection 751(c) of the Act if the conditions of
those paragraphs are satisfied.

381a
(6) Section 753 review. In a section 753 review
under section 753 of the Act and §351.219, the
Secretary:
(i) Will include in the notice of initiation of the
review an invitation for argument consistent with
§351.309, and will notify all parties to the
proceeding at the time the Secretary initiates the
review; and
(ii) May decline to issue preliminary results of
review.
(7) Countervailing duty review at the
direction of the President. In a countervailing
duty review at the direction of the President
under section 762 of the Act and § 351.220, the
Secretary will:

(i) Include in the notice of initiation of the
review a description of the merchandise, the
period under review, and a summary of the
available information which, if accurate, would
support the imposition of countervailing duties;
(ii) Notify the Commission of the initiation of
the review and the preliminary results of review;
(iii) Include in the preliminary results of
review the countervailable subsidy, if any, during
the period of review and a description of official
changes in the subsidy programs made by the
government of the affected country that affect the
estimated countervailable subsidy; and
(iv) Include in the final results of review the
countervailable subsidy, if any, during the period
of review and a description of official changes in

382a
the subsidy programs, made by the government of
the affected country not later than the date of
publication of the notice of preliminary results,
that affect the estimated countervailable subsidy.

383a
19 C.F.R. §351.301 Time limits for submission of
factual information.
(a) Introduction. This section sets forth the
time limits for submitting factual information, as
defined by §351.102(b)(21). The Department
obtains most of its factual information in
antidumping and countervailing duty proceedings
from submissions made by interested parties
during
the
course
of
the
proceeding.
Notwithstanding paragraph (b) of this section, the
Secretary may request any person to submit
factual information at any time during a
proceeding or provide additional opportunities to
submit factual information. Section 351.302 sets
forth the procedures for requesting an extension
of such time limits, and provides that, unless
expressly precluded by statute, the Secretary
may, for good cause, extend any time limit
established in the Department's regulations.
Section 351.303 contains the procedural rules
regarding filing (including procedures for filing on
non-business days), format, translation, service,
and certification of documents. In the Secretary's
written request to an interested party for a
response to a questionnaire or for other factual
information, the Secretary will specify the
following: The time limit for the response; the
information to be provided; the form and manner
in which the interested party must submit the
information; and that failure to submit the
requested information in the requested form and
manner by the date specified may result in use of
the facts available under section 776 of the Act
and § 351.308.

384a
(b) Submission of factual information. Every
submission of factual information must be
accompanied by a written explanation identifying
the subsection of §351.102(b)(21) under which the
information is being submitted.
(1) If an interested party states that the
information
is
submitted
under
§351.102(b)(21)(v), the party must explain why
the information does not satisfy the definitions
described in § 351.102(b)(21)(i) (iv).
(2) If the factual information is being
submitted to rebut, clarify, or correct factual
information on the record, the submitter must
provide a written explanation identifying the
information which is already on the record that
the factual information seeks to rebut, clarify, or
correct, including the name of the interested party
that submitted the information and the date on
which the information was submitted.
(c) Time limits. The type of factual information
determines the time limit for submission to the
Department.
(1) Factual information submitted in response
to questionnaires. During a proceeding, the

Secretary may issue to any person questionnaires,
which includes both initial and supplemental
questionnaires. The Secretary will not consider or
retain in the official record of the proceeding
unsolicited questionnaire responses, except as
provided under §351.204(d)(2), or untimely filed
questionnaire responses. The Secretary will reject
any untimely filed or unsolicited questionnaire
response and provide, to the extent practicable,

385a
written notice stating the reasons for rejection
(see § 351.302(d)).
(i) Initial questionnaire responses are due 30
days from the date of receipt of such
questionnaire. The time limit for response to
individual sections of the questionnaire, if the
Secretary requests a separate response to such
sections, may be less than the 30 days allotted for
response to the full questionnaire. In general, the
date of receipt will be considered to be seven days
from the date on which the initial questionnaire
was transmitted.
(ii) Supplemental questionnaire responses are
due on the date specified by the Secretary.
(iii) A notification by an interested party,
under section 782(c)(1) of the Act, of difficulties in
submitting information in response to a
questionnaire issued by the Secretary is to be
submitted in writing within 14 days after the date
of the questionnaire or, if the questionnaire is due
in 14 days or less, within the time specified by the
Secretary.
(iv) A respondent interested party may request
in writing that the Secretary conduct a
questionnaire presentation. The Secretary may
conduct a questionnaire presentation if the
Secretary notifies the government of the affected
country and that government does not object.
(v) Factual information submitted to rebut,
clarify, or correct questionnaire responses. Within

14 days after an initial questionnaire response
and within 10 days after a supplemental

386a
questionnaire response has been filed with the
Department, an interested party other than the
original submitter is permitted one opportunity to
submit factual information to rebut, clarify, or
correct factual information contained in the
questionnaire response. Within seven days of the
filing of such rebuttal, clarification, or correction
to a questionnaire response, the original
submitter of the questionnaire response is
permitted one opportunity to submit factual
information to rebut, clarify, or correct factual
information submitted in the interested party's
rebuttal, clarification or correction. The Secretary
will reject any untimely filed rebuttal,
clarification, or correction submission and
provide, to the extent practicable, written notice
stating the reasons for rejection (see §351.302). If
insufficient time remains before the due date for
the final determination or final results of review,
the Secretary may specify shorter deadlines under
this section.
(2) Factual information submitted in support
of allegations. Factual information submitted in

support of allegations must be accompanied by a
summary, not to exceed five pages, of the
allegation and supporting data.

Market viability and the basis for
determining normal value. Allegations regarding
(i)

market viability in an antidumping investigation
or administrative review, including the exceptions
in §351.404(c)(2), are due, with all supporting
factual information, 10 days after the respondent
interested party files the response to the relevant

387a
section of the questionnaire, unless the Secretary
alters this time limit.
(ii) Sales at prices below the cost of production.
Allegations of sales at prices below the cost of
production made by the petitioner or other
domestic interested party are due within:
(A) In an antidumping investigation, on a
country-wide basis, 20 days after the date on
which the initial questionnaire was issued to any
person, unless the Secretary alters this time limit;
or, on a company-specific basis, 20 days after a
respondent interested party files the response to
the relevant section of the questionnaire, unless
the relevant questionnaire response is, in the
Secretary's view, incomplete, in which case the
Secretary will determine the time limit;
(B) In an administrative review, new shipper
review, or changed circumstances review, on a
company-specific basis, 20 days after a respondent
interested party files the response to the relevant
section of the questionnaire, unless the relevant
questionnaire response is, in the Secretary's view,
incomplete, in which case the Secretary will
determine the time limit; or
(C) In an expedited antidumping review, on a
company-specific basis, 10 days after the date of
publication of the notice of initiation of the review.
(iii) Purchases of major inputs from an

affiliated party at prices below the affiliated
party's cost of production. An allegation of
purchases of major inputs from an affiliated party
at prices below the affiliated party's cost of

388a
production made by the petitioner or other
domestic interested party is due within 20 days
after a respondent interested party files the
response to the relevant section of the
questionnaire, unless the relevant questionnaire
response is, in the Secretary's view, incomplete, in
which case the Secretary will determine the time
limits.
(iv)
Countervailable subsidy; upstream
subsidy. A countervailable subsidy allegation
made by the petitioner or other
interested party is due no later than:

domestic

(A) In a countervailing duty investigation, 40
days before the scheduled date of the preliminary
determination, unless the Secretary extends this
time limit for good cause; or
(B) In an administrative review, new shipper
review, or changed circumstances review, 20 days
after all responses to the initial questionnaire are
filed with the Department, unless the Secretary
alters this time limit.
(C) Exception for upstream subsidy allegation
in an investigation. In a countervailing duty
investigation, an allegation of upstream subsidies
made by the petitioner or other domestic
interested party is due no later than 60 days after
the date of the preliminary determination.
(v) Other allegations. An interested party may
submit factual information in support of other
allegations not specified in paragraphs (c)(2)(i) (iv)
of this section. Upon receipt of factual information
under this subsection, the Secretary will issue a

389a
memorandum
accepting
or
rejecting
the
information and, to the extent practicable, will
provide written notice stating the reasons for
rejection. If the Secretary accepts the information,
the Secretary will issue a schedule providing
deadlines for submission of factual information to
rebut, clarify or correct the factual information.
(vi) Rebuttal, clarification, or correction of

factual information submitted in support of
allegations. An interested party is permitted one

opportunity to submit factual information to
rebut, clarify, or correct factual information
submitted in support of allegations 10 days after
the date such factual information is served on an
interested party.
(3) Factual information submitted to value

factors under §351.408(c) or to measure the
adequacy of remuneration under 351.511(a) (2).

(i) Antidumping or countervailing duty
investigations. All submissions of factual
information to value factors of production under
§351.408(c) in an antidumping investigation, or to
measure the adequacy of remuneration under
§351.511(a)(2)
in
a
countervailing
duty
investigation, are due no later than 30 days before
the scheduled date of the preliminary
determination;

(ii) Administrative review, new shipper review,
or changed circumstances review. All submissions
of factual information to value factors under
§351.408(c), or to measure the adequacy of
remuneration under §351.511(a)(2), are due no

390a
later than 30 days before the scheduled date of
the preliminary results of review; and
(iii) Expedited antidumping review. All
submissions of factual information to value
factors under §351.408(c) are due on a date
specified by the Secretary.
(iv) Rebuttal, clarification, or correction of

factual information submitted to value factors
under §351.408(c) or to measure the adequacy of
remuneration under §351.511(a)(2). An interested

party is permitted one opportunity to submit
publicly available information to rebut, clarify, or
correct such factual information submitted
pursuant to §351.408(c) or §351.511(a)(2) 10 days
after the date such factual information is served
on the interested party. An interested party may
not submit additional, previously absent-from-the
record alternative surrogate value information
under this subsection. Additionally, all factual
information submitted under this subsection must
be accompanied by a written explanation
identifying what information already on the
record of the ongoing proceeding the factual
information is rebutting, clarifying, or correcting.
Information submitted to rebut, clarify, or correct
factual information submitted pursuant to
§351.408(c) will not be used to value factors under
§351.408(c).

(4) Factual information placed on the record of
proceeding by the Department. The
Department may place factual information on the
record of the proceeding at any time. An
interested party is permitted one opportunity to

the

391a
submit factual information to rebut, clarify, or
correct factual information placed on the record of
the proceeding by the Department by a date
specified by the Secretary.
(5) Factual information not directly responsive

to or relating to paragraphs (c)(1) (4) of this
section). Paragraph (c)(5) applies to factual
information other than that described in §
351.102(b)(21)(i) (iv). The Secretary will reject
information filed under paragraph (c)(5) that
satisfies the definition of information described in
§351.102(b)(21)(i) (iv) and that was not filed
within the deadlines specified above. All
submissions of factual information under this
subsection are required to clearly explain why the
information contained therein does not meet the
definition of factual information described in
§351.102(b)(21)(i)-(iv), and must provide a
detailed narrative of exactly what information is
contained in the submission and why it should be
considered. The deadline for filing such
information will be 30 days before the scheduled
date of the preliminary determination in an
investigation, or 14 days before verification,
whichever is earlier, and 30 days before the
scheduled date of the preliminary results in an
administrative review, or 14 days before
verification, whichever is earlier.
(i) Upon receipt of factual information under
this subsection, the Secretary will issue a
memorandum
accepting
or
rejecting
the
information and, to the extent practicable, will
provide written notice stating the reasons for
rejection.

392a
(ii) If the Secretary accepts the information,
the Secretary will issue a schedule providing
deadlines for submission of factual information to
rebut, clarify or correct the factual information.

393a
APPENDIX E

Response of Hyundai Heavy Industries, Co., Ltd.
to Questions 13 and 17 of the Third Supplemental
Sections A, B, C, and D Questionnaire (Nov. 10,
2016) (relevant excerpt)

13. Please provide complete sales and expenses
documentation (including all sales and
expenses related documentation generated in
the sales process) for all U.S. SEQUs. For
example, please provide (1) a complete set of
sales and contract documents (including
requests for quote, evidence of negotiations,
contracts, amendments to contracts (where
applicable), purchase orders, amendments to
purchase orders, invoices, etc. (2), proposals,
design blueprints, or documents showing the
process by which Hyundai and the customer
arrived at a final price, (3) correspondence
between HHI and Hyundai USA, (4) Korean
export documents or U.S. Customs Entry
documents, (5) documents relating to
transportation costs or bills of lading, (6)
installation services documentation, (7)
documents relating to any commissions or
other fees that may be paid for this sale, (8)
any documents related to the purchase of [ ],
etc., (9) any test documents or documents
relating to testing or testing expenses of the
LPT, or (10) any clear documentation
demonstrating that payment was received for
this sample sale (including each recording in
your accounting system regarding the sale
and payment of the subject merchandise for

394a
both HHI and Hyundai USA (for U.S. sales)).
Finally, please also be sure to provide a
description of each of the documents
generated in the sales process for each sale.
[. . .]
Terms of Sale
Here, as the Department found in Second
Review, “{n}one of these expenses are inconsistent
with the reported terms of sale (i.e., the freight
expenses are consistent with the terms of
delivery).” 2013-2014 I&D Memo at 40 (Comment
10). Once again, Petitioner cherry-picks out-ofcontext figures in Hyundai’s sales documentation
and ignores the contractual terms of sale. There
is nothing usual about Hyundai’s terms of sale.
Indeed, ABB’s own Transformer Handbook
explains the normal terms of sale for a
transformer:
For power transformers, the installation
and commissioning are normally performed
by ABB. … In some cases the installation
and commissioning is . . . performed by the
customer and supervised by ABB.
Installation and commissioning should be
preferably performed by the supplier or in
close cooperation with the supplier. . . .

Allocation of responsibilities
supplier and purchaser

between

Terms of delivery are included in the
contract between the supplier and the
purchaser. … When ABB supplies new

395a
power- and large distribution transformers,
the preferred terms of delivery normally
are DDP or DDU. In this case the supplier
(ABB) is responsible for the transformer
until the arrival at the agreed destination.
….
If it is specified that all handling, lifting,
installation, oil filing and oil processing
shall be carried out by the supplier or
under supervision of a representative from
the supplier or under supervision from the
supplier the warranty is only valid when
this requirement is fulfilled.
ABB Handbook at 110-111 (Attachment 3S-39).
When
the
contractual
term
requires
installation or supervision, Petitioner itself has
recognized that the installation cannot be
separated from the transformer itself:

No customer delivery is completed until the
transformer
has
been
successfully
energized. ABB installation engineers are
therefore always on site to supervise
installation and startup. On arrival, they

will prepare the transformer by carefully
reassembling all parts dismantled for
transit, refill it with oil and conduct all
necessary on-site tests to ensure long and
trouble-free service.

ABB Brochure at 7 (Attachment 3S-40).
Petitioner previously requested that the
Department
find
transportation
delivery,
installation, and provisions relating to risk of loss

396a
(e.g., transfer of title) are “material terms of sale”
in the LPTs industry:

In the LPTs industry, the Department
should find that the material terms of sale
include, inter alia: price, specifications, loss
evaluations (without the load-loss and noload loss evaluations, a producer's price is
of limited value to a customer), price
adjustment mechanisms, transportation

and general delivery schedules, installation
terms, warranty terms, risk of loss, and
payment schedules.

Petitioner’s January 23, 2012 Comments
Concerning Respondents’ Reporting of Incorrect
Dates of Sale for Large, Custom-Made Equipment
at 7-8 (internal citation omitted) (Attachment 3S41).
Petitioner’s complaints in the current
administrative review are inconsistent with its
own explanation of the normal terms of sale for
transformers.
Assembled Transformers
Petitioner also ignores those instances where
it is the customer’s intent to purchase an
assembled transformer. Assembled transformers
are clearly within the scope of the antidumping
duty order: “The scope of this investigation covers
large liquid dielectric power transformers (LPTs)
…, whether assembled or unassembled, complete
or incomplete.” The Department has recognized
that the gross unit price properly includes those
elements that are “needed to assemble an
incomplete LPT.” 2013-2014 I&D Memo at 39, fn.
178 (“In the current review, as in previous

397a
segments of the proceeding, the Department
instructed respondents to report gross unit price
to only reflect the price of the LPT and not any
spare parts, unless such parts were needed to
assemble an incomplete LPT.”).
See also
“Memorandum to the File, Antidumping Duty
Investigation of Large Power Transformers from
the Republic of Korea: Phone Conversation with
Frank Morgan, counsel to Hyundai Heavy
Industries Co., Ltd. (Hyundai)” dated January 11,
2012.
POR 3 U.S. Sales Agreements
Hyundai next addresses the contractual terms
of its U.S. Sales by customer.
[ ] SEQU [ ]
On [ ], [ ] issued a purchase order to Hyundai
with the following terms of sale: [ ]. See Hyundai
Proposal at 1-2. Hyundai’s reported gross unit
price reflects the contractual terms of sale. Under
a delivered term of sale (e.g., DDP), the seller
remains responsible for the good until delivery is
made and retains the risk of loss.
[ ] SEQU [ ]
On [ ], [ ] issued a purchase order to Hyundai,
stating [ ] Thus, the purchase order was issued
on a lump-sum basis for [ ] The terms of sale
were: [ ]. Although the purchase order contained
additional details for the line item values for [ ],
such values are not severable from the lump-sum
price. First, the terms of sale unambiguously
require Hyundai to [ ]. Indeed, the customer’s
acceptance of the transformer was predicated on

398a
its delivery to the customer. See [ ]. Second,
Hyundai’s proposal made clear that its offer was
on a total, lump-sum basis, stating that the line
items were part of the total [ ] and, thus, not
severable from the lump-sum price. Hyundai’s
proposal also contrasted the elements of the [ ]
(e.g., [ ]) from the optional, [ ] items (e.g., [ ]).
Third, the request for quotation from the
customer required that the price include [ ].
Hyundai based its proposal on the required
terms of sale.
[ ] ([ ]) SEQUs [ ]
[ ] issued [ ] purchase orders, each specifying
that the purchases were on a [ ] inclusive of oil
and supervision. Hyundai based its proposal on
the required terms of sale.
The terms and conditions for these sales,
specified in the purchase order and [ ] make clear
that Hyundai is responsible for delivery, retaining
title and risk of loss on its own account until it
fulfills the delivery terms:
[ ]
[ ].
[ ]
[ ] Moreover, the [ ] integrates [
proposal for the transformer:

] into the

[ ]
[ ] Thus, under the contractual terms, [ ] cannot
be treated as “separate” from the transformer.

399a
In one instance (i.e., SEQU [ ]), the customer
issued a change order. Because the change order
modified the original purchase order, Hyundai
included the amount in the change order as part
of the gross unit price. The change at issue was
related to Hyundai’s obligations under the terms
of sale (i.e., to [ ] Hyundai already has provided
an explanation of the treatment of the change
order:
Unlike SEQU [ ], Hyundai did not receive
a separate, additional purchase order for
this sale. Rather, Hyundai received only a
change order, amending the original order.
Under the purchase order, Hyundai was
required to [ ]. However, the customer’s
site [ ] The change order issued by the
customer addressed [ ] Thus, the change
order did not relate to separate services
provided by Hyundai; rather the [ ].

Hyundai notes that the amount of the
change order (i.e., USD [ ]) is equal to the
amount charged by the [ ] (i.e., USD [ ]).
Thus, the change order has no impact on
the calculation of the net U.S. price.
Hyundai included this expense as part of
the brokerage and handling incurred in the
US (USBROKU) expense as shown in the
table below:
SEQU [ ] Brokerage and handling
incurred in the US (USBROKU)

400a
Item

Amount

Customs broker fee

[ ]

Wharfage

[ ]

[ ]

[ ]

Reported in USBROKU field

[ ]

Hyundai’s August 10, 2016 Response to the
Second Supplemental Sections A, B, C and D
Questionnaire (“2SQR”) at 17-18 (emphasis
added). Because the [ ] was within Hyundai’s
term of sale (i.e., [ ]), there is no “separate”
service provided by Hyundai; until Hyundai
fulfills its obligations under the terms of sale,
Hyundai is not performing a separate service on
behalf of the customer. Rather, unless it performs
all of the obligations under the term of sale,
Hyundai cannot complete its sale of the
transformer. Thus, Hyundai properly included
this amount in the reported gross unit price.
As already demonstrated by Hyundai, the
change order has no impact on the calculation of
Hyundai’s
dumping
margin,
contrary
to
Petitioner’s claims.
Once again, Petitioner
ignores Hyundai’s questionnaire response and
misrepresents the record, claiming that Hyundai
reported [ ] for the change order despite the fact
that Hyundai has reported the expense and
provided a full explanation. Compare Petitioner’s
Comments at 8, fn. 17 with 2SQR at 17-18.
Petitioner exacerbates its misrepresentation by
further claiming that “a similar analysis of the
other sales for which Hyundai provided

401a
documentation, shows a similar overstatement of
revenues in excess of expenses.” Petitioner’s
Comments at 8. Even if Petitioner’s claim of an
error in Hyundai’s sales reporting methodology
were correct, there would be no overstatement of
the gross unit price: the amount of the change
order (i.e., USD [ ]) is equal to the amount
charged by the [ ] (i.e., USD [ ]) and included in
the reported selling expenses. As demonstrated
above, Hyundai provided the explanation of the [
] and the corresponding expense information, and
Petitioner has had access to such information
since August 2016. Despite the availability of this
information, Petitioner alleges that Hyundai did
not report any expenses. Petitioner’s Comments
at 8. Other than to waste the time and resources
of the Department and Hyundai, Petitioner’s
claim of an overstatement of revenues for SEQU [
] is pointless.
([ ]) SEQUs [ ]
[ ] issued [ ] purchase orders, each for a [ ].
The customer also required that the transformers
each have a [ ], components which are supplied
by unaffiliated [ ] manufacturers. Hyundai based
its proposal on the required terms of sale.
Petitioner claims that Hyundai improperly
included non-subject merchandise in the gross
unit price for these sales. Petitioner’s Comments
at 5-6 and 8-9. Petitioner misunderstands the
evidence
and
has
misrepresented
the
requirements for reporting the gross unit price.
First, Petitioner’s claim that Hyundai improperly
included separate “non-subject merchandise” in

402a
the gross unit price is inconsistent with the scope
of the antidumping duty order. Petitioner argues
that the [
] and the [
] are non-subject
merchandise.
Petitioner’s Comments at 9.
However, the sales documentation provided by
Hyundai in Hyundai’s August 18, 2016 Response
to the Second Supplemental Sections A, B, C and
D Questionnaire (“2SQR-2”) at Attachment 2S-17
(i.e., HHI invoice to Hyundai USA, packing list,
and USCBP Form 7501 Entry Documentation)
demonstrates that the [ ] and the [ ] were
“imported with the active parts” of the
transformer.
On this basis alone, these
transformer components are subject merchandise.
Petitioner also overlooks the fact that Hyundai
invoiced the US customer on a lump-sum basis
(e.g., inclusive of the [ ]). For example, for SEQU
[ ], the customer issued Hyundai a purchase
order, inclusive of the [ ] in the amount of USD [
] and the total of the installment invoices issues
by Hyundai was the same USD [ ]. Thus, the [ ]
was “invoiced with the active parts” of the LPTs
and is subject merchandise under the written
description of the scope of the investigation.
Moreover, as Petitioner should be well aware,
the [ ] and the [ ] are “attached to the active
parts” of the LPT.
Hyundai provides in
Attachment 3S-42 the technical drawings of the
relevant transformers demonstrating that these
components are, in fact, “attached to the active
parts” of the LPT. As Petitioner surely knows, the
[ ] is an integrated monitoring device that
analyzes the combustible dissolved gases in the
power transformer oil. It is attached to the

403a
mechanical frame of the LPT and is connected
with sensors inside the transformer oil. Indeed,
ABB’s own “Transformer Handbook” describes the
function of a combustible gas detector:
The combustible gas detector indicates
hydrogen in the oil. The hydrogen is picked
up through a dialytic membrane. The
system gives an early indication of slow gas
generation before free gas in the oil starts
bubbling towards the gas accumulation
relay. It may be used in addition to a gasactuated relay because it gives an earlier
warning. In transformers without separate
conservator tanks this detector substitutes
the gas accumulation function of a gas
actuated relay.
ABB Transformer Handbook at 107 (Attachment
3S-39).
When a customer requires a combustible gas
detector in the transformer, the manufacturer
must design and engineer the transformer to have
the component attached to it and connected with
the sensors inside the tank. Thus, the “cost” of
the combustible gas detector also includes the
design and engineering labor and overhead to
integrate it into the transformer, and the
necessary parts. Also, as noted in the ABB
Transformer Handbook, the detector has a
function in the operation of the transformer.
Inclusion or exclusion of the combustible gas
detector, thus, would affect the operation of the
transformer.

404a
Petitioner itself has held out such monitoring
systems to be normal components of transformers.
For example, in Exhibit 4 of the Petition, titled
“ABB Information on Transformers/Production,”
Petitioner included “Monitoring & protection” as
component in “Transformer Construction.” See
Attachment 3S-43.
Based on Petitioner’s
explanation of transformers, the International
Trade Commission noted that “{c}omponents such
as bushings, cooling systems (e.g., radiators and
fans), tap changers, controls, and indicators are
added.” USITC Pub. 4256 at I-10. Indeed, at the
site visit to petitioner PTTI during the Original
Investigation, Petitioner explained that “Labor
expenses can vary greatly by . . . additions of . . .
monitoring equipment.” Petitioner’s September 6,
2011 Letter (PTTI Site Visit Public Version)
(“PTTI Site Visit”) (Attachment 3S-44). Despite
the fact that the transformer must be designed
and engineered to incorporate the combustible gas
detector and the [ ] and that these components
are attached to the transformer, Petitioner claims
that these transformer components are nonsubject merchandise.
The combustible gas
detectors and monitoring systems cannot be
compared to floor mats on a new car that can be
treated as separate, unrelated “accessories.”
Had Hyundai incorrectly treated the [ ] and
the [ ] as non-subject merchandise and not paid
the corresponding cash deposits, Petitioner likely
would claim that Hyundai sought to understate
the entered value and make insufficient
antidumping duty cash deposits. Such a “heads I
win; tails, you lose” approach is inconsistent with

405a
the clear description of the scope of the
antidumping duty order. Petitioner made similar
claims
regarding
functional
transformer
components in the original investigation and the
Second Administrative Review. In both instances,
the Department rejected Petitioner’s claim. In
response to Petitioner’s claim in the Original
Investigation that Hyundai incorrectly included
the value of transformer components in the gross
unit price, Hyundai argued:
that such items are integral to the large
power transformer itself, as evidenced by
Petitioners’ own submissions to the
International Trade Commission when
{Petitioners} stated that “{c}omponents
such as bushings, cooling systems (e.g.,
radiators and fans), tap changers, controls,
and indicators are added.” . . . Hyundai
also point{ed} out that “HHI properly
included the costs for these items in its
reported DIRMAT costs, as verified by the
Department.”
OI I&D Memo at 28 (Comment 4).
The
Department agreed that Hyundai correctly
included the components in the gross unit price.
See id. at 29-30.
Similarly, in the Second
Administrative Review, Petitioner argued that the
value of components should not be included in
Hyundai’s gross unit price because they are [ ].
See Petitioner’s February 10, 2016 Comments at
7-8 (copying Petitioner’s case brief arguments
from the Second Administrative Review, which
claimed that components (i.e., [ ]) should not be
included in the gross unit price). The Department

406a
found that Hyundai’s inclusion of the components
in the gross unit price was “appropriate” and that:
Based on our review of the sales traces, we

find that the expenses with which
Petitioner takes issue represent a main
component of a LPT, freight expenses, and

other costs related to shipment or
production of the LPTs. … we find that

Hyundai was not obligated to report
separate expenses and revenues for

reimbursed services related to its U.S.
sales and that its reported gross unit price
for each sale is the appropriate basis for
the calculation of CEP for its final dumping
margin.
2013-2014 I&D Memo at 39-40 (emphasis added).
Here again, the components with which Petitioner
takes issue are main components of the
transformer and not severable.
As it has since the Original Investigation,
Petitioner unabashedly changes its claims on
fundamental issues. For example, in the Original
Investigation, Petitioner clarified that it intended
to include all parts of the transformer within the
scope of the investigation:
{T}here is no need to exclude any parts
from the scope of this investigation. …
Petitioners intentionally did not exclude ...
“replacement” parts or parts “separately
invoiced,” as all of these mechanisms can
be used to evade or circumvent any
antidumping order that may issue.

407a
Petitioner’s September 2, 2011 Rebuttal
Comments on Respondents’ Proposed Revisions to
the Scope (“Petitioner’s Comments on Parts”) at 23 (emphasis added) (Attachment 3S-45). With
respect to parts manufactured by ABB, Petitioner
has explained:
For instance, many utilities specify the use
of Reinhausen load tap changers, or
bushings manufactured by PCORE or ABB.
. . . ABB bushings, however, are not made
in Korea, and would not be subject to
antidumping duties when sourced from the
U.S. or Sweden, unless they are first
transported to, and installed on, LPTs
fabricated in Korea. That these bushings
are removed for shipment to the United
States
does
not
make
them
spare/replacement parts.
In fact, it is
obvious that the need to import, install and
test ABB bushings on a specific LPT made
in, and shipped from, Korea means that
those bushings are “integral” to a
completed
LPT
and
are
not
spare/replacement parts - notwithstanding
that a respondent might . . . separately
identify bushings in a sales contract.
Petitioner’s Comments on Parts at 4-5. Indeed,
Petitioner’s demand that transformer components
be excluded from the gross unit price cannot be
reconciled with Petitioner’s own clarification of
the scope of the investigation:
{Allowing Respondents not to treat parts as
subject merchandise} would allow Korean

408a
LPT
manufacturers
to
manipulate
assessment rates on LPT parts imported
from Korea. For instance, in a price-toprice case, any non-active part identified by
respondents as “separately” invoiced would
either be deducted from normal value (NV)
or not added to constructed value (CV),
providing respondents with incentives to
identify components separately as “parts”
in sales contracts, regardless of their
purpose.
Petitioner’s Comments on Parts at 4.
Petitioner also explained that they treat [ ] as
transformer costs. In explaining “How do we
cost,” Petitioner made explicit that [ ] are part of
the transformer, noting “Labor expenses can vary
greatly by size of unit and additions of load tap
changers, cooling requirements, monitoring
equipment etc.” PTTI Site Visit (Attachment 3S44).
Petitioner’s suggestion that the [ ] are not part
of the transformer and can be treated separately
also lacks any basis in commercial logic. Why
would a customer seek from a Korean supplier
parts which are made in the United States,
having to bear the shipping costs to Korea and
then back to the United States, when it could buy
the parts directly from the US manufacturer?
The answer is explained above. The parts are
integrated into the transformer in Korea and are
not separable from the transformer.

409a
[ ] SEQUs [ ]
[ ] issued [ ] purchase orders, each with a [ ].
In other words, the customer sought to purchase
fully-assembled transformers.
Moreover, the contractual obligations made
clear that the customer would not accept the
transformer unless installation was completed:
[ ]
[ ] [ ] makes explicit that installation was a
requirement for the transformer:
[ ]
[ ] See also [ ](emphasis added).
Thus, the installation for which delivery and
oil installation are necessary cannot be severed
from the transformer. Without the installation,
the contract makes clear there can be no
transformer for the customer to accept.
[ ] ([ ]) SEQU [ ]
On [ ], Hyundai quoted on a per-unit, lumpsum basis USD [ ] for [ ], inclusive of [ ] on a [ ].
Under the delivered term of sale and because [ ],
title passed to the customer upon delivery.
[ ] ([ ]) SEQUs [ ]
[ ], the U.S. customer for SEQUs [ ] issued
purchase orders with the same terms of sale and
the [ ] provided the general terms and conditions
for these sales. The [ ] and purchase orders make
clear that the delivery and installation are part of,
and inseparable from, the transformer.

410a
[ ] will not [ ] See Request for Proposal and
Purchase Order. The customer’s [ ] mandated
that Hyundai provide [ ] In turn, Hyundai
specified in its proposal that the quoted prices are
[ ] with [ ] and that the proposal was inclusive of
[ ].
It is not disputable that the shipping term for
the [ ] sales is [ ]. Moreover, there is no
ambiguity in the [ ] that the [ ] [ ].
The [ ] does not allow Hyundai to supply an
unassembled transformer. Rather, Article [ ] of
the [ ] makes clear that the transformer can be
accepted only after [ ]:
[ ]
In other words, Hyundai must complete all of
its obligations under the purchase order before
the customer will accept the transformer. Indeed,
there is no question that the customer can reject
the transformer if the installed transformer does
not meet the specifications:
[ ]
[ ] Compare [ ] with ABB Handbook at 110111 (Attachment 3S-39) (“For power transformers,
the installation and commissioning are normally
performed by ABB.
…
Installation and
commissioning should be preferably performed by
the supplier or in close cooperation with the
supplier. . . . If it is specified that all handling,
lifting, installation, oil filing and oil processing
shall be carried out by the supplier or under
supervision of a representative from the supplier
or under supervision from the supplier, the

411a
warranty is only valid when this requirement is
fulfilled.”) and ABB Brochure at 7 (Attachment
3S-40) (“No customer delivery is completed until
the transformer has been successfully energized.
ABB installation engineers are therefore always
on site to supervise installation and startup. On
arrival, they prepare the transformer by carefully
reassembling all parts dismantled for transit,
refill it with oil and conduct all necessary on-site
tests to ensure long and trouble-free service.”).
Contrary to Petitioner’s claim, the delivery of
the transformers cannot be separated from the
transformer.
Indeed, the [
] treats all of
Hyundai’s obligations as [ ].
Moreover, the [
] purchase order makes
explicit that the [
] are requisite to the
transformer itself and predicate the [ ] (i.e., the
transformer) on the [ ] of the transformer. See [
].
The Department verified the [ ] and a [ ]
purchase order in the Second Administrative
Review. See Verification of the Sales and Cost
Responses of Hyundai Heavy Industries Co., Ltd.,
in the 2013/2014 Administrative Review of the
Antidumping Duty Order on Large Power
Transformers from the Republic of Korea, dated
August 31, 2015, at 17-18 and Sales Verification
Exhibit 13. Having examined nearly identical
documents in the prior review, the Department
concluded that its “review of sales documentation
on this record, including the sales traces reviewed
at verification, show no indication that Hyundai
improperly reported its sales data.” 2013-2014

412a
I&D Memo at 39 (Comment 10). In doing so, the
Department recognized the terms of sale:
Although some expense amounts . . . may
have been broken out in the purchase
orders, the totals in the purchase orders
are lump-sum amounts and these amounts
tie to the invoice totals. Based on our
review of the sales traces, we find that the
expenses with which Petitioner takes issue
represent a main component of a{n} LPT,
freight expenses, and costs related to
shipment or production of the LPTs. None

of these expenses are inconsistent with the
reported terms of sale (i.e., the freight
expenses are consistent with the terms of
delivery) ….

2013-2014 I&D Memo at 39-40 (Comment 10).
Hyundai’s reporting methodology of the sales
price and expenses for the [ ] sales in this review
is identical to that specifically reviewed and
approved by the Department.
In addition to the reasons discussed above, the
[ ] itself is properly included in the gross unit
price because it is within the stated scope of the
antidumping duty order as it is attached to and
invoiced with the active part of the transformer.
[ ] ([ ]) SEQU [ ]
[ ] purchase order states:
{Hyundai’s bid has} [ ]
[ ] issued the purchase order pursuant to the [ ]
between [ ] and Hyundai, which specified the [ ]

413a
[ ]. The [ ] make clear that the customer sought
to purchase a complete, installed transformer:
[ ]
[ ] (emphasis added).
[ ] ([ ]) SEQUs [ ]
[
] issued a purchase order for two
transformers to Hyundai with a [ ] term of sale
and did not require [ ]. Hyundai previously
provided [ ] of transformers, which entered the
United States prior to the POR. The customer’s [
] in the contract documents clarified Hyundai’s
obligations under the term of sale:
[ ]
[ ] [ ] terms of sale (i.e., [ ]) stands in
contrast to the sales for which the transformer is
sold on an [ ] and for which the customer
predicates [ ].
[ ] ([ ]) SEQU [ ]
[ ] issued a purchase order for a delivered and
installed transformer.
The purchase order
clarifies that the [ ] is required for the customer’s
acceptance of the transformer:
[ ]
[ ]. The contractual terms predicate the
customer’s [ ] See [ ]); Purchase Order at 3.
Thus, the [
] is not severable from the
transformer.
Notwithstanding Hyundai’s demonstration
above that Hyundai did not have any “separate”
revenues for separate services or non-subject

414a
merchandise, Hyundai provides in Attachment
3S-46 a worksheet listing on a category basis the
values
listed
anywhere
in
the
sales
documentation for the breakdowns of the price of
the LPTs and the corresponding expenses.
17. In its September 13, 2016, comments,
Petitioner asserts the HHI incurred expenses
and obtained revenues for separatelynegotiated
services
and
non-subject
merchandise for the sales identified as
SEQUs [ ]. Please revise your U.S. sales
database to report all such expenses and
revenues for these sales in separate fields.
If, in your opinion, there were no additional
expenses or revenues related to a sale, please
comment on each of the items cited by the
Petitioner on pages 8 and 9 of its September
13, 2016, comments.
ANSWER: Please see the Answer to Question
13 above.

415a

Supplemental Questionnaire for Hyundai Heavy
Industries Co., Ltd., and Hyundai Corporation
USA’s Questionnaire Responses (Oct. 7, 2016)
(“Post-Preliminary
Questionnaire”)
(relevant
excerpt)

17. In its September 13, 2016, comments,
Petitioner asserts the HHI incurred expenses
and obtained revenues for separatelynegotiated
services
and
non-subject
merchandise for the sales identified as
SEQUs []. Please revise your U.S. sales
database to report all such expenses and
revenues for these sales in separate fields. If,
in your opinion, there were no additional
expenses or revenues related to a sale, please
comment on each of the items cited by the
Petitioner on pages 8 and 9 of its September
13, 2016, comments.

416a

Large Power Transformers from South Korea:
Response to the Second Supplemental Sections A,
B, C and D Questionnaire (Aug. 10, 2016)
(relevant excerpt)

15. Please clarify whether HHI received revenue
related to international freight, inland
freight, oil, installation, or any other expenses
on home market sales. If so, please report this
revenue in a field separate from the related
expense.
ANSWER:
In
accordance
with
the
Department’s review and treatment of Hyundai’s
sales documentation in prior segments of this
proceeding, Hyundai did not receive separate
revenue related to international freight, inland
freight, oil, installation, or any other expenses on
home-market sales or U.S. sales. Of note, the
Department found in the prior administrative
review:
A review of sales documentation on the
record, including the sales traces reviewed
at verification, show no indication that

Hyundai improperly reported its sales
data. Although some expense amounts (and

spare part amounts) may have been broken
out in the purchase orders, the totals on
the purchase orders are lump-sum amounts
and these amounts all tie to the invoice
takes issue represent a main component of
a LPT, freight expenses, and other costs
related to shipment or production of the
LPTs. None of these expenses are

417a
inconsistent with the reported terms of sale
(i.e., the freight expenses are consistent
with the terms of delivery) . . . . Petitioner
has noted that some of the expense
amounts exceed those actually incurred by
Hyundai for the services, resulting in a
profit for Hyundai. This finding, however,
is immaterial to the question of whether
Hyundai obtained reimbursement from its
customers.
Petitioner
also
cited
Department determinations supporting our
practice of capping revenues by the amount
of directly-associated expenses. This
practice is not relevant to the discussion,
however, because Hyundai has not
reported revenues from reimbursements
and the record does not suggest it should
have done so.
As observed by Hyundai, Petitioner raised
a similar argument in the investigation of
this proceeding. . . .
Based on the
record of the current review, we again
reach this conclusion. Thus, we find that

Hyundai was not obligated to report
separate expenses and revenues for
reimbursed services related to its U.S.
sales and that its reported gross unit price
for each sale is the appropriate basis for

the calculation of CEP for its final dumping
margin.

2013-2014 I&D Memo at 39-40 (Comment 10).
The Department reiterated this conclusion when
it rejected Petitioner’s ministerial error allegation
in the prior administrative review.

418a
There, we found that no such capping was
indicated as Hyundai did not report
revenues from reimbursement expenses
and the record did not suggest it should
have done so. We therefore found that

Hyundai had not been obligated to report
separate expenses and revenues for
reimbursed services related to its U.S.
sales and that its reported gross unit price

for each sale was the appropriate basis for
the calculation of CEP for its final dumping
margin.

Ministerial Error Memorandum for the Amended
Final Results of the 2013/2014 Administrative
Review of the Antidumping Duty Order on Large
Power Transformers from the Republic of Korea
(A-580-867), dated April 29, 2016, at 7. See also
OI I&D Memo at 30 (Comment 4) (“Based upon its
review of record evidence and comments by
interested
parties,
the
Department
has
determined that no changes are needed with
respect to Hyundai’s reporting of U.S. gross unit
prices.”). Hyundai’s sales documentation is
essentially the same in this review as in prior
segments of this proceeding. Thus, Hyundai’s
reporting of home-market and U.S. gross unit
prices is appropriate and in accordance with the
Department’s prior consideration of Hyundai’s
sales.
In those instances where Hyundai received a
purchase order for a separate service, Hyundai
reported the sales revenue and corresponding
expenses separately in accordance with the
Department’s requirements:

419a
Following the Department’s analysis in the
I&D Memo, Hyundai has reported, since
the first administrative review, separate
revenue and expenses where the customer
issues a separate purchase order for
services that are not part of the original
term of sale. Specifically, in the U.S. sales
list, Hyundai has reported the sales
amount from additional purchase orders in
the ADDPOPRU field and the associated
additional expenses under the separate
purchase order in the ADDPOEXPU
field….
Hyundai’s January 27, 2016 Response to the
Section C Questionnaire (“BQR”) at B-4. See also
Hyundai’s January 27, 2016 Response to the
Section C Questionnaire (“CQR”) at C-28.

420a

Supplemental Questionnaire for Hyundai Heavy
Industries Co., Ltd., and Hyundai Corporation
USA’s Questionnaire Responses (July 27, 2016)
(“Supplemental Questionnaire”) (relevant excerpt)
24. Please clarify whether HHI or Hyundai USA
received revenue related to international
freight, inland freight, oil, installation, or any
other expenses on U.S. sales. If so, please
report this revenue in a field separate from
the related expense.

421a

Third Administrative Review of Large Power
Transformers from Korea – Deficiency Comments
on Hyundai’s Section B and C Questionnaire
Response (Feb. 10, 2016) (relevant excerpt)
A. Hyundai Failed to Separately Report the
Components of the Gross Unit Price in
Separate Fields, as Required by the
Department
In its initial questionnaire, the Department
instructed Hyundai to abide by the following
reporting guidelines for its home and U.S. sales
files:
Please report revenue in separate fields
(e.g., ocean freight revenue, inland freight
revenue, oil revenue, installation, etc.) and
identify the related expense( s) for each
revenue.2
The question did not provide Hyundai the option
not to separately report revenues and expenses, or
make such reporting conditional on certain facts.
Hyundai has nonetheless refused to report selling
expenses and related revenues in the form and
manner requested. Instead, Hyundai has provided
an argument as to why it should not be required
to report these data as requested in the
questionnaire. While Hyundai is free to make any
arguments it deems relevant as to how the
Department treats certain data that it is required
to submit, it does not have the option to fail to
2

Hyundai BCQR at B-2, C-3.

422a
comply with the Department's data request. A
continued failure to provide data in the form and
manner requested should be met with the
application of facts available.
Further, the rational provided by Hyundai
does not justify its refusal to provide revenues and
expenses separately. Hyundai argues that it is not
reporting selling expenses and related revenues in
separate fields because only expenses that are not
included in the terms of sale require such
reporting.3 In this regard, Hyundai claims that it
“is not making freight arrangements on behalf of
the customer, rather Hyundai is required to
deliver the LPT to the customer's site on
Hyundai's own behalf.“4 Hyundai misstates both
the law and the facts.
It is the Department's long-established
practice to cap revenues for such services related
to the sale at the amount of the expense incurred
for that service because it is inappropriate to
increase gross unit price on the subject
merchandise by the profits earned on services:
Based on the plain language of the law and
the Department's regulations, it is the
Department's practice to decline to treat
freight-related revenue as an addition to
U.S. price under section 772( c )(1) of the
Act or as a price adjustment under 19 CFR
351.102(b)(38). The term “price adjustment”

3

Hyundai BCQR at B-3.

4

Id.

423a
is defined at 19 CFR 351.102(b)(38) as “any
change in the price charged for subject
merchandise or the foreign like product,
such as discounts, rebates and post-sale
price adjustments, that are reflected in the
purchaser's net outlay.” The Department
has stated that, although we will offset
freight expenses with freight revenue,
where freight revenue earned by a
respondent exceeds the freight charge
incurred for the same type of activity, the
Department will cap freight revenue at the
corresponding amount of freight charges
incurred because it is inappropriate to
increase gross unit selling price for subject
merchandise as a result of profit earned on
the sale of services (i.e., freight).5
The Department has extended this same logic to
cap other sales-related revenues by the associated
sales expenses.6 Indeed in the on-going 2013/14
Issues and Decision Memorandum for the Final Results of
Antidumping Duty Administrative Review: Circular Welded
Carbon Steel Pipes and Tubes from Thailand: 2011- 2012
Administrative Review, dated Oct. 23, 2013, at 8-9
(Comment 5), referenced in 78 Fed. Reg. 65,272 (Dep't
Commerce Oct. 31, 2013) (final results) (citing Multilayered
Wood Flooring from the People's Republic of China: Final
Determination of Sales at Less Than Fair Value, 76 Fed.
Reg. 64,318 (Oct. 18, 2011) and accompanying Issues and
Decision Memorandum at Comment 39).
5

Issues and Decision Memorandum for the Final Results of
the Antidumping Duty Administrative Review of LightWalled Rectangular Pipe and Tube from Mexico, dated Feb.
l 0, 2011, at 16 (Comment 6), referenced in 76 Fed. Reg.
9547 (Dep't Commerce Feb. 18, 2011) (capping interest
6

424a
Preliminary Results, the Department did just that
for all sales-related expenses and revenues for
Hyosung:7
Consistent with the Department's normal
practice, we have capped sale-related
revenues to offset directly associated sales
expenses (i.e., with respect to fields
INTNFRU/REV OCNFRT, DINLFTPU/REV
INLFT, INSTALL1U/REV, and OILUREV
OIL).
Thus, the Department's recent precedent in this
case and other cases contradicts the legal position
taken by Hyundai.
The distinction drawn by Hyundai between
expenses made on behalf of the customer and
those made on behalf of Hyundai in a DDP sale is
misplaced. If such a distinction were relevant to
how to treat such expenses and revenues,
respondents could simply move profit to and from
freight and other service revenues in the home
and U.S. markets to manipulate the reporting of
gross unit price as a means to mask dumping.
revenue, insurance and handling revenues). See, e.g.,
Purified Carboxymethylcellulose from the Netherlands;
Preliminary Results of Antidumping Duty Administrative
Review, 75 Fed. Reg. 48,310, 48,314 (Dep't Commerce Aug.
10, 2010), unchanged in Purified Carboxymethylcellulose
from the Netherlands: Final Results of Antidumping Duty
Review, 75 Fed. Reg. 77,829 (Dep't Commerce Dec. 14,
2010).
Hyosung 2013/14 Prelim. Analysis Memo dated Aug. 31,
2015, at 3-4 (www.trade.gov, public document number
3301736-01).
7

425a
Nor is the distinction claimed by Hyundai
supported by the facts of record in this review.
Exhibit A-13 of Hyundai's AQR provides the sales
documents related to [ ]8 [ ]9 Finally, the [ ]10
Thus, the [ ] as follows:
[ ]11 REDACTED
[ ]12 [ ]13 Hyundai has reported in its U.S.
sales response [ ]14 In addition, [ ]15 Applying [ ]
This is precisely the type of [ ] as summarized
in the following charts (by U.S. sale):
SEQU

Line Item
Description

Revenue
($/unit)

Expense
s ($/unit)

[REDACTED]

8

Hyundai AQR at Ex. A-13.

9

Hyundai AQR at Ex. A-13 ([ ]).

10

Id. At [].

11

Id.

12

Id.

13

[ ]

Overstate
ment
($/unit)

% Overstmt
of
GRSUPRU
16

Hyundai BCQR at Exh. C-1. [] Id. Hyundai AQR at Ex. A13.
14

15

Hyundai BCQR at Exh. C-1 .

Petitioner's Jan. 7, 2016 Letter at Attachments 1 and 2
(Verification Report at Sales Verification Exhibit ("SVE") 12
([])).
16

426a
SEQU

Line Item
Description

Revenue
($/unit)

Expense
s ($/unit)

Overstate
ment
($/unit)

[REDACTED]

SEQU

Line Item
Description

17

Revenue
($/unit)

Expense
s ($/unit)

Overstate
ment
($/unit)

[REDACTED]

SEQU

Line Item
Description

% Overstmt
of
GRSUPRU

% Overstmt
of
GRSUPRU
18

Revenue
($/unit)

Expense
s ($/unit)

[REDACTED]

Overstate
ment
($/unit)

% Overstmt
of
GRSUPRU
19

Similar problems exist with regard to home
market sales expense and revenue reporting in
this review. The sample home market sales
documentation shows that Hyundai [
]20
Hyundai, however, did not [ ] in its home market
sales database, even though this information is
reported in the purchase order.21

Petitioner's Jan. 7, 2016 Letter at Attachments 1 and 2
(Verification Report at Sales Verification Exhibit ("SVE") 13
([])).
17

18 Petitioner's Jan. 7, 2016 Letter at Attachments 1 and 2
(Verification Report at Sales Verification Exhibit ("SVE") 14
([])).

Petitioner's Jan. 7, 2016 Letter at Attachments 1 and 2
(Verification Report at Sales Verification Exhibit ("SVE") 15
([])).
19

20

Hyundai AQR at Exhibit A-15.

21

Hyundai BCQR at Attachment B-1.

427a
The Department should re-issue its instruction
to Hyundai directing it to report revenues and
expense in separate fields with a statement that
failure to do so will result in facts available, as
follows:
1.

For the home and U.S. sales file, please
report revenue in separate fields (e.g.,
ocean freight revenue, inland freight
revenue, oil revenue, installation, etc.) and
identify the related expense(s) for each
revenue.
Failure
to
follow
these
instructions may result in application of
facts available.

428a

Large Power Transformers from South Korea:
Response to Sections B and C Questionnaires
(Jan. 27, 2016) (relevant excerpt)

7. Please report revenue in separate fields (e.g.,
ocean freight revenue, inland freight revenue,
oil revenue, installation, etc.) and identify the
related expense(s) for each revenue.
ANSWER:
Hyundai understands the
instruction to report revenue in separate fields
and identify the related expense as restating the
conclusion reached by the Department in the
Original Investigation Final Determination. See
Issues and Decision Memorandum (“I&D Memo”)
at Comment 4, accompanying Large Power
Transformers from the Republic of Korea, 77 Fed.
Reg. 40,857 (July 11, 2012). In the I&D Memo, the
Department found that Hyundai correctly had
reported its gross unit price and properly did not
separate, for example, freight where there were
no “separate arrangements on behalf of the
customer” and where Hyundai had not “sought
reimbursement for that cost.” Id. The Department
recognized that its practice is to separate revenue
and expenses “that are not included in the term of
sale.” Id. That is, the Department separates
freight
expenses
and
revenue
where
transportation is arranged by the seller on behalf
of the customer because delivery is not the seller’s
responsibility under the terms of sale, and the
seller is separately reimbursed for making those
arrangements. In contrast, the terms of sale
applicable to Hyundai’s sales of LPTs (with the

429a
exception of ex works sales in the home market)
include delivery to the customer’s site. Therefore,
Hyundai is not making freight arrangements on
behalf of the customer; rather Hyundai is
required to deliver the LPT to the customer’s site
on Hyundai’s own behalf as required by the term
of sale.
The Department’s conclusion in the original
investigation followed precedent in prior
proceedings. The Department’s explanation in
Ball Bearings, for example, distinguishing
separately provided and charged services from
those within the terms of sale, is particularly
clear:
According to Schaeffler’s and GRW’s
questionnaire
responses,
freight
and
insurance revenues are revenues received

from customers for invoice items covering
transportation and insurance expenses and
arise when freight and insurance are not
included in the selling price under the
applicable terms of delivery but when the
respondent arranges and prepays freight
and
insurance
for
the
customer.

Accordingly, the respondents incurred
expenses and
realized revenue for these
activities. Therefore, we have limited the
amount of the freight and insurance
revenue used to offset the respondent’s
movement expenses to the amount of
movement expenses incurred on the sale of
subject merchandise or the foreign like
product.

430a

Issues and Decision Memorandum for the
Antidumping Duty Administrative Reviews of
Ball Bearings and Parts Thereof from France,
Germany, Italy, Japan, and the United Kingdom
for the Period of Review May 1, 2007, through
April 30, 2008 at Comment 12, accompanying 74
Fed. Reg. 44,819 (Aug. 31, 2009) (emphasis
added).

Other than for certain ex works sales in the
home market, the applicable terms of sale for all
of Hyundai’s sales require Hyundai to deliver the
LPT to the customer site. Thus, Hyundai’s freight
arrangements are on its own behalf, and not
separately arranged on behalf of the customer.
Under a “delivered” term of sale, such as DDP,
Hyundai is responsible for the LPT until its
delivery to the customer at its site.
Following the Department’s analysis in the
I&D Memo, Hyundai has reported, since the first
administrative review, separate revenue and
expenses where the customer issues a separate
purchase order for services that are not part of
the original term of sale. Specifically, in the U.S.
sales list, Hyundai has reported the sales amount
from additional purchase orders in the
ADDPOPRU field and the associated additional
expenses under the separate purchase order in
the ADDPOEXPU field. Hyundai did not receive
additional purchase orders for home market sales
during the POR.
LPTs that require installation or supervision
also require the seller to remain responsible for
the LPT until installation is completed. Thus, the

431a
seller cannot complete its obligations with regard
to producing and delivering the LPT as ordered
until installation is completed. Consequently,
where it is required, installation and supervision
are not separable from the LPT itself. On this
point, ABB’s Transformer Handbook explains:
If it is specified that all handling, lifting,
installation, oil filing and oil processing
shall be carried out by the supplier or under
the supervision of the representative from
the supplier, the warranty {on the LPT} is
only valid when this requirement is
fulfilled.
ABB Transformer Handbook at 111, provided in
Attachment B-2. Thus, the LPT is not complete
and delivered until installation is performed.
Thus, installation is not severable from the LPT
itself

432a

Request for Information – Antidumping Duty
Administrative Review – Hyundai Heavy
Industries Co., Ltd. (“HHI”); Korea – Large Power
Transformers
(Dec.
3,
2015)
(“Initial
Questionnaire”) (relevant excerpt)
General Instructions:
[. . .]
7. Please report revenue in separate fields (e.g.,
ocean freight revenue, inland freight revenue,
oil revenue, installation, etc.) and identify the
related expense(s) for each revenue.

